<html>
<title> - REAUTHORIZATION OF THE MAGNUSON- STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 106-1086]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1086

                    REAUTHORIZATION OF THE MAGNUSON-
                   STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 19, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                   OLYMPIA J. SNOWE, Maine, Chairman
TED STEVENS, Alaska                  JOHN F. KERRY, Massachusetts
SLADE GORTON, Washington             DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN B. BREAUX, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 19, 2000.................................     1
Statement of Senator Gorton......................................     4
Statement of Senator Snowe.......................................     1
Statement of Senator Stevens.....................................     6

                               Witnesses

Alverson, Robert, manager, Fishing Vessel Owners Association.....    40
    Prepared statement...........................................    42
Anderson, Phil, Special Assistant to the Director of Washington 
  Department of Fish and Wildlife................................    29
Anderson, Sam, Executive Director, Master Builders Association of 
  King and Snohomish Counties, Washington........................    98
    Prepared statement...........................................   101
Barrow, Mike, Bristol Bay Drift Net Association..................   124
Bassi, Wade, Owner-Operator, Fishing Vessel Polaris..............   121
Brown, Ralph, Member, Pacific Fisheries Management Council.......    57
    Prepared statement...........................................    58
Bruce, John......................................................   124
Crowley, John, Longline Fisherman and Vessel Owner...............   127
Crowley, Jack, Longline Fisherman and Vessel Owner...............   128
Dalton, Penelope, Assistant Administrator for Fisheries, National 
  Oceanic and Atmospheric Administration; accompanied by Will 
  Stelle, Assistant Administrator, Northwest Region..............     8
    Prepared statement...........................................    10
Deach, Laura, West Coast Longliner...............................   113
Doumit, Chris, Commissioner, Columbia River Crab Fishermen's 
  Association for Dale Beaseley, Chairman of the Columbia River 
  Crab Fishermen's Association...................................   118
    Prepared statement of Dale Beaseley..........................   118
Fujita, Rod, Senior Scientist, Environmental Defense.............    81
    Prepared statement...........................................    85
Harp, Jim, Tribal Representative, Pacific Fishery Management 
  Council........................................................    30
    Prepared statement...........................................    32
Hendricks, Larry O., Alaskan Crab Fisherman......................   126
    Letter of Recommendations....................................   127
Henkel, Tim, President, Deep Sea Fishermen's Union of the Pacific    66
    Prepared statement...........................................    68
Henzler, Jude, Executive Director, Bering Sea Fishermen's 
  Association....................................................   112
Hiner, Todd, Kodiak, Alaskan Crab Fisherman and Owner Operator...   121
Knudson, Darrell, Longline Fisherman.............................   126
Lee, Arnie, Commercial Fisherman and Owner Operator..............   123
Leipzig, Peter, Executive Director, Fishermen's Marketing 
  Association....................................................    94
    Prepared statement...........................................    96
Lone, Jim, Chairman, Pacific Fishery Management Council..........    16
    Prepared statement...........................................    18
Lundsten, Mark, Owner-Operator of an Alaskan Longliner...........   114
Madison, Bart, Tacoma, Washington Recreational Fisherman.........   122
    Prepared statement...........................................   120
Merklein, Mandy, Board Member, Pacific Marine Conservation 
  Council........................................................   130
Moore, Rod, Executive Director, West Coast Seafood Processors 
  Association....................................................    61
    Prepared statement...........................................    62
Noggle, Charlie, Longline Fisherman..............................   129
Paulsen, Edward, Paulsen Fisheries...............................   117
Powell, Mark, Marine Biologist, Center for Marine Conservation...   113
Sampson, David, Ph.D., Associate Professor of Fisheries, Oregon 
  State University...............................................    89
    Prepared statement...........................................    91
Standaert, Jan, Crewman and Skipper, Deep Sea Fishermen's Union..   111
Taufen, Stephen, Groundswell Fisheries Movement..................   115
    Prepared statement...........................................   116

                                Appendix

Grader, Jr., W.F. ``Zeke'' Executive Director, Pacific Coast 
  Federation of Fishermen's Association, prepared statement         144
Response to written questions submitted by Hon. John F. Kerry:
    Jim Lone.....................................................   137
Response to written questions submitted by Hon. Olympia J. Snowe:
    Phil Anderson................................................   134
    Penelope Dalton..............................................   133
    Peter Leipzig................................................   135
    Jim Jone.....................................................   143
    Rod Fujita...................................................   133
    David Sampson................................................   138

 
                    REAUTHORIZATION OF THE MAGNUSON-
            STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT

                              ----------                              


                      WEDNESDAY, JANUARY 19, 2000

                                       U.S. Senate,
                      Subcommittee on Oceans and Fisheries,
        Committee on Commerce, Science, and Transportation,
                                                        Seattle, WA
    The Subcommittee met, pursuant to notice, at 8:15 a.m., in 
the Seattle SEATAC Airport Auditorium, Hon. Olympia J. Snowe, 
Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Good morning. The hearing will come to 
order.
    I want to welcome everybody to this hearing on the 
reauthorization of the Magnuson-Stevens Act. I want to express 
my appreciation and gratitude to Senator Gorton for inviting me 
and the subcommittee to Seattle to discuss the issues important 
to the future of our Nation's fisheries.
    It has been a privilege of mine to work with Senator Gorton 
over the last five years on the Commerce Committee and in the 
U.S. Senate. I can tell you, having seen firsthand his efforts 
on the Oceans and Fisheries Subcommittee, he is working very 
hard. I do not know anybody more tenacious when it comes to 
fighting for their state's interests in Washington. Certainly 
that is the case with respect to fisheries policy that affects 
the well-being of the industry in the State of Washington, as 
well as on the west coast.
    Slade is not afraid to tempt fate, either. Just to prove 
that the friendly skies of America were Y2K ready, Slade flew 
around on New Year's Eve with the FAA, as chair of the 
Subcommittee on Aviation. Now, I call that a hands-on approach, 
Slade.
    [Laughter.]
    I also want to thank Senator Stevens for being with us. 
When it comes to the issues that we will be discussing this 
morning, Senator Stevens quite literally helped write the book. 
As one of the driving forces behind the Magnuson-Stevens Act, 
along with the late Warren Magnuson of Washington, Ted was the 
first chairman of the Subcommittee. His institutional knowledge 
and depth of concern are unparalleled.
    I also want to welcome all the witnesses who will testify 
this morning. I see some familiar faces, such as Ms. Dalton, of 
the National Marine Fisheries Service, who has been on the road 
show with me around the country. We think it is very important 
that your voice is heard in this process. Feedback from you is 
indispensable as we consider the most significant issue to come 
before the Subcommittee: the reauthorization of this Act.
    Today we hope to hear answers to some very important 
questions that have arisen as a result of the 1996 changes to 
the Act. We want to know what has worked, what has not worked, 
and what your concerns are. You are on the front lines. What do 
you see as important for the future of your fisheries?
    In our States, whether it is Washington, Alaska, Maine, 
Oregon, or California, fishing has been important to many 
generations who have been fortunate enough to work on the 
water. Yesterday, the subcommittee held a hearing in Anchorage, 
with Senator Stevens, and we discussed the many pressing issues 
facing the fishing communities in Alaska.
    Today we will hear from those of you who live and fish in 
the great Pacific Northwest. Now, I am sure I do not have to 
tell you that the Magnuson-Stevens Act, enacted in 1976, is the 
principal law governing our fisheries in this country. It is 
administered by the National Marine Fisheries Service, as well 
as the eight regional fisheries management Councils, which 
establish the rules under which the fishing industry operates. 
They determine the harvest quota, season length, gear 
restrictions, and license limitations--decisions which have 
serious implications for those of you who fish and work in the 
Northwest.
    That is why these difficult management decisions cannot be 
made in a vacuum. Your livelihoods are at stake. Your 
perspective must be incorporated in the decisionmaking process 
and in the final decisions that are made. It is critical that 
all sectors of the fishing community receive a fair and 
balanced representation.
    In July, we began this process with an initial hearing in 
Washington, D.C., to examine a broad array of issues. Dr. Dave 
Fluharty, a professor at the University of Washington and a 
member of the North Pacific Council, discussed several major 
areas of concern. We will have the opportunity to explore these 
further today.
    The Subcommittee has held hearings in my own State of 
Maine, in New Orleans, and as I said, in Anchorage yesterday. 
We will be holding another field hearing in Massachusetts later 
in the year. The intent and purpose of these hearings are to 
hear from as many people as possible, so that we can obtain a 
consensus on how to ensure a healthy future for our Nation's 
fisheries.
    While many regions are dependent on having commercial and 
recreational fisheries that are strong and robust, others have 
not fared as well. I know this is particularly true here with 
the groundfish industry and the decline of fish stocks. 
Communities in this region are feeling the weight of the 
economic burden. Throughout this reauthorization process, we 
will be attentive to the most efficient, effective, and 
responsive ways to help bring about healthy fisheries as well 
as healthy fishing communities.
    One of the overall goals of the Act was to provide a 
mechanism to determine the appropriate level of catch to 
maximize benefits to the Nation, while still protecting the 
long-term sustainability of the fisheries. It is a balancing 
act among competing interests. We will hear about the need for 
participation from non-fishing interests when managing public 
resources.
    The Sustainable Fisheries Act of 1996 also reflected 
significant changes to the goals of the Magnuson-Stevens Act. 
Proper implementation of these provisions is of great concern 
to many different groups. That is why there will be 
considerable interest in the activities of the regional 
Councils, as well as the National Marine Fisheries Service.
    The most substantial change under the 1996 Act was the 
mandate to stop overfishing and restore overfished stocks. The 
Councils were given a timetable to achieve this goal. Today's 
witnesses will be able to give firsthand reports about the 
level of success the Pacific Council has had in meeting this 
requirement. The Councils and NMFS were also told to emphasize 
the socioeconomic impacts that regulations have had on fishing 
communities. Clearly, Congress intended to preserve the 
fishermen as well as the fish.
    Because of my concern, I asked about National Standard 8, 
regarding the socioeconomic impacts, and the way in which it 
was being implemented. Senator Breaux and I asked for an 
investigation by GAO, to examine the ways in which NMFS has 
administered this provision of law. The Sustainable Fisheries 
Act also imposed a moratorium on the creation of new individual 
fishing quotas, or IFQ's. The moratorium will expire on October 
1st of this year, so I would encourage witnesses to offer 
recommendations today on how the subcommittee should address 
this issue in the future.
    The final policy shifts in the Sustainable Fisheries Act 
are the provisions to minimize bycatch and protect fish 
habitat. Based on the concerns that certain fish stock have 
declined due to their loss of surrounding habitat, the Act 
established a national program to facilitate the long-term 
protection of essential fish habitat.
    Many argue that these provisions have not been properly 
implemented. We will discuss that problem with our witnesses 
here today.
    Finally, from my own discussions with the fishing industry 
and those who represent it in my State of Maine, I have heard 
time and again that they feel the law is too rigid, that it's 
not being implemented properly, and that--contrary to its 
mandate--the best science is not being used in management. From 
reviewing your testimony, I know that some of these same 
concerns will be expressed by many of you.
    As we move forward in this process, we must make sure that 
sustainable fishing and good management become the norm and not 
the exception. Clearly, this reauthorization will have major 
implications for the future of marine fisheries in the United 
States. I should say that I view this as a unique opportunity 
to take what we have learned and to craft a sensible and 
balanced approach to fisheries resources, which are so 
important to the states that we all represent and to the Nation 
as a whole.
    I would appreciate hearing your views as to whether or not 
we should overhaul the legislation or fine-tune it, in order to 
make significant improvements for the future.
    Some people say that it will take a very long time to 
implement the provisions that are already in place from the 
1996 Act. We have also been cautioned not to take too long, 
because it erodes confidence when the policies do not work 
efficiently and effectively.
    So, again, I thank all of you for being here today. Now, it 
is my pleasure to turn to Senator Gorton. Thank you again, 
Senator Gorton, for having us here in the beautiful State of 
Washington.

                STATEMENT OF HON. SLADE GORTON, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Gorton. Senator Snowe has certainly gone well above 
and beyond her duty in going from coast to coast, to Alaska, 
and late back here this evening, to evidence the proposition 
that she is interested in the fishery not only in her own State 
of Maine, where it is obviously a vital natural resource, but 
on the other coast, as well. And it is only through the kind of 
cooperation that her willingness to do this hard work 
illustrates that I think we are likely to solve some of the 
very real challenges that face us here in this reauthorization 
of Magnuson-Stevens Act.
    Senator Stevens is also welcome. I hardly need to welcome 
Senator Stevens to Seattle. He seems to be here almost as 
frequently as I am, and has always shown a great interest not 
just in fisheries, but in all of the other many issues that 
bind our States so closely together.
    All of you in this room know as well as Senator Snowe and I 
do that Senator Stevens occasionally has strong views on 
certain subjects. And I must say that those strong views, to 
me, have created both a friendship and an association which is 
one that I value more than almost any other in my career and in 
my life. And he is particularly welcome here, not just as a 
colleague, but as a friend.
    For those of you in the audience, I wish that we could have 
accommodated more formal witnesses. We are going to try to hear 
from some of you in an open microphone session that will come 
after the three panels.
    The life of a fisherman has never been easy, but it has 
been particularly difficult during the last couple of decades 
here on the west coast. In the past 20 years, the harvest of 
groundfish, except for whiting, off the west coast has been 
reduced by 70 percent, but little has been done to reduce 
fishing capacity.
    In 1996, when we last reauthorized the Federal law that 
governs fishing in the exclusive economic zone, we adopted a 
series of stringent conservation measures to facilitate the 
rebuilding of fish stocks. In response to these changes, the 
Pacific Fisheries Management Council has imposed significant 
cuts in many groundfish quotas, and made life for today's 
fishermen even harder.
    West coast fishermen have accepted extraordinary sacrifices 
for the long-term health of the resource. This willingness to 
embark on the long path to recovery, in the hopes that perhaps 
for some overfished species, such as bocaccio, their children's 
children's children, many uncontrollable environmental 
conditions permitting, will see a healthy fishery--that is 
laudable.
    I recognize the inadequacy, however, of praise alone. The 
sacrifices of west coast fishermen have imposed serious 
economic hardships, particularly for small operations. I hope 
that Congress will respond to the Pacific Council's warning 
that the groundfish fishery is facing an economic disaster by 
providing economic relief, just as it responded to fishery 
disasters on the East Coast.
    In 1996, we amended the Magnuson-Stevens Act to authorize 
disaster relief for fishermen and vessel and license buyout 
programs. We need to ensure that these provisions do not remain 
dormant and unfunded at a time at which the need is so great.
    In helping to put together today's hearing, I felt it was 
critical to have one panel address the issue of data collection 
and analysis. In the absence of more accurate information, many 
have advocated a precautionary approach that, while generally 
appropriate in the face of uncertainty, is not an acceptable 
long-term management method. It is unfair both to the fishermen 
and to the resource.
    I understand that of the more than 80 species in the 
groundfish complex managed by the Pacific Council, 75 percent 
have never been formally assessed. And those species that are 
assessed are evaluated only every third year. Unfortunately, 
however, the problem caused by inadequate data is not easily 
resolved. We can, however, start making some headway. And I 
strongly believe that we should do so.
    There are many stocks for which we will not have enough 
information for decades to manage in a fully informed manner. 
Not only do we not know the current stock size for many 
species, we do not know what the stock size would be in the 
absence of fishing, or even how much stock is being taken by 
fishermen. The expanse of the scientific chasm that faces our 
managers should not cause us, however, simply to turn around 
and walk away. We need to start getting a better idea of what 
is in our oceans and what we are catching if we expect the 
regional Councils and the National Marine Fisheries Service to 
manage the fisheries responsibly and fairly.
    For years, I have attempted, with limited success, to 
increase the President's budget for data collection and stock 
assessments of west coast groundfish. Today, I appeal to the 
administration to make this uphill battle easier by increasing 
the funds allocated for west coast groundfish stock assessments 
in the President's 2001 budget.
    But while I hold the administration responsible in part for 
inadequately funding groundfish stock assessments, Congress 
bears the blame for not retaining the $2 million included in 
the President's budget for a much needed west coast observer 
program. I strongly supported this request, but was unable to 
retain it in the face of opposition from the House of 
Representatives.
    I agree that an observer program should be implemented on 
the west coast, and pledge to try to amend the Magnuson-Stevens 
Act to authorize the Pacific Council to impose a broad-based 
fee to pay for these observers. In recognition of the economic 
hardship that is being suffered in so many of our fisheries, 
however, I will also attempt again to obtain Federal funding to 
help pay for such a program on the west coast, and hope that 
the administration will continue its support for this program.
    While the need for additional resources, and perhaps better 
use of existing resources, for data collection is generally 
noncontroversial, there are other issues we must deal with in 
this reauthorization that are far more controversial. One of 
these is individual fishing quotas, or IFQ's. The 1996 
Sustainable Fisheries Act imposed a moratorium until October 
2000 on the adoption of new IFQ's. Since then, all eight 
regional Councils have recommended to Congress that the 
moratorium on IFQ's be allowed to expire and that Councils be 
permitted to include IFQ's in their management tool boxes.
    The National Research Council, which Congress asked to 
conduct a comprehensive study of IFQ's, made the same 
recommendation. Recognizing the difficulty of many of these 
policy concerns, including the equity of the original 
allocations, the fear of excessive corporate consolidation and 
the effect of IFQ's on the relative power of processors versus 
catchers, I nevertheless concur with the Councils and hope that 
Congress will not categorically extend the moratorium.
    That said, I look forward to working with my colleagues and 
all interested parties to determine what, if any, IFQ 
guidelines should be codified in the Magnuson-Stevens Act.
    Another issue of the 1996 Sustainable Fisheries Act that we 
need carefully to reconsider is the provision regarding 
essential fish habitat and its impact on non-fishery interests. 
While we have repeatedly been assured by the National Marine 
Fisheries Service that the potential designation of much of the 
States of Washington, Oregon and California as essential fish 
habitat under Magnuson-Stevens will not unduly burden non-
fishery interests because the consultation requirements 
required for Federal activity in these areas will overlap with 
numerous other consultation requirements, National Marine 
Fisheries Service regulations regarding essential fish habitat 
suggests otherwise.
    I look forward to hearing the testimony on this topic. The 
issues, of course, are many and are complex. I look forward to 
hearing from each of you how best you feel that we should 
address them.
    Thank you.
    Senator Snowe. Thank you very much, Senator Gorton.
    I would now like to recognize the distinguished Senator 
from Alaska, Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Madam Chairperson. I 
am very pleased to be back here again to have an opportunity to 
hear the views of the people of this area concerning the 
problems we face in the fishing industry.
    Yesterday, we had a very good hearing, I think, in Alaska. 
It was a very extensive one. And we have heard a great many 
ideas. Slade, you will be happy to know that there seems to be 
a change of opinion in Alaska concerning IFQ's, at least to a 
certain extent, with many of the people who, in the past 
opposed IFQ's appearing before us yesterday, and suggesting 
that this is a valuable tool for the regional Councils. But 
they also suggested some other tools that might be considered 
by the Councils and not mandate just one single new management 
concept.
    I do believe, though, that the most significant part of the 
hearing yesterday was the portion that covered the crash of the 
opilio fleet. And I think that is a very significant problem. 
It certainly comes within the area of the disaster provisions 
that you have referred to.
    As Chairman of the Appropriations Committee, and you are a 
member also, Senator Gorton, and I do not know how many of you 
realize, we provided $8 billion more than the Administration 
requested last year for agricultural disasters. Well, we had a 
severe problem in getting a small amount--I think it was about 
$65 million before we were through--for a fisheries disaster. 
That attitude has to change, because the effects of El Nino and 
La Nina on fisheries resources is not different than the effect 
of the tornadoes and extreme storms that the agricultural areas 
have faced in the last few years.
    I do hope that we can come to an agreement about how to 
handle the disaster type of funding. And clearly the opilio 
issue is going to be in the forefront of my mind as we try to 
approach that issue this year.
    I agree with what Senator Gorton said about the basic 
problem of the habitat issues. And I was happy, and I think you 
will be happy to hear, some of the comments made by the agency 
representatives on that issue. It truly is, I think, a problem 
that we have to avoid. We have to avoid making the essential 
fish habitat concept into an Endangered Species Act, in terms 
of the type of intercession that the courts could have on 
fisheries management if we are not careful. And I hope that 
everyone will agree on that.
    There are a great many issues that we will cover today that 
I think that we heard testimony on yesterday. And as I said, I 
am looking forward to the comments that you all will make on 
those issues.
    I appreciate what Senator Snowe is doing. She also went to 
Louisiana. She has been all over the country. And I have got 
to, without tooting my own horn, say that I have been there and 
I have done that.
    [Laughter.]
    And it takes time to do that and it takes really a 
commitment of staff and of the Chairman's office to make these 
hearings into what Senator Snowe has made them. They are very 
informative hearings, and I think they are going to be 
essential to convincing our colleagues who are not from coastal 
States of the need for action this year to try to deal with 
these issues.
    I agree with you; I hope we can get the bill passed this 
year. It is going to be a difficult thing to do because of all 
of the problems of a Presidential election year. But if we can 
come to a consensus and not have battles between areas of the 
country or battles with those who are in charge with enforcing 
the laws that we have passed, I do think we can come to an 
agreement on what to do and get set about making the changes to 
the existing laws that should be made because of the 
developments we have seen in the last year or two.
    Thank you very much.
    Senator Snowe. Thank you, Senator Stevens. Thank you very 
much.
    Before I welcome the first panel, I would like to introduce 
our staff: Sloan Rappoport and Stephanie Bailenson, from my 
Subcommittee staff, and Margaret Spring, from the minority 
Subcommittee staff, have travelled from Washington, D.C. to be 
here. Jeanne Bumpus from Senator Gorton's D.C. staff is here as 
well, in addition to Dave Russell from Senator Stevens's 
office, and Bill Woolf from Senator Murkowski's office.
    I would like to welcome the first panel members. Ms. Penny 
Dalton is the Assistant Administrator of the National Marine 
Fisheries Service, and I am grateful for her considerable 
effort to travel around the country and attend all of the field 
hearings that I have held. I really want to express my 
appreciation to you, Ms. Dalton, for your willingness to 
testify and be part of this process.
    She is accompanied by Mr. Will Stelle, who, by the way, has 
Maine roots. Good to have you here, and thank you very much for 
being here.
    We also have Mr. Jim Lone, Chairman of the Pacific Council. 
The next witness is Mr. Phil Anderson, of the Washington 
Department of Fish and Wildlife. Our final witness will be Mr. 
Jim Harp, a member of the Pacific Council.
    I thank you all for being here. Ms. Dalton, we will start 
with you.

            STATEMENT OF PENELOPE DALTON, ASSISTANT 
         ADMINISTRATOR FOR FISHERIES, NATIONAL OCEANIC 
    ATMOSPHERIC ADMINISTRATION, ACCOMPANIED BY WILL STELLE, 
           ASSISTANT ADMINISTRATOR, NORTHWEST REGION

    Ms. Dalton. Good morning. Thank you for the opportunity to 
testify. It actually has been a great learning experience for 
me to participate in these hearings.
    I am Penny Dalton, NOAA Assistant Administrator for 
Fisheries. Accompanying me is Will Stelle, our Northwest 
Regional Administrator.
    As you know, marine fisheries make a significant 
contribution to coastal economies in California, Oregon and 
Washington. West coast fishermen harvested close to a billion 
pounds of seafood in 1998, producing over $280 million in 
dockside revenues. In addition, 1.7 million saltwater anglers 
in the region took 7 million trips and caught 28 million fish. 
While these figures are substantial, they have declined 
noticeably in important fisheries like Pacific groundfish and 
salmon.
    On the west coast, NOAA Fisheries and the Pacific Fishery 
Management Council manage 83 species of groundfish, five 
species of salmon, and five coastal pelagic species under three 
fishery management plans. Development of a fourth plan for 
highly migratory species also is underway.
    Other west coast fisheries, such as pink shrimp and 
dungeness crab, are managed by the States, with coordination 
through the Pacific States Marine Fisheries Commission.
    The 1993 report to Congress on the status of U.S. fishery 
resources designates three Pacific groundfish species as 
overfished: bocaccio, ling cod, and Pacific Ocean perch. For 
each of these species, the Pacific Council adopted, and NOAA 
Fisheries approved, rebuilding plans that went into effect at 
the beginning of the year.
    At the same time, two other Pacific groundfish species--
cowcod and canary rockfish--were designated as overfished. 
Catch levels for these species have been reduced to address 
overfishing, while rebuilding plans are being developed and 
implemented. It is now clear the Pacific groundfish stocks are 
not as productive or as resilient as previously thought, and 
the reduced quotas reflect this lower productivity.
    The result has been much more restrictive management, not 
only for the overfished species, but also for fisheries that 
target other healthier stocks but incidentally take overfished 
species. We expect commercial west coast ground fishermen to 
incur a loss of at least $9 million to $11 million in the year 
2000 relative to 1999. This loss might be greater if one 
considers processing and support industries and coastal 
communities.
    The Governors of California, Oregon and Washington have 
requested the Secretary of Commerce to determine that a 
commercial fishery failure has occurred due to a fishery 
resource disaster. Today, Secretary Daley is announcing that he 
would make such an affirmative determination. His decision was 
based on our scientists' assessment that an unusually low level 
of recruitment of young fish into the fishery has resulted in a 
resource disaster of undetermined but probably natural causes.
    Among possible causes are an ocean regime shift, El Nino, 
and low stock productivity. Because many of these stocks are 
long-lived and slow-growing, rebuilding efforts are likely to 
be lengthy. In addition, the groundfish fishery is composed of 
several dozen stocks, and we still lack basic scientific 
information for stock assessments in setting harvests at 
sustainable levels.
    If Congress appropriates funds to mitigate the fishery 
failure, NOAA Fisheries will work with affected States, 
fishermen and communities to develop an assistance program. We 
are particularly interested in improving our scientific 
understanding, addressing the needs of fishermen and their 
families, and reducing overcapacity.
    Regulations to implement an industry-funded buyback program 
have been prepared and are under review by the Department and 
OMB. We expect an interim final rule to be published soon. Our 
challenge now is to protect and rebuilt depleted stocks while 
minimizing, to the extent possible, economic and social impacts 
on fishing communities.
    Turning to Pacific salmon, the ocean salmon fishery has 
been severely curtailed due to the listing under the Endangered 
Species Act of 26 populations of salmon and steelhead trout. 
The Council is working to limit impacts of marine fisheries on 
these populations, reducing Snake River fall chinook harvests 
by at least 30 percent and Puget Sound chinook harvests by up 
to 45 percent. One recent effort was to fin-mark hatchery fish 
to allow their continued harvest without jeopardizing the 
recovery of wild stocks.
    On a positive note, we successfully completed the final 
steps to fully implement the new Pacific salmon agreement 
between the United States and Canada. We look forward to the 
conservation benefits and international stability that this 
agreement will bring to our salmon recovery efforts.
    The increased emphasis of the Magnuson-Stevens Act on 
conserving and enhancing essential fish habitat remains an 
issue in the region. Past management measures have included 
restrictions on the use of certain gear in sensitive marine 
habitat. EFH has been designated for nearly 100 west coast 
species. And because of their large number and diversity, 
designated areas range from freshwater streams and estuaries to 
open ocean. In addition, the Council is evaluating the 
potential of marine reserves for protecting habitat and 
reducing overfishing in the groundfish fishery.
    NOAA Fisheries has conducted close to 2,500 consultations 
with Federal agencies whose non-fishing activities may 
adversely affect EFH. The process integrates EFH consultations 
into existing environmental reviews to minimize impacts on 
Federal agencies and the public.
    And to just digress for a minute, one of the things that I 
thought might be helpful was to talk a little bit about the 
background of this issue. We came out with a proposed rule 
after the 1996 amendments that I think was criticized a fair 
amount because it was too expansive. We looked at all of the 
comments that we got and we published an interim final rule 
that the basic purpose of it was to integrate this process into 
our existing reviews that we conduct under the Fish and 
Wildlife Coordination Act, the Clean Water Act, ESA, and the 
Federal Power Act.
    At this point, it is an interim final rule. We just 
reopened the comment period. And we are hoping to be able to 
publish a final rule sometime in the near future. What we are 
hoping is a lot of the concerns that are being expressed now 
have also been given to us during the comment period and that a 
lot of our revisions should address those concerns as much as 
we can.
    Another thing that we have done, in California, we have 
begun a process that is called one stop shopping, where we have 
actually begun to integrate the permitting process for ESA, 
EFH, essential fish habitat, also for the National Ocean 
Service programs, like marine sanctuaries and coastal zone 
management. And what we are hoping--that is a pilot program 
now--is that that can be expanded to other parts of the 
country, to reduce the regulatory burden on industries that 
have activities in coastal areas.
    We want to work with you, I think, to refine the statute 
and the process. One of the things that we are a little 
concerned of is not to lose sight of the goal that these 
provisions were put in the Act for. And that is that good U.S. 
fisheries, sustained U.S. fisheries rely on a healthy habitat. 
So we need to deal with these problems.
    In closing, NOAA Fisheries is still working to implement 
the amendments made to the Magnuson-Stevens Act in 1996 and 
will propose no major changes at this time. However, we have 
identified revisions that may improve management process and 
resolve some relatively minor problems. These are discussed in 
my written statement.
    In addition, we look forward to working with congressional 
members on high-priority issues, such as observer programs, 
individual fishing quotas, and funding of the authorities. 
Thank you.
    [The prepared statement of Ms. Dalton follows:]

  Prepared Statement of Penelope Dalton, Assistant Administrator for 
       Fisheries, National Oceanic and Atmospheric Administrator

    Madame Chair and members of the Subcommittee, thank you for 
inviting me to Seattle to testify on the implementation and 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act), and to speak on issues of 
concern to west coast fishermen. I am Penny Dalton, Assistant 
Administrator for Fisheries for the National Oceanic and Atmospheric 
Administration.
 building a foundation for sustainable fisheries--west coast fisheries
    Commercial and recreational fisheries off the coasts of Washington, 
Oregon, and California are important national resources. In 1998, west 
coast commercial fishermen harvested over 980 million pounds of fish, 
shellfish, and crustaceans in marine waters (including Puget Sound), 
producing over $280 million in dockside revenue from the commercial 
fishery.
    In addition, in 1998, 1.7 million marine recreational fishing 
participants took 7 million trips and caught a total of 28 million fish 
off the west coast. Seventy percent of the trips were made in 
California, followed by 21 percent in Washington, and 9 percent in 
Oregon. Although the recreational harvest on the west coast is much 
smaller than the commercial harvest, this fishery is an important 
component of the west coast fishing industry and way of life.
    While the seafood and marine recreational fishing industries make 
substantial contributions to coastal communities, current harvest 
levels have declined noticeably in some key fisheries, notably Pacific 
groundfish and Pacific salmon. Current harvest yields are substantially 
lower than the long-term potential yield.
    From a regional perspective, over 80 species of Pacific groundfish, 
three species of Pacific salmon and five coastal pelagic species are 
managed under three fishery management plans (FMPs) developed by the 
Pacific Fishery Management Council (Pacific Council). The Pacific 
Council is currently in the process of developing a fourth FMP for 
highly migratory species. Other major west coast fisheries such as pink 
shrimp and Dungeness crab are managed under State jurisdiction in 
coordination with the Pacific States Marine Fisheries Commission. In 
the 1999 Report to Congress, three Pacific groundfish species managed 
by the Pacific Council were declared overfished. NOAA Fisheries 
notified the Pacific Council in March of last year that bocaccio 
rockfish, ling cod and Pacific ocean perch were overfished. The Pacific 
Council has adopted rebuilding plans for each of the three species with 
the goal of rebuilding these stocks and increasing long-term yield. 
NOAA Fisheries has approved regulations to implement the rebuilding 
plans that became effective on January 1, 2000. Concurrent with the 
publication of the year 2000 fishing regulations in the Federal 
Register, NOAA Fisheries has notified the Pacific Council that two 
additional species of Pacific groundfish, cowcod and canary rockfish, 
are overfished bringing the total number of overfished species to five. 
Although no salmon species currently meet the Pacific Salmon Fishery 
Management Plan's definition of ``overfished,'' ocean salmon fishing 
has been severely curtailed due to the listing under the Endangered 
Species Act of 26 different populations of salmon, steelhead, and 
cutthroat trout.
    The Pacific groundfish fishery is an important commercial and 
recreational fishery. Indeed, the flow of various products throughout 
the year from the groundfish fishery is often what keeps many 
processors and fishery participants in business. However, it has become 
apparent that Pacific groundfish stocks are not as productive or 
resilient as previously thought. We have reduced quotas to reflect this 
lower productivity. In addition, the new provisions of the Magnuson-
Stevens Act necessitate more conservative management for the five 
species that we have determined are overfished. This has resulted in 
much more restrictive management not only for fisheries on the 
overfished species, but also for fisheries that target on other, 
healthier stocks that incidentally encounter overfished species.
    We expect commercial west coast groundfish fishermen to incur a 
loss of at least $3-$15 million in 2000 relative to 1999. This loss 
might be greater if one considers processing and support industries in 
the coastal communities. This assumes also that the quotas of all 
managed species will be entirely harvested, which may not happen. Some 
healthy stocks will not be fully harvested because their harvest will 
be constrained by regulations designed to protect co-occurring 
overfished species.
    These declines are particularly painful when added to losses 
experienced in previous years. Between 1997-1998, fishermen's revenue 
from Pacific groundfish was just under $68 million, the lowest level in 
18 years. This was in part due to instability in Asian economies, but 
also due to reduced fishing quotas and other management actions for 
some species. Moreover, because rebuilding plans on most overfished 
groundfish species are expected to continue for about 30 years, the 
prognosis for rapid economic recovery for the west coast groundfish 
industry in the absence of some form of industry restructuring is not 
good.
    The Governors of California and Oregon have requested that the 
Secretary of Commerce make a disaster declaration based upon a 
commercial fisheries failure. We are currently in the process of 
evaluating the causes for the fishery resource decline and its economic 
impacts, and hope to make a determination very soon. If Congress 
appropriates funds to mitigate a west coast groundfish fishery 
disaster, NOAA Fisheries intends to work with the affected States to 
consult with the fishing industry and affected communities to determine 
the best use of disaster funding. Areas of particular interest are 
finding ways to improve our understanding of the ecology of the 
fishery, address the needs of displaced fishermen and their families, 
and reduce significant overcapacity in the fishery.
    Several fundamental issues still exist that complicate the 
conservation and management of Pacific groundfish resources. A major 
underlying reason for the current situation is the lack of basic 
scientific data to conduct stock assessments and to set harvest limits 
that will maintain groundfish stocks at sustainable levels. Although 
NOAA Fisheries has improved its capability to collect scientific 
information through a number of cooperative projects with the fishing 
industry and with the academic community, we are far short of what we 
need to improve our fishery management decisions. Typically, only six 
of the over 80 groundfish stocks are assessed each year, and only 26 
have had some form of stock assessment analysis. Only 16 of the 
assessments have had enough data and analysis to allow determination of 
the species status. Of these 16 species, five are listed as overfished. 
Basic research needs include increasing the frequency and scope of 
surveys; accounting for discarded bycatch through an at-sea observer 
program; increasing research on essential fish habitat; and improving 
the capability to assess social and economic impacts of fishery 
management on fishery participants and fishing communities.
    Turning now to Pacific salmon, you are all well aware that the 
majority of native west coast salmon stocks are seriously depleted as 
evidenced by the listing of 26 distinct populations from Central 
California north to Puget Sound, Washington as threatened or 
endangered. Factors in this decline can be categorized into the now-
familiar ``Hs''--habitat degradation, harvest overages, hydropower 
development, and hatchery practices. The Pacific Council has made 
significant progress in reducing the impacts of overharvest in marine 
areas, including reducing the ocean harvest rate on Snake River fall 
chinook by 30 percent or more. Although the harvest rate on Puget Sound 
chinook in the ocean fishery is low (only 1 to 3 percent), commercial 
chinook catches in Puget Sound have been reduced by 60 percent and the 
total Puget Sound chinook harvest has been reduced by up to 45 percent. 
In some areas, we have fin-marked 100 percent of our hatchery fish and 
have started to implement ``fin-marked only'' selective fisheries, 
where hatchery fish can be safely harvested, while unmarked wild fish 
are returned to the water. We are proceeding cautiously in this area, 
but believe that conservatively designed selective fisheries for marked 
hatchery fish can be compatible with the recovery of our wild salmon 
stocks. Also, we recently completed the final steps to fully implement 
the new Pacific Salmon Treaty agreement with Canada, which should 
contribute significant stability and coordination to our salmon 
recovery efforts.
    In spite of the fact that Pacific groundfish and salmon fishing 
mortality has been reduced through state and federal management 
efforts, we still have a long way to go. New stock assessments on 
previously unassessed groundfish species are likely to result in the 
need for further harvest reductions given what we now know about stock 
productivity and other factors. Our challenge will be to protect and 
rebuild those stocks most seriously depleted, while minimizing to the 
extent possible adverse economic and social impacts on fishing 
communities.
    Recognizing that serious problems remain with some fishery 
resources, we are cautiously optimistic about the future of west coast 
marine fisheries. We must continue to protect overfished fish stocks, 
focus on improving yields over the long term, and identify additional 
measures that would move depleted stocks toward recovery. It is clear 
that fishery management can work. When we reduce mortality, biomass 
increases; and at some point, when nature cooperates, good year classes 
enter the fishery. However, we remain cautious as we face the 
challenges before us. We must work with the Council, States, and 
fishermen to maintain management plans that work, adjust our course 
where plans are not effective, and minimize to the extent possible the 
impacts on communities and the fishing industry as we make the 
transition to sustainable fisheries. I appreciate the commitment of 
members of the west coast delegation, industry, and fishing communities 
to this transition. I look forward with you to restoring fish stocks 
that support a vibrant fishing industry and healthy coastal economies.
            implementation of the sustainable fisheries act
    As we enter the 21st Century, we are at a crucial point in 
fisheries management, with considerable work ahead of us. In the 23 
years since the enactment of the Magnuson-Stevens Act, we have seen the 
complete Americanization of fisheries in federal waters, the expansion 
of the domestic fishing industry, declines in many fishery resources, 
and the rise of public interest in fisheries issues. We have seen some 
successes from our management actions, including rebuilding of Spanish 
mackerel, the initial rebound of a few depleted stocks like Gulf of 
Mexico red snapper and Georges Bank haddock, and the continued strong 
production of fish stocks off Alaska. However, as of 1999, 11 percent 
of U.S. living marine resources are overfished or are approaching 
overfished, 14 percent are not overfished, and there is another 75 
percent whose status is unknown. On the west coast, about 5 percent of 
Federally managed living marine resources are overfished or are 
approaching the overfished status, 12 percent are not overfished, and 
there is another 83 percent whose status is unknown. We at NOAA 
Fisheries are working to rebuild fish stocks to levels that could 
sustain fisheries of greater economic value. From a national 
perspective, scientists estimate that we could increase U.S. fishery 
landings up to 6.8 billion pounds by rebuilding all fisheries and 
maintaining harvests at optimal yields.
    The Magnuson-Stevens Act provides the national framework for 
conserving and managing the wealth of fishery resources found within 
the 197-mile-wide zone of Federal waters contiguous to the United 
States (except for the coastal waters for Texas and the Gulf of Mexico 
coast of Florida where state waters extend out to 9 nautical miles). In 
1996, Congress ushered in a new era in fisheries management, making 
significant revisions to the Magnuson-Stevens Act in the Sustainable 
Fisheries Act (SFA). The SFA addresses a number of conservation issues. 
First, to prevent overfishing and rebuild depleted fisheries, the SFA 
caps fishery harvests at the maximum sustainable level and requires 
fishery management plans to rebuild any overfished fishery. NOAA 
Fisheries now reports annually on the health of marine fisheries and 
identifies fisheries that are overfished or approaching an overfished 
condition. Second, the SFA refocused fisheries management by 
emphasizing the need to protect fisheries habitat. To enhance this 
goal, the SFA requires that management plans identify habitat that is 
necessary to fish for spawning, feeding, or growth. The new law also 
clarifies our existing authority to comment on Federal actions that 
affect essential fish habitat. Third, to reduce bycatch and waste, the 
SFA adds a new National Standard requiring that conservation and 
management measures minimize bycatch and the mortality of bycatch that 
cannot be avoided. It also calls for management plans to assess bycatch 
and to take steps to reduce it.
    The new conservation requirements may have far-reaching effects on 
recreational and commercial fishing and on fishermen, their families 
and communities. To address this concern, the SFA establishes a new 
National Standard 8 that requires, consistent with conservation 
objectives, that fishery management plans provide for the sustained 
participation of fishing communities and minimize adverse impacts to 
the extent practicable. In addition, a national standard has been added 
to promote the safety of human life at sea. Finally, the SFA provides a 
number of new tools for addressing problems relating to the transition 
to sustainable fisheries, including amendments to provide for fisheries 
disaster relief, fishing capacity reduction programs, vessel financing, 
and grants and other financial assistance.
            implementation of the sustainable fisheries act
    NOAA Fisheries takes seriously its new mandates under the SFA. We 
are continuing to work to ensure that SFA requirements are implemented, 
and that conservation and management measures fully protect the 
resource and provide for the needs of fishing communities and the 
Nation. A great deal of work remains to be done. We are laying a better 
foundation for future fisheries management, yet the benefits of the 
changes made by Congress in 1996 will take years, perhaps decades, to 
realize. In addition, the management decisions that we face are 
becoming ever more complex and contentious, and good solutions are hard 
to come by. We need to direct resources and effort to the scientific 
and technical aspects of our work. We also must build consensus with 
the public and among various stakeholders to facilitate progress in 
developing management programs that will move us toward the goal of 
healthy and sustainable marine resources.
    The SFA imposed a deadline of October 11, 1998 for amendments to 
each of the 39 existing fishery management plans to implement its 
changes. Despite the Councils' best efforts, there were some proposed 
amendments that did not satisfy the requirements, for which the 
analyses were inadequate, or that did not minimize socioeconomic or 
environmental impacts to the extent possible and achieve management 
objectives. NOAA Fisheries disapproved or partially approved those 
amendments and is working closely with the Councils to improve them, 
particularly in the areas of assessing social and economic impacts, 
rebuilding overfished stocks, minimizing bycatch, identifying and 
protecting fish habitat, and improving the scientific basis for 
management. I will outline some of the work we are doing in each of 
these areas:

Social and economic analysis: One of NOAA Fisheries' highest priorities 
is to improve our social and economic analyses. These analyses are 
required by a number of laws in addition to the Magnuson-Stevens Act, 
including the Regulatory Flexibility Act, the National Environmental 
Policy Act (NEPA), and Executive Order 12866. The requirement of the 
Magnuson-Stevens Act to include a fishery impact statement, and the new 
standard on fishing communities, also make clear our mandate to 
consider the social and economic impacts of any management program. 
This consistently has been an important part of the decision-making 
process and has affected our choice of fisheries conservation and 
management actions. For instance, the Pacific groundfish fishing 
regulations use varying trip limits that are designed to keep the 
fishing season open during the majority of the year and stabilize 
product flow and prices. In addition, new fishing regulations this year 
offer higher trip limits to vessel operators willing to use fishing 
gear that results in less bycatch of depleted species. Similarly, 
selective fisheries for fin-marked hatchery salmon allow both 
recreational and commercial fishermen continued access to healthy 
hatchery salmon stocks without jeopardizing the recovery of wild 
stocks.
    To strengthen our social and economic analysis capabilities, we are 
issuing revised Regulatory Flexibility Act guidelines to our employees, 
hiring more economists, sociologists, and anthropologists, and working 
with other Federal agencies and states to improve our data collection. 
As a result, economic, social, and biological considerations will be 
better integrated to assist fisheries managers in making the best 
possible decisions to balance conservation, the fishing industry, and 
community needs.

Rebuilding overfished stocks: NOAA Fisheries is committed to ending 
overfishing and rebuilding stocks. This has proven to be a very 
difficult task, in part because of the complex biological structure of 
fisheries and complicated calculations of maximum sustainable yield and 
other fishery parameters.
    Along the west coast, the five overfished species of Pacific 
groundfish have become the focal point for both overfishing and 
bycatch. The management of Pacific groundfish, particularly rockfish 
species, is complicated, because the species are very long-lived, and 
require lengthy rebuilding programs. To stop overfishing in the 
groundfish fishery, we have reduced quotas, redefined stock aggregates 
to better manage stocks found in the same habitats, implemented 
seasonal closures, and limited the landings taken with certain gear 
types in the commercial sector, and we have reduced bag limits and 
implemented similar seasonal closures in the recreational sector.

Minimizing bycatch: Minimizing bycatch continues to be a very high 
priority for NOAA Fisheries on the west coast. We disapproved the 
bycatch amendments in both the Pacific Groundfish and Coastal Pelagic 
FMPs and returned the amendments to the Pacific Council for further 
work, including developing more specific plans for determining bycatch 
levels in the fishery and for minimizing bycatch. We are also working 
with the Pacific Council to develop the parameters of an at-sea 
observer program that will accurately assess the level of bycatch in 
the Pacific groundfish fishery, and to find funding for the observer 
program.

Essential Fish Habitat: I am well aware of your constituents' concerns 
over the increased emphasis of the Magnuson-Stevens Act on conserving 
and enhancing essential fish habitat (EFH). I wish to emphasize the 
agency's intention to minimize impacts on fishermen and non-fishing 
industries, while ensuring the long-term viability of the fish stocks. 
On the west coast, EFH was designated for nearly 100 marine species. 
Where data were available, EFH was identified for each individual 
species and life stage using the best available scientific information. 
Because of the great number of managed species and the wide diversity 
of habitats utilized by the various life stages of those species, 
habitats identified as EFH range from freshwater stream and estuarine 
habitats to the limits of the EEZ.
    The EFH provisions of the Magnuson-Stevens Act address impacts from 
both fishing and non-fishing activities. In response to fishing gear 
threats, the Council has considered measures to reduce the adverse 
impacts of fishing activities to EFH. Past management measures have 
included prohibitions in the use of certain or all gear types in areas 
of sensitive marine habitats or restrictions to size and number of some 
gear types in selected habitats. The Council is actively evaluating the 
concept of marine reserves within which fishing activities would be 
either prohibited or greatly restricted to protect marine habitat and 
the ecosystems they support.
    To address non-fishing activities, NOAA Fisheries has conducted 
close to 2,500 consultations to date with Federal agencies whose 
actions may adversely affect EFH. These reviews have been accomplished 
by integrating EFH consultations largely into existing environmental 
review processes as a way to minimize regulatory impacts on Federal 
action agencies and the public. We expect the number of consultations 
to increase as outreach efforts with Federal agencies continue to build 
awareness of the EFH statutory requirements. However, it is important 
to remember that even prior to the designation of EFH, most Federal 
actions affecting the habitat of marine and anadromous species were 
subject to review by NOAA Fisheries under other legal authorities. EFH 
has provided more emphasis and structure to these reviews, and we are 
working closely with affected agencies and industries to ensure that 
the EFH consultation process is efficiently implemented. For example, 
once the Pacific salmon EFH designations are approved by the Secretary, 
we anticipate that the vast majority of salmon EFH reviews will be 
accomplished in conjunction with Endangered Species Act consultations 
to ensure that no duplicative analyses are required.

Improving technical and scientific information and analyses: NOAA 
Fisheries is committed to using the best possible science in the 
decision-making process, and to incorporating biological, social, and 
economic research findings into fisheries conservation and management 
measures. Meeting our responsibilities under the Magnuson-Stevens Act 
and other applicable laws requires collection of a considerable amount 
of data. We will continue to support a precautionary approach in the 
face of scientific uncertainty. At the same time, we are expanding our 
own collection efforts and our partnerships with the states, interstate 
commissions, industry and others to collect and analyze critical data. 
On the west coast, NOAA Fisheries is active in several partnerships to 
improve the quality and quantity of information for marine resource 
stewardship. One of these partnerships is the Pacific Fisheries 
Information Network (PacFin), a cooperative state and federal data 
collection and management program coordinated by the Pacific States 
Marine Fisheries Commission for the entire west coast. A second example 
is the use of new Magnuson-Stevens Act provisions to compensate vessel 
operators with fish for participating in the conduct of cooperative 
marine resource surveys. Just this last year, our Northwest Fisheries 
Science Center expanded its ability to collect basic data necessary for 
stock assessments by contracting with four private fishing vessels to 
conduct the annual slope species groundfish trawl survey with as much 
as one half of their financial compensation coming from the guaranteed 
opportunity to take a special allocation of fish. Such federal-state 
partnerships are an important mechanism for providing reliable 
fisheries statistics while sharing resources and reducing duplicative 
efforts. Reliable fisheries statistics will allow the management 
process to work successfully, increasing commercial and recreational 
fishing opportunities and ensuring jobs for fishermen--not only for 
today, but for years to come.

                         REAUTHORIZATION ISSUES

    We are still working to understand and effectively implement the 
changes to fishery management policies and procedures made by the SFA. 
Consequently, we would not propose major changes to the Magnuson-
Stevens Act at this time. However, we have identified some revisions of 
existing provisions that may be useful to make the management process 
more efficient and to resolve some relatively minor problems. We 
currently are reviewing various issues raised by the task force, the 
Councils, and some of our stakeholders. Among the issues identified are 
the following:

Review process for fishery management plans, amendments, and 
regulations: The SFA attempted to simplify and tighten the approval 
process for management plans and regulations. However, one result of 
that effort has been two distinct review and implementation processes--
one for plans and amendments and another for implementing regulations. 
This essentially uncouples the review of plans and amendments from the 
process for regulations, and as a result, the decision to approve or 
disapprove a plan or amendment may be necessary before the end of the 
public comment period on the implementing regulations. We are 
considering amendments that would modify the process to address this 
issue.
    In addition, the Committee may wish to consider reinstating the 
initial review of fishery management plans and amendments by the 
Secretary. Considerable energy and staff resources are expended on 
plans or amendments that are ultimately disapproved because of serious 
omissions and other problems. At present, two to three months must 
elapse before the Secretary makes his determination, and if the 
amendment is then disapproved, it can be months or longer before the 
Council can modify and resubmit the plan or amendment. While the 
initial review was eliminated by the SFA to shorten the review process, 
reinstating Secretarial review may actually provide a mechanism to 
shorten the time it takes to get a plan or amendment approved and 
implemented.

Restrictions on data collection and confidentiality: The Magnuson-
Stevens Act currently restricts the collection of economic data from 
processors. Removal of this restriction could improve the quantity and 
quality of information available to meet the requirements of the laws 
requiring social and economic analysis. In addition, the SFA changed 
the term ``statistics'' to ``information'' in the provisions dealing 
with data confidentiality. The change has raised questions about the 
intended application of those provisions, particularly with respect to 
observer information, and Congressional clarification would be useful.

Coral reef protection: Special management areas, including those 
designated to protect coral reefs, hard bottoms, and precious corals, 
are important commercial resources and valuable habitats for many 
species. Currently, the federal government has the authority to 
regulate anchoring and other activities of fishing vessels that affect 
fish habitat. However, we remain concerned with threats to those 
resources from non-fishing vessels. We intend to work with other 
federal agencies to suggest amendments to the Act to clarify, 
consolidate, and strengthen the federal government's authority to 
regulate the actions of any recreational or commercial vessel that is 
directly impacting resources being managed under the Magnuson-Stevens 
Act.

Caribbean Council jurisdiction: The current description of the 
Caribbean Council limits its jurisdiction to Federal waters off Puerto 
Rico and the U.S. Virgin Islands. As a result, the Council cannot 
develop fishery management plans governing fishing in Federal waters 
around Navassa Island or any other U.S. possession in the Caribbean. 
Jurisdiction of the Caribbean Council could be expanded to cover 
Navassa Island, by including ``commonwealths, territories, and 
possessions of the United States'' within the description of that 
Council's authority.

Council meeting notification: To meet the notification requirements of 
the Magnuson-Stevens Act, Councils spend tens of thousands of dollars a 
year to publish meeting notices in local newspapers in major and/or 
affected fishing ports in the region. By contrast, fax networks, 
mailings, public service announcements, and notices included with 
marine weather forecasts are much less expensive and could be more 
effective in reaching fishery participants and stakeholders. The 
Committee may wish to consider modifying notification requirements to 
allow Council use of any means that will result in wide publicity.
    We look forward to working with Congressional members on high-
priority policy issues such as observer programs, individual fishing 
quotas, and funding and fee authorities, although, at this time, we 
have no specific recommendations for changes in the Magnuson-Stevens 
Act to address these issues. We will continue to work closely with the 
west coast delegation; the Pacific Fishery Management Council; and our 
stakeholders to resolve problems affecting west coast fisheries. Madame 
Chair, this concludes my testimony. Thank you for the opportunity to 
discuss the implementation and reauthorization of the Magnuson-Stevens 
Act. I am prepared to respond to any questions you and members of the 
audience may have.

    Senator Snowe. Thank you, Ms. Dalton.
    Mr. Lone.

  STATEMENT OF JIM LONE, CHAIRMAN, PACIFIC FISHERY MANAGEMENT 
                            COUNCIL

    Mr. Lone. Good morning, Madam Chair and Committee members. 
My name is Jim Lone. I chair the Pacific Fishery Management 
Council.
    This is a challenging time for fisheries management on the 
west coast. Several important salmon and groundfish stocks are 
depressed or overfished, and our fishing industry is severely 
overcapitalized. Recently, this Council sent letters to the 
Governors of the three west coast States, warning them of a 
potential disaster in the groundfish fishing industry.
    On July 29th of 1999, you received the joint 
recommendations of the eight Regional Councils for the 
reauthorization of the Magnuson-Stevens Act as an attachment to 
the testimony of Mr. Rick Lauber, Chairman of the North Pacific 
Council. The Pacific Council fully endorses those 
recommendations.
    In particular, we want to emphasize our support of the 
recommendations to rescind the moratorium on individual fishing 
quotas and provide discretionary authority to establish fees 
for observer programs. The Pacific Council has fishery 
management plans for three fisheries: groundfish, salmon, and 
coastal pelagic species. Work is progressing on development of 
a fourth plan for highly migratory species.
    The Pacific Council and NMFS have completed and implemented 
amendments to the groundfish and coastal pelagic species FMP's 
to meet the requirements of the SFA. Amendments to the salmon 
FMP were delayed due to an existing commitment to update the 
entire plan and its environmental impact statement. The Council 
approved the salmon plan amendment in March 1999, and they 
should be implemented this year.
    Regarding groundfish, overcapitalization is the single most 
important issue challenging the west coast fishing industry and 
this Council. For years, national policy encouraged industry 
growth and development as we Americanized the groundfish 
fishery. The Pacific Council took steps to reduce 
capitalization by establishing a groundfish license limitation 
program that took effect in 1994.
    We also took steps toward better management of the 
sablefish fishery by developing an individual fishing quota 
program. We delayed action on the IFQ program in response to 
strong signals from Congress. With the 1996 reauthorization, we 
lost the ability to implement an IFQ program. We strongly 
support an end to the moratorium on IFQ's. We believe we need 
this management tool as a means to stabilize the industry and 
rebuild stocks.
    On the west coast, we are now facing the results of years 
of inadequate funding for research and data collection. There 
is widespread concern about the quality and quantity of 
scientific information on current stock conditions. The 
decisions we make based on this information are vigorously 
questioned.
    And I have appended three letters to my testimony which 
document the funding issues in more detail.
    Regarding future reauthorization of the Magnuson-Stevens 
Act, it is our opinion that if NMFS and the Councils cannot 
conduct the basic stock assessments and collect the necessary 
fishery information, the system will not be able to make good 
management decisions regardless of how the law is constituted.
    Turning to salmon, over the last several years, many salmon 
stocks have been at chronic low levels, and several have been 
listed under the Endangered Species Act. The ongoing low stock 
levels are currently more the result of longstanding and 
continued degradation of freshwater habitat and unfavorable 
marine survival than of any continuing impacts of fisheries. 
Despite some draconian fishery reductions by the Council, 
beginning in the early 1990's, little or no recovery is evident 
for most of the salmon stocks listed as overfished.
    Turning to coastal pelagic species, spurred by requirements 
of the SFA, increased abundance of Pacific sardine, and high 
demand for market squid, the Pacific Council greatly expanded 
the scope and authority of the FMP. Of particular interest in 
the Pacific Northwest is the expansion of effort in Pacific 
sardine fisheries off Oregon and Washington. Favorable oceanic 
and climatic conditions have caused an increase in both biomass 
and geographic range of Pacific sardine.
    In response, fishers and processors have become interested 
in these new fishing opportunities, which may compensate for 
reductions in groundfish optimum yields. However, any expansion 
in capacity will have to be managed carefully, so as to avoid 
the problem of another overcapitalized fishery in the future, 
as sardine abundance will naturally decrease in response to 
changing oceanic conditions.
    In summary, Madam Chair, the Pacific Council fully supports 
the intent of the Magnuson-Stevens Act and, with certain 
exceptions previously noted, has developed workable plan 
amendments to implement it. Moreover, the Council has begun 
development of a strategic plan to address the major groundfish 
issues and to help move the fisheries toward recovery and 
prosperity.
    To implement the strategic plan, we will likely need 
legislation and financial support to help reduce the number of 
fishing vessels that harvest fish off the west coast and to 
collect the necessary data for competent management. We 
appreciate the efforts and attention Congress has given to 
improve and guide our management through passage of the SFA and 
in your current efforts to make further beneficial changes in 
our fishery management.
    We hope that our comments to you today have been helpful, 
and we thank you again for this opportunity.
    [The prepared statement of Mr. Lone follows:]

 Prepared Statement of Jim Lone, Chairman, Pacific Fishery Management 
                                Council

Madame Chairman and Committee members:

    My name is Jim Lone. I chair the Pacific Fishery Management Council 
(Pacific Council). Thank you for this opportunity to offer comments 
related to implementation of the 1996 Sustainable Fisheries Act (SFA) 
and the reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act (Magnuson-Stevens Act).
    This is a challenging time for fishery management on the west 
coast. Several important salmon and groundfish stocks are depressed or 
overfished and our fishing industry is severely overcapitalized. 
Recently, this Council sent letters to the governors of the three west 
coast states, warning them of a potential disaster in the groundfish 
fishing industry. Many small fishing businesses are in danger of 
failing this year, or in the near future. It is likely the crisis comes 
from the combined effects of a change in the ocean environment, 
inadequate scientific data collection and analysis, and a national 
policy that encouraged capital infusion into the fishing industry.
    On July 29, 1999, you received the joint recommendations of the 
eight regional Councils for the reauthorization of the Magnuson-Stevens 
Act as an attachment to the testimony of Mr. Richard Lauber, Chairman 
of the North Pacific Fishery Management Council.\1\ The Pacific Council 
fully endorses those recommendations. In particular, we want to 
emphasize our support of the recommendations to rescind the moratorium 
on individual fishing quotas and provide discretionary authority to 
establish fees for observer programs. The rest of my comments will be 
specific to the management experience and recommendations of the 
Pacific Council.
---------------------------------------------------------------------------
    \1\ The collective recommendations were presented on July 22, 1999 
to the House Subcommittee on Fisheries Conservation, Wildlife, and 
Oceans by Mr. Joseph Brancaleone, Chairman of the New England Fishery 
Management Council.
---------------------------------------------------------------------------
    The Pacific Council has fishery management plans (FMP) for three 
fisheries--groundfish, salmon, and coastal pelagic species (CPS; e.g., 
anchovy, sardines, and mackeral). Work is progressing on development of 
a fourth plan for highly migratory species (tunas and billfish). The 
Pacific Council and National Marine Fisheries Service (NMFS) have 
completed and implemented amendments to the groundfish and coastal 
pelagic species FMPs to meet the requirements of the SFA.\2\ Amendments 
to the salmon FMP were delayed due to an existing commitment to update 
the entire salmon FMP and its environmental impact statement. The 
Council approved the salmon plan amendments in March 1999 and they 
should be implemented this year.
---------------------------------------------------------------------------
    \2\ The section on bycatch in the groundfish FMP, and the sections 
on bycatch and maximum sustainable yield for squid in the coastal 
pelagic FMP were not approved and are being modified by the Council at 
this time.
---------------------------------------------------------------------------
                               GROUNDFISH

    Overcapitalization is the single most important issue challenging 
the west coast fishing industry and this Council. For years, national 
policy encouraged industry growth and development as we 
``Americanized'' the groundfish fishery. We didn't recognize quickly 
enough that we had achieved that goal. The Pacific Council took steps 
to stem the tide by establishing a groundfish license limitation 
program that took effect in 1994. We also took steps toward better 
management of the sablefish fishery by developing an individual fishing 
quota (IFQ) program. We delayed action on the IFQ program in response 
to strong signals from Congress. With the 1996 reauthorization, we lost 
the ability to implement an IFQ program. We strongly support an end to 
the moratorium on IFQs. We believe we need this management tool as a 
means to stabilize the industry and rebuild stocks.
    On the west coast, we are now facing the results of years of 
inadequate funding for research and data collection. There is 
widespread concern about the quality and quantity of scientific 
information on current stock conditions. The decisions we make based on 
this information are vigorously questioned. Some believe on-the-water 
observations by fishermen indicate the Pacific Council's harvest 
restrictions are not justified. Others believe the Council should be 
even more restrictive until the science supports greater exploitation. 
We are also required to assess the social and economic impacts of 
management on the fishing industry and communities, yet we are not 
provided adequate funds. We are required to reduce bycatch, yet we have 
no funds for an observer program to collect bycatch data. I have 
appended three letters to my testimony which document the funding issue 
in more detail.\3\
---------------------------------------------------------------------------
    \3\ The following three letters are appended to this testimony to 
document recent and future Council funding needs:
    (1) Letter of December 22, 1998 from Mr. Lawrence D. Six, Executive 
Director, Pacific Fishery Management Council, to Dr. William Hogarth 
and Mr. Will Stelle, NMFS.
    (2) Letter of December 14, 1999 from Mr. Robert K. Mahood, 
Executive Director, South Atlantic Fishery Management Council, to Mr. 
Alan Risenhoover, NMFS.
    (3) Letter of December 17, 1999 from Mr. Pete Moffitt, Chairman of 
the South Atlantic Fishery Management Council, on behalf of the 
Regional Council Chairmen, to Ms. Penny Dalton, Assistant Administrator 
for Fisheries, NMFS.
---------------------------------------------------------------------------
    Regarding future reauthorization of the Magnuson-Stevens Act, it is 
our opinion that if NMFS and the Councils cannot conduct the basic 
stock assessments and collect the necessary fishery information, the 
system won't be able to make good management decisions regardless of 
how the law is constituted. Simply put, we cannot do the job you want 
us to do, and the job we want to do, without the necessary resources.
    In line with our need for more and better information, the Council 
needs discretionary authority to establish fees to help fund observer 
programs. This authority would be the same as granted to the North 
Pacific Council under Section 313 of the Magnuson-Stevens Act. In the 
long term, the fishing industry may be able to shoulder more of the 
costs to reduce overcapitalization and monitor the catch. In the short 
term, however, our industry cannot afford these additional burdens.

                                 SALMON

    The SFA required little substantive change in the way we manage 
salmon. Over the last several years, many coho and some chinook salmon 
stocks have been at chronic low levels and several have been listed 
under the Endangered Species Act. However, for the most part, the 
management of salmon under the current FMP already met the more 
conservative definition of optimum yield contained in the SFA. The 
ongoing low stock levels are currently much more the result of long-
standing and continued degradation of freshwater habitat and 
unfavorable marine survival than of any continuing impacts of 
fisheries. Despite some draconian fishery reductions by the Council 
beginning in the early 1990s, little or no recovery is evident for most 
of the salmon stocks listed as overfished. The numerous variables 
affecting abundance make it impossible to specify a time period in 
which an overfished salmon stock will be rebuilt.
    The biggest change in salmon management under the SFA has been the 
inclusion of the description and identification of essential fish 
habitat and the consultation requirements it includes. Since Amendment 
14 to the salmon FMP has not yet been implemented, it is not possible 
to determine the impacts of the essential fish habitat requirements. 
However, considerable public input during the amendment process 
indicates opposition among the general business community to the 
breadth of the essential salmon habitat description. There is a fear of 
additional permit requirements and delays in land use or development 
projects. This is especially pertinent for salmon due to the inclusion 
of thousands of miles of freshwater streams. Conversely, we have 
received numerous comments deploring the lack of teeth in the essential 
fish habitat measures to require compliance with NMFS or Council 
recommendations. The extent of increased workload for the Councils and 
NMFS remains in question. We view the SFA essential fish habitat 
requirements as a logical, though controversial, step in increasing the 
recognition of the importance of salmon habitat and ensuring its 
protection and restoration, which is vital to long-term salmon 
recovery.

                        COASTAL PELAGIC SPECIES

    The most significant impact of the SFA on coastal pelagic species 
(CPS) fisheries was expansion of the FMP. Spurred by requirements of 
the SFA, increased abundance of Pacific sardine, and high demand for 
market squid, the Pacific Council greatly expanded the scope and 
authority of the FMP. Of particular interest in the Pacific Northwest, 
is the expansion of effort in Pacific sardine fisheries off Oregon and 
Washington. Favorable oceanic and climatic conditions have caused an 
increase in both biomass and geographic range of Pacific sardine. In 
response, fishers and processors have become interested in these new 
fishing opportunities which may compensate for reductions in groundfish 
optimum yields by providing opportunity to use idle fishing and 
processing capacity. There is also potential for increased investment 
in fishing and processing capacity. With any expansion in capacity, it 
is likely the Council will have to grapple with an overcapitalized 
fishery in the future, as sardine abundance will naturally decrease in 
response to changing oceanic conditions. There is also concern that 
expanding sardine fisheries in Oregon and Washington could catch 
significant numbers of Pacific salmon (as bycatch). Preliminary data 
and information from fishers indicate that incidental catch of salmon 
is minimal, and the industry is working with the states to develop ways 
to minimize salmon bycatch and bycatch mortality.

                                SUMMARY

    In summary, Madame Chairperson, the Pacific Council fully supports 
the intent of the Magnuson-Stevens Act and, with certain exceptions 
previously noted, has developed workable plan amendments to implement 
it. Moreover, the Council has begun development of a strategic plan to 
address the major groundfish issues and to help move the fisheries 
towards recovery and prosperity. To implement the strategic plan, we 
will likely need legislation and financial support to help reduce the 
number of fishing vessels that harvest fish off the west coast and to 
collect the necessary data for competent management. We appreciate the 
efforts and attention Congress has given to improve and guide our 
management through the passage of the SFA and in your current efforts 
to make further beneficial changes in our fishery management. We know 
that there are many other interests throughout the nation competing for 
your attention and funding. We hope that our comments to you today have 
been helpful and will try to be responsive to any other information or 
input you may need. Thank you again for this opportunity. I will be 
happy to answer any questions you or the other Senators may have.

Pacific Fishery Management Council
2130 SW Fifth Avenue, Suite 224
Portland, Oregon 97201

Jerry Mallet, Chairman
Lawrence D. Six, Executive Director
                                          December 22, 1998

Dr. William Hogarth, Regional Administrator
Southwest Region
National Marine Fisheries Service
501 W Ocean Blvd., Suite 4200
Long Beach, CA 90802-4213

and

Mr. Will Stelle, Regional Administrator
Northwest Region
National Marine Fisheries Service
7600 Sand Point Way NE, BIN C15700
Seattle, WA 98115-0070

Dear Bill and Will:

    Representatives of the Pacific Fishery Management Council (Council) 
and Pacific States Marine Fisheries Commission met December 10, 1998, 
with representatives of the National Marine Fisheries Service (NMFS) 
Northwest Region (NWR) and Southwest Region (SWR); and Alaska Fisheries 
Science Center (AFSC), Northwest Fisheries Science Center (NWFSC), and 
Southwest Fisheries Science Center (SWFSC) to develop a consensus 
package of budget initiatives to meet Council information needs for 
fiscal year (FY) 2001. We agreed on nine major initiatives, which are 
described below. We recommend this package be submitted to NMFS 
headquarters by mid January as input into formulation of the 
President's FY 2001 budget request. These initiatives are not presented 
in priority order. They represent the highest priority needs, which 
were boiled down from a long list of needed projects identified by the 
Council and participants at the December 10 meeting. This package 
addresses Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act) mandates only. We did not attempt to address 
marine mammals, protected species, or other NMFS mandates.
    In addition, the group expressed support for seven other 
activities, most of which are national in scope and critically 
important to successful implementation of the Magnuson-Stevens Act. 
These efforts are described after the west coast initiatives.
    Finally, as a result of our discussion of FY 2001 needs, it became 
apparent there are significant shortfalls in funding for critical west 
coast programs in FY 1999 and potentially for FY 2000. These shortfalls 
are described herein.

West Coast Initiatives Implementing Magnuson-Stevens Act in FY 2001

1. Maintain and Enhance the Pacific Fishery Information Network 
        (PacFIN)--$1,166,000
    This initiative has two components: improving economic data 
collection and increased port sampling of groundfish landings. The 
augmentations are in addition to the base program of $3.0 million for 
PacFIN. With enhancements, the total amount needed is $4,166,000.

<bullet> Economic Data Collection--$700,000

    Economic data is needed to develop and implement fishery management 
plans, assess the effects of those plans, and fairly allocate limited 
resources among competing users. Further, the courts in two recent 
cases have overturned management decisions, because the accompanying 
economic analysis was insufficient. This initiative will implement the 
Economic Data Plan, which was developed by Council, NMFS, and other 
economists and then adopted by the Council. Funds are needed to 
implement the plan beginning in FY 2000 and annually thereafter.

<bullet> Increased Port Sampling--$466,000

    Current funding is not adequate to sample nontrawl groundfish 
fisheries, including the open access fishery and the live-fish 
landings. Additional samplers in California, Oregon, and Washington 
would provide the necessary coverage at a cost of $466,000.

2. Maintain and Enhance the Recreational Fishery Information Network--
        $1,082,000
    As the Council more actively manages the recreational fishery for 
groundfish, it is apparent the current marine recreational fishery 
statistics program on the west coast is not providing adequate 
information for management purposes. There is a need for more reliable 
estimates by species, time, and area on a finer scale. Sampling of 
anglers needs to be increased, and the method of estimating effort 
needs to be improved. The current funding allocation for the west coast 
intercept survey is $918,000, which does not even provide for a 12-
month effort. An additional $1,082,000 is needed to bring the total to 
$2,000,000.

3. Improve and Expand Groundfish Surveys and Stock Assessments--
        $3,500,000
    GOAL: Build a scientifically sound resource survey and stock 
assessment program in the NWFSC and SWFSC and transition to allow 
redirection of the AFSC resources to critical stock assessment problems 
off Alaska.
    BACKGROUND: Commercial, recreational, and tribal harvest of the 83 
species of west coast groundfish is important to communities along 
California, Oregon, and Washington. An investment in improved 
monitoring of these species is necessary to guard against inadvertent 
overharvest due to lack of adequate scientific information and to 
reduce the need for precautionary harvest reductions. The scientific 
basis for safe harvest levels typically comes from stock assessment 
models which incorporate resource survey and fishery data. The critical 
need for fishery-independent resource survey data is one of the primary 
recommendations in the National Research Council's review of stock 
assessment methods. A scientifically sound stock assessment program 
will conduct frequent and timely assessments for all species groups; 
will include relevant ecological, social, and economic information in 
these assessments; and will engage in sufficient outreach to build 
public understanding and trust in assessment results. The resource 
survey program would conduct frequent standardized surveys of each 
major fish assemblage, including adult and prerecruit life stages and 
would engage in research to understand how environmental factors affect 
survey results and to improve the calibration of the survey methods. A 
combination of acoustic, trawl, egg/larval, hook-and-line, and new 
advanced technologies is needed to cover the complexity of life stages 
and habitats for groundfish. The program requires both a Fisheries 
Research Vessel (FRV) and chartered vessels to deploy appropriate 
survey methods over the entire west coast range of the species. The FRV 
would focus on studies that require specialized equipment, high levels 
of standardization, and multi-sampler projects. Multiple charter 
vessels would be used for surveys that must cover broad geographic 
areas in short time periods.
    PROPOSAL: The expanded west coast survey and stock assessment 
program will be able to provide critical information for management of 
west coast groundfish. The program will conduct an annual bottom trawl 
survey covering the depth range of nearshore flatfish, shelf rockfish, 
and deep slope species. Such a survey was broadly endorsed by a 
science/industry workshop in 1998. The program will conduct a 
hydroacoustic survey for whiting, develop and deploy new survey 
methodology for nearshore rockfish, and conduct specialized surveys 
such as fixed gear surveys for sablefish and recruitment surveys for 
key species. The enhanced stock assessment program will be able to turn 
these expanded survey results into timely, comprehensive, and well-
understood recommendations on safe harvest levels for west coast 
groundfish.
    New Funding Need: $3,500,000, plus access to a FRV, plus use of an 
allocation of the annual quota to partially compensate chartered 
vessels.

4. Groundfish Observer Program--$4,700,000
    Reliable estimates of total catch of west coast groundfish are not 
available because of unknown amounts of discard at sea caused by 
regulations and markets. Current estimates of discards are based on old 
and very limited studies. A comprehensive observer program covering all 
gears and areas is required to obtain reliable estimates of total 
catch. This information is needed before the Council can adequately 
address the mandate to minimize bycatch. Given the economic condition 
of the industry as a result of reduced optimum yields, an industry-
funded program is not feasible. Federal funding is required. The 
estimated annual cost of an observer program, including NMFS 
infrastructure, is $4,700,000.

5. Essential Fish Habitat (EFH)--$1,000,000
    There are three components to this initiative: marine reserves, 
gear impacts, and habitat areas of particular concern. Total annual 
long-term costs are $1,000,000.
<bullet> Marine Reserves

    Areas closed to fishing are widely viewed as having potential to 
protect EFH and marine ecosystems and to serve as important tools for 
fishery management. There is a pressing need to gather the 
socioeconomic and scientific data required to rigorously evaluate 
marine reserves as a fishery management tool on the west coast. This 
will require research to identify the management needs that may be 
achievable through marine reserves (e.g., which species and life 
stages), design optimal reserves through modeling, and implement these 
designs through field testing to evaluate the potential benefits. A 
major component of this initiative will involve socioeconomic studies 
of interested parties from potentially affected groups (e.g., tribal, 
other governmental, recreational, commercial, community, and 
environmental) to improve consideration of social needs and desires and 
to foster acceptance of results and potential designation of marine 
reserves for fishery management purposes.

<bullet> Gear Impacts on Habitat

    The Magnuson-Stevens Act requires the regional fishery management 
Councils to minimize to the extent practicable adverse effects on 
habitat caused by fishing. Information on the effects of fishing gear 
on west coast habitat is inadequate. There is a need to (1) evaluate 
the effects of trawl, longline, and pot gears on a variety of bottom 
habitats on the west coast; (2) conduct experiments to identify the 
short-term and long-term effects of gear deployment and of repetitive 
deployment (e.g., in situ studies of trawling and other gear impacts on 
the benthos); (3) as feasible, implement a program to obtain longline 
effort information; and (4) conduct experiments (e.g., with 
modifications to gear or fishing practices, areas, or times) to test 
ways to reduce adverse effects and develop recommendations that may be 
implemented.

<bullet> Habitat Areas of Particular Concern (HAPCs)

    To support the evaluation of marine reserves and EFH consultation 
efforts, NMFS should (1) identify marine HAPCs for groundfish, salmon, 
and coastal pelagic species (CPS) off the west coast; (2) inventory and 
increase accessibility to available data from state, federal, tribal, 
and private sources and include the information in a global information 
system (GIS); (3) identify data gaps and research needs; and (4) 
evaluate the condition of these HAPCs, if known, and recommend 
necessary conservation measures.

6. Salmon Encounter Rates and Hooking Mortality--$100,000
    The ability to harvest salmon from hatchery programs and other 
healthy salmon stocks without risking the continued existence of some 
weak stocks, including those listed under the Endangered Species Act 
(ESA), depends on accurate estimates of hook-and-release mortality 
rates and encounter rates in fisheries. The Council has appointed an 
ad-hoc committee to address additional research needs related to 
estimates of hooking mortality and encounter rates. At this juncture it 
is clear that adequate estimates of encounter rates are lacking, and 
this situation must be rectified. Additional research needs may be 
forthcoming from the ad-hoc committee and Council in the future. 
Encounter rates vary with relative stock abundances and ocean 
conditions as well as gear and fishery. A program to have fishers 
report encounters, coupled with a limited observer program, was 
successful in 1995 to 1997, but discontinued in 1998 due to a lack of 
funds. Such a program needs to be done annually to provide in-season 
measures of encounter rates and develop a long-term data base for 
prediction. This could be combined with stock identification research 
to provide real-time fishery assessment capabilities. An additional 
$100,000 per year is required to address this need.

7. Application of Genetic Stock Identification for Salmon Management--
        $300,000
    Increased listing of salmon stocks under the ESA and implementation 
of mass marking and selective fishery programs will require much more 
intensive evaluations of mixed salmon harvests in the future. No single 
method will be able to provide all the necessary information; rather, a 
variety of approaches will be required, including coded-wire tags and 
other physical marks, genetic stock identification (GSI), otolith 
marking, and perhaps others. Under the aegis of the Pacific Salmon 
Treaty (PST), GSI research has produced a coastwide data set that is 
used for stock composition in PST-related fisheries. Work should be 
expanded into three areas: (1) extend the use of GSI analysis of 
chinook salmon populations into areas of southern Washington, Oregon, 
and California. This will provide the capability to respond to Council 
and ESA mandates in fisheries not directly related to the PST; (2) 
initiate the use of molecular markers for GSI of coho salmon. Although 
most of the major populations of coho salmon have been examined for 
protein genetic variation and regional patterns of variability have 
been described, additional research is required to use genetic markers 
for mixed-fishery analysis; and (3) initiate genetic stock 
identification of chinook and coho salmon juveniles in coastal and 
estuarine waters. Although the early migration patterns of hatchery-
reared juveniles have been studied to some extent with coded-wire tags, 
little is known about the coastal migratory habits of juveniles from 
wild populations. Identification of populations of origin is an 
important element in interpreting the results of ongoing ecological 
studies of early life-history stages in coastal waters. This phase of 
the research would utilize juvenile samples collected as part of other 
research projects. All three phases will be accomplished by extending 
and updating the protein genetic baseline for chinook and coho salmon 
populations, analyzing mixed-stock fisheries with current statistical 
procedures, and developing the use of DNA markers for GSI estimations 
for chinook and coho salmon. New funding needed is $300,000 per year.

8. Coastwide Coastal Pelagic Species Assessments--$660,000
    The recently adopted fishery management plan for CPS includes two 
actively-managed species, Pacific sardine and Pacific (chub) mackerel. 
Both of these stocks now span thousands of miles of coastline from 
British Columbia to southern Baja California. The biomass of sardine 
has climbed to about 1.2 million tons, a level not seen for over 50 
years, and the biomass of mackerel is around 130,000 tons. These 
estimates, based on many assumptions, are very uncertain and may be 
underestimated, because no coastwide measure of abundance exists. A 
coastwide abundance estimate is needed to ground-truth the biomass 
assessment models. A survey approach is proposed that combines 
simultaneous (April) acoustic trawl surveys (ATS) (a precise relative 
measure of biomass) and daily egg production (DEP) surveys (an absolute 
measure of biomass). The ratio between ATS and DEP surveys in the south 
(Mexico and California) will be used to calibrate ATS surveys off 
Oregon and Washington. Two chartered commercial fishing vessels (30 
days each) will be used along with data collected from routine April 
survey data from existing CalCOFI and IMECOCal (Mexico) surveys. The 
work will be a cooperative project involving the SWFSC and NWFSC. Costs 
are estimated to be $660,000 per year.

9. Development of an Economic and Social Science Program--$1,300,000
    The National Oceanic and Atmospheric Administration (NOAA) must 
develop an infrastructure for the social sciences and incorporate these 
disciplines in the living resource management processes, including 
strategic placement of economists, anthropologists, and sociologists. 
Good social science programs should be located in each of the NMFS 
Science Centers. The NWFSC needs full time employees (FTEs) to 
institute a program, and the SWFSC needs additional FTEs to expand its 
program to needed areas. For a solid infrastructure, social science 
FTEs should also be strategically located within regional offices and 
Councils. These FTEs are needed to apply the available data and 
scientific analyses to the policy, decision, and regulatory 
requirements associated with Executive Order 12866, Magnuson-Stevens 
Act, the Regulatory Flexibility Act, National Environmental Policy Act, 
and ESA. The NMFS NWR and SWR need FTEs to address the new Magnuson-
Stevens Act requirements and to address upcoming capacity/fleet 
reduction programs and user group allocation issues. The NMFS NWR and 
SWR also need FTEs to meet the growing policy and regulatory demands 
associated with habitat restoration and protected resource/ESA issues. 
To establish a good program within the NMFS NWR and NWFSC, and to 
appropriately expand the NMFS SWR and SWFSC program, $1.3 million is 
needed.

Support of Other Budget Initiatives for FY 2001
Ecosystem Management
    The Magnuson-Stevens Act mandated appointment of an advisory panel 
to develop recommendations to expand the application of ecosystem 
principles in fishery conservation and management activities. The 
panel's final report is imminent. The eight regional fishery management 
Council chairs listed ecosystem management as one of the priority 
activities which should be funded in the NMFS budget.
Minimize Bycatch and Bycatch Mortality
    A new national standard in the Magnuson-Stevens Act calls for 
bycatch to be minimized to the extent practicable. A national effort is 
needed to address this vital mandate. On the west coast, an initial 
step must be to implement a comprehensive groundfish observer program 
to document the extent of bycatch and bycatch mortality.
Increase Regional General Counsel for Fisheries Staff
    Regional offices of NOAA General Counsel are understaffed and 
cannot provide timely reviews of numerous Council and NMFS actions 
under the Magnuson-Stevens Act. This is particularly a problem at the 
NMFS NWR. Additional attorneys are needed.

Highly Migratory Species in the Pacific
    We support NMFS SWR efforts to improve the science and management 
of Pacific highly migratory species. These efforts benefit the Western 
Pacific and Pacific fishery management Councils. The Pacific Council 
expects to become active in the management of highly migratory species 
on the west coast.
Electronic Data Collection and Fish Statistics
    On the west coast, there is a pilot program to evaluate electronic 
recording of logbook data. The Council supports expansion of electronic 
data systems (including fishtickets and logbooks) on the west coast in 
FY 2001 and beyond.

Enforcement
    Council-approved management measures are only as good as our 
capability to enforce them. Enforcement resources on the west coast are 
stretched to the limit. They cannot adequately cover certain existing 
fisheries, such as the live-fish fishery, and will not be adequate to 
enforce significant new programs, such as individual quotas, which are 
anticipated in the year 2000 and beyond.

Klamath and Trinity Rivers Chinook Escapement Estimation
    The critical effort to estimate the spawning escapement of chinook 
salmon in the Klamath and Trinity rivers is in danger of not being 
funded in 1999 and beyond. NMFS should make sure that this program is 
funded by the Bureau of Reclamation or other entity.
Critical Funding Shortfalls in FY 1999

NMFS SWFSC
    NMFS SWFSC, La Jolla laboratory, has lost its only stock assessment 
modeler (Dr. Larry Jacobson). Owing to the SWFSC deficit, the position 
will not be filled after Dr. Jacobson's departure in January 1999. This 
is clearly a loss of a most vital function for a fishery laboratory 
(see Natural Resource Consultants report Improving Fish Stock 
Assessments). This has grave consequences for the Council and the La 
Jolla laboratory, because it will not be able to carry out its fishery 
responsibilities in the NMFS SWR including: pending stock assessments 
on mackerel and sardine under the new CPS plan; SWFSC support for 
groundfish stock assessments; assessment modeling on the Highly 
Migratory Species Plan Development Team; subsequent stock assessments 
for west coast tunas, billfish, and sharks. The loss is also of deep 
concern to California Department of Fish and Game (CDFG), because it 
closes a long-term stock assessment support provided to CDFG as part of 
joint research carried out over the last 25 years. Salary range for a 
Senior Stock Assessment Specialists for NMFS (level GS-14) ranges from 
about $69,000 to $90,000 per year.
    Elimination of overtime at NMFS SWFSC will eliminate the collection 
of data needed for trends in abundance collected by CalCOFI surveys for 
mackerel, sardine, and various groundfishes. For the two CPS species it 
is the primary source of information for trends in abundance, and 
without it we will be totally blind to changes in abundance.

NMFS NWFSC
    NMFS NWFSC has identified a shortfall of approximately $400,000 to 
conduct the late summer slope bottom trawl survey using chartered 
fishing vessels in 1999. This was a successful cooperative program 
begun in 1998, which the Council believes must continue. The research 
vessel (R/V) Miller Freeman is expected to be available in 1999 to 
conduct the late fall slope survey on the west coast, but there are 
insufficient days at sea for the necessary level of sampling (see NMFS 
AFSC below).

NMFS AFSC
    There are insufficient days at sea for the necessary level of 
sampling for the west coast slope survey aboard the R/V Miller Freeman. 
The Council encourages NMFS to find the necessary funds to cover this 
need.
    In closing, we hope you agree with these high priority research 
needs and submit them as regional input into the FY 2001 budget 
request. Also, it is critical that funding shortfalls in FY 1999 and 
2000 be addressed. I thought the December 10 session was extremely 
productive in achieving a consensus package, and I look forward to 
continuing this process each year. Thank you for your support of the 
Council fishery management process.

Sincerely,

Lawrence D. Six
Executive Director

South Atlantic Fishery Management Council
One Southpark Circle, Suite 306
Charleston, South Carolina 29407-4699

Pete Moffitt, Chairman
Fulton Love, Vice-Chairman
Robert K. Mahood, Executive Director
Gregg Waugh, Deputy Executive Director
                                          December 14, 1999

Memorandum
To: Alan Risenhoover
From: Bob Mahood
Subject: Regional Councils' 2002 Funding Request

    The Councils appreciate the opportunity to participate in the DOC/
NOAA/NMFS budget process. Based on your guidance we are submitting our 
request in a format compatible with the development of NMFS's 2002 
budget. Our budget request consists of two parts, administrative 
funding and programmatic funding, however, the total requested should 
be maintained as one amount under the Regional Fishery Management 
Council line item in the NMFS budget. The administrative funding level 
requested will allow the Councils to conduct and improve current 
management programs in a continuing effort to meet the mandates of the 
Sustainable Fisheries Act. The programmatic funding requested will 
allow the Councils to address specific information and data needs that 
are essential for managing our fisheries.
    Recommendations for funding priorities: The Councils are requesting 
a total funding level of $19,047,000 ($15,624,000 in administrative 
funds and $3,423,000 in programmatic funds). The total funding 
requested represents a 12% increase over the Councils' 2001 budget 
request. The administrative portion of the funding request represents a 
modest increase of 9% per year over the Councils' 2000 budget and is 
our highest priority. The administrative funding level requested is 
necessary to maintain, and in some cases expand, current management 
activities to meet the mandates of the SFA. Programmatic funds have not 
been available to the Councils since the 1980's. We believe if funding 
above our administrative (basic operational) requirements can be 
obtained the Councils will be in a position to help NNIFS address 
critical data needs on a real time basis.

BUILD SUSTAINABLE FISHERIES: Most Council activities fall under 
building sustainable fisheries. The SFA passed in 1996 significantly 
increased the Councils' management responsibilities and we are still 
struggling to obtain the financial resources to meet those 
responsibilities. The Act will be reauthorized in 2000 or 2001 and the 
Councils will respond accordingly to any new requirements that result 
from changes to the Act.
    To continue basic Council operations/activities at current levels 
in 2002 (allowing for anticipated increases in fixed costs such as 
personnel, facilities, etc.) will require $14,387,000. Mandated 
expansion of current programs will require $1,167,000 and additional 
needed infrastructure costs will require $70,000.
New Initiatives--$3,423,000 (main focus of programmatic funds)
    <bullet> Develop plans for and/or conduct (contract) data 
collection programs to fill the gaps in the data necessary to meet the 
required provisions of the Magnuson-Stevens Act, specifically in the 
areas of EFH, bycatch, stock assessments, overfished species (MSY 
biomass determinations), fishing communities, and economic and social 
assessments.
    <bullet> Establish recreational fishery data collection programs or 
enhance existing programs.
Expansion of Current Programs--$1,167,000
    <bullet> Develop new FMPs and/or amend current FMPs to meet 
management goals of rebuilding overfished species; achieving MSY and 
OY; and addressing EFH, bycatch and fishing communities.
    <bullet> Address development of ecosystem management.
    <bullet> Develop new or refine existing limited access, EFQ/ITQ and 
other similar programs.
    <bullet> Assess and improve reporting and monitoring programs.
    <bullet> Conduct comprehensive reviews of various FMPs to determine 
their effectiveness.
    <bullet> Coordinate international species management.
    <bullet> Enhance public information/education dissemination.
    <bullet> Manage Pacific HMS.
Address Current Shortfalls--$1,850,000
    <bullet> Funds are currently not available for the Councils to:
        --meet the SFA requirements relative to EFH, bycatch, 
        overfishing and fishing communities
        --conduct international fisheries management
        --develop and monitor marine reserves
        --establish observer and other reporting and monitoring 
        programs
        --address issues related to seabird interactions, marine 
        debris, endangered species and marine mammals
Infrastructure Costs--$70,000
    <bullet> Increase in Council office space and/or costs.
    <bullet> Develop video conference capability in some areas.

RECOVER PROTECTED SPECIES: The Councils have some management activities 
that fall under this category, such as minimizing protected species 
interactions and impacts from fishing operations.

SUSTAIN HEALTHY COASTS: Council activities addressing essential fish 
habitat relate to this category.
    If you require any further or more detailed information, or have 
any questions relative to our 2002 funding request, please contact me.

South Atlantic Fishery Management Council
One Southpark Circle, Suite 306
Charleston, South Carolina 29407-4699

Pete Moffitt, Chairman
Fulton Love, Vice-Chairman
Robert K. Mahood, Executive Director
Gregg T. Waugh, Deputy Executive Director
                                          December 17, 1999

Ms. Penny Dalton
Assistant Administrator for Fisheries
National Marine Fisheries Service, NOAA
1315 East-West Highway
Silver Spring, MD 20910

Dear Ms. Dalton:

    We regret you were unable to attend the budget meeting with us on 
October 29, 1999. A number of issues were discussed relative to the FY 
2000 appropriations, the FY 2001 budget request and development of the 
FY 2002 budget. We also discussed ways to improve the Councils' input 
into the NOAA/NMFS budget process. Alan Risenhoover did his usual 
excellent job of briefing us on the status the budgets and provided 
guidance on how we could more effectively participate in the budget 
process for FY 2002. Following his guidance we have already submitted 
the Councils' FY 2002 budget request. We hope you will strongly support 
our request through the NMFS/NOAA/Commerce budget development process.
    As you are aware, the eight regional Councils requested an 
appropriation of $15 million for FY 2000. The proposed funding level of 
$13.15 million creates a shortfall of $1.85 million which will greatly 
impede the Councils' ability to meet the mandates of the SFA and to 
manage the fisheries resources in their jurisdictions. The attached 
``Funding Shortfalls'' document outlines the activities each Council 
will not be able to undertake because of the proposed budget shortfall, 
and the approximate additional funding that would be required to 
accomplish these activities. In cases where these listed activities are 
mandated by law the Councils will have to delay or eliminate other on 
going management programs if additional funding can not be obtained. We 
are requesting that NMFS provide the Councils with additional funding 
to help us do our job as specified in the Magnuson-Stevens Act. We 
realize you may not be able to make up the entire $1.85 million 
shortfall, however, any additional support you can provide would be 
greatly appreciated.
    If you have any questions please do not hesitate to call.

Sincerely,

Pete Moffitt
On behalf of the Regional Council Chairmen
     funding shortfalls for fishery management councils in fy 2000
    The eight regional Councils requested an appropriation of $15 
million for FY 2000 to meet their fisheries management 
responsibilities. The proposed funding level of $13.15 million creates 
a shortfall of $1.85 million which will greatly impede the Councils' 
ability to meet the mandates of the SFA and to manage the fisheries 
resources in their jurisdictions. The following briefly outlines the 
activities each Council will not be able to undertake because of the 
proposed budget shortfall, and the approximate additional funding that 
would be required to accomplish these activities. In cases where these 
listed activities are mandated by law the Councils will have to delay 
or eliminate other on going management programs if additional funding 
can not be obtained.
New England Council
    <bullet> Develop new FMPs for skates, red crab and shrimp
    <bullet> Program for managing capacity in the groundfish and 
scallop fisheries
    <bullet> Fund activities of the Research Steering Committee
    <bullet> US/Canada relations

Additional funding needs for these activities--$500K
Mid-Atlantic Council
    <bullet> EFH research to address adverse effects of fishing gear on 
EFH
    <bullet> Conservation engineering research to address bycatch 
reduction

Additional funding needs for these activities--$590K (includes COLA 
adjustments and non-labor costs)
South Atlantic Council
    <bullet> Collection/analysis of community related socioeconomic 
data

Additional funding needs for these activities--$75K
Caribbean Council
    <bullet> Stock assessments for key FMP species
    <bullet> Develop/monitor marine reserves to comply with EFH 
requirements

Additional funding needs for these activities--$127K
Gulf Council
    <bullet> Hire consultant to write FMP/amendment regulations
    <bullet> LDevelop amendments to address marine reserves, shrimp, 
spiny lobster, mackerel and vessel monitoring systems

Additional funding needs for these activities--$187K
Pacific Council
    <bullet> Develop rebuilding plans for 5 species of groundfish
    <bullet> Develop new HMS FMP
    <bullet> Meet AFA requirements
    <bullet> Marine reserves analysis
    <bullet> Community impacts analysis
    <bullet> Groundfish capacity reduction (strategic plan 
implementation)

Additional funding needs for these activities--$271K. The Pacific 
Council also needs $2 million to fund the proposed observer program.
North Pacific Council
    <bullet> Receiving additional funds to meet needs
Western Pacific Council
    <bullet> Unknown

Total additional funding needs for these activities--$1.75 million
    Senator Snowe. Thank you very much, Mr. Lone.
    Mr. Anderson.

         STATEMENT OF PHIL ANDERSON, SPECIAL ASSISTANT 
 TO THE DIRECTOR OF WASHINGTON DEPARTMENT OF FISH AND WILDLIFE

    Mr. Phil Anderson. Thank you, Madam Chair, and good 
morning. My name is Phil Anderson. I am a Special Assistant to 
the Director of the Washington Department of Fish and Wildlife, 
and I head up the Intergovernmental Policy Group.
    I appreciate the opportunity to speak to you today and 
present the views of the Department relative to the 
reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act.
    The State of Washington has very significant interest in 
issues within the Pacific Fishery Management Council and the 
North Pacific Council forums. Washington State is the home of 
many vessel owners, crew members and processors that 
participate in fisheries managed by the North Pacific Council. 
Similarly, Washington coastal communities, as well as 
communities in Puget Sound, serve as the home for commercial 
and recreational fisheries managed by the Pacific Council.
    The Department supports the revisions adopted by Congress 
in 1996 that addressed a more cautionary approach to managing 
the Nation's fisheries resources. The revisions have been 
aggressively implemented by both the Pacific and the North 
Pacific Councils. However, to fully implement and maintain this 
new course will require additional resources being made 
available.
    Congress must be prepared to provide support to the Council 
process, including attainment of the necessary scientific data 
to manage the fisheries and implement the Act. Partnerships 
between the Council and the States can assist in meeting the 
needs of the Council. The Department of Fish and Wildlife is 
committed to the Council process and our partnerships with the 
National Marine Fisheries Service and other coastal States.
    It is important that the Council have available to them 
management tools that are reasonable and consistent with the 
mandates of the Act and the National Standard Guidelines. The 
Pacific Council is currently struggling to address overcapacity 
in the face of greatly reduced harvest allowances in our 
groundfish fishery. In order for market forces to lessen the 
adverse impacts associated with capacity reduction, IFQ's must 
be available to the Council. We strongly recommend that the IFQ 
moratorium be allowed to sunset and that Congress inform the 
Councils of their intent as soon as possible.
    Council authority to assess fishers for fishery data 
collection should be expanded to include the Pacific Council. 
Congress has so far been unwilling to pay for an observer 
program on the west coast groundfish fishery, and we are 
concerned about the fishers' ability to pay fees to support an 
observer program unless this cost is distributed equally 
throughout the fleet. Only the North Pacific Council is now 
authorized to collect such fees and establish a fund to recover 
the cost of a mandated observer program. And we believe that 
authority should be extended to the Pacific Council.
    National Marine Fisheries Service deserves credit for their 
efforts to be responsive to the new direction established by 
the Act in 1996. It is a fact, however, that commitment alone 
does not get the job done. Regardless of how lean and mean the 
management machine is, sufficient resources must still be 
provided. Congress must provide additional resources to 
National Marine Fisheries Service to ensure timely review and 
approval of the regulatory amendments.
    The lack of adequate data, stock assessments and 3-year 
intervals in trawl surveys have played a large role in the 
failure of our management to detect the decline of many species 
of groundfish on the west coast. Absent additional resources 
being made available to the National Marine Fisheries Service, 
the Council will likely fail in its effort to manage groundfish 
stocks responsibly. We recommend the Congress provide National 
Marine Fisheries Service with the necessary resources to meet 
the data needs for managing west coast groundfish.
    The Act currently provides the States of Washington, Oregon 
and California interim authority, with certain exceptions, to 
enforce State laws and regulations against any vessel engaged 
in the dungeness crab fishery in the EEZ adjacent to the 
respective States. This authority has been a valuable tool for 
the Department in securing management agreements with coastal 
treaty tribes and has facilitated our ability to spread the 
effects of such agreements across all non-treaty fishers who 
fish in the EEZ adjacent to our State.
    This authority will expire in October of 2001. We recommend 
extending the authority until such time as the Secretary adopts 
a Federal management plan for this fishery.
    In summary, the Department believes that the changes made 
in the 1996 Act were thoughtful, timely, and will result in an 
improvement of the Nation's fishery resources. Successful 
implementation, however, will depend on Congress providing 
adequate tools and resources to National Marine Fisheries 
Service and the Councils. In short, we do not support an 
overhaul of the Act. A combination of new funding vehicles and 
resources to meet the demands of implementation will allow the 
Council to meet the intent of the Act.
    I appreciate the opportunity to testify before you today. I 
would be happy to answer any questions.
    Senator Snowe. Thank you, Mr. Anderson.
    Mr. Harp.

 STATEMENT OF JIM HARP, TRIBAL REPRESENTATIVE, PACIFIC FISHERY 
                       MANAGEMENT COUNCIL

    Mr. Harp. Madam Chairman, honorable members of the 
Committee, I appreciate the opportunity to testify today on 
behalf of 26 tribes in the Pacific Fishery Council area.
    I plan today to speak to five issues that bear on the 
reauthorization of the Magnuson-Stevens Act and add a comment.
    First, the tribal seat. In 1996, the Magnuson-Stevens 
Fishery Conservation and Management Act was reauthorized and 
amended. The tribal seat on the Pacific Fishery Management 
Council was added at that time. The tribes continue their 
support of the tribal seat.
    One small area of improvement would be for the tribal seat 
to be allowed designees. This addition would allow for tribal 
representatives from a specific area the opportunity to 
participate in the deliberations of fisheries within their area 
of interest. Currently, other government agencies represented 
on the Council have the ability to have designees for their 
seats.
    This is an effective and useful process because it allows 
the designation of individuals with specific expertise on a 
regional- or stock-specific issue, and it allows the Council 
representative to have a stand-in when workload demands the 
representative be elsewhere. The tribes are again requesting 
consideration of amending the tribal seat on the Council that 
would allow this designee request to be implemented in the 
reauthorization process.
    Second, fishery management plans. As a result of the 
amendments to the MFCMA in 1996, a major process of amending 
the various fishery management plans has been underway. While 
these amendments have often been useful and have dealt with 
needed issues, they have been very time consuming and have been 
a drain on the Council resources, as well as the resources of 
the various government agencies that work within the Council 
family.
    Also, many serious conservation concerns are facing most of 
our fisheries and the regional Councils simply need more 
resources to deal with these additional issues. An ability to 
provide stipends for scientists participating in the groundfish 
management team, the salmon technical team and the scientific 
and statistical committee would help ensure that the agencies 
who provide these scientists can devote the time of their top 
staff to serve in these advisory positions.
    Third, bycatch. A critical issue facing the groundfish 
fisheries on the west coast is bycatch. The declining trip 
limits for many species has aggravated the problem of dealing 
with bycatch. Because there is no observer program on the west 
coast, the Council cannot measure the amount of bycatch in our 
fisheries adequately. This insufficiency has complicated the 
Council's efforts to successfully deal with the problem. Any 
changes to the Act to facilitate the development and funding of 
an observer program would be helpful.
    Individual quotas: Another important issue is that of IQ's. 
Currently there is a moratorium on the development and 
implementation of IQ's in the Pacific Council area. While the 
tribes recognize that this is primarily a non-Indian issue, 
they support the concept of IQ's. IQ's can bring a great deal 
of stability to the fisheries, which would benefit both the 
Indian and non-Indian fishers.
    Fifth, stock assessments. Many of the problems facing 
fishery management on the west coast, especially groundfish 
management, have more to do with the inadequate funding for 
both NMFS and the PFMC rather than problems with the Magnuson-
Stevens Act itself. Several of the groundfish stocks are very 
depleted and we have problems assessing the status of these 
stocks, as well as developing recovery plans.
    The NMFS triennial trawl survey is an important part of our 
stock assessment process. However, it is not done often enough, 
and Congress seems to be moving away from funding adequate 
levels of NMFS research. Currently the Council tries to do 
stock assessments for each species on a 3-year basis. However, 
this is not adequate, given the number of important species we 
try to manage and the number of species that are yet to be 
assessed. Stock assessments are expensive, but necessary, if we 
are to adequately manage fisheries.
    A final comment. Within the reauthorization process, we 
request Congress to renew the commitment to the core purposes 
and policy statement behind the Magnuson-Stevens Act. That is, 
to ensure conservation and management of the national fisheries 
resources and to promote domestic fisheries under sound 
conservation and management principles. In the management of 
the salmon resource in the Pacific Northwest, the Pacific 
Council must meet the obligations as defined by the Pacific 
Salmon Treaty, Indian Treaty Fishing Rights, ESA, and other 
domestic management considerations.
    Also, just as the Magnuson-Stevens Act is required to be in 
compliance with other applicable laws, the application of these 
other applicable laws needs to comply with the Magnuson-Stevens 
Act. In the development and application of ESA obligations, 
there needs to be recognition of Magnuson-Stevens Act 
principles that these fishery resources are managed for 
utilization and under the goal for attainment of maximum 
sustainable yield.
    This concludes my testimony, and again, I appreciate your 
consideration of my remarks.
    [The prepared statement of Mr. Harp follows:]

Prepared Statement of Jim Harp, Tribal Representative, Pacific Fishery 
                           Management Council

    Madam Chairman, honorable members of the Committee, I appreciate 
the opportunity to testify today on behalf of the twenty-six tribes in 
the Pacific Fishery Council area.
    I plan today to speak to five issues that bear on the 
reauthorization of the Magnuson-Stevens Act and add a comment.

                              TRIBAL SEAT

    In 1996, the Magnuson-Stevens Fishery Conservation and Management 
Act (MFCMA) was re-authorized and amended. A tribal seat on the Pacific 
Fishery Management Council was added at that time. The tribes continue 
their support of the tribal seat. One small area of improvement would 
be for the tribal seat to be allowed designees. This addition would 
allow for tribal representative(s) from a specific tribal area the 
opportunity to participate in the deliberations of fisheries within 
their area of interest. Currently other government agencies represented 
on the PFMC have the ability to have designees for their seats. This is 
an effective and useful process because it allows the designation of 
individuals with specific expertise on a regional or stock specific 
issue and it allows for the Council representative to have a stand-in 
when workload demands the representative to be elsewhere. The tribes 
are again requesting consideration of amending the tribal seat on the 
Council that would allow this designee request to be implemented in the 
reauthorization process.

                        FISHERY MANAGEMENT PLANS

    As a result of the amendments to the MFCMA in 1996, a major process 
of amending the various Fishery Management Plans has been underway. 
While these amendments have often been useful and have dealt with 
needed issues, they have been very time consuming and have been a drain 
on Council resources as well as the resources of the various government 
agencies that work within the Council family. Also, many serious 
conservation concerns are facing most of our fisheries and the regional 
Councils simply need more resources to deal with these additional 
issues. An ability to provide stipends for scientists participating in 
the groundfish management team, the salmon technical team, and the 
scientific and statistical committee would help ensure that the 
agencies (who provide these scientists) can devote the time of their 
top staff to serve on these advisory positions.

                                BYCATCH

    A critical issue facing the groundfish fisheries on the west coast 
is bycatch. The declining trip limits for many species has aggravated 
the problem of dealing with bycatch. Because there is no observer 
program on the west coast, the Council cannot measure the amount of 
bycatch in our fisheries adequately. This insufficiency has greatly 
complicated the Council's efforts to successfully deal with the 
problem. Any changes to the Act to facilitate the development and 
funding of an observer program would be helpful.

                           INDIVIDUAL QUOTAS

    Another important issue is that of Individual Quotas. Currently 
there is a moratorium on the development and implementation of IQ's. 
While the tribes recognize that this is primarily a non-Indian issue, 
they support the concept of IQ's. IQ's can bring a great deal of 
stability to fisheries, which would benefit both Indian and non-Indian 
fishers.

                           STOCK ASSESSMENTS

    Many of the problems facing fishery management on the west coast, 
especially groundfish management, have more to do with inadequate 
funding for both NMFS and the PFMC rather than problems with the 
Magnuson Act itself. Several of the groundfish stocks are very depleted 
and we have problems assessing the status of these stocks as well as 
developing recovery plans. The NMFS Triennial trawl survey is an 
important part of our stock assessment process. However, it is not done 
often enough and Congress seems to be moving away from funding adequate 
levels of NMFS research. Currently the Council tries to do stock 
assessments for each key species on a three-year basis. However, this 
is not adequate given the number of important species we try to manage 
and the number of species that are yet to be assessed. Stock 
assessments are expensive but necessary if we are to adequately manage 
fisheries.

                             FINAL COMMENT

    Within the reauthorization process, we request Congress renew the 
commitment to the core purposes and policy statement behind the 
Magnuson-Stevens Act. That is to ensure conservation and management of 
the national fisheries resources and to promote domestic fisheries 
under sound conservation and management principles. In the management 
of the salmon resource in the Pacific Northwest, the Pacific Council 
must meet the obligations as defined by the Pacific Salmon Treaty, 
Indian Treaty Fishing Rights, ESA, and other domestic management 
considerations. Also, just as the Magnuson-Stevens Act is required to 
be in compliance with other applicable laws, the application of these 
other applicable laws needs to comply with the Magnuson-Stevens Act. In 
the development and application of ESA obligations, there needs to be 
recognition of Magnuson-Stevens Act principles that these fishery 
resources are managed for utilization and under the goal for attainment 
of maximum sustainable yield.
    This concludes my testimony, and again I appreciate your 
consideration of my remarks.

    Senator Snowe. Thank you. Thank you all for your testimony 
here this morning.
    Let me begin with you, Ms. Dalton. I would like to explore 
this with the panel. The issue that has repeatedly come up in 
today's testimony, which I have heard from witnesses in other 
field hearings and will hear from other witnesses testifying 
here today, is the issue of the quality of the stock 
assessments and the lack of scientific data.
    So what is the problem, and how are we going to rectify it? 
I hear from my fishermen at home in the State of Maine, and it 
was one of the major issues that came before the Subcommittee 
during the course of the field hearings. I also just read an 
article that appeared in the National Fishermen, in the 
February issue, that talked about the lack of data and the lack 
of support by the agency and Congress for quality stock 
assessments. This lack of support is making the job much 
harder.
    We are here this morning to discuss the groundfish 
industry. We are not sure exactly what the causes are that have 
been attributed to the decline in the groundfish industry here 
off the west coast. We heard similar testimony yesterday in 
Alaska, with the opilio crab. These two problems are obviously 
connected in some way. But what are we going to do? What is it 
going to take to rectify this problem?
    I know it is Congress' responsibility, but I think it is 
your agency's and all of our responsibilities. What will be the 
major issues that will help turn this around? Is it all money? 
Will it be more management tools?
    Obviously the financial support of Congress and the agency 
is an issue. I think it is going to require a cooperative 
commitment on all of our parts, to ensure that we get the kind 
of data that will rebuild confidence in the ultimate decisions 
that are made.
    So I would like to have you address that here this morning. 
This article that appeared in the National Fishermen talked 
about one researcher at the Massachusetts Institute of 
Technology Sea Grant Program, who was very frustrated because 
he was trying to get permission from NMFS to test a low-impact 
scallop dredge, and he was unable to do it. The bureaucratic 
paperwork and process led to inevitable delays, until the point 
where he finally gave up.
    This researcher said that the process totally discouraged 
research by scientists, let alone by fishermen. He also said 
that they are essentially blocking the intent of the original 
Magnuson-Stevens Act for approval of an experimental fishery. 
He said that the permitting process was so ridiculous that it 
made research extremely difficult and frustrating.
    There are a lot of issues at stake here. I think we really 
have to be committed to resolving these issues in this 
reauthorization process. So will you tell me what it is going 
to take?
    Ms. Dalton. Obviously one huge factor is resources. I think 
there are some events that have led us to where we are now--the 
historic precedent, where we have put our efforts on the nature 
of the fisheries themselves, and distribution of resources. In 
Alaska, and I would also suggest in New England, we actually 
have the best traditional investment in our stock assessment 
resources, in part because that is traditionally where our 
biggest fisheries have been. So we know that we need the 
assessments and, over the years, we have built up a better 
stock assessment program.
    A problem that we have on the west coast, and you also 
heard about it in the Southeast, is we have fisheries where we 
have a huge number of stocks. We have 80-some species that are 
involved in the groundfish fishery. In the Southeast, we have a 
few hundred species that are actually involved in their 
groundfish fishery. It is difficult to complete stock 
assessments for each. And the harvest for each of the different 
stocks is not necessarily very large.
    What we have done on the west coast is focus most of our 
attention on assessing whiting, which is the big biomass 
fishery, and we have not been able to put the resources into 
assessing a lot of the different rockfish species that are 
really where we are having trouble now. We have our acquisition 
plan. We also have our fisheries information system, which 
intended to get fishery-dependent data.
    One of the things that we are very excited about, that we 
think will improve our stock assessments markedly, are the new 
research vessels. Thanks to Senator Stevens' help, we got the 
money last year for the first one of those four vessels. One of 
the problems on the west coast is we have not had a fishery 
vessel here. There just has never been the funding it.
    Senator Snowe. How many vessels do you have for that 
purpose?
    Ms. Dalton. I am not sure. I believe about six right now, 
across the country. But a lot of them are old. Most of them are 
over 35 years old. And the new vessels are also acoustically 
quiet, so we get much better information from them. One of the 
issues, as you raised with MIT, is not really stock 
assessments--it is gear. MIT is trying to figure out new 
techniques to improve gear efficiency, reduce bycatch, and deal 
with the habitat issues. That has been a separate effort.
    A lot of that is the work that you and other members have 
been doing to develop cooperative research programs. We have 
some cooperative research that is being done on the west coast. 
But one of the things that we would like to do is invest in 
more.
    Senator Snowe. Well, if we were to do one, two, or three, 
what should it be?
    Ms. Dalton. The easiest thing to do is to invest more money 
in it. The problem is you are never going to have enough money 
to assess all these resources, and so you have got to put the 
dollars where you get the best return.
    Senator Snowe. Such as the observer program?
    Ms. Dalton. The observer program would be a huge help on 
getting fishery-dependent data and also getting information on 
bycatch. And that was one reason why it was in our request last 
year.
    Senator Snowe. Mr. Lone, can you address that? I would like 
to have the rest of the panel also address this issue, because 
obviously you have all raised it in your testimony.
    Mr. Lone. Thank you, Senator Snowe, I can address two or 
three items. Number one, I am a strong supporter of our need 
for an observer program to identify what our bycatch is. We are 
severely constrained as we establish annual allocations for the 
various species, since we do not have an observer program.
    Speaking about the fishermen involved in the assessment 
process, we have looked into this issue on the west coast on a 
limited basis. As you have pointed out, there are bureaucratic 
challenges to implementing such an approach.
    Please note the letters that I appended regarding funding 
needs. In December 1998, with the help of the NMFS Northwest 
and Southwest Regions and Science Centers, the Council prepared 
a plan describing the need for additional funding. 
Unfortunately, we have been unable to secure funding to date. 
While this plan was for the year 2001, it can serve somewhat as 
a master plan for what is needed in future years.
    Senator Snowe. Mr. Anderson.
    Mr. Phil Anderson. Thank you, Senator Snowe.
    First of all, let us recognize that the groundfish fishery 
has been ignored up until very recently. It has been passively 
managed. We did not have a groundfish plan until 1982. We had 
our first stock assessment along the lines of about 1988. We 
cannot passively manage this resource and be successful.
    Priorities, it is a matter of priorities. Take a look at 
the expenditures in an agency like mine or an agency in the 
Northwest region of the National Marine Fisheries Service on 
the amount of dollars being spent on salmon versus groundfish. 
I do not know the precise numbers in the National Marine 
Fisheries Service, but I do know the numbers in our budget. And 
groundfish takes a back seat in a big way in a long limousine.
    So what are the solutions? Partnerships between the 
National Marine Fisheries Service and the States on collecting 
data. Just the basic data of looking at the catches that are 
landed, looking at age structures, getting otoliths read, 
finding age readers--just those very basic things that we need 
to do to get some more information about some of these stocks 
does not cost a lot of money relative to building a new survey 
vessel, but just getting qualified people, making an investment 
and getting the basic data and information coming out of the 
landed catch would be a big help, in my judgment.
    Where is the funding going to come from? I hate to come 
before Members of Congress or the legislature and continually 
say the answer is just give us more money. That does not 
usually sell real well. But I think the Conservation and 
Reinvestment Act, CARA, there are substantial dollars in Title 
I that could be used by the States, in partnership with 
National Marine Fisheries Service, to get us the kind of data 
that we need to successfully manage these fisheries.
    And those are the kinds of partnerships that I am talking 
about. A lot of the stock assessment authors and some of the 
expertise are in the State agencies, as well as National Marine 
Fisheries Service. Certainly the observer program. It is not, 
in my judgment, a big ticket item, but it is a very--we have to 
know what our total mortalities are.
    That is another linchpin to managing any of these species, 
knowing what our total fishery-related mortalities are. And we 
do not know that right now. It is not going to cost a lot of 
money to get that information, but the piggy bank is dry right 
now. Whether it costs a dollar or a million dollars, the piggy 
bank is empty. And we do not have the necessary funds to get 
that information.
    So some basic data collection, through partnerships, and an 
observer program, along with the additional surveys, trawl 
surveys, on an increased interval, not the every 3-year 
interval we are on right now. Those three things, in my mind, 
could greatly improve our management of west coast fisheries.
    Senator Snowe. Do you think good data would have predicted 
the decline in the groundfish industry?
    Mr. Phil Anderson. I think timely data would have given us 
a much earlier indication of what was going on and we could 
have reacted to it before the collapse occurred, to the extent 
that it has.
    Senator Snowe. Mr. Harp, would you care to comment on this 
issue? I agree with you on the tribal designee, and we will 
explore that. It is a good suggestion.
    Mr. Harp. Thank you for that comment, Madam Chair.
    I would just like to echo what Mr. Anderson has said. As I 
said in my testimony, I think we need to get more frequent and 
better stock assessments, which requires additional money. I 
think we need to have an observer program implemented on the 
west coast here to get a better estimate of the amount of fish 
that are actually caught. That would address the bycatch part 
that I mentioned in my testimony.
    I think there also needs to be an emphasis for more 
cooperation and coordination amongst the tribal, State and 
Federal agencies with the data that they do have on hand. 
Although it is limited, we can then expand from there.
    One of the things about a situation in that resource is 
that when you get to a declining level, I think it does promote 
much more cooperation than when you do have a lot of abundant 
species. That has been my observation over 25 years in natural 
resources. When you have less to deal with, it fosters much 
more cooperation than when you have plenty of fish.
    Thank you.
    Senator Snowe. Thank you.
    Senator Gorton.
    Senator Gorton. Mr. Anderson, was the Council properly 
consulted and asked for input on the part of the National 
Marine Fisheries Service in preparing its 4H paper with respect 
to the impact of commercial harvest on listed salmon stocks?
    Mr. Phil Anderson. Senator Gorton, to my knowledge, the 
draft 4H papers were prepared without input from the Council.
    Senator Gorton. If you had provided input, would it have 
been different with respect to the impact on harvest than you 
have read in the 4H paper?
    Mr. Phil Anderson. We are, as the Washington Department of 
Fish and Wildlife, along with other entities, being provided an 
opportunity to provide comments to National Marine Fisheries 
Service on that draft. And we are in the process of formulating 
our comments. And I do not have specific knowledge of the 
precise language, but I know the thrust of the 4H paper and how 
it represents harvest versus hydro.
    Out of the 12 listed species in the Columbia River, seven 
of them essentially do not have any harvest. And so eliminating 
harvest on those seven species that does not exist is not going 
to rebuild those stocks. There is harvest impact on 
particularly the Fall Snake River run. In our judgment, 
balancing the impacts of the actions necessary to recover those 
fish between hydro and harvest, that that is the appropriate 
way to proceed, and not to put it all on the backs of harvest.
    Senator Gorton. Thank you.
    Ms. Dalton and Mr. Stelle, is there in your regulations or 
in your minds a distinction between essential fish habitat 
under the Magnuson-Stevens Act and critical habitat with 
respect to listed fish under the Endangered Species Act? Is 
there critical habitat that is not essential fish habitat? Is 
there essential fish habitat that is not critical habitat?
    Ms. Dalton. Will may have a different opinion on it. I 
would say the two of them probably would be very similar, 
because the definition of essential fish habitat is the waters 
and substrate that are essential for the fish to grow and spawn 
and feed, and critical habitat is what is necessary for the 
continued existence of the species. So it would seem that the 
two should be fairly similar to each other, if you look at it 
on the face of the law.
    I think the way that they are treated under the two 
different statutes are very different and the requirements that 
are associated, and our responsibilities, are very different in 
the two statutes. On the one, what we are talking about in the 
Magnuson-Stevens Act is a consultative process. Section 7 
consultation requirements in the ESA are much tighter.
    And I will let Will comment.
    Mr. Stelle. Good question, Senator. Penny is right. On the 
matter of the substance of what is critical habitat for a 
species versus essential fish habitat, there are not huge 
differences. The huge difference is in what is the implication 
of a designation. Under the Endangered Species Act, the 
designation of critical habitat does invoke the powerful 
requirements of Section 7 of ESA, and they are much more 
stringent and powerful than the advisory consultation process 
under the Magnuson-Stevens Act. So it is the effect of the 
designation where the principal difference is, sir.
    Senator Gorton. And if we were to take the waters of the 
State of Washington, are all of them both EFH and critical 
habitat?
    Mr. Stelle. No. All of the waters of the State of 
Washington have not been designated either as critical habitat 
or as EFH. There are waters that are not critical habitat and 
there are waters which are not EFH.
    Senator Gorton. Describe some that are not EFH.
    Mr. Stelle. The freshwaters of the State of Washington that 
have not been currently or historically occupied by salmonids 
or those freshwater systems which have historically been 
occupied by salmonids but which are now blocked off from 
passage. So if it is not historically salmon waters, it is not 
EFH for salmon purposes.
    Senator Gorton. You used the term ``historic.'' If some 
human construction, a dam or anything else, has meant that say 
for the last 40 or 50 years there are no salmon but there were 
salmon 50 or 100 years ago, is it or is it not EFH?
    Mr. Stelle. To the best of my knowledge, sir, no. And the 
classic case in point is Grand Coulee. The waters of the 
Columbia above Coulee are not EFH. That is permanent blockage 
of fish passage.
    Senator Gorton. Okay, thank you.
    Fish obviously live in water. How do you get to the point 
where you have EFH that is not water--uplands? And are you not 
on your maps designating substantial land areas as essential 
fish habitat?
    Mr. Stelle. Again, Senator, to the best of my knowledge, 
no. My recollection of the anticipated designation of EFH is it 
is the aquatic system.
    Senator Gorton. So a map that showed a whole county really 
is just a shorthand to say the waterways within that county and 
not the land area?
    Mr. Stelle. Yes, sir. And my recollection of the general 
regulation is that it does identify activities in the upland 
riparian area as factors which may affect EFH. But the actual 
area which is designated as EFH is the water system itself.
    Senator Gorton. Well, if the land is a factor that may 
affect EFH, what control does the designation or the Magnuson-
Stevens Act give to the National Marine Fisheries Service over 
activities on that land?
    Mr. Stelle. Under the terms of the Magnuson-Stevens Act, it 
provides us with the authority to make recommendations to the 
agency that may be engaged in that activity on how those 
activities may affect or adversely affect the essential fish 
habitat. Those recommendations, and also the recommendations of 
the Council on that matter, are advisory only to the agency 
doing the thing.
    Senator Gorton. And so in that respect are dramatically 
different from critical habitat?
    Mr. Stelle. Correct, sir.
    Senator Gorton. Thank you.
    Senator Snowe. Thank you, Senator Gorton.
    Senator Stevens.
    Senator Stevens. I think the chair said that she agreed 
with Mr. Harp. Do the rest of you have designated 
representatives, if you are absent, on the Council? I think it 
is a habit in the North Pacific Council that the seat can be 
filled by any person within the agency or the area that has the 
right to hold it. Apparently, from Mr. Harp's point of view, 
they have to have just one. And he is asking for some 
flexibility.
    Do you agree with that, Mr. Anderson?
    Mr. Phil Anderson. The State agencies and Federal agencies 
can have designees. But on the Pacific Council, the eight 
members that are either in the at-large or obligatory seats 
cannot have designees.
    Senator Stevens. Why? Is that just because the Congress put 
it that way or is that the way you all want it?
    Mr. Phil Anderson. No, that is because that is the way 
Congress established it in the Act.
    Ms. Dalton. For the State and Federal, it is the 
representative or their designee. But the at-large members are 
included because of their unique qualifications. They are not 
included on the basis of their representation of the State or 
Federal Government.
    Senator Stevens. I can understand that if it is a 
particular individual who has significant qualifications. But 
in an area such as a representative of the tribes, I do not see 
why they should not be able to designate their person.
    I do not have any questions. I appreciate very much your 
clarifications on the problems of the Pacific Council area.
    Senator Snowe. Can I just ask one other question on IFQ's? 
I gather you agree about lifting the moratorium on IFQ's. Would 
you recommend that Congress establish certain conditions under 
which IFQ's could exist?
    Mr. Phil Anderson. I believe that the National Academy of 
Sciences, that did the review for Congress, recommended that 
certain criteria be established by Congress in the Act relative 
to IFQ's. I would support that.
    Senator Snowe. Mr. Lone and Mr. Harp, do you have any 
thoughts on this matter?
    Mr. Lone. I agree with Mr. Anderson.
    Mr. Harp. I agree with Mr. Anderson and Mr. Lone.
    Senator Snowe. Mr. Stelle, in response to Senator Gorton's 
question about what areas are designated as EFH, how much of 
the EEZ is designated as essential fish habitat off the coast 
here?
    Ms. Dalton. The Pacific Council has not completed an EFH 
amendment for Pacific salmon yet. So, prior to that, the 
Council has worked on it, but nothing has been submitted to us 
yet.
    Probably, we have most of the EEZ covered because of the 
large number of species and the diversity of areas that you 
find them in.
    Senator Snowe. So that is almost the entire area?
    Mr. Stelle. Madam Chair, for groundfish, the EEZ has been 
designated as EFH. And Ms. Dalton is right, for salmon, the 
process has not--we are still in the middle of the process of 
working on that designation.
    Senator Snowe. So it is the entire EEZ, out to 200 miles. 
We will have to re-visit this issue. How to define and 
interpret the essential fish habitat provisions continue to 
surface at these hearings.
    Are there any other questions from the Committee?
    [No response.]
    Thank you all very much. We appreciate your testimony here.
    And now for the second panel. Our first witness will be Mr. 
Bob Alverson, Manager of the Fishing Vessel Owners Association; 
Mr. Ralph Brown, a member of the Pacific Council; Mr. Rod 
Moore, Executive Director of the west coast Seafood Processors 
Association; and Mr. Tim Henkel, who represents the Deep Sea 
Fishermen's Union of the Pacific.
    We will begin with Mr. Alverson. Thank you.

            STATEMENT OF ROBERT ALVERSON, MANAGER, 
               FISHING VESSEL OWNERS ASSOCIATION

    Mr. Alverson. Thank you, Madam Chair. My name is Bob 
Alverson, and I am representing the Fishing Vessel Owners 
Association, here in Seattle. I would like to thank you for the 
opportunity to provide this statement.
    The Association is a trade association, representing the 
owners of 84 hook and line vessels that operate in longline 
fisheries from California to Alaska. Our species of concern 
include halibut, sablefish, Pacific cod in the Bering Sea and 
Alaska, and sablefish and rockfish species off the coast of 
Washington, Oregon and California.
    My oral comments will be tailored to the lower Pacific 
coast. Our written comments significantly outline the benefits 
of the halibut/sablefish IFQ program. Based on the favorable 
experience in that program in Alaska, the Association believes 
that individual transferable quotas should be available for 
application to any fishery in the United States exclusive 
economic zone. The Association urges Congress to allow the 
statutory moratorium on individual quotas to expire in 
accordance with its terms.
    This position is strongly supported by such organizations 
as the Alaska Crab Coalition, Deep Sea Fishermen's Union, 
numerous trawl organizations up and down the coast, and all of 
the regional fishery management Council chairmen. And, equally 
notable, the National Academy of Sciences has recommended it, 
based on your request to have them analyze the situation.
    Relative to the lower coast, the Association is seriously 
alarmed and adversely affected by the conditions prevailing in 
the west coast groundfish fisheries under the jurisdiction of 
the Pacific Council. Here is a case crying out for some form of 
IFQ. Excess harvesting capacity and extremely depressed 
resource conditions combine to defeat conventional management. 
Indeed, it is conventional management, necessitated by the IFQ 
moratorium and a flawed system of scientific data acquisition 
and analyses, that have caused these conditions.
    Specific to our fixed-gear fleet, the fixed-gear sablefish 
fishery off the coast of Washington, Oregon and California is 
managed with three tiers, each tier having a different trip 
limit based on the historical production of the participating 
vessels. In 1999, each vessel that had a sablefish permit was 
allowed a nine-day season, beginning August 15th, regardless of 
the poundage of the applicable tier.
    The Pacific Council attempted to allow a longer period of 
time for harvest in order to provide safety, management 
certainty and to better fit the sablefish harvest with other 
fishery activities. However, NOAA general counsel's office 
maintained that to allow too much time to catch a trip limit 
would be construed as an IFQ. Therefore, it would violate the 
moratorium on the Magnuson-Stevens Act.
    On that basis of that ruling, the Pacific Council is 
currently forced to adjust a harvest time and trip limit sizes 
for the fleet, such that the fleet only has the probability of 
not catching their trip limit of 26 percent. This last season, 
on August 15th, most of my fishermen in our organization have 
what they call a tier 2 permit, which is equivalent to about 
30,000 to 40,000 ground pounds of sablefish, 22,000 pounds 
dressed weight, and they were given a nine-day season to go out 
and catch that.
    The caveat with that is based on a mathematical 
progression, that 26 percent probability, that the average guy 
will not catch his trip limit. Which is quite an incentive to 
try to go out and force the issue and try to catch your 26 
percent--beat the system. But if you beat the system, the 
system tells you, we will shave another day off next year so 
that we can maintain this overhead. The 26 percent probability 
of not allowing us to catch our historical fish is called 
overhead, and that satisfies NOAA general counsel in not 
calling this an IFQ.
    Madam Chairman, we request for the Pacific Council, if at 
all possible, that the Senate let us know if they are going to 
go ahead and allow this moratorium to expire or not by April. 
By giving us some indication in April, it would save the 
Pacific Council two full seasons in trying to prepare what is 
going on in terms of how it is affecting the industry.
    IFQ's take a lot of time to design and implement. It took 
nine years for us to design and implement the one in the North 
Pacific Council. We had six years of design work going on in 
the sablefish fishery in the Pacific Council, that Jim Lone 
spoke to earlier, when the moratorium came into effect. It 
takes a lot of time, a lot of designing. And saving two full 
seasons would greatly help the Pacific Council.
    Thank you.
    [The prepared statement of Mr. Alverson follows:]

 Prepared Statement of Robert Alverson, Manager, Fishing Vessel Owners 
                              Association
Madam Chair:

    On behalf of the Fishing Vessel Owners Association (``FVOA''), I 
would like to thank you for the opportunity to provide this statement. 
The FVOA is a trade association representing the owners of 84 hook-and-
line fishing vessels that operate in fisheries from California to 
Alaska, and in the mid-Pacific Ocean. Our fisheries include halibut, 
sablefish, and Pacific cod in the Bering Sea and Gulf of Alaska, and 
sablefish off the coasts of Washington, Oregon, and California, as well 
as albacore within and beyond the United States Exclusive Economic Zone 
in the Pacific Ocean. Although I am, at present, a member of the 
Pacific Fishery Management Council, and I am a former member of the 
North Pacific Fishery Management Council, I provide this statement 
solely in my capacity as Manager of the FVOA. I note that the Deep Sea 
Fishermen's Union, which represents the crewmen on vessels owned by 
FVOA members, has endorsed this statement.

                                SUMMARY

    The FVOA and DSFU believe that the 1996 amendments to the Magnuson-
Stevens Fishery Conservation and Management Act (16 U.S.C. 1801, et 
seq.) have provided, in several respects, the basis for improved 
management of our nation's fisheries. The Act's National Standards on 
safety (National Standard 10, 16 U.S.C. 1851(a)(10)) and bycatch 
(National Standard 9, 16 U.S.C. 1851(a)(9)), enacted in the Sustainable 
Fisheries Act of 1996, are notable for the focus that they have 
provided on critically important aspects of fisheries management. The 
FVOA and DSFU were joined by the Alaska Crab Coalition (``ACC'') in 
first proposing the enactment of these new National Standards, and in 
securing wide support among Washington State and Alaskan fishing 
industry organizations. The FVOA, DSFU, and ACC also contributed to the 
development of conservation-related amendments to the then Magnuson Act 
in 1990.
    The habitat provisions of the Sustainable Fisheries Act have 
contributed to the progressive management of our fisheries. In 
particular, these provisions have helped to draw attention to the need 
for actions to reduce the impacts of trawling on the benthic 
environment, which serves as nursery grounds for valuable species of 
fish. The FVOA, DSFU, and ACC took the initiative among fishing 
industry groups to propose habitat-related amendments during the 
process leading to the Sustainable Fisheries Act.
    Most importantly for the FVOA and DSFU, the Sustainable Fisheries 
Act preserved the Individual Fishing Quota (``IFQ'') program that had 
been established for the halibut and sablefish fisheries off the coast 
of Alaska. This program, after ten long years of preparation by the 
North Pacific Fishery Management Council and the Department of 
Commerce, ended the deadly and damaging open access halibut and 
sablefish fishing derbies. IFQs have been the great success that their 
proponents had predicted from the outset of the development of the 
program.
    However, one provision of the Sustainable Fisheries Act--the 
moratorium on IFQs--cannot be viewed as contributing in a positive way 
to fisheries management [16 U.S.C. 1853(d)(1)]. On the contrary, this 
congressionally-imposed constraint on fisheries managers serves as a 
roadblock to effective management, especially, but not exclusively, in 
fisheries plagued by excess fishing capacity and/or low resource 
abundance.
    Based on the very favorable experience in the halibut and sablefish 
fisheries, the FVOA and DSFU believe that individual transferable 
quotas should be available for application to any fishery in the United 
States Exclusive Economic Zone. The FVOA and DSFU urge Congress to 
allow the statutory moratorium on individual quotas to expire in 
accordance with its terms. This position is strongly supported by the 
ACC, as well as by all the regional fishery management Council 
chairmen. Equally notable is the fact that the report to Congress by 
the National Research Council of the National Academy of Sciences, as 
directed by the Congress in the 1996 amendments (section 108(f), P.L. 
104-297) definitively describes the benefits of individual fishing 
quotas. The development and design of IFQ programs by the regional 
fishery management Councils should be permitted as recommended by the 
NRC. [Executive Summary, Prepublication Copy, December 18, 1998.]
    The FVOA and DSFU are seriously alarmed, and adversely affected, by 
the conditions prevailing in west coast groundfish fisheries under the 
jurisdiction of the Pacific Fishery Management Council. Here is a case 
crying out for some form of IFQs. Excess harvesting capacity and 
extremely depressed resource conditions combine to defeat conventional 
management. Indeed, it is conventional management necessitated by the 
IFQ moratorium, and a flawed system of scientific data acquisition and 
analysis, that have caused these conditions. An attempt at creative 
management by the Pacific Council only resulted in a legal 
determination that the proposed measures violated the IFQ moratorium. 
As described in detail, below, this led to perverse results. If 
Congress decides to extend the IFQ moratorium, an exception should be 
made for west coast groundfish fisheries. At a minimum, Congress should 
ensure that the Pacific Council will no longer be constrained by 
interpretations of the IFQ moratorium that prevent the establishment of 
vitally needed, remedial management measures.
    The FVOA and DSFU also ask Congress to extend to the Pacific Region 
the fisheries research plan provisions of the Magnuson-Stevens Act. [16 
U.S.C. 1862.] As discussed further, below, there is an urgent need for 
a comprehensive observer program in the depressed groundfish fisheries 
off the Pacific Coast. There is simply no other way to obtain reliable 
data on bycatch of depressed, and even threatened, species. It is true 
that the industry would be hard-pressed to find the funds to pay for an 
observer program. But it is also the case that Congress has been 
unwilling, to date, to provide federal funds. An effective observer 
program is indispensable to recovery of the fish stocks and the fishing 
industry. Authorization for the imposition of observer fees on industry 
should be provided, so that in the continued absence of federal 
funding, the vitally needed observer program can be established. The 
fishing industry stands to benefit from improved conservation of our 
public resources. Consequently, the industry should be prepared to pay 
for the needed observer program, if federal funding is inadequate or 
unavailable. Playing Russian Roulette with our fisheries has proved 
disastrous to important groundfish species and to the industry that has 
depended on them. We must have observer data in order to manage our 
fisheries with confidence that we are doing the right things. I note 
that, in the event that an IFQ program is established for these 
fisheries, industry capability and willingness to fund an observer 
program would, no doubt, be considerably enhanced.

Conservation
    As discussed in detail, below, replacement of the open access race 
for fish by the halibut/sablefish IFQ program has resulted in improved 
conservation and management. The incidental catch of halibut in the 
directed sablefish fishery has declined 38%. The incidental catch of 
groundfish in the sablefish fishery has dropped by 39%. Halibut 
mortality due to lost fishing gear has decreased by 59.65% (translating 
to an average $3.5 million dollar saving, annually).
    Incidentally caught sablefish is no longer discarded in the 
directed halibut fishery. Sablefish in the western and central Gulf of 
Alaska is now fully harvested, not only avoiding waste, but also 
generating an economic gain for the industry (an average $3.93 million 
gain, annually).
    These improvements accord with the principal purpose of the 
Magnuson-Stevens Act, which is conservation, and with a major, related 
objective of that statute, minimizing bycatch and related mortality. 
[16 U.S.C. 1851(a)(1), (9).]
    In the absence of IFQs, the west coast groundfish fisheries have 
continued to be plagued by excessive waste. This has contributed to the 
further decline of once-abundant resources.

Safety
    As noted above, the Magnuson-Stevens Act requires that fisheries 
management promote the safety of human life at sea. [16 U.S.C. 
1851(a)(10).] Replacement of the open access race for fish by the IFQ 
Program has greatly improved the safety of life in the halibut and 
sablefish fisheries off the Alaskan coast. The former halibut fishing 
derby was the second most dangerous occupation in the United States 
(preceded only by the Bering Sea crab fisheries).
    Weather conditions off the coasts of Washington, Oregon, and 
California are by no means as severe as the conditions off the coast of 
Alaska, where the halibut/sablefish program functions. Nevertheless, 
there are injuries and vessel and gear losses attributable to the race 
for fish in bad weather in the Pacific Council region. IFQs would 
undoubtedly provide relief, insofar as the pace of the fisheries would 
be slowed and fishermen would be able to choose the conditions in which 
they would carry out their operations.

Communities
    The Magnuson-Stevens Act requires that fisheries management take 
into account the interests of fishing communities. [16 U.S.C. 
1851(a)(8).] Community development quotas (``CDQs''), which are 
integral to the halibut/sablefish IFQ program, have assured isolated, 
low-income, Alaskan native coastal communities a major source of 
employment and revenue. At the same time, economic and social 
disruption of other communities has been avoided; the top five halibut 
ports and the top four sablefish ports remain the same as under the 
open access system. Small vessels serving minor ports have been 
guaranteed their place in the fisheries, and an industry fee-based loan 
program has been established for the owners of those vessels and for 
new entrants to the fisheries. In short, this IFQ program has increased 
the overall value of the fisheries, making it possible to dedicate a 
portion to the poorest communities, without adversely affecting the 
others.
    The FVOA and DSFU would by no means suggest that CDQs or an 
industry-funded loan program be established in the Pacific region. 
Conditions there are quite different from those in Alaska, where 
communities are both small and isolated and have fewer sources of 
income. However, it is a fact that some communities in the Pacific 
region will suffer greatly from the depressed conditions in the 
groundfish fisheries and that an IFQ system, by improving those 
conditions, would contribute to the recovery of the affected, local 
economies.

Overcapitalization
    The Magnuson-Stevens Act provides for consideration of economic 
efficiency, and for reduction of excess fishing capacity. [16 U.S.C. 
1851(a)(5), 1861a (a)-(e).] Excess capacity in fisheries has been 
identified as one of the fundamental causes of resource declines, 
unsafe conditions, lost economic efficiency, and lower quality product. 
The halibut/sablefish IFQ program has resulted in a reduction of the 
halibut fleet from 3,450 (1994) to 1,601 (1998). [Restricted Access 
Management (``RAM'') Report, NMFS, 1999, page 27.] Conservation risk 
associated with fishing pressure on the resources has declined 
radically. Unsafe conditions due to 24-hour halibut derbies and 2-week 
sablefish seasons have disappeared, as fishermen have gained the 
opportunity to conduct their operations in periods of good weather 
during eight months of the year. Longer seasons have led to full-time 
employment on vessels and in processing plants, and higher fish values 
have resulted in better lives for vessel owners and crews. Slower paced 
fisheries have allowed much improved handling of the catches, and thus, 
better quality product for the consumer. It is reliably estimated that 
a government-funded buyback achieving what was accomplished by the 
halibut/sablefish IFQ program would have cost the taxpayers 
approximately $318.8 million.
    There is considerable doubt that an industry-funded buyback can 
work in the west coast groundfish fisheries. The financial condition of 
the fleet and the depressed condition of the resources suggest strongly 
that the economic basis for such a buyback simply does not exist for 
those fisheries. By the same token, there is no indication that 
Congress is willing to provide federal funds to pay for a fleet 
reduction program. These factors, too, argue for IFQs.

Greatest Overall Benefit to the Nation--Conservation, Safety, 
        Efficiency, Quality, Value
    The Magnuson-Stevens Act requires that fisheries management achieve 
the greatest overall benefit to the Nation. [16 U.S.C. 1851(a)(1); see 
16 U.S.C. 1802 (28)(A).] In addition to achieving improved 
conservation, safety, and efficiency, the halibut/sablefish IFQ program 
has resulted in improved product quality and higher product value. The 
slower paced fisheries have translated to greater availability of 
higher quality product, in particular, fresh halibut for eight months, 
instead of a few days of the year, and greater bargaining power for 
U.S. producers in the sablefish export market. Landings of halibut 
provide a continuous supply of product for eight months, averaging 
about 12% of the harvest per month. The same is true for sablefish. 
[RAM Report, NMFS, 1999, page 12.] Similar benefits could be 
anticipated for the groundfish fisheries of the Pacific region.
review of the halibut/sablefish individual fishing quota and community 

                       DEVELOPMENT QUOTA PROGRAMS

    When the North Pacific Fishery Management Council recommended 
approval by the Secretary of Commerce of IFQs and CDQs for the halibut 
and sablefish fisheries, it was on the basis of an administrative 
process involving extensive debate and intensive analysis. The Council 
had considered an array of possible management responses to 
conservation, social, and economic factors at work in the then open 
access fisheries. These factors were identified, as follows:

        <bullet> Allocation conflicts;
        <bullet> Gear conflicts;
        <bullet> Fishing mortality and other costs due to lost gear;
        <bullet> Bycatch loss of halibut and sablefish in other 
        fisheries;
        <bullet> Discard mortality for halibut and other retainable 
        species in the halibut and sablefish fisheries;
        <bullet> Excess harvesting capacity;
        <bullet> Product quality, as reflected in halibut and sablefish 
        prices;
        <bullet> Safety of fishermen;
        <bullet> Economic stability in the fixed gear halibut and 
        sablefish fisheries and affected communities; and
        <bullet> Rural coastal community development of a small boat 
        fishery.

    The Council ultimately determined that the IFQ system would be the 
best management response to these factors. The Council also decided 
that CDQs would provide a useful economic boost to Alaskan coastal 
communities.

Allocation Conflicts
    Allocation conflicts between the operators in the halibut/sablefish 
fisheries generally were found in skirmishes involving halibut. Prior 
to implementation of the IFQ program, the allocation issues centered 
around manipulations of when specific area openings would take place in 
order to advantage or disadvantage various groups.
    In the Bering Sea/Aleutian Islands area, there evolved a series of 
complex clearing procedures designed to make it more inefficient for 
non-Alaskan-resident-operated vessels. This included such regulations, 
in the Pribilof Islands area, as constraining trip limits and a 
requirement that non-resident vessels deliver to Dutch Harbor. This, of 
course, gave the local fishermen additional fishing time. Similar 
clearing requirements were established for the Eastern Bering Sea, Area 
4E, and the area known as Area 4B in the Aleutian Islands.
    The annual meetings of the International Pacific Halibut Commission 
(``IPHC''), were prolonged for hours on the question of precisely when 
to have the spring and fall 24-hour halibut openings. Some of the 
issues that drove this debate were as follows: Were the Canadian or the 
United States fishermen going to open first to get an advantage on 
price; would the spring opening conflict with the spring herring 
fishery in southeast Alaska; would the openings conflict with western 
peninsula salmon seasons; would openings occur during big tides; would 
openings put product at the docks in Alaska at the right time for the 
Sea Land ships; would the fall opening conflict with the State of 
Alaska sablefish openings; and would the opening conflict with the 
Russian Orthodox holidays?
    None of those issues, which were debated with emotion and zeal, 
have arisen since the implementation of the IFQ program. When the IFQ 
program was adopted, the onerous clearing requirements and trip limit 
regimes in the Bering Sea district were removed (though there are still 
clearing requirements they are not of an allocative nature). Former 
Governor of Alaska, Walter J. Hickel, correctly observed of the IFQ 
program, ``Ultimately the free market decides.'' [Letter from Walter J. 
Hickel to Bob Alverson, August 27, 1997.] All of the concerns of when 
to fish or not to fish that the industry and fisheries managers debated 
at length prior to implementation of the IFQ program are now the 
business decisions of each and every vessel owner, subject to 
overarching conservation and management regulations.

Gear Conflicts
    The supplemental environmental impact statement (``SEIS'') for the 
halibut/sablefish IFQ program stated:

        Although an IFQ program will tend to decrease gear conflicts 
        within the halibut and sablefish fishery, it may increase gear 
        conflicts between halibut or sablefish fishermen and other 
        fishermen by increasing the areas and length of periods in 
        which such conflicts can occur. For example, it is less costly 
        for trawlers to avoid the halibut grounds during brief halibut 
        openings than to avoid these areas most of the year. Similarly, 
        the areas and times with a high risk of gear conflicts are 
        easier to identify and avoid with the current intensive halibut 
        fishing periods than with an IFQ program. No attempt has been 
        made to estimate the magnitude of this effect. [SEIS, page 2-
        7.]

    Halibut fishermen no longer have gear conflicts with sablefish 
fishermen. The best sablefish grounds are usually located on the outer 
continental shelf, or at about 350 to 600 fathoms. The halibut fishery 
is conducted generally between 100 and 250 fathoms. The IFQ fishery 
allows the participants to target where the fish are located. The time 
available for the fishermen to decide where and when to set gear allows 
avoidance of other fishing operations, particularly now that the 
grounds for halibut and sablefish are no longer saturated with gear.
    The statement, ``it is less costly for trawlers to avoid the 
halibut grounds during the brief halibut openings, than to avoid these 
areas most of the year'', is ironic, because the reverse has turned out 
to be the case. It is very costly for trawlers to avoid halibut 
grounds, because the trawl groundfish seasons have become very short. 
This is particularly true in the Gulf of Alaska. Should trawlers 
inadvertently get into a school of halibut or area where halibut gear 
is set, the trawl fishermen do not have the time to make optimum 
adjustments. If the trawlers had the time to make those adjustments, 
the bycatch and potential gear conflicts could be further reduced. As 
it stands, now, the longline IFQ fishermen have adequate time to 
harvest their quota shares and can avoid most of the intense trawl 
activity. In fact, the Pacific cod fishery in the Gulf of Alaska has 
been shortened, so that it ends about the time the March 15th IFQ 
fisheries start, with the result that few, if any, gear conflicts have 
been occurring with that directed fishery.
    The openings set forth below were provided the trawl fleet in the 
Gulf of Alaska during 1995 and 1999. One can easily see that fishing 
time is now at a premium to the trawl fleet, as it was to the halibut 
and sablefish fishermen prior to the IFQ program. The loss of fishing 
gear, particularly someone else's, becomes a low priority, when fishing 
time becomes a high priority.


1995
Pacific Cod           Western Gulf            January 20 to March 17
(inshore)             Central Gulf            January 20 to March 22
Pollock               Western Gulf            January 20 to February 2
                                              June 1 to June 2
                                              July 1 to July 2
                                              October 1 to October 1 (12
                                               hours)
                      Central Gulf            January 20 to January 24
                                              June 1 to June 5
                                              July 1 to July 5
                                              October 1 to October 4
S.E. Alaska Pacific   ......................  July 1 to July 9
Ocean Perch                                   Plus two days in October




------------------------------------------------------------------------
                                                    Area in the Gulf of
            1999                    Sector                Alaska
------------------------------------------------------------------------
Pacific Cod (Trawl) Inshore  610                  Opened 1/20/99 closed
                                                   3/8/99
Inshore                      620 & 630            Opened 1/20/99 closed
                                                   3/14/99
Offshore                     610                  Opened 4/18/99 closed
                                                   6/7/99
Pollock (Trawl) Inshore      630                  Opened 1/20/99 closed
                                                   1/27/99

Inshore                      610                  Opened 1/20/99 closed
                                                   1/31/99
Inshore                      620                  Opened 1/20/99 closed
                                                   2/17/99
Inshore                      640 & 650            Opened 1/20/99 closed
                                                   3/6/99
Inshore                      610                  Opened 6/1/99 closed 6/
                                                   7/99
Inshore                      630                  Opened 6/1/99 closed 6/
                                                   10/99
Inshore                      620                  Opened 6/1/99 closed 6/
                                                   11/99
------------------------------------------------------------------------


    In summary, the SEIS predicted fewer gear conflicts, and this has 
proved correct. The SEIS' prediction of IFQ harvesters experiencing, 
among themselves, gear conflicts, has not proved accurate. This is 
largely because sablefish and halibut operations take place at 
different depth strata, and because of the eight months of fishing 
time, halibut harvesters can afford to communicate with their fellow 
fishermen and avoid each others' gear. The same applies for sablefish 
harvesters. The conclusion of the SEIS about trawlers has turned out to 
be just the reverse of actual experience. The trawl derbies have 
increased the trawlers' cost of avoiding gear conflicts.
    The initial reports to the Pacific and North Pacific Councils on 
the operation of the whiting and pollock cooperatives indicate that the 
resulting reduction of capacity has favorably affected the fisheries by 
slowing the race for fish. Particularly helpful benefits should include 
reduction of bycatch and gear conflicts.
Fishing Mortality and Other Costs Due to Lost Gear
    The SEIS correctly predicted the following with regard to gear loss 
and related fishing mortality:

        ``There are several reasons why an IFQ program is expected to 
        decrease gear losses and the associated costs. First, it would 
        reduce the amount of gear that is on the grounds at any one 
        time, and therefore, reduce the amount of gear that becomes 
        tangled. Second, it would increase the willingness of fishermen 
        to take more time to avoid tangling gear and to retrieve lost 
        or tangled gear. It would do so by decreasing the opportunity 
        cost of the time required either to set gear so that it is less 
        likely to become tangled or to retrieve it. Third, it would 
        eliminate the current gear losses that occur because fishermen 
        set more gear than they can retrieve before the end of the 
        brief halibut openings. Finally, it would allow fishermen to 
        fish at a pace and in areas, time periods, and weather 
        conditions that decrease gear losses.'' [SEIS, page 2-6.]

    The SEIS stated, ``There are principally two types of costs 
associated with gear losses in the halibut and sablefish fishery. There 
are (1) cost of replacing lost gear, and (2) harvest forgone due to the 
fishing mortality caused by the lost gear.'' [Id.] The SEIS estimated 
that, in 1990, 1,860 skates of gear and two million pounds of halibut 
were lost. [Id.]
    In its annual reports, under the category of waste, the IPHC 
includes the mortality of halibut due to lost gear in the IFQ fleet. In 
the 1994 Annual Report, waste was recorded at 2.85 million pounds. The 
1995 and 1998 Annual Reports recorded waste as 1.0 and 1.9 million 
pounds, respectively. This represents a 48% average reduction in waste, 
or an annual savings of approximately 1.4 million pounds of halibut 
from 1994. This compares impressively with the 50% saving predicted by 
the SEIS. Based on the 1999 Seward, Alaska price for halibut 
(approximate average, $2.44/lb.), the savings due to reduced waste is 
approximately $3.36 million.
    The lost fishing gear in the halibut derbies was primarily the 
result of 4,000 to 6,000 vessels setting their gear all at the same 
time, and the gear becoming entangled. Gear lost in this manner is a 
thing of the past. The SEIS estimated the value of lost gear at $2.0-
$2.4 million per year in the halibut derbies. [SEIS, page 2-6.] Under 
the IFQ program, the vessels share the grounds over an 8-month season. 
Gear still can be lost due to the normal hang-up on the bottom, but 
there are no longer large amounts of gear lost due to gear conflicts.
    There has also been a savings in the amount of gear purchases for 
each vessel each season. It was not uncommon for vessels to pre-bait 
and set 80 to 130 skates of gear during a 24-hour derby opening. 
Vessels are now fishing with 50 to 70 skates of gear. Additionally, the 
vessel operators, prior to IFQs, used two different types of gear--one 
for halibut and one for sablefish. Many harvesters are now using their 
sablefish gear to harvest the halibut quotas, further reducing gear-
related costs to the fleet. The SEIS predicted a 50% reduction in gear 
needed to harvest the same amount of fish. [SEIS, page 2-7.]
    The open access sablefish fishery had similar problems with lost 
gear; however, the SEIS did not quantify the loss. It is reasonable to 
conclude, based on the halibut experience, that the lengthened 
sablefish seasons under the IFQ program have also resulted in lower 
gear losses and associated resource mortality than prevailed in the 
open access fishery.
    In summary, there has been at least a 48% reduction in waste of 
halibut recorded by the IPHC, with a net benefit of $3.36 million 
annually to the fleet. The IFQ program has resulted in much less gear 
being set to harvest the quota.
Bycatch Loss of Halibut and Sablefish in Other Fisheries
    The Magnuson-Stevens Act provides, ``Conservation and management 
measures shall, to the extent practicable, (A) minimize bycatch and (B) 
to the extent bycatch cannot be avoided, minimize the mortality of such 
bycatch.'' [16 U.S.C. 1851(a)(9).]
    Congressional interest and intent with respect to bycatch reduction 
was clearly reflected in the Senate and House Floor debates in the 
104th Congress. Senator Stevens declared that, ``Under S. 39 
[Sustainable Fisheries Act], the Councils will be required to reduce 
the amount of bycatch in every fishery around our country.'' 
[Congressional Record, September 18, 1996 at S10810.] He also stated, 
``We thought Americanization would go a long way toward conserving the 
fishery resources of this Nation. Foreign vessels have now given way to 
U.S. vessels that are capitalized now far beyond what we ever 
envisioned in the seventies, and the fisheries waste continues to get 
worse in many areas.'' [Id.] Senator Murkowski stated, ``This will put 
us on the road to stopping the shameful waste that is currently 
occurring in many fisheries.'' [Id. at S10820.] Senator Gorton 
remarked, ``I join my colleagues in lauding those provisions that aim 
to reduce waste and bycatch in the fisheries''. [Id. at S10814.]
    On the House Floor, Congressman Young, principal author of H.R. 39 
(companion bill to S. 39), and chairman of the committee of 
jurisdiction, stated, ``The reduction of bycatch in our fisheries is 
one of the most crucial challenges facing fisheries managers today.'' 
[Congressional Record, September 18, 1995 at H9116.] On passage of S. 
39, he stated, ``The bill recognizes that bycatch is one of the most 
pressing problems facing the continuation of sustainable fisheries.'' 
[Congressional Record, September 27, 1996 at H11438.]
    Prior to the implementation of the IFQ program for sablefish and 
halibut, the length of the seasons had shortened to a point of causing 
chaos. The sablefish fishery had collapsed from a 9-month season to a 
less than a 10-day fishery in the western Gulf of Alaska, and to a 
five-day season in southeast Alaska.
    By 1994, the halibut fishery had become two 24-hour openings, one 
in the spring and one in the fall. In the mid-1970's, the halibut 
season had been nine months. By the 1990's, when fishermen harvested 
sablefish, they were required by regulation to throw away their 
incidentally caught halibut, and during the halibut derbies, the 
fishermen were required to throw away the incidentally caught 
sablefish. The mortality associated with this regulatory bycatch was 
deducted from the available commercial harvests.
    The IPHC recorded the halibut mortality in the directed sablefish 
fishery by the use of the observer program. The average halibut 
mortality in the longline sablefish fishery for each of the five 
seasons preceding the IFQ program was 1,816,000 pounds. The bycatch 
mortality, after the IFQ program was implemented in 1995 was recorded 
at 297,000 pounds. This represented an 84 percent reduction in halibut 
mortality, or a reduction of 1,519,000 pounds annually. There have been 
no updates on this in the NMFS database since 1995, but there is no 
reason to expect that the experience has changed since then. The 
reduction resulted from a variety of several factors. Two of the more 
important ones were: (1) the fishery slowed down, and juvenile halibut 
were able to be released with better care, and thus with lower 
mortality; and (2) the adult halibut were allowed to be retained and 
counted against the quota. (Juvenile halibut are not allowed to be 
landed; they are defined as being less than 32 inches long.)
    Similar information is not available to quantify what has taken 
place with incidentally caught sablefish. The directed halibut fishery 
is generally conducted in a shallower habitat than that in which the 
sablefish are usually found, so the numbers of sablefish saved in the 
halibut fishery would probably not be as great as the numbers of 
halibut saved in the directed sablefish fishery. (The deep-water 
sablefish habitat does, however, have substantial numbers of halibut in 
the late winter and spring.) The important point is that the fleet is 
now landing incidentally caught sablefish. That was not the case prior 
to the IFQ program.
    The reduction in halibut mortality in the directed sablefish 
fishery of 1,519,000 pounds represents approximately a $3.2 million 
gain to the longline fishermen, assuming an average 1997 price of $2.10 
per pound. As noted above, prior to the IFQ program, this now-retained 
bycatch was discarded and deducted from what might be available for 
commercial harvest.
    There has been an additional saving to the longline fleet with the 
implementation of the IFQ program. Prior to 1995, the longline 
sablefish fishery operated in the Gulf of Alaska with a halibut cap of 
700 metric tons. Once this bycatch mortality was accounted for, with 
the help of the observer program, the directed sablefish fishery was 
closed. This had the effect in the western Gulf of Alaska, and at times 
the central Gulf of Alaska, of stopping the harvest of sablefish, in 
order to protect halibut. The ability under the IFQ program to keep the 
sablefish fishery open in the Gulf of Alaska in each of the years, 
1995, 1996, 1997, 1998, and 1999, has allowed for the western Gulf of 
Alaska harvest level to be fully achieved, and the central Gulf quota 
to also be harvested. For 1997, in the western Gulf of Alaska, the 
harvestable amount of sablefish quota shares amounted to 1,690,222 
round pounds, representing an additional $3.93 million to the fleet. 
(Price $3.70/dressed, 63% recovery.)
    In summary, the IFQ program has allowed the fleet to recapture the 
lost harvest of halibut that was occurring due to sablefish operations. 
This gain amounts to an average of $3.2 million annually since the 
inception of the IFQs. The program additionally allows for the full 
harvest of sablefish in the western and central Gulf of Alaska, 
providing an average annual gain of $3.93 million.
    Janet Smoker of Fisheries Information Services (``FIS'') completed 
a review of the IFQ directed sablefish fishery in the Gulf of Alaska 
relative to the retention of various species caught incidentally. The 
FIS report examines the 1994 season against the IFQ seasons of 1995, 
1996, and part of 1997. The following conclusions were based on the 
North Pacific Fishery Management Council's observer program.
    While conducting a directed fishery on sablefish, some of the 
target catch is discarded. The retained sablefish has always been high, 
according to the report. The retained sablefish in the directed 
longline fishery for sablefish during 1994 was 96.8% (a number that is 
hard to improve upon), and during the 1995, 1996, and 1997 seasons 
averaged 97.03%. One observation concerning the small difference in 
retained bycatch between the open access period and the IFQ fishery is 
that there has been very little ``high grading'' in the IFQ fisheries, 
indeed, less than in the pre-IFQ fisheries. High grading had been a 
concern with respect to the IFQ program, when it was under development.
    The SEIS noted several very important points relative to this 
subject. Vessel profit would increase 6%, if sablefish under 4 pounds 
(eastern dressed weight) were discarded, but in so doing the number of 
fishing days would increase 70%. [SEIS, page 2-14.] The fishermen would 
have made more money, but would have worked many more days. As noted 
above, the observer statistics compiled by FIS, which indicate a 97.03% 
retention of sablefish, suggests that the SEIS was accurate. High 
grading, which means catching the fish at least twice, is not 
economical.
    The FIS report also indicates that the directed sablefish fishery 
during the 1994 season was retaining 75.5% of all groundfish, inclusive 
of sablefish that was being caught. The next three seasons under the 
IFQ program increased the total groundfish retention to 84.9% of all 
groundfish species. Discards of groundfish declined from 24.5% of the 
catch to an average of 15.03% of the catch, representing a 39% 
reduction in discarded groundfish.
    The retention of groundfish, not including sablefish, increased 
from the 1994 season level of 25.7% to an average of 34.6% during the 
1995, 1996, and 1997, seasons. This represented a 35% increase in 
groundfish retention, not including sablefish. The halibut discards 
that occur during the directed sablefish fishery have gone from 21.1% 
in 1994 to an average of 13.03% during the 1995, 1996, and 1997, 
seasons. This represented a 38% decline in halibut discards. Discards 
of halibut under the IFQ program in the directed sablefish fishery are 
largely halibut that are less than the legal size for retention.
    The discards of rockfish and Pacific cod in the IFQ fisheries are 
significantly the result of the rockfish and cod quotas being achieved 
during the race for fish in those fisheries, which then result in 
regulatory discards for the remainder of the year for IFQ fisheries. 
The majority of groundfish discards in the IFQ fisheries are flounders 
and skates, for which markets have not yet been adequately developed.
    In summary, according to the cited evidence and analysis through 
1997, the retention of sablefish has remained in the 97% range 
suggesting very little, if any, high grading. The discards of 
groundfish in the directed sablefish fishery reduced 39%, for a 84.9% 
retention of everything caught. The fish currently discarded are 
primarily skates and flounders for which markets are not available. The 
halibut discards in the sablefish fishery declined 38%. The IFQ program 
has, therefore, helped reduce bycatch significantly. Data for 1998 and 
1999 are not available.

Excess Harvesting Capacity
    The SEIS made a number of comments with regard to excess harvesting 
capacity. ``The fact that there are too many vessels has been 
identified as a problem.'' [SEIS, page 2-52.] ``The Council has 
considered the introduction of a quota system as a means to enable 
vessels to leave the industry to receive some recompense through the 
sale of quota shares for so doing.'' [Id.] ``It is hoped that following 
introduction, transfer of quotas will lead to less efficient vessels 
leaving the industry.'' [Id.]
    In 1994, the number of vessels participating in the sablefish 
fishery opening numbered 1,139, and in the halibut fishery, 3,450. The 
number of vessels participating in the sablefish fishery in 1995, 1996, 
1997, and 1998, were 517, 503, 504, and 449 respectively. The 
corresponding numbers of halibut vessels were 2,057, 1,962, 1,925, and 
1,601. [RAM Report, NMFS, 1999, page 27.]
    The reduction of vessels as envisioned by the SEIS is working and 
is being accomplished without any federal buy-back assistance. The 
fleet is using the equity value of quota shares to buy itself out. The 
FVOA estimates that, in order for the Federal Government to have 
achieved a fleet reduction in the halibut fishery from 3,450 vessels in 
1994, to 1,601 in 1998, a reduction of 1,849 vessels, it would have 
cost at least $172,432 for each vessel and its potential harvest of 
fish. This means that the halibut fleet has self-rationalized itself in 
the amount of $318,822,000 ($172,432 <greek-e> 1,849 vessels) in four 
years, without any federal assistance.
    There are no mechanisms comparable to IFQs in terms of cost 
effectiveness in reduction of a fleet. The taxpayer cost of one New 
England buy-out was $23 million, and the impact was minimal.
    One of the options the North Pacific Fishery Council seriously 
looked at, when it was considering whether to adopt IFQs for the 
halibut fishery, was a license limited entry program that would have 
reduced the halibut fleet from 5000 vessels to less than 1000 vessels. 
This option would have provided no compensation to the 4000 vessel 
operators eliminated from the fishery, and accounts, in large part, for 
the adoption of the IFQ alternative.

Product Quality, as Reflected in Halibut and Sablefish Prices
    The SEIS made numerous predictions regarding the expected effects 
on product quality, the availability of fresh halibut, and ex-vessel 
prices. One of the primary goals of the IFQ program was to provide high 
quality fresh halibut on a continual basis. The 24-hour openings in the 
derby fisheries limited the ability of fishermen and processors to 
provide fresh halibut to brief periods of the year, and to very few 
customers. For example, the Hotel Captain Cook, in Anchorage, Alaska, 
had to import fresh halibut from Canada to supply its customers, even 
though Alaska produced more halibut than did any other place in the 
world.
    ``. . . I mention the Crow's Nest Restaurant in the Hotel Captain 
Cook, which has a reputation of serving nothing but fresh halibut. 
Prior to IFQs, most of the year we flew fresh halibut in from 
Vancouver.'' [Letter from the Honorable Walter J. Hickel to Mr. Bob 
Alverson, August 27, 1997.]
    The SEIS had the following specific expectations with regard to the 
IFQ program. First, the program would provide the flexibility in 
scheduling landings that is necessary for fishermen and processors to 
take advantage both of the latent year round market for fresh halibut 
and the seasonal consumption patterns for sablefish, and to decrease 
storage time and costs for the halibut and sablefish that are frozen. 
Second, the program would increase the quality of landed halibut and 
sablefish, by decreasing the opportunity cost of the time required to 
assure that the catch is quickly dressed and cared for. Third, the 
program would eliminate the brief, intensive openings that result in 
such large concentrations of landings that unloading and processing 
delays can decrease product quality and prices. [SEIS, page 2-4.]
    Flexibility in scheduling landings to take advantage of a year-
round market for fresh halibut and seasonal consumption patterns is 
evident from the IPHC monthly landing reports for the 1995 through 1998 
seasons. [RAM Report, NMFS, 1999, page 12.] The fleet has spread its 
landings over the entire time provided, all eight months. This has 
allowed the fresh fish market to absorb approximately 75% of the 
harvest. The initial forecast by the SEIS was 50%. [SEIS, page 2-5.]
    With regard to storage costs and savings, the SEIS stated, ``If 75 
percent of landings currently are frozen and if an IFQ program would 
result in only 50% being frozen, the cost savings in 1990 would have 
been $4.2 million ($0.32 per lb. <greek-e> 25% of 52.6 million lbs.).'' 
[SEIS, page 2-5.] With 75 percent of the harvest now going to the fresh 
markets, cold storage saving in terms of 1990 dollars is $9.8 million. 
($0.32 per lb. <greek-e> 50% of 61,200,000 lbs. (1999 quota).) This 
saving thus is over twice that forecasted by the SEIS. Additionally, in 
terms of product quality, the SEIS assumed, on average, that halibut 
was frozen 6 months a year. This is no longer the case, and the quality 
is, therefore, higher than anticipated.
    The SEIS stated, ``The price increase for sablefish is expected to 
be less than for halibut, because the potential benefits from the fresh 
fish market are probably less for sablefish''. [SEIS, page 2-5.]
    The SEIS greatly underestimated the Japanese frozen market for 
sablefish, and the marketing advantages that IFQs gave U.S. fishermen, 
in terms of negotiating leverage in this foreign market. (Harvest 
guidelines have decreased as well, which has put an upward pressure on 
prices.) Japan consumes over 97 percent of the U.S.- and Canadian-
harvested sablefish. Since the establishment of the IFQ program, the 
sablefish price has steadily increased. The 1997 average price to 
fishermen would conservatively be estimated at $3.70 per dressed pound. 
The NMFS assumes a 63 percent recovery rate between dressed and round 
sablefish, therefore in terms of round weight, the price would be $2.33 
per pound. The 1999 dressed weight price in Alaska averaged 
approximately $3.10 per pound, reflecting the recent recession in 
Japan.
    The SEIS estimated that the round pound price for sablefish would 
increase $0.05. That document stated, ``In 1991, this would have been a 
$0.05 per pound round weight increase in the ex-vessel price or about a 
$2.8 million dollar increase in ex-vessel value.'' [SEIS, page 2-5.]
    The price for dressed sablefish in 1991, based on the SEIS, was 
$1.59 per dressed pound or $1.00 per round pound. The 1997 round price 
of $2.33 converts to a 1991 price of $1.98, using a consumer price 
index regression of .849. In terms of 1991 dollars, the IFQ program 
added $0.98 per round pound to the price of sablefish. In terms of the 
allocated 1997 quota shares, the added value to the resource is 
$29,629,207, in 1991 dollars. ($0.98 <greek-e> 30,233,885 1997 round 
pounds.) The prediction of a $2.8 million gain, therefore, was very 
greatly underestimated. In terms of revenues to the State of Alaska, 
under the 3.3% raw fish tax, the gain has been $957,000 per year on the 
average, through 1997.
    With respect to halibut the SEIS predicted the following: ``In 
summary, it is estimated that an IFQ program would increase halibut ex-
vessel prices by $0.04 to $0.68 per pound. Given the 1990 landings of 
52.6 million pounds, the resulting increase in the ex-vessel value of 
the fishery would have been from $2.1 million to $35.8 million.'' 
[SEIS, page 2-5.]
    The SEIS used a 1990 value for halibut at $1.78 per pound. The 
prices for halibut since the IFQ program was initiated in 1995 have 
been in the $1.90 to $2.40 range in the Seward Alaska area. Prices in 
the Seattle area are generally 35 to 60 cents above Seward prices, 
largely reflecting transportation costs. Assuming an average price for 
1997 of $2.25 per pound, and using a consumer price regression of .814, 
the 1990 value would have been $1.83 per pound. Hence the added ex-
vessel value to the industry in terms of 1990 dollars is approximately 
5 cents. This would mean an added ex-vessel value to the fishermen of 
$2.5 million. Consequently, although there has been, in fact, an 
increase in price paid to the fisherman, the amount has been at the 
lower end of the prediction.
    It should be noted, however, that this value may be somewhat 
misleading, in that the halibut industry has completely changed since 
the implementation of the IFQ program. There are no more long lines of 
fishing vessels waiting to deliver halibut. Processors no longer have 
product stacked on their processing floors for days at a time because 
freezers are too full. Prior to the IFQ program, containers of frozen 
halibut were transshipped to the Seattle area for redistribution. Now, 
significant amounts of halibut are air freighted out of Anchorage, 
Alaska. There has been an added cost in air transportation to get good 
quality fresh fish to distant markets, which does not readily appear as 
an additional value when only looking at the price the fishermen 
receives. There are new businesses in air-freighting as well as long-
haul trucking out of Anchorage that were not envisioned prior to the 
IFQ program.
    The industry has been revolutionized, and the most important 
quality aspect for halibut of the new system is shelf life. The better 
the quality at the boat, the longer the fresh fish can be available to 
consumers. The need for good quality to ensure shelf life for halibut 
now is the driving force on prices paid to the harvesters. A letter 
from Dory Seafoods states:

        The majority of the high quality buyers want to know when was 
        the fish caught and how old will the oldest fish be when it is 
        received in the market place. Many buyers will not buy old 
        fish, or if given a choice, they will pay more for fresher fish 
        with a longer shelf life.

        I believe the overall quality has improved on air shipments out 
        of Alaska. The fishermen have more time to dress, ice and take 
        care of the product on board the fishing vessels. In addition, 
        the processing plants are receiving smaller quantities per day 
        and, in most cases, are able to ship the product out the same 
        day as received. As a result, the halibut is handled much 
        quicker and received in the market place in better shape than 
        in pre-IFQ years. [Letter from Dory Seafoods to Robert D. 
        Alverson, August 28, 1997.]

    There have been complaints from several shore-side processors that 
they are not doing well under the IFQ program. It is clear that the raw 
product cost has not changed very much for halibut from the 1990 
prices. It is also evident that the frozen market nature of sablefish 
makes all ports competitive for sablefish. More importantly, as shown 
below, the landings per port have not changed materially. What the 
fishermen do notice is that those processors that have available to 
them good and reliable transportation, either air or long-haul trucking 
routes out of such locations as Anchorage, seem to be very competitive 
for halibut. Those who have chosen as a business decision not to be 
active in fresh fish marketing probably have lost market share. 
Processors in western Alaska and the Dutch Harbor area have some access 
to the fresh markets, but with more difficulty. In these areas, the 
landed halibut generally reflects a frozen product price. In the case 
of sablefish, the product must be frozen for export to Japan, and 
therefore, all Alaskan ports with freezer capacity should be able to 
participate in that fishery.
    Sablefish is unique in that the final destination is Japan or other 
Asian markets. Sablefish has very few fresh fish sales. The nature of 
the flesh quality and high oil content make it necessary to freeze the 
product. The distribution of sablefish before and after IFQs were 
implemented can be seen in the RAM reports. There has not been any 
significant change in landings to particular ports of call. [NMFS 1999 
IFQ Report.]
    In summary, it is evident that quality has improved and halibut is 
now available fresh throughout an 8-month period. Some of the 
additional values to the fishermen, considering some of the predictions 
of the SEIS, are $8.2 million in annual average savings in cold storage 
costs for halibut; $2.5 million of additional annual average ex-vessel 
value of halibut; and $29 million in added annual average export value 
of sablefish. The SEIS discussed savings in gear, food, bait, and fuel 
costs to the fleet. That analysis estimated annual savings of $1.8 to 
$2.5 million for food; $3.1 to $4.0 million for fuel; $20.0 to $28.0 
million for opportunity cost of labor, and $9.2 to $11.7 million for 
fixed costs. This statement does not attempt to quantify these actual 
savings, although they have materialized in all of these categories. 
These savings and additional values to the fleet have resulted in at 
least a $75 million net average annual benefit to the industry.

Safety of Fishermen
    The Magnuson-Stevens Act provides, ``Fishery management measures 
shall, to the extent practicable, promote the safety of human life at 
sea.'' [16 U.S.C. 1851(a)(10).] Senator Patty Murray stated during the 
Senate Floor debate on S. 39, the Sustainable Fisheries Act:

        ``This race for fish creates serious safety considerations in 
        many fisheries. Under this race, fishers feel compelled to keep 
        fishing even when the weather or conditions of the vessel or 
        health of the captain or crew would suggest otherwise. Unless 
        fishery management plans provide opportunities and incentives 
        for fishers to sit out storms and return to port for repairs or 
        medical attention, lives will continue to be lost.

        For this very reason we included promotion of safety of life at 
        sea in the National Standards of the Magnuson Act. 
        [Congressional Record, September 18, 1996 at S10818.]

    The SEIS stated:

        An IFQ program is expected to increase vessel safety by 
        reducing substantially the incentive fishermen have to 
        disregard factors that increase the risk of accidents. However, 
        due to a lack of reliable data and methodological problems, it 
        is hard to provide quantitative estimates on the linkages 
        between vessel safety and other factors, such as management 
        practices. [SEIS, page 2-3.]

        In the recently released book, Fishing Vessel Safety, Blueprint 
        for a National Program, the National Research Council noted 
        that commercial fishing has one of the highest fatality rates 
        of any occupation and that safety has largely gone unregulated. 
        [Page 142.] While attributing a large portion of the safety 
        issues to the vessel (e.g., its structure, equipment, and 
        crew), the authors did consider fishery management practices to 
        be one of three major external influences on vessel safety. 
        [Page 131.] Allocation conflicts have ``resulted in a highly 
        competitive operating environment in which fishermen may take 
        unnecessary risks to maintain their livelihood''. [Page 132.]

    In addition to its enforcement responsibilities, the Coast Guard 
monitors safety at sea, and reports that, during the 1998 IFQ season, 
there were 11 search and rescue missions undertaken (fifteen in 1995, 
seven in 1996, and nine in 1997). There were no sinkings in 1998 (four 
in 1997, two in 1996, and two in 1997), and two lives lost (none in 
1995, two in 1996, and one in 1997). In the three years prior to the 
IFQ fishery, there were an average of 28 SAR missions, two vessel 
sinkings, and two lives lost during the short derby seasons. Three of 
the deaths have occurred while the vessels were moored in harbor. Only 
one death has occurred during heavy weather.

Economic Stability in the Fixed Gear Halibut and Sablefish Fisheries 
        and Affected Communities
    The Magnuson-Stevens Act provides:

        Conservation and management measures shall, consistent with the 
        conservation requirements of this Act (including the prevention 
        of overfishing and rebuilding of overfished stocks), take into 
        account the importance of fishery resources to fishing 
        communities in order to (A) provide for the sustained 
        participation of such communities, and (B) to the extent 
        practicable, minimize adverse economic impacts on such 
        communities. [16 U.S.C. 1851(a)(8).]

    Although the establishment of the IFQs and CDQs for halibut and 
sablefish predated this provision of the Magnuson-Stevens Act, the 
Council and the Commerce Department took into account community 
interests in designing these management programs. The Commerce 
Department, in approving the IFQ program, recognized that the open 
entry fishery for halibut and sablefish had created an extreme excess 
of capital investment. The Department observed that the excess capital 
was causing instability and uncertainty in the fishery. The SEIS 
states, ``However, once the adjustments are made, IFQs would decrease 
uncertainty and increase the ability of fishermen and processors to 
plan their participation in the halibut fishery.'' [SEIS, page 2-13.]

        Of the 7,992 different vessel owners who participated in the 
        halibut fishery between 1984 and 1994, 38% did so for only one 
        year while only 9% participated all seven years. It is 
        estimated that 1,443 vessel owners participated in the fixed 
        gear sablefish fishery between 1985 and 1990. Of these, 45% 
        participated in only one year and only 6% participated all six 
        years. [Id.]

        This is the case in terms of both short and long-term planning. 
        In areas with only a few very short openings, if a vessel 
        breaks down, a fisherman might miss all or a substantial 
        portion of the season. Likewise, increased fishing effort does 
        not allow processors to plan for consistent or orderly 
        processing. The short-term discontinuities make planning 
        difficult. [SEIS, page 2-12.]

        A further benefit of quota systems is deemed to be the degree 
        of certainty given to participants upon which to base their 
        investment and fishing decisions. It is argued that if people 
        are aware of the quantity of fish available to them that they 
        will be able to make soundly based decisions about the future. 
        [SEIS, page 2-54.]

    The vessel owners are now able to fish and time their operations, 
not only around bad weather, but also with a view to market 
opportunity, so they can efficiently operate in other fisheries that 
may otherwise have been unavailable to them because of brief, fixed 
season openings. Prior to the IFQ program, thousands of vessels had 
two, one-day earning opportunities. Today, earning opportunities, 
through consolidation, are creating stability within the harvesting 
sector. Stability has been enhanced by the constraints on quota share 
concentration, through the use of ownership caps, vessel caps, and 
vessel classes. These were designed to prevent too great an 
accumulation of quota share ownership by individuals in the fleet and 
to ensure processors an adequate number of harvesting vessels. 
Ownership caps and vessel cap limits are cited in the RAM report, 1999, 
page 25.
    The SEIS stated that, under the IFQ system, people would be able to 
make sound business decisions about their future. The system was 
designed to encourage transfers of quota within certain limits. It was 
designed to encourage an owner-operated fleet. This was provided by 
requiring new purchasers of IFQs to be on the vessels when the quota 
shares were being fished. It is clear that the program is functioning 
as designed. The owner-operator provision is providing stability for 
crews and vessel owners who work on deck.
    Some members of FVOA have chosen to sell, and others have chosen to 
purchase, quota shares. The results are that for those who have chosen 
to purchase, the owners and the crews are earning more. Those who have 
sold out have received some compensation for their past investment and 
efforts. The crews that have been displaced to date are those who were 
participating in two, one-day jobs. The SEIS states on this issue, the 
following, ``In considering the employment effects of an IFQ program, 
it should be remembered, that many fishermen take a break from other 
fishing or non-fishing activities to participate in the halibut 
fishery. Therefore, their alternative to participation in the halibut 
fishery is not unemployment.'' [SEIS, page 2-10.] However, the IFQ 
fisheries are becoming attractive as full or near full time employment 
opportunities.
    In terms of stability for the local communities, there have been 
some claims that the IFQ program has adversely affected the ports of 
Kodiak and Dutch Harbor. The 1997 IPHC Annual Report list by port the 
halibut landings as follows:

1. Kodiak                20%                      9,103,000 Lbs.
2. Homer                 12%                      5,242,000 Lbs.
3. Seward                9%                       3,876,000 Lbs.
4. Dutch Harbor          6%                       2,855,000 Lbs.
5. Sitka                 6%                       2,800,000 Lbs.


    The RAM September 1997 report, page 50, shows that, in 1995 and 
1997, the top five halibut ports remained the same as in 1994, and the 
percentage of landings was similar.
    With regard to sablefish, the SEIS did not provide analysis similar 
to that for halibut, however, in looking at the 1990 data provided in 
that document, four of the top five districts are still in the top five 
for landings, when compared to the 1997 September RAM report, page 50.

1. Wrangel, Petersburg      7,121,000 Lbs.         26%
2. Sitka Borough            6,131,000 Lbs.         22%
3. Seward Borough           4,302,000 Lbs.         15%
4. Juneau Borough           2,481,000 Lbs.         9%
5. Kodiak Island Borough    2,134,000 Lbs.          8%
6. Aleutian West Borough    not available


    The IFQ program was designed to have a minimal impact on 
communities, by preventing a massive redistribution of landings. This 
was accomplished significantly with the three-year qualification period 
of 1988, 1989, 1990, where there had to be a landing to qualify for any 
poundage in one of these years. This helped ensure that quota holders 
were still active and operating in the same location as was 
historically the case. Clearly, this has been accomplished as shown by 
the hard evidence of landing reports. An argument of economic 
disadvantage to Kodiak or Dutch Harbor based on IFQ poundage being 
delivered elsewhere cannot be substantiated.
    The instability of these communities is most likely the result of 
the remaining pulse-type groundfish fisheries. The fishermen in the 
Kodiak area have three, three-day pollock openings; Pacific cod has 
barely a two-month operation. The landings in Kodiak were down between 
1995 and 1996 by 160 million pounds; none of this reduction could be 
attributed to the IFQ program. In 1997 and 1998, Kodiak landings 
rebounded to 277 and 362 million pounds, respectively. This reflected 
increases of salmon landings.

Fisheries of the U.S. 1998, NMFS
    Similarly, landings in Dutch Harbor were reduced by 105 million 
pounds between 1995 and 1996. The argument that this was due to the IFQ 
program is similarly insupportable. It was due to a reduction in 
pollock landings. The landing in 1997 and 1998 were 587 and 597 million 
pounds respectively, which are still 100 million pounds below 1995 
levels. This is all due to pollock landings, not IFQ halibut or IFQ 
sablefish. [Id.] The 1999 RAM Report, pages 13 and 14, show the same 
ports in the top 10 as in previous years for halibut and sablefish.
Rural Coastal Community Development of a Small Boat Fishery
    The SEIS made the following statements and conclusions regarding 
rural coastal community development of a small boat fleet:

        The Council wished to enhance the opportunities for rural 
        coastal communities to participate in the sablefish and halibut 
        fisheries. It was in pursuit of this objective that the western 
        Alaska community development program was inserted into the 
        preferred alternative. [SEIS, page 2-55.]

        Opportunities for small communities will be enhanced by having 
        portions of total allowable catches set aside. [Id.]

        Many of the constraints imposed on transferability have been 
        introduced to preserve a small boat fishery for sablefish and 
        halibut. [Id.]

    The community development quota program was specifically set up for 
western Alaska rural communities. The CDQs for 1999 amounted to 
2,610,000 dressed pounds of halibut. In the halibut regulatory areas of 
4C and 4E, all of the CDQ quota, 1,400,000 pounds, was harvested and 
landed by the local community.
    The ex-vessel value of CDQ-landed halibut was approximately 
$5,200,000 (Dutch Harbor price, $2.00). The CDQ halibut quotas thus are 
a significant benefit to the coastal community of western Alaska and 
the small vessels which operate out of those communities.
    The Gulf of Alaska's small boat fleet vessels, less than 35 feet in 
length, have a secure position in the fisheries. Poundage earned by 
initial recipients is safeguarded permanently in their vessel length 
category.
    The small boat fleet has been additionally enhanced with recent 
regulatory amendments that allow quota share holders operating small 
vessels to buy quota from larger vessel classes and fish that quota on 
the smaller vessels. IFQ holders operating larger vessels cannot use 
smaller vessel class quota on their larger vessels. This new provision 
gives smaller vessels, which tend to operate close to shore, more 
purchasing opportunity.
    As noted above, the 1996 amendments to the Magnuson-Stevens Act 
provided for a government loan program funded, in part, from landing 
fees of the IFQ participants. [16 U.S.C. 1853(d)(4).] Those who can 
apply for the loans are fishermen with little or no holdings of IFQs. 
The amount per loan is limited to about 8,000 lbs. of resource, and 
anyone holding or controlling 50,000 lbs. or more of quota is not 
eligible for the loans. Congress chose to help out the crews and those 
fishermen looking for upward mobility in the industry. This program 
should help rural citizens who have few cash-generating industries.
    However, I cannot leave this subject without noting that the 
conference report on appropriations for Commerce, Justice, State and 
other agencies for fiscal year 2000 purported to divert halibut/
sablefish IFQ fees from their intended purposes in the North Pacific to 
Hawaiian communities. To comply with this conference report directive 
would be a gross violation of the express provisions of the Magnuson-
Stevens Act and an unconscionable breach of the Federal Government's 
commitment to the fishermen, communities, and fisheries of the North 
Pacific. I urge our elected representatives in Congress to stop this 
ill-considered diversion of funds.

Comment on Gulf Coastal Communities Proposal
    The Gulf of Alaska Coastal Communities Coalition will be sponsoring 
a proposal which would allow certain tax exempt coastal village 
corporations of Alaska to participate in the purchase of IFQ for 
halibut and sablefish. The villages are part of the large native 
regional corporations set up under the Alaska Land Settlement Act 
program. There are about 42 villages in the Gulf of Alaska that have 
been identified that would participate in these purchases. The Fishing 
Vessel Owners Association and Deep Sea Fishermens Union oppose this for 
the following reasons.

    1. The halibut and sablefish IFQ program was set up to ensure an 
owner operated fleet in the future. For the past 5 seasons crew and 
boat owners have been purchasing QS on this basis. The GACCC proposal 
would allow corporations to bid against crew and boat owners in the 
market and lease back to certain village fishermen. This would begin to 
turn the fishery into a company store fishery with the fisherman not 
being the owner of the QS.

    2. The 42 villages are part of five larger native regional 
corporations that generated well over 200 million dollars in net 
operating profit last year. There is no reason these regional 
corporations can not assist the villages and underwrite the local 
fisherman if there is a problem.

    3. Some of the existing sources of funding at this time are as 
follows: (a) The Bureau of Indian Affairs provides individual business 
loans of up to 500,000 dollars and each individual village can qualify 
for up to a 5,000,000 dollar loan, which could be used to help local 
residents. (b) The State of Alaska has its own loan program for 
Alaskans. In fact, the State provided loans for 199 IFQ holders, 
according to the RAM Report, 1999, page 23. (c) The village fishermen 
can participate in the existing IFQ loan program established under the 
1996 Magnuson-Stevens Act amendments. The NMFS loan program has 
provided loans for 14 IFQ operators. [RAM Report, 1999, page 23.] (d) 
Private banks have provided loans for 1,234 IFQ holders. [RAM Report, 
1999, page 23.]
    We also have the concern that if 42 villages maximized the 
ownership privileges that this could result in 40 percent of the 
resource of sablefish and 20 percent of the recourse of halibut being 
bought up from the existing quota share pool. There is a concern that 
over the long term the quota purchased by the villages will not 
circulate for future purchases as does quota share when existing crew 
and/or boat owners retire. This will push up the cost of entry for 
crews and new vessel owners that are not members of the villages. In 
addition to this the villages are tax exempt, which will give them a 20 
percent advantage on price when bidding against crew and boat owners.

                         WEST COAST GROUNDFISH

    Major groundfish fisheries off the coast of Washington, Oregon, and 
California are in severely depressed condition. The impact on the 
affected industry and dependent communities is serious.
Key Facts About Stock Conditions and Economic Impacts
    Certain key ground fisheries off Washington, Oregon, and California 
have had the following reductions in allowed harvest since 1982, when 
the Pacific Council adopted its groundfish management plan.


----------------------------------------------------------------------------------------------------------------
                                                                1983 ABCs                         2000 ABCs
----------------------------------------------------------------------------------------------------------------
Sablefish                                     13,400 mt                                     9,692 mt
Widow rockfish                                18,300 mt                                     5,750 mt
Lingcod                                       7,000 mt                                      700 mt
Bocaccio                                      6,100 mt                                      164 mt
Canary                                        2,700 mt                                      356 mt
Dover sole                                    19,000 mt                                     9,426 mt
----------------------------------------------------------------------------------------------------------------


    The cut back in harvest level in 1998 resulted in revenues to the 
vessels dropping from $99,479,252 to $67,803,000. [SAFE document, 1999, 
Pacific Council.] This represented a 32 percent drop in income. The 
revenue information from 1999 is not available, but should show a 
further income decrease, as the Council reduced the rockfish harvest in 
1999. The 2000 harvest levels have been reduced from the 1999 levels, 
with the addition of 5 overfished species. When a resource has been 
declared overfished, additional restrictions are required. It is 
anticipated that some fishing will have to be curtailed in 2000, 
because certain overfished resources will hit their harvest limits 
midway through the year. This will result in the allowable harvests of 
the healthy resources not being fully taken. The State of Oregon has 
predicted that the 2000 cuts in harvest could result in an additional 
$24 million in lost income.
    The condition of these fisheries has resulted from failures of 
local science, regional management, and national policy. Due to poor 
data and dubious scientific analyses, stock assessments have been 
fatally flawed. Lack of confidence in the science, and failure to 
employ the precautionary approach have led to excessive allowable 
catches. Belated management responses to the deplorable condition of 
the groundfish fisheries have been hampered by the moratorium on IFQs 
and by overly broad interpretations of it. The Pacific Council has 
reduced harvests in each of the past three years, but has been unable 
to institute a management system that would mitigate the economic 
impacts and reduce excess capacity.
    Management of trawl and fixed gear operations is accomplished with 
the use of trip limits. The trip limit management tool can be 
successful when the amount of fishing effort matches up with sufficient 
quantities of fishery resources. This tool fails where there is an 
imbalance. The lower Pacific Coast has too much effort and too little 
resource. Other than for fixed gear sablefish harvests, all trip limits 
are the same for every vessel. There is one set of trip limits per 
vessel, and that set applies uniformly to all vessel sizes and gear 
types. Currently, two or more licenses cannot be combined, or 
``stacked'', for a single vessel, thus precluding an efficient means of 
consolidating excessive effort. Consequently, the fisheries remain 
extremely inefficient and difficult to manage for conservation.
    For each trawler or longliner, trip limits apply to 14 species. 
These trip limits are supposed to be harvested once every three months, 
and sometimes, once every two months. These limits become, as they are 
now, economically unsustainable when allowable harvests fall below, and 
harvesting capacity rises above, certain levels. Most of the 
economically important species for the fixed gear industry have such 
low trip limits that the fixed gear vessels have in many cases ceased 
to operate, except for sablefish. The recent reduction for the 2000 
season will likely be as disastrous to the trawl fleet as preceding 
reductions have been to the fixed-gear fleet.
    The fixed-gear sablefish fishery is managed with three tiers, each 
tier having a different trip limit based on the historical production 
of the participating vessels. In 1999, each vessel that had a sablefish 
permit was allowed a nine-day season, regardless of the poundage of the 
applicable tier. The Pacific Council attempted to allow a longer period 
of time for harvest, in order to provide for safety, reduce management 
uncertainty, and better fit sablefish harvests with other fishing 
activities. However, the NOAA General Counsel's Office maintained that, 
to allow too much time to catch a trip limit would be construed as an 
IFQ, and therefore, would violate the moratorium in the Magnuson-
Stevens Act. On the basis of that ruling, the Pacific Council is 
currently forced to adjust harvest time and trip limit sizes for the 
fixed gear sablefish fleet in a manner that creates a 26% probability 
that a trip limit will not be achieved during a given fishing time. 
This percentage is called ``overhead''. Overhead guarantees that the 
race for fish in tightly constrained fisheries suffering from excess 
capacity will be greatly accelerated. Conservation and safety risks, as 
well as economic inefficiency, increase accordingly. Ever greater 
financial pressures lead vessel owners to add more crew, conduct 
fishing operations around the clock, and fish in dangerous weather 
conditions. For their part, the government managers occupy themselves 
with readjusting the fishing periods to account for fluctuations in the 
fisheries in a manner that will ensure continued achievement of the 26% 
probability that the trip limits will not be reached.
    The fixed gear solution that has been discussed and supported by 
many of the affected permit holders would include allowing the existing 
sablefish tiers to be harvested over a nine-to-twelve-month time frame. 
Of course, this would require removal of the overhead requirement, 
because any season this long would result in the certainty of a permit 
trip limit being harvested. In view of the prevailing legal ruling, the 
removal of the overhead requirement would be permissible only if the 
Magnuson-Stevens Act moratorium were lifted for this fishery.
    The ability to ``stack'' the permits and provide for reasonable, 
cumulative trip limits for sablefish and/or other groundfish species is 
also supported among those who operate in these fisheries. This 
approach would allow the fleet size to be reduced, so that harvesting 
capacity would better fit with the available resource and management 
would be less difficult. NOAA General Counsel has indicated that 
allowing stacking begins to assure fishermen certain guarantees of 
achieving trip limits, and therefore, cannot be reconciled with the IFQ 
moratorium. Here, again, the need for lifting the moratorium becomes 
evident.
    As noted, above, the other, vital need is to authorize an industry-
funded observer program for the west coast groundfish fisheries. This 
requires an amendment to section 313 of the Magnuson-Stevens Act. [16 
U.S.C. 1862.] I have noted that the present economic conditions in 
these fisheries is such that industry fees to fund an observer program 
would be unwelcome. However, as I have also noted, the establishment of 
a credible observer program is indispensable to gaining an 
understanding of the groundfish fisheries that will allow their 
effective conservation and management. If Congress will not appropriate 
the funds in the public interest to provide for such a program, then 
there is no alternative to industry, in its own interest, finding the 
means to do so.
    There are provisions of the Magnuson-Stevens Act that would appear, 
at first blush, to have some potential for ameliorating the conditions 
in the west coast groundfish fisheries. However, upon close 
examination, each of these provisions has its deficiencies. Fisheries 
disaster assistance, as provided by section 312(a) of the Magnuson-
Stevens Act (16 U.S.C. 1861a(a)) has merit, within limits. It does not 
answer the need for a long-term resource recovery program, and there 
are many issues concerning appropriation and allocation of funds under 
this section that would have to be resolved before short-term relief 
could be implemented. Accordingly, I believe that, if fisheries 
disaster relief is seriously pursued, it must not be allowed to divert 
attention and effort from achieving the long-term solution of reduced 
fishing capacity and increased resource abundance. I add that this 
provision does not authorize funding beyond the end of fiscal year 
1999.
    An industry-funded capacity reduction program, as authorized by 
section 312(b)-(d) of the Magnuson-Stevens Act has some superficial 
appeal. However, the economic and resource conditions of the west coast 
groundfish fisheries are so badly deteriorated, it is difficult to see 
how the statutory requirements can be met for financing a buyback.

                               CONCLUSION

    By any rational measure, the halibut/sablefish IFQ program has been 
a great success. With this example firmly established, individual 
transferable quotas should be available to fisheries managers 
nationwide, and in particular, should not be barred for west coast 
groundfish fisheries. In addition, Congress should authorize an 
industry-funded observer program for the west coast groundfish 
fisheries, so that, if federal funds are not forthcoming, vitally 
needed observer data can be secured, nonetheless.

    Senator Snowe. Thank you, Mr. Alverson.
    Mr. Brown.

STATEMENT OF RALPH BROWN, MEMBER, PACIFIC FISHERIES MANAGEMENT 
                            COUNCIL

    Mr. Brown. Thank you, Madam Chair, members of the 
Subcommittee. I am Ralph Brown. I am a trawl boat owner here on 
the coast and also a Member of the Pacific Fisheries Management 
Council.
    Fishing is basically all I have ever done, so if I come 
across as a fisherman, that is why. That is what I am.
    I am not going to read my testimony. I spent about four 
pages basically saying that the big problem is we do not have 
the information. And whether the Magnuson-Stevens Act would 
work as presently constructed with the right amount of 
information, I do not know. Because we do not have it. If we 
had the right amount of information, I do not know.
    One thing I do know on this coast, is that if we started 
collecting much of the information we need to adequately manage 
it, it is going to take enough years that the effects that we 
are feeling now basically will have become permanent in the 
fleet. As a consequence, my focus has to be on what do we do 
with those people. We have got to do something for those 
people. We cannot just say, well, too bad, folks; it was a good 
run for your money, but now you are out.
    In my testimony I did forget to put one comment in. I agree 
with Bob on the desirability of ending the moratorium on ITQ's. 
I know that has been a contentious issue. And if you cannot see 
your way to end the moratorium on ITQ's, I would at least ask 
you to look at the National Marine Fisheries Service 
interpretation of what an ITQ is--it is very broad right now--
and see whether or not that was really your intention in the 
moratorium. We run into the definition of an ITQ in places that 
I just would not think you would. So I would at least ask you 
to do that.
    Ideally, of course, we would have the information to 
adequately manage our fisheries, to do the things that the 
Magnuson-Stevens Act require. In the absence of that, when we 
are left with the great uncertainty that we have, it appears 
that the only response we have now are actions that destroy 
industries. Mr. Phil Anderson mentioned the dungeness crab 
fishery as one that we have been asked to manage. We sort of 
delayed with the interim language. We do not know whether we 
are going to be asked to manage it in the future.
    I took, admittedly, a quick and dirty look at the 
regulations and requirements that we would have to use if we 
managed the dungeness crab fishery. And I came up with a 
reduction in catch of 60 percent. That fishery today is 
considered to be one of the best managed fisheries on the coast 
biologically, and yet I still come up with we would be required 
to reduce it by 60 percent.
    We need to think about our definitions of MSY. That is a 
fishery that our current definition does not fit very well. And 
in fact, one of the reasons that we did not have a management 
plan before is that we could not get advice from our scientists 
on how we would even define MSY for that fishery, it is so 
variable. Catches have run, since 1952, have run from a low in 
the State of Oregon from 3 million pounds up to a high of 18 
million pounds. It is not a stable kind of resource. It bounces 
all over.
    While we were developing our coastal pelagics plan, the 
squid portion was turned down by National Marine Fisheries 
Service. Our scientific statistical committee advised us they 
did not know how to develop a MSY for the squid resource. It is 
another that is extremely variable due to environmental 
conditions. So we need to rethink that a little bit.
    But the main thing that we need on this coast is better 
information. And in the absence of better information, we need, 
along with the absence of better information, we really need to 
do something for our people that are just literally going to 
have to leave the 
fishery.
    Thank you.
    [The prepared statement of Mr. Brown follows:]

Prepared Statement of Ralph Brown, Member, Pacific Fisheries Management 
                                Council
    Thank you for asking me to testify before this Sub-committee. I am 
Ralph Brown of Brooking, Oregon. I grew up in the fishing business and 
currently own two trawlers that fish out of Southern Oregon. I am vice-
president of Fishermen' Marketing Association (FMA), a trawl 
organization that has approximately 600 members living in Washington, 
Oregon and California.
    I also serve on the Pacific Fishery Management Council (PFMC) in 
one of the At-large seats. I am currently in the middle of my second 
term in that position.
    For this testimony, I am speaking only for myself and am not 
speaking for either the FMA or the PFMC.
    A discussion of management and management failures in this region 
has to focus on a discussion of the information that we use. A lack of, 
or in some cases, poor information characterizes management of 
fisheries along this coast.
    The Council and Council staff worked very hard to upgrade our 
management plans to be in compliance with the new requirements of the 
Magnuson-Stevens Act. This was so time consuming that good ideas for 
improving management of our fisheries had to be deferred. We are just 
now getting to the point where we can move forward with new management 
ideas.
    What was the result of all of this hard work? We are left with a 
description of Essential Fish Habitat that includes nearly all of the 
aquatic habitat from the top of the Rocky Mountains to the western edge 
of the EEZ. We simply didn't have the information to narrow the 
description any further. We are left with a requirement to minimize 
impacts on habitat by fishing gear, with no idea what those impacts 
are. We are left with a requirement to consider social and economic 
information but with no social or economic information to use. We are 
left with the requirement to minimize by-catch without knowing how much 
by-catch is occurring or who is producing it. We are left with a 
requirement to end over-fishing on stocks for which we don't have the 
foggiest idea as to their condition, because we don't have the 
information to do assessments on the majority of the species listed in 
our management plan.
    I have been an observer of this management Council and the 
management process for a long time now, for two decades. I find the 
people involved to be sincere and dedicated to proper management of our 
fisheries. You will hear people saying that the state of our fisheries 
is bad because the Council did not make hard decisions when they were 
needed in the past. This is not true. This Council has never shied away 
from hard decision. As an example, this Council adopted a limited entry 
plan back when limited entry was a controversial subject throughout the 
country. This Council has never had an information base that was 
adequate to base decisions on.
    The shortage of information is particularly acute with respect to 
stock assessments and harvest levels. Our assessments have bounced all 
over the place.
    Our normal schedule is to assess the stocks that we assess every 
three years. Three years ago, harvest levels for sablefish were at 
7,000 tons. The management team came to the Council with a 
recommendation to reduce harvests to 2,500 tons. They said it with a 
straight face. I argued successfully to delay the full cut and we 
reduced catches to 5,300 tons, with a promise to have a new assessment 
the following year, rather than on the normal three year schedule. This 
assessment occurred and the next year the management team recommended 
an Acceptable Biological Catch number of 9,692 tons. They said this 
with a straight face also.
    Much of the management of our deep water fishery is driven by 
management of shortspine thornyheads. A paragraph from the Stock 
Assessment Review Panel Report of 1997 states ``The thornyhead 
assessments are particularly short of data, but the management regime 
nonetheless requires a specific number based on a sophisticated 
reference point as a basis for the ABC. The assessment is unable to 
deliver that ABC estimate with certainty. This means there is a high 
probability that management will simply be unable to achieve the 
desired target.''
    We are going through an examination of our harvest policies right 
now. This is the fourth examination that I am aware of. The previous 
examinations have resulted in successively more restrictive harvest 
policies. I expect the next harvest policy to be more restrictive than 
the last. Overly lenient harvest policy has been given as the reason 
that we have overfished species. This may be true, but the Council 
followed the advice of its scientists in each case.
    At this point, the proper question to ask of our scientists is: 
Does anyone here have any idea of what is going on in the ocean?
    I am critical of the science that has been used on this coast. I 
hope this is not viewed as criticism of the scientists here. All of the 
scientists here have done their best with the shortage of information 
that they have to work with, but they also can't make a silk purse out 
of a sow's ear. We have to be given permission to admit that we have 
sow's ears and not be forced to continually pretend that they are silk 
purses.
    What happens today if we successfully argue that the science is 
flawed? National Marine Fishery Service recommends that greater 
uncertainty in the stock status be matched with greater precaution in 
harvest. If we successfully argue that the science is poor, then we 
have demonstrated a greater uncertainty and get larger cuts in harvest. 
It's like being involved with a protection racket: ``If you argue with 
our science we'll cut you worse.''
    Most of the members of industry here think that the science that we 
base our decisions on is inadequate. We've tried to lobby for more 
research money and we've tried to work with National Marine Fishery 
Service to increase our understanding of our resources. We haven't 
gotten very far for a variety of reasons, and now the shortage of 
information threatens to destroy the industry.
    I believe that we are not done with the cuts in harvest. National 
Marine Fishery Service has been sued by a coalition of environmental 
groups that claim that not enough protection has been given the 
unassessed stocks in this region. There is a reason that the stocks are 
unassessed. We simply don't know enough to do assessments on them.
    National Marine Fishery Service has guidance on dealing with stocks 
that can't be assessed. Their guidance is to reduce the catch on 
species like this by twenty-five to seventy-five percent. These species 
are all incidentally caught, along with other targeted species. The 
only way to achieve a reduction in the unassessed species is to reduce 
the target catch by an equivalent amount.
    In 1982, landings of groundfish, other than whiting, were 119,000 
tons. According to the latest report, in 1999, landings were 36,000 
tons, a reduction of seventy percent. There are people saying that that 
reduction is not enough.
    If my fear of the future comes true, we will have reduced catches 
of groundfish, other than whiting, on this coast to 15,000 tons, or a 
reduction of nearly ninety percent, and there will still be people 
saying that that is not enough of a reduction due to the uncertainty of 
our assessment process.
    I don't want a shortage of information to be an excuse for 
overfishing, but it is unacceptable that the only response allowed 
today to a shortage of information is to destroy an industry.
    The Council now has five species that are listed as overfished. We 
have rebuilding plans developed for three of them. The remaining two, 
canary rockfish and cowcod, were declared overfished this year, and 
rebuilding plans have not been developed for them yet.
    The time required for rebuilding of these species has been 
projected to range from ten years for lingcod to nearly fifty years for 
Pacific ocean perch. Some of the model runs for bocaccio rockfish 
showed rebuilding not being finished for 300 years. When canary 
rockfish and cowcod rebuilding plans are developed, the rebuilding 
period will be similar to that of Pacific ocean perch.
    These rebuilding plans cannot be viewed as temporary and they can 
not be viewed as actions that will result in a stronger industry for 
anyone fishing today. We have made permanent changes in the industry 
and have entered a brave new world of fishery management.
    This brave new world may work if the information needed to make it 
work is provided, but we don't have that information today and it will 
be many years after we start to collect the information before it will 
be sufficient to make wise management decisions.
    What do we do for people involved in fisheries now? We have very 
nearly destroyed the industry. Continuation of this course of 
management will destroy the industry. The promise of a better life 
fifty or one hundred years from now is not sufficient.
    Today we have many displaced workers and large amounts of displaced 
capacity. If we continue along our management path we will have larger 
numbers of displaced workers, and larger amounts of displaced fishing 
capacity. We have to deal with these as top priority.
    Unless we address the capacity that is and will be displaced by 
these cuts in groundfish we will spread the impact of these cuts to all 
parts of the industry. Dealing with this displaced capacity must be a 
top priority for fishery managers in the very near future.
    In closing, I do not have specific recommendations, today, for 
solutions to the problems that are facing us in management of fisheries 
along the west coast. I am working with other members of industry to 
develop recommendations and we look forward to working with you to 
solve these problems.
    Priorities would be to improve the information base that we use to 
make management decisions and to provide for the people that we are 
displacing, and, finally, I would like to repeat that destroying an 
industry, as the only allowable response to uncertainty, is not 
acceptable.
    Thank you.

    Senator Snowe. Thank you.
    Mr. Moore.

          STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, 
           WEST COAST SEAFOOD PROCESSORS ASSOCIATION

    Mr. Moore. Thank you, Senator Snowe. For the record, my 
name is Rod Moore. I am Executive Director of the West Coast 
Seafood Processors Association. And I sort of feel like I am a 
constituent of all of you since I was born in Portland, Maine, 
and lived in Alaska for several years, and worked for Senator 
Stevens' colleague, Congressman Young, for 18 years, and I am 
now living on the west coast, with several of our members in 
Washington State. So I want to thank all of my Senators for 
coming here today.
    [Laughter.]
    Senator Snowe. You have covered all of your bases.
    Mr. Moore. I have tried.
    [Laughter.]
    You have my written testimony in the record, and I just 
want to highlight some of the things that I talked about there. 
There are three issues in particular which, in combination, 
have really done the most to exacerbate our problems in terms 
of fisheries management on this coast.
    First, as you have heard from a number of witnesses, is 
science or, rather, the lack thereof. The standard in the Act 
calls for using the best scientific information available. We 
have the standard of no scientific information available. If 
you look at the research abilities, time series and so forth in 
the Bering Sea and in New England and you contrast that with 
the west coast, you will find that we are sorely lacking in the 
basic scientific data that is needed to properly manage the 
fisheries.
    We are at the point where we have to go out and beg people 
for money for an annual trawl survey that we started a couple 
of years ago, using industry vessels. It is the sort of thing 
where we are trying to get the National Marine Fisheries 
Service to pull money out of one pocket and put it in another, 
just so we can do a basic survey. And these are the sorts of 
surveys that other parts of the country have available to them. 
And without science, the requirement to impose a precautionary 
approach is almost automatically going to lead to reductions in 
harvest.
    The second issue is the whole treatment of overfishing and 
rebuilding required in the Act and the regulations which 
implement the Act. A fishery is overfished if, regardless of 
cause, it has declined to a low percentage of virgin spawning 
biomass. However, without a survey time series--which we really 
do not have because we do not have any science, remember--
virgin biomass must be calculated from the computer model using 
current data.
    But if the current data set is not the best, then you have 
to make assumptions using what little you do know. So if your 
data base is zero and you use that to back-calculate, you get 
zero, and then you take a ratio, what do you get? You get zero. 
In other words, you are overfishing almost automatically. And 
once you are overfishing, you have to develop a rebuilding 
plan. And what do you base that rebuilding plan on? It is the 
same lack of data that you have already got.
    Obviously I am exaggerating a little bit here, but it 
illustrates the problem of trying to use sparse data to manage 
fisheries under very stringent legal requirements. And what is 
even worse is that we may be asked to rebuild to an impossible 
state of nature. Fish exist in a complex environment of depth, 
salinity, temperature, prey, predators, and competitors. Their 
populations are dynamic. They are not stable. They are not 
point estimates. They change over time. And they often change 
relative to each other and because of each other.
    Senator Stevens, I know you are aware of it in the Gulf of 
Alaska, what has happened with the tremendous increase in arrow 
tooth flounder up there as a result not only of changes in the 
aquatic environment but also the fisheries that have occurred 
in other species. Arrow tooth flounder moved in. If for some 
reason we were able to develop the fishery on arrow tooth 
flounder but we had to rebuild one of those other fisheries to 
some level that comes from who knows where, you are going to 
wind up depressing arrow tooth flounder to get someplace else. 
So you just go back and forth on rebuilding one or the other.
    So we are asked to bring single stocks back to a level that 
the ocean may no longer be capable of supporting, and to do so 
within a politically defined area as opposed to an area where 
the fish may actually exist. On this coast, sablefish is a 
great example. Sablefish can be found from Mexico all the way 
up past Canada, out to Alaska, and over to Japan and Russia. 
What we have to look at, in terms of whether sablefish are 
declining, overfished, where they are, is a political segment. 
We cannot really look at what is going on someplace else.
    Finally, the third issue, which is related to the first, is 
that if you, as the Congress, require us to do something, 
please give us the resources to do it. Do not tell us we are 
overfished and then not provide us with the science and 
management capability to do rebuilding plans. And do not tell 
us to reduce capacity to save fish and then deny us the tools 
to do so. Do not tell the seafood industry that we will be 
responsible for research and management but neglect to give us 
the rights and privileges we need to carry out that 
responsibility.
    We need the science, realistic legal structure and 
appropriate resources. There are 6 billion people here on 
earth. Please give us what we need to help feed them.
    Thank you.
    [The prepared statement of Mr. Moore follows:]

         Prepared Statement of Rod Moore, Executive Director, 
               West Coast Seafood Processors Association

    Madame Chair, members of the Subcommittee, I appreciate the 
opportunity to present this testimony on behalf of the West Coast 
Seafood Processors Association (WCSPA). Our Association represents 
shore-based seafood processors and associated businesses in Washington, 
Oregon, and California. Collectively, our members process the majority 
of Pacific groundfish, Dungeness crab, and pink shrimp landed in those 
States, along with substantial quantities of salmon, sardines, 
swordfish, albacore tuna, and a variety of other species. Three of our 
members also operate facilities in Alaska. Most of our member companies 
are family or individually owned, some for several generations.
    Most of my testimony will discuss the effects of the Magnuson-
Stevens Fishery Conservation and Management Act (MSFCMA) on the Pacific 
groundfish fishery, so it may be helpful to understand a bit about that 
fishery. The Pacific groundfish fishery, which is primarily managed by 
the Pacific Fishery Management Council under a fishery management plan, 
comprises some 83 different species, most caught in association with 
others. The fishery is the largest on the west coast in both volume and 
value and is the economic mainstay of our coastal fishing communities.
    The majority of groundfish landings are by trawl vessels, although 
there are significant components taken by fixed gear (both hook-and-
line and pots) and recreational vessels. A limited entry permit system 
has been in effect since 1994 and most landings are by limited entry 
vessels. There is also an ``open access'' component of the fishery 
which includes shrimp trawlers that incidentally take groundfish, small 
hook-and-line vessels, and the small beach-launched dory fleets in 
Oregon and California. Finally, there is an offshore fleet that 
harvests Pacific whiting, composed of catcher-processors and 
motherships that are supplied by smaller trawl vessels.
    Under the fishery management plan, harvests are allocated among the 
different entities, as well as to tribal fisheries in accordance with 
treaty provisions (some of which are under legal challenge). Harvest 
levels are generally set as coast-wide limits, though some species have 
different limits in the north and the south due to their relative 
abundance. Most recently, in order to address concerns with population 
sizes, the several rockfish species have been subdivided based on their 
normal occurrence by depth: near-shore, shelf, and slope.
    Along with overall harvest levels, individual vessel harvests are 
regulated by cumulative trip limits, which may vary throughout the year 
and by type of gear used. The current gear restrictions on cumulative 
limits, which largely were developed by the seafood industry in order 
to conserve distressed species, impose greater restrictions on the 
harvest of those species which have been designated as ``overfished''.
    Now that you know everything about the Pacific groundfish fishery, 
let me turn to the statute that governs how it operates--the MSFCMA. 
Before getting into specifics on the Act and its implementation, there 
are some general principles which we all need to think about.
    First, assumptions. Before taking my current job over five years 
ago, I spent nearly 18 years on the staff of the U.S. House of 
Representatives, working for Congressman Young of Alaska and the 
Committee on Merchant Marine and Fisheries. Between January, 1977, and 
December, 1994, many of the changes to the MSFCMA were my ``babies''; I 
was the House staffer who helped draft them and monitored their 
implementation. In doing so, I made a number of assumptions about how 
the language of the law and the intent of Congress would be carried 
out, just as you and your staff do today. Only after leaving Congress 
and coming to work for the seafood industry did I discover how wrong I 
was in many of my assumptions.
    Just to give you a small example: when the MSFCMA was passed, it 
created eight regional Councils in recognition of the regional 
differences in fisheries. We then proceeded to put in place national 
standards, mandatory provisions for all fishery management plans, etc. 
In short, we ignored the fact that we had created a regional system and 
imposed a one-size-fits-all pattern. So, the Congress talks about doing 
things via fishery management plan amendment, when in some cases--and 
Pacific groundfish is a good example here--the fishery management plan 
is a framework and everything accomplished under the plan is done by 
regulation. So, we wind up arguing with NMFS, NOAA General Counsel, and 
the Office of Management and Budget as to whether what we want to do 
with Pacific groundfish qualifies as a ``plan amendment'' even though 
it is being done by regulation. Frustrating as it is, this is only a 
minor example of making incorrect assumptions.
    Second, put your money where your mouth is. The workload imposed on 
our managing entities--both NMFS and the Councils--and on the seafood 
industry by statutory requirements is not matched by the resources 
needed to get the job done. As a result, we are constantly robbing 
Peter to pay Paul, and pretty soon both of them will go bankrupt. For 
example, there are numerous requirements for considering environmental, 
economic, and social impacts of regulations. These are all good things 
and the Congress has tried to streamline the fishery management process 
by having all analyses completed by one deadline. Unfortunately, no 
resources are provided to develop the database on which such analyses 
depend, or to provide the people to do them. In the NMFS Northwest 
Region, there are 3 people working full time on all aspects of 
groundfish management--that's three people to cover the biggest and 
most valuable fishery on the west coast. Looking at the science side, 
it's even worse: the harvest levels for yellowtail rockfish in 2000, 
for example, are based on 4 to 5 year old data. We have had at least 
one El Nino, one La Nina, and the beginnings of a major ocean regime 
shift since those data were collected, and this is one of the better 
examples. We scramble to find boats and money to conduct surveys, we 
have fewer stock assessment scientists than are listed in the NMFS 
Table of Organization, and yet our managers and scientists are being 
asked to produce more and more science. Something has to be done before 
the system collapses under its own weight.
    Third, we need to remember that fish stocks are dynamic and subject 
to a wide variety of fluctuations in size, location, and productivity. 
We cannot assume that what is here today will be here tomorrow nor, if 
it is gone, that human beings were the primary cause. We cannot assume 
that fish stop at some arbitrary political border in the ocean. We need 
flexibility in our management. Split-nosed rockfish (known locally as 
``rosefish'') in central California are a good example. In 1998, huge 
numbers of rosefish were found; in 1999, the numbers went back to 
``normal'' levels for the same mysterious reason that they bloomed the 
year previously. How did management respond? In 1998, there was no 
avenue for raising harvests for that year; instead harvest levels were 
increased in 1999. So, in 1998, fishermen had to discard rosefish to 
stay within their legal limits, and in 1999 they couldn't catch what 
was allowed because the fish had moved on. Fish--and fishermen--are 
dynamic; the law and management need to recognize that.
    So let's turn to specifics. The Subcommittee's letter of invitation 
asked me to testify specifically on the impacts that the 1996 
amendments to the MSFCMA (known collectively as the ``Sustainable 
Fisheries Act'') have had on the west coast fisheries. The following 
comments are on particular provisions of the Act:

Optimum Yield definition--In the 1996 amendments, the Congress amended 
the existing definition to prohibit increasing harvest above maximum 
sustainable yield (MSY) due to social and economic factors. This causes 
a variety of problems. First, MSY is often unmeasurable; in fact, the 
Pacific Council uses a proxy for MSY which is a harvest rate that 
results in a remaining spawning stock biomass of some percentage of 
what would exist absent any fishing. Our optimum yield is established 
by applying that harvest rate to the current biomass (as estimated 
through stock assessments) with necessary reductions if the current 
biomass is judged to be below 40% of the virgin biomass. In effect, we 
are taking a number--which may have confidence intervals of as much as 
50%--and treating it as a point estimate, then reducing it. We have 
completely abandoned flexibility. Rather than the iron-clad definition 
found in current law, we would be far better off stipulating that 
``optimum'' reflect some accepted scientific principle (rather than 
MSY) as modified to meet appropriate conditions.

Best scientific information available--This is the ``science standard'' 
on which many provisions in the Act are based. It is not defined. Like 
beauty, it often seems to be in the eye of the beholder. For example, 
several years ago the biomass estimates for Pacific whiting were 
reduced by 40% based on a single experiment conducted by a single 
scientist. When we suggested that more work be done before making such 
a drastic reduction, we were told that the single experiment 
constituted the best scientific information available and the new 
technique would be used. The standard needs to be defined; it needs to 
incorporate a peer-review process, and it needs to take into account 
anecdotal data. And if the Subcommittee is interested in a peer-review 
process that works, I recommend looking at the process used by the 
Pacific Fishery Management Council which involves scientists, fisheries 
managers, and industry representatives formally analyzing stock 
assessments.

Overfishing, the term--Before discussing the process used to deal with 
overfishing, I hope the Subcommittee will think about the term itself. 
If a fish stock declines for any reason, it is considered 
``overfished.'' Unfortunately, the term implies human--and indeed, 
harvest related--causes, even though it may simply have been Mother 
Nature throwing us a curve ball. Since few members of the media and 
even fewer members of the public have any clear understanding of the 
legal basis for an overfishing declaration, the seafood industry gets 
the blame and you in Congress get letters from irate citizens demanding 
that you do something to curb the excesses of those avaricious 
fishermen. Pacific Ocean Perch (POP) is a good example. POP have been 
considered overfished for 20 years because of the current biomass level 
in relation to virgin biomass. And how do we estimate POP virgin 
biomass? It is based on harvest reports from Russian trawl vessels that 
operated off our coast long before the MSFCMA was first enacted, 
reports whose veracity is highly questionable. In fact, there is 
speculation that POP were never abundant off the west coast, that what 
we have is a fringe population whose center is in Southeast Alaska. Yet 
we get the blame. Perhaps a term such as ``distressed fishery'' might 
be more appropriate, a term which takes into account population 
declines from a variety of sources.

Essential fish habitat--Under current definitions and guidelines, the 
entire ocean has been declared ``essential'' for many species, thereby 
both diluting the effect of this change in the law and putting 
additional burdens on the seafood industry, since the effect of fishing 
gear on essential fish habitat is about the only thing that gets 
regulated. We need to look at ways to go after areas that truly are 
essential.

Conflict of Interest--We are rapidly approaching the point when we will 
make it impossible for individual fishermen and processors to serve on 
management Councils, a direct contravention of the cooperative 
management system that was originally envisioned in 1976. Under NMFS' 
interpretation of the law, a 10% interest in a fishery triggers a ban 
on Council member voting. However, what varies is whether the 10% test 
applies to a fishery as a whole (e.g., the Pacific groundfish fishery) 
or to a port or region (e.g., the port of Astoria or the lower Columbia 
River region). It is a fact of life that our fisheries are 
consolidating and thus getting smaller in many areas. Applying the 10% 
test to a particular port or region can easily prevent a Council member 
from voting on most issues. To make matters more confusing, a 
representative of a group of fishermen or processors can vote more 
freely on issues than can any of the people he or she represents. We 
are moving the Councils more to participation by paid representatives 
and state officials and losing the expertise that can be provided by 
individual, long-term fishermen and processors. This doesn't make any 
sense.

Individual Quotas--The Congress should lift the moratorium on 
individual quota programs and include language to enable processors to 
achieve equitable benefits--and bear equitable costs--in any program 
established. If there are guidelines that need to be created, they 
should provide flexibility among regions and fisheries. Any fees or 
other costs recovered should be returned to the fishery or region in 
which they were collected. Whether or not to establish an IQ program 
should be a decision made by a particular Council. Please note that 
under current NMFS interpretations of what constitutes an IQ, our 
cumulative trip limit management system would not be allowed. We need 
to provide flexibility for the Councils to develop management programs 
that work for their particular fisheries.

Overfishing/rebuilding process--Section 304(e) is a wonderful 
illustration of the old adage about the road to Hell being paved with 
good intentions--and here on the West Coast we are feeling the burn. 
First, consider how a stock is determined to be ``overfished''--we use 
point estimates to gauge the status of stocks that may fluctuate widely 
and we have insufficient data to determine what that status is in 
reality. Take canary rockfish, an important--and ``overfished''--
species on the west coast. In 1999, the acceptable biological catch was 
1,045 metric tons, a figure derived from a prior stock assessment. In 
2000, the ABC is 356 metric tons, based on the most current stock 
assessment and the species has been designated as ``overfished'' under 
the guidelines established by the Sustainable Fisheries Act. I served 
on the review panel that examined the most recent stock assessment and 
there are no technical problems with the assessment itself; however, it 
does make a number of assumptions based on exceedingly sparse data. 
Nevertheless, we have to ask: did this species crash in the three year 
time period between assessments? If so, was the crash human caused or 
environmental? If the latter, can it be rebuilt absent another change 
in the environment? By using a single point--current biomass in 
relation to virgin biomass--are we looking at the true picture of this 
stock, which may fluctuate widely?
    Second, are we considering the proper parameters? Overfishing 
designations are based on current biomass in relation to virgin 
biomass. The world has changed and is continuing to change. Carrying 
capacity of the ocean fluctuates. Can we even achieve a stock size 
above the ``overfished'' level given contemporary ocean conditions?
    Third, once a stock is designated as ``overfished'' the Council has 
a relatively short period of time to come up with a rebuilding plan. 
Given the lack of resources--both human and fiscal--available to NMFS 
and the Council, especially in this region, all of our efforts will 
suddenly be directed to preparing rebuilding plans, thereby ignoring 
other needed science and management efforts. How many stocks suffer (or 
how many fishermen suffer) when all attention is focused on a handful 
of stocks?
    Fourth, we need to ``end'' overfishing; not respond to it or 
address it, but end it. If overfishing is a result of long-term 
oceanographic changes that affect the basic productivity of the stock, 
how do we accomplish that objective?
    Fifth, we have time frames that don't fit biology. Ten years might 
be a sufficient period when dealing with a fast growing, highly fecund 
gadoid whose biomass has been depleted by over-harvest, but it doesn't 
work for a slow growing, long lived rockfish with moderate fecundity 
that has been depleted by changes in ocean conditions. While there are 
exceptions for overfishing resulting from environmental changes, trying 
to convince anyone that Mother Nature caused the problem is extremely 
difficult, especially given our current state of knowledge.
    Sixth, once we embark on a rebuilding program, we really have no 
way to monitor if we are doing right, doing wrong, or if the fish are 
just coming back by themselves. Do we prepare a new stock assessment 
and come up with a new point estimate? Will we be going from famine to 
feast every three years? Or will we wind up ten years older with no 
more fish than we have now?
    Last, but not least, how do we deal with mixed stock complexes, 
which is how most fish are caught? Does the overfished species become 
the tail wagging the dog? This year, the Pacific Fishery Management 
Council adopted most of a plan developed by the seafood industry which 
we think will allow fishermen to maintain access to healthy species 
while avoiding ``overfished'' species. This will require a significant 
investment by the industry in modified gear. But what if one of the 
other species becomes overfished as well--a possibility according to 
some scientists. Will we then have to close off large areas of the 
ocean, tie up boats, shut down processing plants, all to avoid two 
species? These are very real and very scary questions.
    I realize that I have raised a number of questions and what you are 
looking for is answers. A group of us in the seafood industry from 
around the country have been working on those answers and we hope to 
have something for you in the near future.

Observers--Suggestions have been made that the Pacific Fishery 
Management Council be included in the North Pacific Fisheries 
Conservation language found in section 313 of the MSFCMA. While we 
recognize the noble intent in this proposal, as a practical matter 
section 313 was designed specifically for the North Pacific Fishery 
Management Council and simply including the Pacific Council would not 
work. As I mentioned above, we have a large open access fleet and a 
recreational fleet, both of which can have significant impacts on some 
species. Neither of these fleets are regulated or permitted by the 
MSFCMA; they fall under the jurisdiction of the several States. Thus, a 
change such as has been suggested would put the full burden of paying 
for and carrying observers on the limited entry trawl, hook-and-line, 
and pot fleets--the direct opposite of what the Congress tried to do 
when it enacted section 313 in its original form. If the intent is to 
try to find an equitable cost sharing method for paying for and 
carrying observers, new language would have to be developed.

Marine Protected Areas--While I realize that this subject will be 
addressed by a separate panel, I want to add a few thoughts of my own. 
WCSPA has testified in favor of looking at MPAs; one of our members 
served on a Council committee looking at MPAs and my deputy is 
currently a member of the Council's Marine Reserve Committee. MPAs are 
not a new concept; in fact, they are an extension of traditional time 
and area closures long supported by the seafood industry. However, they 
have their own set of issues. For example, we believe that the size and 
area of MPAs should be decided by the appropriate Council. Second, if 
an MPA is established, it should be a true MPA, closed to all fishing, 
and not just an excuse to allocate fish among industry sectors. Third, 
we need to deal with overlapping and conflicting jurisdictions. To give 
a worst case example, an MPA established 15 miles off the Olympic 
Peninsula here in Washington would have to untangle the jurisdiction of 
two countries (the U.S. and Canada, in the case of albacore), one 
Native American tribe (the Makah tribe), the Pacific Fishery Management 
Council, and three States (Washington, Oregon, and California, who 
regulate recreational fisheries and commercial fisheries for crab and 
shrimp through landings laws). How you would do that if the MPA is 
controversial boggles the mind. Less complicated but similar examples 
exist up and down the coast. I leave it to the next panel to determine 
if they have any answers.

    Madame Chair, members of the Subcommittee, this concludes my 
testimony and I would be happy to answer any questions. I want to thank 
you for taking the time out of your busy schedules to visit our half of 
the world. I look forward to working with you and your staff in 
developing a re-authorization bill for the year 2000.

    Senator Snowe. Thank you.
    Mr. Henkel.

              STATEMENT OF TIM HENKEL, PRESIDENT, 
           DEEP SEA FISHERMEN'S UNION OF THE PACIFIC

    Mr. Henkel. Good morning, Madam Chairman and members of the 
Committee. My name is Tim Henkel. I am a professional longline 
crewman. I have been a working fisherman for 22 years, and for 
the past 13 years I have been a crewman and relief skipper 
aboard the halibut schooner, Masonic, out of Seattle. I 
currently hold the position of President of the Deep Sea 
Fishermen's Union of the Pacific.
    I would first like to say that the Deep Sea Fishermen's 
Union strongly supports Mr. Alverson's view on the west coast 
groundfish management. I would like to address the individual 
fishing quota from a crewman's perspective.
    Under the IFQ system, working conditions are much safer 
than during the frenzied derby days of the open access era. For 
example, when fishermen had to deal with extremely limited time 
constraints in effect, the 24-hour halibut openings, in order 
to be competitive, they were compelled to go out on the ocean 
in any kind of weather, with far too much gear aboard their 
vessel than it was designed to safely handle, leading to vessel 
instability. Today, I am relieved to say that this situation no 
longer occurs. Coast Guard rescues have been significantly 
reduced as a result of the IFQ management.
    Under the previous open access system, the quality of the 
product often suffered due to the huge delivery gluts. It also 
created an adverse effect on prices paid to fishermen. Today, 
under the new IFQ system, the product quality has improved due 
to better handling. Combined with a reasonably safe supply and 
a growing fresh market, these changes have ultimately brought 
about better revenues to fishermen and have improved the 
quality of the product to the consumer.
    From 1991 to 1994, incomes began to take a sharp decline, 
in great part due to an increase in the number of boats 
participating in the open access fishery; the proverbial slice 
of the pie was getting smaller for everyone. Had this phenomena 
continued, many crewmen feel they would have been forced to 
abandon the fishery in search of other employment, or continue 
as part-time longliners and try to establish themselves in one 
of the already overcrowded, depleted fisheries.
    For the crewmen who have survived this change, the IFQ 
system has provided them a much more stable income. The halibut 
and sablefish resource is becoming healthier as a result of IFQ 
management. The Deep Sea Fishermen's Union is a professional 
crewmen's union, working under contract with the Fishing Vessel 
Owners Association since 1912. As far as we know, we are the 
only fishing crewmen's union in the United States.
    During the open access years, our collective bargaining 
ability lay in our skills as highly efficient, productive and 
professional crewmen. This was essential to the fishing 
operation in order to compete for the resource. Under the 
privatized IFQ system, a professional crewman is desirable but 
not necessarily essential. Thus, our collective bargaining 
ability has been greatly diminished. Many crewmen believe that 
the acquisition of quota will become the future collective 
bargaining tool.
    The Federal IFQ loan program, as mandated by the Magnuson-
Stevens Act, has been an excellent vehicle for crewmen and 
small vessel owners to acquire fishing quota. And on behalf of 
a lot of crewmen, I would like to thank this Committee, Senator 
Stevens and Senator Gorton, Madam Chair, for that program. That 
program has been manna from heaven to crewmen.
    I personally am a recipient of the loan program. The role 
of crewmen is moving away from the boots and oilskins mentality 
and into fully invested quota shareholders. Some of us have 
more invested in quota than the value of the vessels we work 
on. Unfortunately, the labor sector of the fishing industry 
still has no real voice in the decisionmaking and 
implementation process. It is my hope that in this hearing the 
Committee will consider this, and mandate the labor sector a 
voting seat on the North Pacific Fishery Management Council.
    Thank you.
    [The prepared statement of Mr. Henkel follows:]

             Prepared Statement of Tim Henkel, President, 
               Deep Sea Fishermen's Union of the Pacific

Deep Sea Fishermen's Union of the Pacific
5215 Ballard Avenue N.W.
Seattle, Washington 98107
                                           January 10, 2000

The Honorable John McCain: Arizona
United States Senate
508 Dirksen Building
Washington, DC 20510

Re: U.S. Senate Committee on Commerce, Science and Transportation 2000, 
Magnuson/Stevens Reauthorization Hearing, January 14, 2000--Seattle, 
Washington

Senator McCain:

Individual Fishing Quota System 1995-2000; A Crewman's Perspective

    Under the I.F.Q. system, working conditions are much safer than 
during the frenzied ``Derby Days'' of the open access-fishing era, For 
example, when fishermen had to deal with extremely limited time 
constraints e.g., twenty-four hour halibut openings, in order to be 
competitive, they were compelled to go out on the ocean in any kind of 
weather with far too much gear aboard than the vessel was designed to 
safely handle, leading to vessel instability. Today I'm relieved to say 
that this situation no longer occurs. Coast Guard rescues have been 
significantly reduced as a result of I.F.Q. management. Under the 
previous open access system, the quality of the product often suffered 
due to huge delivery gluts that also created an adverse effect on 
prices paid to fishermen. Today under the new I.F.Q. system the product 
quality has improved due to better handling. Combined with a reasonably 
steady supply and a growing ``fresh market'' these changes have 
ultimately brought about better revenues to fishermen and have improved 
the quality of the product to the consumer.
    From 1991 to 1994, incomes began to take a sharp decline in great 
part due to an increase in the number of boats participating in the 
open access fishery. The proverbial ``slice of the pie'' was getting 
smaller for everyone. Had this phenomenon continued, many crewmen feel 
they would have been forced to abandon the fishery in search of other 
employment or continue as part-time longliners and try to establish 
themselves in one of rite other already overcrowded and depleted 
fisheries. For the crewmen who have survived this change, the I.F.Q. 
system has provided them a much more stable income.
    The halibut and sablefish resource is becoming healthier as a 
result of I.F.Q. management. We're not experiencing the lost gear 
deadloss of the ``derby days''. Releasing sub-legal halibut unharmed is 
much easier now because the fishermen are not forced to haul gear at 
unsafe breakneck speeds. Environmentally the program all but eliminated 
discards of bycatch, increased the focus on stock assessment and even 
allowed us the freedom to develop an in-season survey for bird-bycatch 
reduction. (An impossibility under an open access or license limitation 
scheme.)
    From a labor standpoint, there are a few backlashes. Jobs have been 
cut, but many believe it had to happen. Now we have a smaller more 
professional fleet instead of a hugely overcrowded part-time fleet.
    The Deep Sea Fishermen's Union is a professional crewmen's union 
working under a contract with the Fishing Vessel Owner's Association 
since 1912. As far as I know, we are the only fishing crewmen's union 
in the U.S. During the open access years, our collective bargaining 
ability lay in our skills as highly efficient, productive and 
professional crewmen. This was essential to the fishing operation in 
order to compete for the resource. Under the privatized I.F.Q. system, 
a professional crewman is desirable but not necessarily essential. Thus 
our collective bargaining ability has been diminished greatly. Many 
crewmen believe that the acquisition of quota will become the future 
collective bargaining tool. The Federal I.F.Q. Loan Program, as 
mandated by the Magnuson Act, has been an excellent vehicle for crewmen 
and small vessel owners to acquire fishing quota. I personally am a 
recipient of the loan program. The role of crewmen is moving away from 
the ``boots and oilskins'' mentality into fully invested quota 
shareholders. Some of us have more invested in quota than the value of 
the vessels we work on. Unfortunately, the labor sector of the fishing 
industry still has no real voice in the decision making and 
implementation process. It is my hope that in this hearing the 
Committee will consider this and mandate the labor sector a voting seat 
on the North Pacific Fishery Management Council.
    Thank you for inviting my comments on this issue.

Respectfully,

Tim Henkel
President
Deep Sea Fishermen's Union of the Pacific

    Senator Snowe. Thank you, Mr. Henkel. I want to thank all 
of you for your very important testimony.
    Let me begin with the scientific data, because you all 
mention it in your testimony. Do you think that if we had 
adequate resources to collect the data necessary to make 
decisions at the regional and Federal level, the credibility of 
the decisions would be enhanced?
    I know my fishermen at home in Maine often question 
whatever decision comes out of the agency. How can we restore 
the credibility of the National Marine Fisheries Service when 
people have so many doubts about it?
    For example, when NMFS says that the status of 75-80 
percent of fish stocks is unknown, it emphasizes the negative 
results of fisheries management. Would better data be enough to 
restore credibility to the agency?
    On the one hand, the status of certain stocks is unknown. 
That raises questions with not only the fishermen, but also 
with environmental groups and others who are concerned about 
conservation. So we get it at both ends. Would this cure the 
problem?
    Mr. Moore.
    Mr. Moore. Senator, I do not think it would completely 
solve the problem, because people are always going to be 
skeptics. It would certainly help. I think once you have the 
resources to more adequately assess the stocks out there, to 
provide money for surveys and so forth, that then gives the 
Federal and State agencies more flexibility to work with the 
industry. And once the industry, both the fishermen and the 
processors, are brought into the process of conducting research 
and analyzing research, that, in and of itself, helps out with 
the credibility.
    But you need that financial base to start with, to provide 
the basic data and the basic tools. We in the industry are 
doing some of that ourselves.
    Bob, I think your group was working on some sablefish 
research at one time. I know Ralph and I have worked on some 
things.
    Our Council has developed a stock assessment review 
process, sort of a peer review of the data, which deliberately 
involves somebody from the groundfish advisory panel, which is 
the industry and public panel, as part of the review. That 
helps create the credibility. But the tools for doing all of 
those things are very limited.
    Now, we all hate to say it. We all hate to come up here and 
beg you for money. But that is part of the problem, is trying 
to get the people and the tools we need to get the better data.
    Senator Snowe. Mr. Brown, you are on the Council. What is 
your perspective?
    Mr. Brown. Thank you. I have spent an awful lot of time at 
stock assessment meetings. Probably, of the fishermen on the 
coast, I may have spent more time than any others. So I am 
fairly familiar with the science and the science needs.
    And it would certainly help an awful lot if we had adequate 
data. It is very frustrating to go to a stock assessment 
meeting, and review panel meeting, and hear the stock 
assessment authors say, on something like short-spine 
thornyheads, ``well, we know they live somewhere between 60 and 
160 years.'' It makes a big difference in the mortality. 
Mortality directly relates to the amount that you harvest every 
year. But in order to do a stock assessment, we have to pick 
something. And so it gets picked.
    It is very distressing, in the same stock assessment, to 
hear, well, we are not exactly sure what the catch was because, 
until 1994, we landed thornyheads as thornyheads rather than as 
short-spine and long-spine thornyheads. They were not 
separated. So we have really no way to know what the catch of 
short-spine thornyheads specifically was, prior to about 1994.
    And so we have developed a formula that we will apply to 
the catch information to give us that number. Unfortunately it, 
of course, has to include a number of assumptions that the 
modeler is making, that frankly I do not think were adequate. 
We got into a bit of an argument about it. But, again, she did 
what she had to do. She had to have catch.
    There were three or four different growth curves that were 
presented. They were not tremendously different, but they were 
some different. She had to use one of them. She could not use 
all four.
    I am trying to see if there was another factor. I cannot 
remember what it was now. The recruitment is absolutely 
unknown, and so they fixed it at 10 million fish, because we 
have to have something. And at that point, you start wondering 
what exactly did we assess here, when we have basically assumed 
all of the parameters. And yet, that stock assessment is 
driving the management of most of our deep water species. It is 
very difficult to stay chipper about all the processes with 
that kind of information flow.
    So it would help an awful lot. Because I think then, when 
we do go to the stock assessment meetings, we would have at 
least some confidence that the information going into the stock 
assessment had some basis other than an assumption based by the 
modeler.
    Senator Snowe. Mr. Alverson.
    Mr. Alverson. Thank you, Madam Chairman.
    I think the short answer to your question, Madam Chairman, 
is yes, it would go a long ways. To be more specific, the 
current survey, the current tri-annual survey, may adequately 
survey maybe 30 of the 84 species that we have to manage. There 
are a number of species that we have very little or no data 
base on that are driving a lot of our management.
    The science of how to fund this is a concern. I did hear a 
comment about these new vessels that the National Marine 
Fisheries Service is supposed to get. And I do not necessarily 
want to get sideways with the Service, but ever since my dad 
was director of the Service, I have been sideways with the 
Service.
    [Laughter.]
    But those boats, we are told, are $40 million a copy. I do 
not know if that is accurate, but that is what we heard. And if 
I had that $40 million and I put it in a U.S. 30-year T bill at 
six percent, that is $2.4 million. And we could do one hell of 
a lot with $2.4 million annually out here.
    The other aspect to that, in terms of money--and I would 
caution Congress that--and again, I do not want to get sideways 
with the Service--but if you allocate funds, we need on-the-
water activity, We do not need people behind a desk, from my 
perspective--where those funds go. Our Association has been 
greatly concerned for the last decade and a half with 
management. We have testified many times to the Pacific Council 
that we thought there was a decline taking place in the 
different resources.
    What is driving a lot of the reductions now, that the 
Council has to vote on, is a change in science. The best 
available science has changed in the last three to four years. 
The best available science prior to three or four years ago, 
with all the wonderful population dynamics, the people we have 
up and down the coast and our SSC peer reviewing all of this, 
suggested a rockfish species could be harvested at what they 
call an F-35 rate.
    That has now changed. And it began to change three or four 
years ago. And it is suggested that they should have been 
harvested over the last 20 years at an F-45 and perhaps an F-65 
rate. That means our long-term harvest policies over the last 
20 years have been anywhere from 30 to 50 to 60 percent higher 
than what the resources could naturally reproduce themselves 
at.
    So that is part of the science and part of the picture. And 
again, the short answer is yes, but with the qualifications 
that I made.
    Senator Snowe. You are saying that there would be a better 
use of the money than putting it into more vessels. My staff 
said that it costs $50 million per vessel.
    Mr. Alverson. Per copy?
    Senator Snowe. Yes.
    Mr. Alverson. Well, that is $3 million a year at six 
percent.
    [Laughter.]
    Thank you.
    Senator Snowe. Yes, Mr. Brown, did you have something to 
add?
    Mr. Brown. Yes, please. I am sorry to interrupt here.
    We keep talking about the amount of surveys, and we talk 
about the tri-annual survey occurring once every three years. I 
should point out that that tri-annual survey does not go inside 
of about 200 feet of water, and we have never had a survey 
inside or south of Point Conception. And yet, as one of our 
overfished species, lingcod, a major portion of the stock--and 
we of course do not know how much--lives inside of 200 feet of 
water.
    Another one of our overfished species, bocaccio rockfish, 
it is primarily south of Point Conception, where we have never 
had a survey, and the juveniles live inside of 200 feet of 
water. For one of the species that was recently listed as 
overfished, cow cod, the area of concern is south of Point 
Conception, where we have never had a survey.
    Senator Snowe. Mr. Henkel, you mentioned in your testimony 
that IFQ's have worked very well and improved the health and 
safety of the crewmen on board the vessels. Do you think that 
IFQ's have in any way consolidated the industry in favor of 
larger vessels? One of the legitimate concerns is that IFQ's 
will result in a few large operations dominating the industry, 
overtaking the smaller-sized, traditional, family-run vessels.
    Mr. Henkel. Madam Chairman, I think consolidation has 
occurred. I think that is a fact of life under the system. But 
you have to compare it back to the old open access days. It was 
completely overcrowded. People have a tendency to focus on that 
consolidation aspect. But I walk the docks, and I have not 
talked to a single working fishermen who wants to go back to 
the dark ages of open access.
    And from a crewman's perspective, yes, we have--I actually 
compiled a list--I do not know if I have it with me--of vessels 
that have dropped out and of crewmen that have been laid off. 
However, a phenomena I see occurring here is small groups of 
crewmen, twos and threes and fives, are acquiring quota. And 
they are going out in little groups and they are approaching a 
skipper and they are making trips. And this phenomena is just 
kind of now getting underway.
    It took a long time for us to get over the initial shock, 
and there was this collective resentment about allocation. And 
in my opinion, this is sort of a little sleeping giant starting 
to wake up. And I think, in terms of the committed fishermen, 
who are in for the long haul, there is going to be a leveling 
of the playing field. I think a new paradigm of crew employment 
and crew to skipper and vessel balance will be--the new 
generation of crewmen after the initial key people start 
retiring and whatnot, it is sort of leaning toward groups of 
crewmen with quota, uninvested participants I believe--this is 
more my opinion, but it seems to be the trend--are going to 
become more of a thing of the past.
    It is interesting now, where you have to step up to the 
plate and invest. And the guys I know and work with do not have 
any problem with that. We do have a small problem with 
competing with larger entities with financial leverage. 
However, I thought that an idea like a capital construction 
fund for crewmen that could be applied toward the acquisition 
of quota would be an excellent vehicle.
    This system, it is interesting, it is beginning to work. I 
think it needs some more time. And you hear a lot of stuff but, 
all in all, I think it is just beginning to take off. And we 
are pretty happy with it.
    Senator Snowe. What gives the crewmen incentives under 
IFQ's?
    Mr. Henkel. Well, for instance, one of the arrangements we 
have on the vessel I work on, if the crewmen go out and buy 
quota, we can come on to the--you have to pay for that quota, 
obviously, and it is quite expensive, so one has to charge a 
fee for the use of that quota. We are talking about a second 
generation quota as opposed to--the Vessel Owners Association, 
that we have a contract with, some of them have allocated 
quota, which they do not charge us for. But if quota is 
purchased, then we have an agreement that we can charge to pay 
back that purchase.
    So when crewmen get together and buy quota, they can charge 
enough to make that quota pay for itself. And over a period of 
time, that snowballs. And where the traditional boat share/crew 
share split used to occur, the acquisition of quota is sort of 
bringing that back into balance, you might say. I do not know 
if you are following that.
    Senator Snowe. Yes, I do. It is a very interesting 
perspective. It is an interesting observation. Thank you.
    Senator Gorton.
    Senator Gorton. Bob, if the participants in the west coast 
sablefish management program had the same eight-month season 
that North Pacific does, what would be the dynamics or the 
benefit?
    Mr. Alverson. The initial dynamics is that our insurance 
costs would go down, because of the intensity and the high risk 
of the current derby that we are forced into.
    Senator Gorton. You mean it would be safer?
    Mr. Alverson. It would be safer. It would be definitely 
safer.
    The dynamic of the W.C. fishery is that most of the boats 
are involved in two or three fisheries. There is a complaint 
constantly at the Pacific Council that that August 15th date 
unfairly penalizes albacore fishermen, because that is when 
they tend to school along the west coast. And some of those 
people are hook and line sablefish fishermen. So it will allow 
them to participate in May or June, catch their black cod, as 
opposed to be force fitted into one-season-fits-all. And it 
would allow the fishermen either to go do their other things 
and better organize their fishery.
    These trip limits that we have been allocated were based on 
an overpopulated industry to begin with. So they do not reflect 
what they used to 10 or 20 years ago, where someone might 
actually fish for five months off the coast. These are 
basically, at the most, a 15-day trip, which is what they have 
been reduced to. Some of the number one tiers might take two or 
three weeks to catch, if you have the proper amount of time.
    The other dynamic is the Pacific Council would like the 
ability to stack these. And there would have to be a limit of 
how many you could stack. But the idea of stacking is employed 
in Chatham Strait, in Alaska, on their black cod fishery, and 
in their Clarence Strait fishery on black cod. And that allows 
a fishermen or a crewman to own one of these and go on another 
boat that already has a quota. And that would reduce the amount 
of boats and gear in the water and help reduce the 
overcapitalization that we have. So that the boats could get 
back, and the crews, to the historical income base and harvest 
base that they used to have.
    I think that the trading of these quotas, if they had eight 
months to fish--they are called an IQ under the current law--
but the trading of them would take place very similar to what 
goes on in Alaska, on their IFQ and their Chatham Strait black 
cod fisheries.
    Senator Gorton. Thank you.
    Mr. Moore, I understand, and I hope I am correct on that 
understanding, that you are a strong supporter of a $4 million 
observer program for the west coast cod fish fisheries. The 
President and the Senate came up with $2 million. The House 
zero. Is $2 million better than zero?
    Mr. Moore. I would say $2 million is certainly better than 
zero. $1 million is better than zero.
    I think, Senator, that what we need to do in all of the 
research-oriented sorts of things, whether it be observer 
coverage, whether it be money for trawl surveys, whether it be 
more for scientists to conduct stock assessments and so forth 
and so on, we need to look at whatever pot of money you in your 
infinite wisdom and capabilities can get available for 
groundfish and figure out what we can do with that pot of 
money, and set priorities based on where the needs are.
    Senator Gorton. Okay. You are also critical of the National 
Marine Fisheries Service and its research program. Is that 
primarily because it does not have enough money, or do you 
think it is not prioritizing right with what it does spend on 
research?
    Mr. Moore. Well, I hate to wave a red flag in front of 
anybody, but I sort of have to echo Phil Anderson's comments, 
from the previous panel. When you look at the huge amount of 
money that is spent on salmon on this coast and the economic 
returns from the salmon fishery to the west coast, then you 
look at the paltry sum that is spent on groundfish and what 
have been huge economic returns from groundfish, there is an 
imbalance there. There needs to be some shifting of priorities 
in terms of allocation of money.
    Senator Gorton. You need an Endangered Species listing.
    Mr. Moore. Well, I have thought about that, Senator.
    [Laughter.]
    The problem is, when you are dealing with a fishery that is 
150 miles out in the ocean, the only people who get shut down 
by the endangered fishery listing are Ralph and Bob and my 
processors, so it does not do any good.
    Senator Gorton. Thank you.
    Thank you, Madam Chair.
    Senator Snowe. Thank you, Senator Gorton.
    Senator Stevens.
    Senator Stevens. Madam Chairman, I do not want to be a 
bastard at the family reunion, but I want to have a little 
reading here and make sure that I get the views of our friends 
about IFQ's. The National Research Council did give us its 
report. And in the executive summary they said categorically: 
`Congress should lift the moratorium on the development and 
implementation of the IFQ programs established by the 
Sustainable Fisheries Act.'
    But they also pointed out that the Magnuson-Stevens Act 
defines an IFQ as a Federal permit under a limited access 
system to harvest a quantity of fish expressed by a unit or 
units representing a percentage of the total allowable catch 
that may be received or held for the exclusive use by a person. 
No argument so far, I assume.
    But then it says: `Congress should permit, one, the 
assessment of fees on initial allocations of quota and first 
sale and leasing of it, imposition of an annual tax on quota 
shares, zero revenue auctions.' The Magnuson-Stevens Act 
presently imposes limits on various fees that may be used to 
recover the cost of IFQ management enforcement. The Congress 
should increase these limits so that the IFQ management and 
other forms of limited entry can be recovered fully.
    Additionally, revenues extracted from IFQ fisheries should 
be used to mitigate some of the potential negative impacts of 
IFQ's and support research. Now I am going to start to 
eliminate some of this and not read all that is in this 
section. The committee recommends the Magnuson-Stevens Act be 
amended to allow the public to capture some of the windfall 
gain generated from initial allocation of quotas, to recover 
incremental costs of IFQ management authorized by the 
collection of fees from the transfer and holding of IFQ's.
    It has a whole series of other things of what the Congress 
should do. And then it has a whole series of things about what 
the Secretary of Commerce and the National Marine Fisheries 
Service should do. It also requests that the Council should 
consider including fishing communities in initial allocation of 
IFQ's.
    It has a new concept of rents. And it says: Councils should 
avoid taking for granted the gifting of quota shares to 
participants in the fishery, just as they should avoid taking 
for granted that vessel owners should be the only recipients of 
quota, and historical participation should be the only measure 
for determining initial allocations. There is a whole set of 
things that they say both the Congress should do and that 
Congress should authorize the Council to do.
    Now, I take it that there is a general feeling that the 
moratorium should be lifted. What do you think about the advice 
they give us as to what the Council should do, the Secretary 
should do and the Congress should do as we lift the moratorium?
    Mr. Alverson.
    Mr. Alverson. Madam Chair, Senator Stevens, I thank you for 
the opportunity to comment on those specific issues. With 
regards to the fees, we negotiated significantly with the 
Senate, yourself and Senator Gorton on the fees that applied to 
our IFQ program up north. And we do not object to that. It is a 
little bit tough being the only fishery in the United States 
that pays for itself. But we got a big benefit out of that. And 
it is being managed very well.
    So if we had an IFQ auction in the Pacific Council, we 
would not object to the fee. It does drive an issue on natural 
resources issues in general. The broadcasting systems are 
public. Should they pay three percent of gross? New taxes on 
the west coast, when Senator Hollings and Senator Breaux and 
Senator Inouye's people do not pay fees? Our President says we 
have a $3 trillion surplus. We need this money for research, 
but Congress needs to set some priorities.
    You mentioned the inland Senators would like that money to 
go for their wind storms. But we have got La Nina and El Nino 
that maybe some of the surpluses ought to go to from Congress.
    So the fee issue, there is a lot of things to be talked 
about on fees. But we will take our fees. We note that the East 
Coast quahog got out of the fee program. I think it is 
inappropriate for the west coast to be the only ones paying 
fees.
    With regards to the National Academy of Sciences 
recommendations, the 1996 amendments on limited entry, in 
general, require a whole litany of hoops to jump through for a 
Council. Many of those are applicable to the IFQ program. And 
many of them are applicable to the National Academy of Sciences 
recommendations.
    I think the National Academy of Sciences asked that the 
hard decisions on all those issues, of whether the crew people 
are involved, whether the boat owners get the lion's share, the 
issues of community development, should reside with the 
regional Councils, because every region has a different 
political situation and different economic makeup. And we would 
agree with the Academy's recommendation, though those should 
probably be delineated and lined out for the Councils, to make 
sure they go through those hoops by Congress.
    That concludes my comments, Madam Chairman.
    Senator Stevens. Mr. Brown.
    Mr. Brown. Thank you. I hesitate to say this with my back 
to the crowd, but I have always felt that when privileges were 
extended for use of a resource, that it was not unreasonable to 
also expect that the user accept some responsibilities for the 
use of that resource. Therefore, certain fees probably are 
reasonable.
    As you know, on this coast we had a proposal for an 
industry funded buyback program to try to reduce our capacity. 
That was our way of trying to use our money to make our 
situation better. It took a long time to get the enabling 
legislation and, unfortunately, we ran out of time before we 
could get that. Although I think we are looking at it again.
    We have had proposals in the past to try to fund our own 
research organizations. We have had a difficult time trying to 
figure out how to collect those funds from everyone under the 
existing mechanisms. When we actually went to Congress, the 
Senate, to try to get the enabling legislation to allow for the 
buyback, what we actually started with was a program that was 
similar to what States use when they have special service 
districts, recreational districts, library districts, where 
groups of fishermen could vote among themselves to tax 
themselves to use the money for the common benefit of the 
industry.
    And the things that we were thinking about were things like 
research, primarily research, but we wanted it broad enough 
that you could actually use it for other things that might come 
up, whatever that might be. We did not get that far. We did get 
the buyback language, fortunately.
    So, the bottom line--I think reasonable fees are 
acceptable. And one thing I would say is that if we are going 
to make major changes in the structure of the industry, we need 
to get them over with so that the industry can adjust to them 
and get on with business. One of the hardest things to deal 
with right now on this coast is the fact that nothing is ever 
stable long enough for the industry to adjust to. That may be 
more difficult than the actual magnitude of the cuts, the fact 
that we do not know if they are done. We did not see them 
coming. And we are never given time to adjust.
    So if we are going to do a fee structure, if we are going 
to do marine reserves, if we are going to do those sorts of 
things, let us get them done so that the industry can adjust to 
them and we can stabilize.
    Senator Stevens. I do not think either you or Mr. Alverson 
commented upon the windfall gain and rent proposal. They say 
that we should allow the public to capture some of the windfall 
gain generated from the initial allocation of quotas and 
recover the incremental costs by the collection of fees from 
the transfers, and we should also consider the concept of 
rents, to pay an annual fee for the utilization of the quota.
    Mr. Alverson. Mr. Chairman, our three percent fee, I 
consider that to be a rent. Whether it is three percent or a 
fixed amount per individual, we are going to be paying a rent 
of three percent, equivalent to a B&O tax that the States 
assign, only the States assign about a one percent B&O tax.
    But I am not sure, beyond that, if these largely 
bureaucrats who make up the National Academy of Sciences, 
whether they are trying to feather their nest, too, off our 
back. What is fair?
    We pay three percent. We will be paying a three percent 
Federal tax. We pay a 3.3 percent State tax to the State of 
Alaska when we offload. We pay an additional two percent to 
most of the State of Alaska for what they call a village tax or 
something like that. We have a CDQ that takes five percent of 
our gross.
    When you add all these taxes that we currently pay, that 
five percent and the three percent add up to eight percent out 
of our gross that currently go to domestic programs in our IFQ 
program for halibut.
    Senator Stevens. That is the existing IFQ.
    Mr. Alverson. Right.
    Senator Stevens. Do not you think these Council 
recommendations go further than that now?
    Mr. Alverson. Say again?
    Senator Stevens. Do not you believe that the 
recommendations of this Council go further than the existing 
IFQ?
    Mr. Alverson. Well, they are looking at future IFQ, surely. 
And I believe a rent should be assessed.
    Senator Stevens. But we do not have a windfall gain 
concept.
    Mr. Alverson. Sure, you do. You people in Congress have a 
windfall tax program. When we sell out, we have to pay windfall 
tax or you pay a corporate tax to the Federal Government when 
you sell out.
    Senator Stevens. But they are not talking about that.
    Mr. Alverson. I know they are not talking about that. They 
are talking about a new tax.
    Senator Stevens. Right.
    Mr. Alverson. But you fellows have a tax. When we sell out 
and retire, we pay a tax on the gain.
    Senator Stevens. That is not a windfall tax. That is just 
income tax. You are talking about the income tax on the 
increase in the value of your assets.
    Mr. Alverson. It is all money out of our pockets, Senator.
    Senator Stevens. I understand. But I am trying to get your 
idea. When you look me in the eye and say, I want you to lift 
that IFQ moratorium, I want you to understand that Congress has 
been told a whole series of criteria that ought to be put into 
effect as that is done.
    Mr. Alverson. Okay.
    Senator Stevens. It is not a simple matter to get this 
thing done with that report. And we have got until what, 
December to do it?
    Senator Snowe. October.
    Senator Stevens. October to do it.
    Senator Gorton. And they want to know whether we are going 
to do it by April.
    Senator Snowe. That is right.
    Senator Stevens. And you wanted to know if we were going to 
do it by April. And I want to know by April whether you agree 
with what they recommend. Because if you are in agreement with 
them, we can get it done fast.
    Mr. Alverson. Well, what are the numbers? What are the tax 
numbers we are talking about? If they are similar to what you 
already have in there, a three percent fee--I think there was 
at one time a one percent of your----
    Senator Stevens. I do not happen to agree with them. I am 
the author of the limits in the existing language.
    Mr. Alverson. I know you are. And we are thankful of that.
    [Laughter.]
    Senator Stevens. Mr. Moore.
    Mr. Moore. Thank you, Senator.
    Looking at it from the processors' perspective, first of 
all, in terms of lifting the individual quota moratorium, 
obviously we are in favor of it. It is something that the 
vessels need. We think that there needs to be some sort of 
accommodation.
    Senator Stevens. Should it apply only to limited entry 
fisheries?
    Mr. Moore. Well, on this coast--and I just want to limit 
myself to that, if I can--we really have two limited entry 
fisheries and then sort of a mixture of open access.
    Senator Stevens. Rod, tell me, should it be limited? 
Because existing law currently limits IFQ's to limited entry 
fisheries.
    Mr. Moore. That is correct.
    Senator Stevens. It means we have got to amend two acts if 
we are going to lift this moratorium and do what they say.
    Mr. Moore. I think you would probably wind up having to do 
one all-encompassing thing, something similar to what you and 
Senator Gorton did with the American Fisheries Act, if you 
will, where you tried to solve a number of problems in one 
major piece of legislation.
    Senator Stevens. And we did that primarily by consensus.
    Mr. Moore. Yes, sir, you did. I think that perhaps the same 
sort of approach needs to be done with IQ's. And then, as Bob 
and Ralph have both said, kind of leave to the Councils what 
some of the mechanics are for particular fisheries. There may 
be fisheries that are not appropriate for individual quotas and 
maybe should never be under them.
    Senator Stevens. That is the criteria that they want us to 
spell out when they are appropriate.
    Mr. Moore. That is something, Senator, that I cannot see 
how you can do. With everything that you have to deal with on 
your plate, how you can figure out which fishery, some small, 
podunk fishery in California or Oregon----
    Senator Stevens. Well, that is why we are here. What are 
the criteria that you would approve?
    Mr. Moore. I would have to sit down and give you a laundry 
list. It is not something I could do off the top of my head.
    Senator Stevens. That is what I am afraid of, a laundry 
list.
    Mr. Moore. I know. Nobody likes them.
    Senator Stevens. Let me move on. I do not want to take too 
much of my time.
    Mr. Henkel, have you got any comments about this? You were 
for IFQ's. Are you for all these things the Council wants to 
put on?
    Mr. Henkel. Senator Stevens, I look at it this way. I have 
to speak from a labor aspect. If labor had a real voice in the 
decisionmaking and implementation process of the fisheries, not 
just halibut and sablefish in the longline fishery but North 
Pacific fisheries, and we had some sort of a leg up in terms of 
a capital construction fund or something like that--not money 
given to us, but just a leg up so we can work; we will pay our 
own way--if you want to give us a leg up like that, we will 
fund that loan program. You bet, we will pay tax. If you give 
us a chance to get into some IFQ, we will gladly pay the tax on 
it.
    Senator Stevens. My last comment and question would be 
this. I mentioned the opilio crab crash. We have obviously got 
to do something about that disaster. Last night it was 
suggested to me that we allow using the capital construction 
fund for the vessels involved, on a pool basis, to become a 
matching fund to Federal moneys, to bring about a buyback, to 
immediately institute a buyback.
    What do you all think about using the capital construction 
fund in that manner?
    Bob.
    Mr. Alverson. Madam Chairman, Senator Stevens, I do not 
represent the crab guys. I did negotiate prices for them. And I 
know that they have a horrible situation of overcapitalization. 
I think that that option should be provided to them. I think it 
is innovative. There is always a problem and question of, is 
everybody paying in the same amount?
    Senator Stevens. Well, they will have to work that out.
    Mr. Alverson. I am not quite sure how a buyback would work.
    Senator Stevens. They would have to work that out. Probably 
three votes to pool our funds and one of them comes out.
    Mr. Alverson. Yes. I think that there is something there 
that could be worked out.
    Senator Stevens. Does anyone disagree?
    Rod.
    Mr. Moore. Senator, I do not disagree. I would like to add 
to that, though. We have a situation with the capital 
construction fund, where some of the committees in the House 
and Senate have tried to get rid of it for years. It is now 
being discussed in sort of the world forum that subsidies are 
bad and capital construction funds are a subsidy.
    One of the problems that faces fishermen on this coast when 
they try to get out of the fisheries, because they are just not 
making any money, is they cannot do anything with their boat 
because they have got the profits tied up in a capital 
construction fund. And the tax penalties for coming out of that 
fund are so huge, they cannot afford to get out.
    It seems to me that some general revision of the capital 
construction fund ought to be looked at. Allow a fisherman who 
is retiring from the fishery to turn it into a Roth IRA or to 
an education account for his kids or use it for buyback or use 
it for safety. Do not limit it to simply constructing and 
reconstructing vessels, and thereby increasing the capacity 
problems that we have. Let people be flexible in using that 
capital construction fund if they are going to be getting out 
of the fishery.
    Senator Stevens. Mr. Brown.
    Mr. Brown. Thank you. I was a member of the Federal 
investment task force that looked at Federal subsidies and the 
role of the Federal Government in capitalization of the fleet. 
And I believe one of the recommendations that we came out with 
would be that the capital construction fund be used in such a 
manner. If I remember correctly, and it has been a while since 
I reviewed any of the information, there was about $250 million 
tied up in capital construction funds through the country for 
the fishing portion, not dealing with merchant marines, and the 
bulk of that money was on the west coast.
    When we have fisheries that are severely overcapitalized, 
as we do, anything that we can do to use those kinds of 
resources to help decapitalize the fleet rather than increase 
capitalization seems to be appropriate. I would take it a step 
further, also. That on this coast, I do not know how much money 
we have tied up in capital construction funds for the 
groundfish fishery, but one of the ideas that we have had would 
be that we use the same concept that we had in our buyback 
program--a fee on landings for people who stay in the fishery--
as part of a match for some portion of a buyback program that 
we would assess future participants.
    Thank you.
    Senator Stevens. Thank you.
    Madam Chair, I think we ought to ask GAO to tell us how 
much money is in those funds right now. They are part of a 
financing package that make it possible to deal with disasters. 
Thank you very much.
    Senator Snowe. That is a good suggestion. Thank you, 
Senator Stevens.
    Mr. Moore, I just have one question. You suggested in your 
testimony that we should reexamine the term ``overfishing,'' 
because it is used as an all encompassing description, 
regardless of the source of the problem, that is attributed to 
a declining stock. You suggest using the term ``distressed 
fishery'' instead. How would that help in rebuilding the stock? 
Is it a perception issue?
    Mr. Moore. There are two aspects. One is the perception 
issue. Just to give you an example, I had a conversation with 
somebody in the National Marine Fisheries Service who, to 
protect their identity, I will not name them, and to protect 
their job, I will not name them. They were working on some 
disaster relief things for the west coast and other areas and 
were talking to the attorneys in the National Oceanic and 
Atmospheric Administration about the need for disaster relief.
    And the attorneys said, ``but the west coast stocks are 
overfished, and so therefore there is no need for any disaster 
relief.'' At which point, the folks from NMFS tried to point 
out that, in some cases, it is not the fact that fishermen 
caught too many fish, it is that the environment changed, it 
drove down the stock, and so forth and so on. And the attorneys 
came back with, ``but no, but they are overfished.''
    So partially it is a perception problem. People, when they 
hear overfished, think it is the fishermen's fault, no matter 
what. I think as Ralph said in his written testimony, if a 
river dries up and all the salmon disappear, those salmon are 
overfished and it is the fishermen's fault.
    The other issue is if you do want to differentiate in 
rebuilding plans between fisheries that are distressed--and I 
will use my favorite term--as a result of environmental 
conditions versus fisheries that are distressed because we did 
something wrong, there may be a need to look at different sorts 
of rebuilding plans. Because, in the one case, you can control 
the wrongdoers, and that is us; in the other case, there is not 
much you can do about the wrongdoer, because that is Mother 
Nature. So there is a dichotomy there that you may want to look 
at as well.
    Senator Snowe. That is a very good suggestion.
    Thank you. Thank you all very much. Excellent testimony.
    The third and final panel will include: Dr. Rod Fujita, a 
Senior Scientist with Environmental Defense; Dr. Dave Sampson, 
a Professor of Fisheries at Oregon State University; Mr. Pete 
Leipzig, of the Fishermen's Marketing Association; and Sam 
Anderson, Executive Director of the Master Builders Association 
of King and Snohomish Counties.
    [Pause.]
    We will begin with you, Dr. Fujita.

   STATEMENT OF ROD FUJITA, SENIOR SCIENTIST, ENVIRONMENTAL 
                            DEFENSE

    Dr. Fujita. Thank you, Madam Chair, members of the 
Subcommittee. My name is Rod Fujita. I hold a doctorate in 
marine ecology and I am a Senior Scientist with Environmental 
Defense, formally known as the Environmental Defense Fund. 
Environmental Defense is a leading national environmental 
group, with over 300,000 members nationwide. We are also a 
member of the Marine Fish Conservation Network, and fully 
support the Network's agenda for reauthorization. Thanks for 
this opportunity to comment.
    I will focus my remarks on two fundamental problems we face 
today in fisheries management. One is the depletion of stocks. 
And the second is the degradation of fish habitat. There are 
three causes, in my view. The first is that managers must rely 
on insufficient data and on a rather poor understanding of 
marine ecosystems, quite apart from the lack of data.
    Second, most of the management systems currently in place 
create strong incentives for waste and over-exploitation of 
fisheries. And third, many of the habitats that support 
fisheries are being seriously degraded as a result of poor 
coordination amongst agencies and a real lack of focus on the 
importance of protecting fish habitat.
    Let us discuss the science first. It has garnered a lot of 
attention on the panel so far. One reason that fisheries 
science is in the state it is in is that good science is 
expensive and funds are really limited. But it is also 
important to realize that marine science is very difficult to 
do under the best of circumstances. It is kind of like asking a 
bunch of forest scientists to study a forest by sending them 
out to stumble around at night with some butterfly nets. More 
data will certainly help, but the ocean is intrinsically 
variable and uncertainty will always be with us.
    Given the high levels of uncertainty that almost everyone 
complains about, one would think that management would proceed 
cautiously, like a driver in the Seattle drizzle. The 
definition of optimum yield and other provisions in the Act are 
aimed at implementing a precautionary approach which calls for 
managers to err on the side of the fish populations, given this 
uncertainty. Yet the opposite occurs much too often.
    In fact, a double standard prevails. Little or no data are 
needed to keep fishing, but large amounts of high-quality data 
seem to be necessary to justify precautionary catch levels or 
other conservation measures. The result has been an 
overaggressive catch policy for west coast groundfish and other 
species, even with the strong conservation provisions of the 
1996 amendments.
    Many complain that the science does not support the recent 
reduced catch limits for rockfish populations and other 
groundfish. But does the science support the status quo? Not in 
my view.
    What is the solution? Well, more funding for fishery 
science should certainly help. But it is also critical to 
strengthen the implementation of the precautionary principle in 
the face of uncertainty, which will remain with us as long as 
the ocean remains mysterious.
    The real tragedy here is that the decline of the 
groundfish, whatever caused it, could have been prevented. Many 
scientists, environmentalists and some managers, such as Phil 
Anderson, Bob Alverson, and other members of the Pacific 
Council, were warning years ago that rockfish and other species 
could not sustain the high catch levels that they were being 
subjected to. However, these warnings were largely ignored. And 
I think one powerful reason for this lies in the management 
regime itself.
    Most fishery management regimes create very strong 
incentives to over-exploit fish populations and to waste large 
amounts of fish and other marine resources. Open access 
management clearly creates incentives for a fisheries arms race 
and over-investment, leading to debt and calls for ever-larger 
catches to forestall short-term economic disaster.
    Many advocate limited entry as a solution. But limited 
entry also has an abysmal record. They are often implemented 
very late in the game, when fleets are already overcapitalized. 
And due to political pressure at that time, often, too many 
permits are granted. And because fishers do not get reliable 
assurances that they can catch a certain amount of the 
allowable catch, fishing actually increases in many limited 
access programs, according to the scientific literature on this 
topic.
    This is true even when input controls are used, due to the 
ingenuity of fishermen in getting around such controls. Now, in 
the west coast groundfish fisheries, declining fish abundance 
has required drastic cuts in catch quotas and progressively 
smaller trip limits, to which the people on the previous panel 
alluded. Because the number of vessels is much higher than the 
number required to catch the available fish profitably, the low 
quotas and trip limits threaten the economic viability of many 
fishers.
    Moreover, many fishermen have told me that the low trip 
limits induce discards--waste--as fishermen try to maximize the 
value of the small loads that they are allowed to land by 
throwing back the lower value fish. The Pacific Council 
determined that Individual Transferable Quotas, or ITQ's, 
showed a lot of promise after years of consensus building, for 
the sablefish fishery. But, as you have heard, their hands have 
been tied by the ITQ moratorium.
    In contrast to open access and most limited access 
management regimes, almost all individual transferable quota 
programs that have been implemented around the world have ended 
the race for fish and reduced overcapitalization. Those are 
very robust results.
    Five of the six ITQ programs reviewed in the National 
Academy report ended the race for fish. Moreover, ITQ's have an 
excellent conservation record, which is why Environmental 
Defense has taken a stand on this. Most ITQ's have improved 
compliance with catch limits, which is the major conservation 
tool that fishery managers have at their disposal.
    The best picture of how U.S. ITQ programs can operate can 
probably be obtained by looking at the performance of the 
Alaska sablefish and halibut ITQ program, because it is really 
the only ITQ program in the world that incorporates the latest 
thinking about how to design ITQ programs, much of which is 
reflected in the NRC committee report. The Alaska program has 
performed admirably. It has ended the race for fish. It has 
improved product flow. It has improved prices. It has reduced 
bycatch and ghost fishing by about 80 percent, according to the 
NRC, and improved safety, as you have heard.
    And it has done all this while improving compliance with 
overall catch limits. I am not aware of any excessive 
consolidation or corporatization of the fleet resulting from 
these ITQ's.
    Environmental Defense recommends, along with the NRC, that 
moratorium on ITQ's be lifted. We also suggest that guidelines 
for preventing adverse social or economic impacts that can 
occur due to the free reign of market forces be adopted and, in 
addition, guidelines for promoting the strong conservation 
benefits of ITQ's also be adopted by Congress. Where ITQ's are 
not appropriate, we recommend buyouts to reduce fleet capacity 
in accordance with strong conservation criteria to prevent the 
displacement of excess capacity to other stressed fisheries.
    We also strongly support disaster relief for fishermen, but 
we need to be mindful of the interaction between natural 
variation and fishing. When an El Nino hits, and they are now 
predictable by NOAA due to good satellite data and good models, 
fishing effort has to come down in order to accommodate nature. 
Nature is not going to accommodate us. We must control our 
fishing mortalities to accommodate nature.
    Better science and improved management of fisheries will 
accomplish nothing if the habitats that support fish are 
destroyed or degraded. But that is just what is happening. The 
degradation of salmon habitat by poor forestry practices, 
massive water diversions, dams and other factors has received a 
great deal of attention and money. In some regions, I am happy 
to report that great progress is being made due to these 
efforts. And it is to the credit of many farmers, water 
districts, loggers, and others that I have personally worked 
with in California.
    The winter run chinook is making a valiant attempt to 
recover. and it is up by several thousand fish over a few years 
ago due to these efforts.
    Unfortunately, this is not true everywhere. And there is 
going to be a continuing need for vigilance to bring back the 
salmon and the fishery that depends on it. Part of the problem 
is that fish habitat really is all over the place. It is all 
over the ocean. And it is spread across the jurisdictions of 
many different agencies.
    The EFH mandate of the Act can keep habitat protection on 
the radar screen of all the relevant Federal agencies. The EFH 
mandate needs to remain broad, in my view, to address the 
plethora of threats to the freshwater and marine habitats. NMFS 
is working quite effectively to implement EFH with low or no 
impact on existing regulations in the Bay Delta system near San 
Francisco, where I work.
    Unfortunately, very little progress has been made toward 
meeting the other mandate of the EFH provisions, which is to 
reduce the adverse impacts of fishing. This, despite the large 
and growing body of scientific evidence that certain kinds of 
fishing reduce biodiversity and harm the integrity of the 
marine habitats that support all of this economic activity. The 
Pacific Council and NMFS have started to take action to try to 
understand what these impacts are.
    But the most powerful way to understand the impacts of 
fishing on habitat would be to establish research reserves, 
where fishing is excluded. This is simply the way good science 
is done. One must isolate the factor of interest. And this is 
the only way we are going to discover what the role of fishing 
is in the decline of fish stocks, as opposed to natural 
variation, pollution or other factors. You must isolate the 
variables.
    Reserves, if designed well, would have the added benefits 
of proactively protecting habitats for fishing while this 
information is being gathered. Marine reserves are often 
criticized as being untested and uncertain. However, dozens of 
scientific studies show that marine reserves do indeed increase 
fish abundance and size, often by several-fold. There is also 
increasing evidence that marine reserves export young fish to 
fishing grounds, enhancing yields there.
    And perhaps you have heard from people in New England about 
the phenomenal success of the closed areas in Georges Bank in 
increasing scallop and haddock populations inside those closed 
areas. Scallop populations are up by 1,300 percent in some 
cases. And the significant thing on Georges Bank is that it 
shows clearly that these closed areas can actually export young 
fish and young scallops over their borders and enhance yields 
by up to 130 percent nearby.
    Are there similar data supporting the efficacy of 
conventional fishery management measures? I do not think so.
    In summary, Environmental Defense has concluded that while 
well-intentioned, the 1996 amendments to the Act have not 
fulfilled their great conservation or economic promise. Modest 
changes in the Act are needed, but I agree with other panelists 
that the larger changes that are needed are really in 
implementation and funding. Priorities should include 
documenting bycatch and quantifying discards with an observer 
program out here on the west coast.
    We are recommending greater funding for fishery science, 
not just for data acquisition, but for improving the scientific 
and theoretical basis for understanding how fish populations 
work and how ecosystems work. This needs to be coupled with 
stronger implementation of the precautionary principle. 
Because, as I said before, this uncertainty is not going to go 
away, no matter how much money we throw at it.
    We further recommend that the moratorium on ITQ's be lifted 
in accordance with the recommendations of the National Research 
Council (NRC) report. And, finally, we recommend that the EFH 
provisions of the Act be strengthened and implemented in part 
with marine reserves to reduce the uncertainty around the 
impacts of fishing and to protect marine and freshwater fish 
habitats.
    Thank you.
    [The prepared statement of Mr. Fujita follows:]

   Prepared Statement of Rod Fujita, Senior Scientist, Environmental 
                                Defense

    Thank you for this opportunity to testify on the reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act. I am Rod 
Fujita, senior scientist with Environmental Defense (formerly known as 
the Environmental Defense Fund). Environmental Defense fully supports 
the reauthorization agenda of the Marine Fish Conservation Network, 
which is attached. The Network is a coalition of more than 80 
environmental groups, sport and commercial fishermen, and marine 
scientists working to improve our nation's fisheries laws.
    I will focus my testimony on three fundamental problems facing US 
fisheries today: (1) scientific uncertainty and the lack of sufficient 
precautionary action; (2) lack of management resolve; and (3) 
management regimes that create incentives for overexploitation. I offer 
solutions to each of these problems: (1) higher appropriations for 
fisheries research, the establishment of a network of marine reserves, 
and a greater emphasis on precautionary action; (2) better balance 
among stakeholder interests within the regional fishery management 
Councils; and (3) lift the moratorium on Individual Transferable Quotas 
(ITQs).
                                problems
    Too many commercially exploited fish populations are in decline. 
Here on the west coast, bocaccio, canary rockfish, cowcod, yellowtail 
rockfish, and lingcod were all fished down too aggressively; managers 
and agency scientists overestimated the productivity of these long-
lived fish. This aggressive fishing took place during a time of 
relatively low productivity. The warnings of environmentalists and 
other scientists that aggressive fishing plus poor ocean conditions 
could result in collapse were largely ignored. These fish population 
declines have resulted in devastating economic loss, and untold 
ecological damage. Strong action was called for, in order to sustain 
fishing communities and protect the marine ecosystems that support 
them. The 1996 amendments to the Magnuson-Stevens Fishery Conservation 
and Management Act had the potential to effect real change. However, 
spotty and timid implementation has resulted in the continuation of the 
status quo in too many cases. As a result, the west coast and the 
Nation as a whole are still suffering large economic and ecologic 
losses from poor fisheries management.

                               DIAGNOSIS

    (1) Scientific uncertainty and lack of sufficient precautionary 
action. West coast fishery managers and agency scientists relied on 
uncertain assumptions about groundfish productivity that later proved 
to be wrong. Sometimes the precautionary approach was applied, but too 
often it was not. The precautionary approach calls for management 
actions that reduce the risks to fish populations and marine 
ecosystems, when the impacts of fishing are uncertain. However, in 
fisheries management, a double standard prevails, in which very few or 
no data were necessary to support status quo fishing levels, but 
precautionary or conservation measures were often strongly opposed 
because of lack of data. Many argued that the data showing declines in 
fish abundance were of such poor quality that they could not support 
management actions such as reduced fishing quotas. However, when 
uncertainty is that high, it is certainly more prudent to cut back on 
fishing and conduct research to discover what truly sustainable fishing 
levels are, than to maintain the status quo, as was done too often. 
Moreover, although many claim that the precautionary approach was built 
into stock assessments and the quota-setting process in the form of 
conservative assumptions, the truth is that fishing mortality was 
probably grossly underestimated because discard mortality has never 
been quantified or properly accounted for. Also, managers refused to 
establish no-take marine reserves, which would have afforded the only 
effective insurance policy against management errors by protecting 
real, living fish in the water, rather than theoretical fish spawned in 
computer models. Moreover, marine reserves would have allowed managers 
to perceive declines earlier (by offering contrast to conditions on the 
fishing grounds) and to tease out the relative importance of fishing 
mortality, ocean productivity, and other factors of decline.
    The ecological costs of fishing are even less studied than the 
impacts of fishing on target and bycatch populations, but evidence of 
adverse ecological impacts is emerging. Globally, recent research shows 
that fishing has altered the very structure of ocean food webs, 
simplifying them by taking out top predator species. There is clear 
evidence that fishing resulted in mass starvation of seabirds in 
Norway. There is also abundant evidence that scallop dredging, certain 
kinds of trawling, and other types of fishing can harm bottom habitats.
    On the west coast, a recent study conducted in the Monterey Bay 
National Marine Sanctuary shows that trawling has strong impacts on 
bottom habitat (Engel and Kvitek, 1998). The heavily trawled area that 
was studied had less large rocks and mounds, more exposed sediment, and 
less debris than the lightly trawled area.
    Rocks and mounds contribute to the structural complexity of the 
bottom, and are very important to many different kinds of organisms 
that are found only in association with such structures. Exposed 
sediments tend to be poorer in food quality than sediments that are 
covered with encrusting organisms or held together by tube-forming 
organisms; hence, productivity is usually lower. Debris (usually 
fragments of kelps, marine ``snow'', fecal material, and the like) is a 
critically important food source for many benthic organisms. Not 
surprisingly, the study showed that sea pens, sea stars, sea anemones, 
sea slugs, and most polychaete worms were all far less abundant in the 
highly trawled area. Nematode and oligochaete worms (opportunistic, 
``weedy'' species) were more abundant in the highly trawled area, but 
overall, trawling clearly reduced biodiversity.
    The authors of this study concluded that ``the only way to address 
these questions adequately [referring to questions about the impacts of 
fishing on habitat] is through large-scale, long-term, manipulative 
studies in marine reserves'' (Engel and Kvitek, 1998).
    Another Pacific study found significant differences in rockfish 
assemblages between trawled and untrawled areas (Matthews & Richards, 
1991). The rockfish assemblages differed significantly in species 
composition, biodiversity, and biomass, with the untrawlable regions 
having significantly larger catches than the trawlable habitats 
(Matthews & Richards, 1991). This finding indicates that as more 
regions become trawlable due to gear improvements and as benthic 
habitats become more altered, there may well be significant changes in 
species composition and biomass, resulting in lower fish productivity.
    Despite these findings, and similar findings from around the world, 
no action has been taken to reduce the risk of harming marine 
ecosystems from the impacts of fishing, contrary to the intent of the 
EFH requirements of the Magnuson-Stevens Act. Marine reserves can help 
reduce the adverse impacts of fishing on habitat, in compliance with 
these EFH requirements. In addition, marine reserves offer one of the 
only rigorous scientific methods for evaluating the impacts of fishing, 
by offering reference or control areas for comparison with fishing 
grounds.

    (2) Lack of management resolve and leadership. Proper 
implementation of the precautionary approach requires painful choices 
and leadership. Caving in to short term economic pressures subverts 
fisheries management. While many individual west coast fishery managers 
have shown a great deal of courage and leadership over the years, the 
reliance on general consensus among a very large and diverse group of 
stakeholders has hamstrung them and resulted in a lowest-common 
denominator approach to management too often.

    (3) Management regime that creates incentives for overexploitation. 
Open access management clearly creates incentives for a fisheries arms 
race and overinvestment, leading to debt and calls for ever-larger 
catches to forestall economic disaster. In the free-for-all created by 
open access, any fish left in the water for conservation purposes can 
be caught by the next vessel that comes along, and fish have value only 
when caught. This sort of management system creates strong incentives 
to catch as many fish as quickly as possible, and this leads to 
frenzied fishing derbies (if total allowable catch levels are set).
    Limited entry programs have a rather abysmal record, because they 
are often implemented very late in the game when fleets are already 
overcapitalized. Often, too many permits are granted in response to 
pressure to be inclusive; hence, fleet size and fishing power are not 
reduced. Strong incentives to increase fishing power persist in most 
limited access systems because fishers do not have reliable assurances 
that they can catch a certain portion of the TAC (Gorte et al., 1985; 
Waters, 1991; Townsend, 1992). As a result, fishing power usually 
increases within limited access programs, even when input controls are 
in place (e.g., Norwegian purse seine fishery, BC salmon fisheries, US 
New England groundfish fishery; Townsend, 1992; Anthony, 1990) due to 
creative circumvention of input controls.
    In west coast groundfish fisheries, declining fish abundance has 
necessitated the adoption of drastically reduced catch quotas and the 
imposition of smaller and smaller trip limits. Because the number of 
vessels is much higher than the number required to catch the available 
fish profitably, the low trip limits threaten the economic viability of 
many fishers. Moreover, the low trip limits induce discards, as 
fishermen try to maximize the value of the small loads that they can 
land by throwing back lower value fish.
    In contrast to open access and most limited access management 
regimes, almost all Individual Transferable Quota (ITQ) programs have 
effectively ended the race for fish and reduced overcapitalization 
(Muse and Schelle, 1989; Muse, 1991). Five of the six ITQ programs 
reviewed in NRC (1999) did so.
    Moreover, ITQ programs have an excellent conservation record. Of 
the ITQ programs reviewed in NRC (1999), only the Icelandic cod ITQ 
program failed to keep catch within TAC levels, and this was because 
many vessels were exempted from the ITQ program. Landings have been 
substantially below the TAC in the wreckfish ITQ program, perhaps 
because quota holders are ``banking'' fish in the hopes of realizing 
sustainable catches over the long term (NRC, 1999). Pressure to 
increase the TAC that existed prior to ITQs has now disappeared (NRC, 
1999). The biological status of New Zealand fisheries has improved 
substantially since ITQs were implemented: 7.4% are overfished, 11% are 
above the biomass needed for MSY, 18% are at or near MSY biomass, and 
the status of 64% is unknown (NRC, 1999).
    The best picture of how US ITQ programs may operate can probably be 
obtained by looking at the performance of the Alaska sablefish and 
halibut ITQ program, because it is the only US ITQ program that 
incorporates many of the features that have been recommended by the NRC 
committee on Individual Fishing Quotas (e.g., caps on quota 
accumulation, owner-on-board requirement, etc.).

        <bullet> The Alaska ITQ programs stopped the race for fish and 
        increased season length from less than 5 days per year to 245 
        days per year, and reduced overcapitalization.
        <bullet> The TAC has never been exceeded under the Alaska ITQ 
        programs (NRC, 1999).
        <bullet> Bycatch discard was reduced by about 82% in the Alaska 
        halibut fishery after ITQs were implemented (NRC, 1999). This 
        estimate is uncertain.
        <bullet> Ghost fishing mortality for halibut was reduced by 
        about 77% in the Alaska halibut fishery after ITQs were 
        implemented (NRC, 1999).
        <bullet> There is no evidence of highgrading (dumping of lower 
        value fish to maximize value of the quota share) resulting from 
        the Alaska ITQ programs (NRC, 1999).
        <bullet> Safety appears to have improved due to the Alaska ITQ 
        programs, due to the end of the race for fish; search and 
        rescue missions dropped by 63% after ITQs were implemented 
        (NRC, 1999).
        <bullet> Excessive consolidation of fishing fleets and 
        corporate takeovers of independent fishing firms has not 
        occurred, probably due to the restrictions on ITQ ownership 
        contained in the Alaska ITQ program.

                               SOLUTIONS

    (1) Scientific uncertainty.

        <bullet> Keep the EFH mandates in the MFCMA intact, and provide 
        more resources for conducting the research and mapping 
        necessary to identify especially important habitats for 
        protection. Environmental Defense fully supports the position 
        of the Marine Fish Conservation Network on EFH.
        <bullet> Appropriate more money for fisheries science and 
        research, but increase cost-effectiveness by contracting with 
        fishermen and graduate students. Focus on identifying important 
        habitats, food web interactions, controls on reproduction and 
        recruitment, quantifying discard mortality, reducing bycatch 
        and discards, creating a new MSY policy for groundfish, and 
        developing gear performance standards to minimize habitat 
        damage. Recognize that due to natural variability, even 
        substantial uncertainty will remain despite even quite large 
        increases in research investment.
        <bullet> Establish networks of no-take marine reserves.

    (2) Lack of management resolve and leadership.

        <bullet> Create a better balance of stakeholder interests on 
        the regional Councils by including more scientists, economists, 
        conservationists, consumer advocates, etc.
        <bullet> Consider breaking regions up into smaller management 
        areas.

    (3) Management regime that creates incentives for overexploitation.

        <bullet> Lift the moratorium on ITQs, on the condition that all 
        ITQ programs comply with conservation principles as outlined in 
        the Marine Fish Conservation Network agenda. ITQs can be 
        structured to prevent undesirable social and economic outcomes, 
        such as excessive consolidation of fleets or take-overs by 
        large corporations, as well as to improve fisheries 
        conservation.

                            LITERATURE CITED

Anthony, V.C., 1990. The New England groundfishery after ten years 
under the Magnuson Fishery Conservation and Management Act. North 
American Journal of Fisheries Management 10:175-184.

J. Engel and R. Kvitek, 1998. Effects of otter trawling on a benthic 
community in Monterey Bay National Marine Sanctuary. Conservation 
Biology Vol. 12(6):1204-1214).

Gorte, R.W., E.H. Buck, D.M. Sale, and A.C. Grenfell, 1985. Limiting 
access for commercial fish harvesting. Congressional Research Service, 
8501151 ENR. 71 p.

Matthews, Kathleen R. and Laura J. Richards. 1991. Rockfish assemblages 
of trawlable and untrawlable habitats off Vancouver Island, British 
Columbia. North American Journal of Fisheries Management 11:3120318.

Muse, B., 1991. Survey of Individual Quota Programs. Alaska Commercial 
Fisheries Entry Commission, Juneau, Alaska. CFEC 91-7. 34 p.

Muse, B., and K. Schelle, 1989. Individual Fishermen's Quotas: A 
preliminary review of some recent programs. Alaska Commercial Fisheries 
Entry Commission, Juneau, Alaska.

NRC, 1999. Sharing the fish: toward a national policy on Individual 
Fishing Quotas. Committee to Review Individual Fishing Quotas. Ocean 
Studies Board, National Research Council. National Academy Press, 
Washington, DC.

Townsend, R.E., 1992. A fractional licensing program for fisheries. 
Land Economics 68(2):185-190.

Waters, J.R., 1991. ITQs and the bycatch problem. Abstract, p. 50 in: 
Dewees, C.M. and Ueber, R. 1990 (eds.), Effects of different management 
schemes on bycatch, joint catch, and discards. Summary of a National 
Workshop sponsored by the Sea Grant College Program and the National 
Marine Fisheries Service. January 29-31, 1990, San Francisco, 
California. Report no. T-CSGCP-019 California Sea Grant College, 
University of California, La Jolla CA 92093-0232.

    Senator Snowe. Thank you.
    Dr. Sampson.

   STATEMENT OF DAVID SAMPSON, PH.D., ASSOCIATE PROFESSOR OF 
               FISHERIES, OREGON STATE UNIVERSITY

    Dr. Sampson. Madam Chair, members of the Subcommittee, 
thank you for inviting me to testify before you today.
    For the record, my name is David Sampson, and I am an 
Associate Professor of Fisheries at Oregon State University. My 
work includes preparing stock assessments for the Pacific 
Fishery Management Council and conducting research on the 
accuracy of stock assessment methods. I will focus my testimony 
primarily on the use of stock assessments in fisheries 
management, but I will also comment on the use of observers.
    Stock assessments provide fishery managers with the basic 
information regarding the status of exploited fish stocks. Many 
of our stocks are managed on the basis of annual harvest quotas 
that are derived from estimates of current stock size and 
estimated target fishing rates. These estimates of biomass and 
fishing rate are subject to considerable uncertainty.
    In general, there are two primary sources for the data used 
in the stock assessment. One set comes from scientific surveys 
of the stock. The other comes from the fishers, either in the 
form of landing receipts and logbooks, or from scientific 
sampling of the landed catch. Assessment scientists often use a 
catch-at-age analysis to reconstruct the demographic history of 
the stock and estimate the current exploitable biomass on which 
the harvest quota is based. Assessment scientists use a second 
type of analysis to derive the target fishing rate, the other 
key ingredient for calculating the harvest quota.
    In response to the new guidelines for the national 
standards established in the 1996 amendments to the Magnuson-
Stevens Act, the Pacific Council adopted new definitions for 
overfishing, overfished and optimum yield, and established new 
procedures for setting the annual harvest quotas. These 
procedures are illustrated in the diagram.
    And if I could have the overhead please.
    These procedures are considerably more complex than the 
previous ones. And, in my view, they place unrealistic demands 
on fisheries science. The primary change was the addition of 
two thresholds. If the stock is greater than 40 percent of its 
unfished size, then the quota is just the product of the 
current stock size times the target fishing rate. If the stock 
drops below 40 percent of its unfished size, the target fishing 
rate is set below the FMSY level and the quota is reduced 
proportionately. If a stock drops below 10 percent of its 
unfished size, the target fishing rate is reduced to zero.
    It is entirely appropriate that fish stocks be managed more 
conservatively when they are at low levels. However, it is 
extremely problematic to implement this engineering approach to 
harvest policy because of our general inability to provide 
reliable estimates of current and unfished stock size. Also, 
for many of our west coast stocks, there are inadequate data 
available to estimate the current stock size, let alone the 
unfished size.
    Estimates of fish stock size are inherently imprecise. 
Consider, for example, estimates of stock size from recent 
assessments of a west coast stock of yellowtail rockfish. The 
stock size series estimated by the 1996 assessment was 
dramatically different from the 1993 assessment, and indicated 
that significant reductions were needed in the annual harvest 
quota. The assessment was redone in 1997, and the estimates of 
stock size and the harvest quota essentially returned to the 
levels estimated in the 1993 assessment.
    Part of the instability of west coast assessments is due to 
the general lack of reliable long-term survey and fishery data 
series. For example, the trawl survey estimates of rockfish 
stock size are highly imprecise. And the surveys are only 
conducted every third summer. However, even with thorough long-
term monitoring and top-quality stock assessment science, our 
perceptions of stock status can be highly inaccurate. Pacific 
halibut off Alaska and northern cod in Atlantic Canada provide 
recent examples of stocks that have been extensively monitored 
and studied and yet, in retrospect, there were dramatic errors 
in the assessments of stock size.
    The harvest quota system that has developed as a result of 
the 1996 Sustainable Fisheries Act is unrealistically 
complicated, given the level of accuracy that we can reasonably 
expect from our stock assessments. We need to develop fishery 
control systems that have simple data requirements and that are 
robust to data errors.
    With regard to observer programs, the Pacific Council does 
not currently have any observer programs. An observer program 
could provide information on the bycatch of fish that are 
currently discarded at sea. Better information on discards 
would undoubtedly improve the quality of our stock assessments. 
But so, too, would better survey or age composition data.
    Instituting an observer program to monitor at-sea discards 
seems an extraordinary way to handle the wastage of marketable 
fish. Counting how many fish are thrown overboard draws our 
attention to the problem, but it does little to solve it. Trawl 
fishers discard their catches of salmon and halibut because the 
law requires them to do so. Why cannot we have a system that 
allows trawl fishers to buy the rights to take incidental 
harvests of salmon and halibut rather than forcing the fish to 
be discarded at sea? The fish would not be wasted. The salmon 
and halibut fishers could be compensated for their lost fishing 
opportunities. And the public would enjoy additional fish in 
the market.
    Similarly, discarding of marketable fish due to trip limits 
could largely be eliminated if fishers were permitted to trade 
and stack fishing permits to cover their trip limit overages, a 
practice that is currently banned because of the SFA 
prohibition against individual fishing quotas.
    Madam Chair, this concludes my testimony. Thank you for 
inviting me to speak to you today.
    [The prepared statement of Dr. Sampson follows:]

    Prepared Statement of David Sampson, Ph.D., Associate Professor 
                 of Fisheries, Oregon State University

    Madam Chair and members of the Subcommittee, thank you for inviting 
me to testify before you today on issues related to the reauthorization 
of the Sustainable Fisheries Act (SFA). For the record, my name is 
David Sampson and I am an Associate Professor of Fisheries at Oregon 
State University. My work includes preparing stock assessments for the 
Pacific Fishery Management Council (PFMC) on behalf of the Oregon 
Department of Fish and Wildlife, and conducting research on the 
accuracy of stock assessment methods, sponsored by the Oregon Sea Grant 
College Program. Also, I was a member of the National Research 
Council's Committee to Review Individual Fishing Quotas and for six 
years (1993-98). I served the PFMC as an at-large member of its 
Scientific and Statistical Committee. You have asked me to testify on 
the impact of the SFA on fisheries in the Pacific Northwest and to make 
recommendations for the reauthorization of the Act. I will focus my 
testimony primarily on the use of stock assessments and scientific data 
in fisheries management, but, as requested, I will also comment on the 
use of observers and on the essential fish habitat provisions of the 
Act.

     STOCK ASSESSMENTS AND SCIENTIFIC DATA IN FISHERIES MANAGEMENT

    The two main problems confronting fisheries managers are 
determining acceptable levels of harvest and crafting regulations that 
will achieve those levels. Setting regulations is an especially 
difficult task because almost all regulations tend to favor one group 
of fishers over another. Political maneuvering to influence the 
regulations often is very intense. Because I have no expertise in 
fisheries regulations I will confine my testimony to issues related to 
determining target levels for harvest.
    Stock assessments provide fishery managers with basic information 
regarding the status of exploited fish stocks, whether they are 
increasing or decreasing and why. Many stocks are managed on the basis 
of annual harvest quotas. The quota for a stock is usually derived from 
the estimated current exploitable biomass and the estimated target 
fishing rate. Projections of future harvests can be made if the 
strength of incoming year-classes (the recruits) can be estimated or 
assumed. These estimates, of current biomass, the target fishing rate, 
and future recruitment, are subject to considerable uncertainty. Marine 
organisms are difficult to observe and reliably monitor and they are 
often subject to variable environmental factors over which Man has no 
control. Fishery managers aim to maintain the fish stocks and the 
fisheries that exploit those stocks, but they generally have imperfect 
information on the conditions of the stocks and dull instruments with 
which to affect the stocks.
    In general there are two primary sources for the data that are used 
in a stock assessment. One set of data comes from scientific surveys of 
the stock; the other comes from the fishers, either in the form of 
landing receipts and logbooks, or from scientific sampling of the 
landed catch. With a relatively long-lived organism assessment 
scientists often use a ``catch-at-age analysis'' to reconstruct the 
demographic history of the stock. This type of analysis provides the 
estimate of the current exploitable biomass on which the harvest quota 
is based. The analysis attempts to account for temporal changes in 
stock abundance based on landings and age composition data series from 
the fishery, coupled with stock size and age composition data series 
from the scientific surveys. Assessment scientists use a second type of 
analysis, usually a ``yield-per-recruit'' or ``spawning-biomass-per-
recruit'' analysis, to derive the target fishing rate, the other key 
ingredient for calculating the harvest quota. These analyses use 
estimates of growth, mortality and maturity to gauge the impact of 
different fishing rates on the productive capacity of the stock.
    In response to the new guidelines for the National Standards 
established in the 1996 amendments to the Magnuson-Stevens Fishery 
Conservation and Management Act, the Pacific Fishery Management Council 
amended its Pacific Coast Groundfish Fishery Management Plan. The 
Council adopted new definitions for ``overfishing'', ``overfished'', 
and ``optimum yield'', and established new procedures for setting 
annual harvest quotas. The new procedures, illustrated in the diagram 
below, are considerably more complex than the previous ones and, in my 
view, they place unrealistic demands on fisheries science.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


The primary change in the procedure for setting the ``optimum yield'' 
quota was the addition of two thresholds. If a stock is greater than 
40% of its unfished size, then the quota is the product of the current 
stock size times the target fishing rate (F<INF>MSY</INF>, the fishing 
rate that produces the maximum sustainable yield, MSY). If a stock 
drops below 40% of its unfished size, the target fishing rate is set 
below the F<INF>MSY</INF> level and the quota is reduced 
proportionately. If a stock drops below 10% of its unfished size, the 
target fishing rate is reduced to zero.
    It is entirely appropriate that fish stocks be managed more 
conservatively when they are at low levels. Compared to the Council's 
old harvest policy (indicated in the diagram by the dashed line), the 
new policy will more rapidly rebuild an overfished stock to levels that 
will support larger and less variable harvests. However, it is 
extremely problematic to implement this engineering approach to harvest 
policy because of our general inability to provide reliable estimates 
of current and unfished stock size. We do not have a stable measure to 
gauge whether a stock is overfished. Similar problems arise with 
thresholds based on an MSY stock size level. Also, for many of our west 
coast stocks there are inadequate data available to estimate the 
current stock size, let alone the unfished stock size.
    Estimates of fish stock size are inherently imprecise. Consider, 
for example, estimates of stock size from recent assessments of a west 
coast stock of yellowtail rockfish.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


The stock size series estimated by the 1996 assessment was dramatically 
different from the 1993 assessment and it indicated that significant 
reductions were needed in the annual harvest quota. The assessment was 
redone in 1997 and the estimates of stock size and the harvest quotas 
essentially returned to the levels estimated in the 1993 assessment. 
There have been similar dramatic changes in our perceptions of stock 
status with several other west coast stocks.
    Part of the instability of west coast stock assessments is due to a 
general lack of reliable long-term survey and fishery data series. For 
example, the trawl survey estimates of rockfish stock size are highly 
imprecise, with large coefficients of variation (50% or larger). 
Furthermore, the surveys are only conducted every third summer.
    Even with thorough long-term stock monitoring and top-quality stock 
assessment science our perceptions of stock status can be highly 
inaccurate. Pacific halibut off Alaska and British Columbia and 
Northern cod in Atlantic Canada provide recent examples of stocks that 
have been extensively monitored and studied, and yet retrospective 
analyses have uncovered dramatic errors in assessments' estimates of 
stock size. In the case of Pacific halibut, assessments conducted in 
the mid 1990s estimated the stock size for Area 3A at about 130,000 
tons in 1989, compared to the 80,000 tons underestimated by the 1989 
assessment. The reverse type of error occurred with Northern cod. Stock 
assessments conducted during the early 1980s overestimated stock size 
by a factor of two compared to estimates for the same period from later 
assessments. The consequence for Northern cod was overfishing, stock 
collapse, and the closure of what had been a highly productive and 
stable fishery.
    The harvest quota system that has developed as the result of the 
1996 Sustainable Fisheries Act is unrealistically complicated given the 
level of accuracy that we can reasonably expect from our stock 
assessments. We need to develop fishery control systems that have 
simple data requirements and that are robust to data errors.

                           OBSERVER PROGRAMS

    The Pacific Fishery Management Council does not currently have any 
observer programs. The Oregon Department of Fish and Wildlife, in 
cooperation with the Oregon Trawl Commission and the Pacific States 
Marine Fisheries Commission, has for several years operated a limited 
program with volunteer trawl vessels fishing from ports in Oregon. An 
observer program could provide information on the bycatch of fish that 
currently are discarded at sea. Some of these discards occur because 
the fish are unmarketable, some because they are prohibited species 
(e.g., salmon and halibut in the trawl fishery), and some because of 
the system of trip limits that the Council uses to slow the pace of 
fishing and thereby maintain year-round fisheries. west coast stock 
assessments generally attempt to account for these at-sea discards but 
do so without any current data. Better information on discards would 
undoubtedly improve the quality of our stock assessments, but so too 
would better survey or age-composition data.
    Instituting an observer program to monitor at-sea discards seems an 
extraordinary way to handle the wastage of marketable fish. Counting 
how many fish are thrown overboard draws our attention to the problem 
but does little to solve it. Trawl fishers discard their catches of 
salmon and halibut because the law requires them to do so. All of the 
discarded salmon and half or better of the discarded halibut do not 
survive the experience. The trawl fishers are no better off as a result 
of this practice, nor are the salmon and halibut fishers, nor are the 
stocks of salmon and halibut, nor is the general public. Why can't we 
have a system that allows trawl fishers to buy the rights to take 
incidental harvests of salmon and halibut, rather than forcing the fish 
to be discarded at sea? The fish would not be wasted, the salmon and 
halibut fishers could be compensated for their lost fishing 
opportunities, and the public would enjoy additional fish in the 
market. Similarly, discarding of marketable fish due to trip limits 
could largely be eliminated if fishers were permitted to trade and 
stack fishing permits to cover their trip limit overages, a practice 
that is currently banned because of the SFA prohibition against 
individual fishing quotas.

                         ESSENTIAL FISH HABITAT

    All organisms require suitable habitat for their continued 
existence and successful reproduction. For many marine organisms the 
habitat requirements vary as the organisms grow through their various 
life stages. Defining on a scientific basis that a particular habitat 
is essential for the survival of a given organism is extremely 
difficult, except when done in very general terms. For many marine 
fishes along the west coast spawning occurs over a broad geographic 
range and the larval fish drift in the plankton for several months. 
During this interval the waters in which the larvae reside are 
essential to their continued existence. Given that there is a myriad of 
commercially important fish species along the west coast leads to the 
conclusion that the entire expanse of the territorial sea and beyond is 
essential fish habitat. Such a broad definition seems likely to have 
little practical importance.
    With regard to possible detrimental effects of fishing gear on the 
long-term productivity of the ecosystem, little information is 
available. Given the generally high degree of natural variability in 
the marine upwelling ecosystem off the west coast, it seems likely that 
long term studies will be required to establish conclusively whether or 
not the various types of fishing gear have more than just a transitory 
effect on bottom habitats.
    Madame Chair, this concludes my testimony. Thank you for inviting 
me to speak to you today.

    Senator Snowe. Thank you, Dr. Sampson.
    Mr. Leipzig.

  STATEMENT OF PETER LEIPZIG, EXECUTIVE DIRECTOR, FISHERMEN'S 
                     MARKETING ASSOCIATION

    Mr. Leipzig. Good morning, Madam Chairman and members of 
the Subcommittee. My name is Peter Leipzig. I am an Executive 
Director of the Fishermen's Marketing Association. And I 
represent commercial groundfish and shrimp fishermen in 
Washington, Oregon and California. I have worked for the 
Fishermen's Marketing Association since 1978. My education is 
in the field of zoology and wildlife management. And in the 
past, I have worked with the National Marine Fisheries Service, 
as well as the California Department of Fish and Game.
    I have been a participant in the Pacific Fishery Management 
Council process for nearly 22 years. And I have served on 
numerous Council committees and have served two terms as a 
Council member. I was Vice-Chairman of the Council for a two-
year period, also.
    I have been asked to focus my comments on the stock 
assessment process and data collection. And it should be 
obvious without saying it, but the quality of any of our stock 
assessments is no better than the data and the quantity of data 
that goes into those assessments. To answer the question, ``do 
we need more data,'' well, yes, certainly we need more data. We 
need all sorts of data and all varieties of data.
    However, we have to be realistic. There are some data that 
we are never going to obtain. We cannot go back in time and 
begin collecting data that we have failed to collect in the 
past. And this missing data is a major shortcoming in many of 
our stock assessments, in my view.
    We lack some of the most fundamental information, such as 
landings data, prior to 20 years ago, for the rockfish species. 
We lumped 50-some species of rockfish into one category called 
``other rockfish.'' And that is the way they come into the 
landing. So we had very little information on which species 
composed that category.
    In many cases, we lack length information and weight 
information and sex information. We have survey work that is 
conducted by the National Marine Fisheries Service. And others 
have referred to this, the tri-annual survey that is conducted 
once every three years. That survey is our longest time series, 
and it began in 1977. But we have very few data points over 
that 20-some-year period because of the frequency of that 
survey. It produces biomass estimates that are plus or minus 
100 percent. They are not very precise estimates.
    So where are we right now? Well, we do not know how many 
fish we have caught. We do not know how old they are, for the 
most part. We do not know how fast they are growing. And we 
have poor estimates of our population trends.
    And even though this historic information is poor and we 
are making little progress to begin collecting contemporary 
information, the management system is demanding more and more 
technical answers. Now, I am supporter of the Council process 
and of regional management. However, I believe that our current 
system is broken. It has become too complicated and too rigid. 
We are simply demanding too much from science.
    A stock assessment scientist now is asked to estimate not 
only the current biomass with this limited information, but 
estimate the unfished biomass. And then project into the future 
what the yield should be for the purpose of establishing 
quotas. In reality, we would be lucky if we can detect what 
change is occurring in the stock itself.
    To better understand fish populations, biologists have 
attempted to model them. This modelling exercise requires much 
of the same information that we are lacking. But it also 
assumes that the environment is constant. We know that this is 
not correct. We know that the ocean environment is changing 
constantly. We know from science that long ago we had ice ages 
and that, since then, the earth has warmed up. We are no longer 
considered in an ice age. And that is a very long-term type of 
change.
    We also know that there are very short-term types of 
changes. This is the kind of thing that every fisherman can see 
from year to year. We have, for some species, very strong year 
classes that appear out of nowhere. And this is because the 
environment has provided the opportunity for those fish to 
experience that and survive.
    We are beginning now to understand that there are some 
changes that occur in the ocean environment that are more 
intermediate in length, perhaps 10 to 40 years. And during 
these periods, the ocean conditions are conducive for the 
survival of certain fish and not very conducive for the 
survival of other fish. And when this condition reverses, those 
species that were surviving in the past may be on a decline in 
the future.
    Oceanographers are referring to these as regime shifts. And 
it is widely agreed that in the Pacific region, a regime shift 
began in the late seventies. During this period, and others 
have mentioned it, we saw a decline in northern anchovies while 
we saw a similar increase in abundance of Pacific sardines.
    Relating to the groundfish fishery, through this period, we 
have seen a dramatic decrease in survival of young rockfish. 
Bocaccio rockfish is a species of very much concern. There has 
been nearly a complete recruitment failure of bocaccio rockfish 
since the late 1970's. The reason I am dwelling on this point 
is I think the fisheries management can no longer just take a 
snapshot in time and assume that those conditions are going to 
continue into the future.
    Central to our management system is the concept of MSY. And 
this assumes that there is some long-term average that we can 
harvest from our stocks. But it also assumes that the 
environment is constant.
    There is a concept that comes out of wildlife management 
called the carrying capacity. It refers to the amount of 
animals that a habitat can produce and sustain. It is in 
relation to the current ability of the habitat. As the habitat 
changes, the environment changes, and the carrying capacity 
decreases. I believe that this concept should be incorporated 
into our definition of what MSY is.
    If the Act were to be modified in such a way that we could 
begin thinking in terms of stocks that are at low levels of 
abundance, one, as those that have been overfished and are at 
low abundance; secondly, those that are at low abundance 
because man has caused some changes to the habitat; and, third, 
because the habitat itself has changed. And I think this would 
provide the Council some flexibility on how they go about 
approaching stocks at low abundance, rather than simply 
referring to them all as ``overfished.''
    In conclusion, we need more data collection. We need survey 
work and port sampling, as Phil Anderson had referred to. We 
need to improve our systems for tracking the data collection 
that we do engage in. We need personnel in order to do it. But, 
most importantly, we need to begin imposing some common sense 
into determining when stock assessments can be conducted. And 
we need to begin thinking about non-quota approaches to 
managing some of our fish. The system in general has to become 
far more flexible.
    I see the red light has come on, and so I will end right 
there and answer any questions you may have.
    [The prepared statement of Mr. Leipzig follows:]

       Prepared Statement of Peter Leipzig, Executive Director, 
                   Fishermen's Marketing Association

    Madame Chairwomen and members of the Subcommittee, my name is Peter 
Leipzig. I am the Executive Director of the Fishermen's Marketing 
Association. I represent commercial groundfish and shrimp fishermen in 
Washington, Oregon, and California.
    I have worked for the Fishermen's Marketing Association since 1978. 
My education is in the fields of Zoology and Wildlife Management. In 
the past I have worked for the National Marine Fisheries Service and 
the California Department of Fish and Game.
    I have been a participant in the Pacific Fishery Management Council 
process for nearly 22 years. I have served on numerous Council 
committees and as a Council member for two terms, including two years 
as vice-chair.
    I have been asked to focus my comments on the stock assessment 
process and data collection. The quality and quantity of data available 
for any species limits the quality of any of our stock assessments. Do 
we need more data? Yes, we need more data of various types. However, we 
will never obtain some data. We can not go back in time and begin to 
collect information that we did not collect in the past. This missing 
data is a major shortfall in many of our assessments.
    In most cases we lack the most fundamental information, such as 
landings data beyond 20 years ago. We used to lump 50-some species 
together as ``other rockfish''. In other cases we lack length, weight, 
and sex information. Bony structures used to age fish are not collected 
for most species. And needless to say, without bony structures, age 
validation studies for most species are not being conducted.
    The fisheries independent survey work that NMFS has performed for 
the longest time period on the Pacific Coast is conducted once every 
three years. This survey provides biomass estimates that are generally 
plus or minus 100%.
    So where are we? We do not know how many fish we caught, we do not 
know how old they were, we do not know how fast they grow, and we have 
poor estimates of trends in the populations.
    Even though we lack historical information and little progress is 
being made to collect contemporary data, the management system is 
demanding more and more technical answers.
    I am a supporter of the Council process and of regional management 
of the resource. However, I believe that our current system is broken. 
We have made this process too complicated and too rigid. We are 
demanding too much from science. An assessment scientist must tell the 
Council what the current biomass is, what the unfished biomass was, and 
project yields for quotas into the future. In reality, we would be 
lucky to show whether a population is changing. Yes, assessment 
scientists can produce the information we ask of them, but around the 
country--sport and commercial fishermen--are reacting with disbelief to 
many of these assessments. Their perception of the status of a stock of 
fish does not jive with the conclusions of many stock assessments.
    To better understand fish populations, biologists have attempted to 
model them. This requires information about growth, mortality, and 
removals. This required information is the same data that we are 
missing or have very little. We also assume that the environment is 
constant. We assume that a fish population in a state of equilibrium 
will produce the same amount of offspring, will grow at the same rate, 
and produce the same amount of fish that can be harvested year after 
year.
    Change in the environment is not part of the model, even though we 
know the ocean environment is a dynamic, ever changing system. We know 
from science that there are very long-term changes in the environment. 
We know that many years ago there was an ice age and that gradually the 
environment has warmed up. We also see very short-term changes. From 
year to year the ocean environment is different and for some species 
this may be seen as strong year classes.
    What we are beginning to understand is that there are changes that 
are more intermediate in length. These may be 10 to 40 years in 
duration. During these periods some species may prosper, while others 
may decline. When these conditions reverse, those species that had done 
well may begin to decline and those that had not done well will 
increase in abundance.
    Oceanographers call these changes ``regime shifts''. It is widely 
agreed that a regime shift occurred in the North Pacific in the late 
1970's. During this time we saw a decline in abundance of northern 
anchovy and an increase in abundance in Pacific sardine. More 
importantly to the Pacific groundfish fishery, there has been a 
dramatic decrease in the survival of young rockfish. For bocaccio 
rockfish, there has been a near complete recruitment failure since the 
late 1970's.
    Why am I dwelling on this point? It is important in fisheries 
management that we do not simply take a ``snapshot in time'' and assume 
that those conditions will continue in the future. Fish populations 
that exist today could decline in the future simply because of changes 
in the ocean environment. Similarly, a fish population in the past may 
have been very large because environmental conditions were good, while 
the population may currently be at a low level because environment 
conditions are poor.
    Central to our management system is the concept of Maximum 
Sustainable Yield (MSY). This concept assumes that there is some 
maximum amount of fish that can be removed from a stock of fish every 
year without impacting the stock. This concept assumes that the 
environment is relatively stable and therefore has little impact on the 
abundance of fish. This concept is flawed. We know the environment can 
significantly influence the abundance of fish.
    There is a concept in wildlife management that has never made it 
into fisheries management, called the carry capacity. This is the 
maximum population the environment can support any point in time. It 
recognizes that the environment changes and therefore the number of 
animal will also change. I believe this concept should be incorporated 
into the Act in relation to MSY.
    If the Act were to incorporate such a concept, then we could begin 
to think about stocks being at low levels of abundance as a result of: 
(1) overfishing, (2) man-caused impacts to the environment, and (3) 
natural fluctuation to the environment. Currently, the Act labels any 
stock at low levels of abundance as ``overfished'', even when a river 
dries up in a drought and all the salmon die. This distinction would 
allow Councils to continue to address overfishing problems, but could 
provide Councils needed flexibility in managing other stocks of fish.
    One example of a data poor situation that the Pacific Council has 
dealt with this past year is the southern lingcod. The assessment was 
peer reviewed by a Stock Assessment Review (STAR) Panel last summer.
    During the several-day review, the author on a daily basis 
expressed his opinion that sufficient data did not exist to conduct the 
assessment. He had only six years of biological information. He did 
have three sets of fishery-dependent trend data; however, none of these 
included the last several years. The modeling exercise was conducted 
and an estimate of current biomass was produced. An unfished biomass 
was estimated using high estimates of recruitment from earlier periods 
of greater abundance.
    It was determined that the current biomass was less than 10% of the 
unfished level; therefore the stock was declared overfished. Sport and 
commercial fishermen both believed the stock to be in excellent 
condition. Nevertheless, regulations have been implemented that 
effectively have terminated a fishery for lingcod.
    All of the data used in this assessment came from the fishery. 
Without a fishery, there is no method to monitor the recovery of this 
stock from its declared overfished state. The rebuilding plan contains 
a schedule of how much lingcod can be taken every year, and at the end 
of ten years the stock will be declared rebuilt. The loss of the 
fishery data over that ten-year period will hinder future stock 
assessment.
    In conclusion, we need increased data collection through survey 
work and port sampling. We need to improve our data collection system 
of tracking landings, including recreational catch. There is the need 
for more personnel to collect and deal with this additional data. But 
most importantly we need to impose common sense in determining when 
stock assessments can be conducted. We need to think about non-quota 
approaches to managing some of our fish. The system must become more 
flexible.
    Lastly, we need to begin addressing fishing capacity reduction on a 
national level. And I ask you to lift the moratorium on new ITQ 
systems.

    Senator Snowe. Thank you. Did you have much more? Did you 
want to finish your statement? Go ahead.
    Mr. Leipzig. I would like to just say this. And it has 
nothing to do with data collection, but, as everyone else, I'll 
get my digs in. I think the time has come for the prohibition 
on ITQ's to be lifted. I think that it is a legitimate 
management tool. And the management Councils should have the 
flexibility to proceed with the development and implementation 
of those types of systems.
    We also need to begin addressing the capacity issue on a 
national level. We have far too many people engaged in fishing 
activities. We need to find a way for them to exit the 
fisheries in a graceful manner. Right now, people can certainly 
leave the fishery. But they cannot do it by selling their 
business. Nobody is going to be buying boats entering into the 
fishing business at this point. We need to find some way for 
the Federal Government to participate in removing some of this 
effort.
    And lastly, on observers, and I guess this does relate back 
to data collection, but I think there need to be clear 
objectives when an observer program is going to be implemented, 
and that some sort of uniform deployment of those persons 
across all users of the resource, people that are interacting 
in a fishery with the species in a fishery, should all be 
sampled. It cannot just be heavily weighted to the people that 
catch the most of those fish.
    And reasonable costs have to be derived. The mean gross 
revenue in the groundfish trawl fishery for the three States of 
the Pacific groundfish fishery was $160,000 in 1998. Things are 
worse now. I have been told that observer costs for an observer 
company run in the neighborhood of $7,500 a month. That is 
$90,000 if you have an observer 12 months year. And 100 percent 
observer coverage is not going to be realistic if you expect 
for the industry to pay for the bill, because there is not that 
kind of money in this fishery.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Anderson.

        STATEMENT OF SAM ANDERSON, EXECUTIVE DIRECTOR, 
  MASTER BUILDERS ASSOCIATION OF KING AND SNOHOMISH COUNTIES, 
                           WASHINGTON

    Mr. Sam Anderson. Madam Chair, members of the Committee, my 
name is Sam Anderson. I am the Executive Officer of the Master 
Builders Association of King and Snohomish Counties. I am also 
a member of the National Association of Home Builders. And 
today I represent not only the building industry, but also 
other industries that belong to the Essential Fish Habitat 
Coalition, which includes the National Association of 
Homebuilders, the American Forest and Paper Association, the 
Bay Delta Urban Coalition, the Edison Electric Institute, and 
the Association of California Water Agencies.
    As a representative of the home building industry, I find 
it unusual to be speaking to this Subcommittee and on this 
panel, commenting on a statute that is intended to ensure 
sustainable populations of fish so they can be commercially 
harvested. But our coalition is here to ask the Subcommittee to 
consider three requests while passing the reauthorization of 
the Magnuson-Stevens Act.
    First, we ask Congress to clarify in legislation its 
original intentions for the essential fish habitat program by 
narrowing the definition of essential fish habitat. We believe 
Congress never intended for the National Marine Fisheries 
Service to interpret the program as broadly as it has.
    Second, we ask Congress to prohibit NMFS from imposing 
mandatory duties or timeframes on other Federal agency actions. 
Third, we ask that Congress direct NMFS to immediately develop 
a general concurrence for those activities that are already 
regulated and cause minimal impacts to areas identified as 
essential fish habitat.
    I would like to touch briefly on our main concerns. First 
is our concern with NMFS' interpretation of Congress' intent. 
Congress spoke only of establishing guidelines and providing 
information on essential habitat. There is no indication in the 
Act that the essential fish habitat provisions should be of a 
regulatory nature. But, under the proposed EFH program, Federal 
action agencies are required to consult with the National 
Marine Fisheries Service and are required to provide a written 
assessment wherein there are mandated timeframes as part of 
that consultation process.
    These requirements establish a new mandatory series of 
actions for Federal agencies. There is little doubt in our 
minds that the essential fish habitat regulations could delay 
or stop building permits, timber permits and other land-based 
activities in the Puget Sound. Further, if time lines are not 
met and recommendations are not followed, we are concerned that 
private parties will pursue litigation and even more permits 
and projects will be delayed.
    Secondly, we are concerned NMFS's definition of essential 
fish habitat is too broad. NMFS' final interim rule retains an 
extremely broad definition of essential fish habitat. The 
regional fishery management Councils are mapping all existing 
and potentially historical habitat. When all habitat is covered 
under the program, the term ``essential'' becomes meaningless. 
We expect, with this broad interpretation, NMFS will be 
regulating activities occurring on inland waterways.
    For example, the proposed essential fish habitat 
designations for salmon within the Pacific Fishery Council 
include the existing geographic range of all salmon species and 
much of their historic range. And I have with me the map that I 
think Senator Gorton was looking for when he was talking to 
Will Stelle. You will notice that most of the watersheds 
certainly west of the Cascades in the State of Washington have 
now been designated as essential fish habitat.
    And to answer your question, yes, all of the 200-mile limit 
has been designated, as well.
    Third, we are concerned about the information gathered to 
identify essential fish habitat. NMFS' interim final rule 
provides that data for identifying essential fish habitat 
should be obtained from the best available information. The 
information gathering procedures of both NMFS and the fishery 
management Councils ignore non-fishing entities or interests.
    A Council system is designed to promote the interests of 
the fishing community, and justifiably. Yet the information 
from these Councils will carry great weight in determining 
essential habitat, and it will truly impact non-fishing 
interests. Also of concern in this area is NMFS' reliance on 
historic information when mapping essential habitat.
    Fourth, we are concerned with the essential fish habitat 
consultation provisions. The interim final rule sets forth 
extremely stringent criteria for a consultation that does not 
take advantage of existing processes. NMFS often states that 
the essential fish habitat program is a voluntary information 
gathering tool. Yet it has promulgated a regulation that 
requires Federal action agencies to prepare essential fish 
habitat assessments, undertake other mandatory measures and 
meet mandatory deadlines. We believe Congress should direct 
NMFS to base the program purely as an information exchange 
process.
    Fifth, we are concerned that the essential fish habitat 
consultation process is duplicative and redundant. For the most 
part, land-based activities have been addressed and controlled 
through numerous Federal, State and local laws and regulations. 
Most coastal States, including Washington, California and 
Oregon, have particularly stringent environmental protection 
laws at the State and local levels. And all three of these 
States have comprehensive land planning and regulations 
protecting environmentally significant areas and lands.
    For these reasons, we believe it is important that a 
general concurrence policy be implemented between NMFS and 
other Federal agencies, and Congress should address the cost/
benefit of this program.
    Lastly, we are concerned with the unavailability and the 
lack of information. In my written statement, I have outlined 
information we believe should be provided by NMFS so that the 
American public and Congress can conduct meaningful review of 
the essential fish habitat consultations done to date. We ask 
that this Subcommittee request similar information, as outlined 
in my written testimony, from NMFS. Having significant 
information about consultations will be important if Congress 
is to evaluate the implementation of the EFH program to date.
    In conclusion, we believe it is important that Congress 
clearly define the essential fish habitat provision's intent 
when it addresses reauthorization of the Magnuson-Stevens Act 
this year. Congress should also assist the American public by 
halting implementation of the essential fish habitat program 
until more guidance can be provided in the Act itself. Our 
coalition is, has been, and continues to be engaged with the 
National Marine Fisheries Service and Congress in a discussion 
on how this program should work and where we might help.
    Thank you very much.
    [The prepared statement of Mr. Sam Anderson follows:]

Prepared Statement of Sam Anderson, Executive Director, Master Builders 
         Association of King and Snohomish Counties, Washington

    Madame Chair, members of the Committee, my name is Sam Anderson and 
I am the Executive Officer of the Master Builders Association of King 
and Snohomish Counties. I am also a member of the National Association 
of Home Builders. Today, I represent not only the building industry but 
also other industries that belong to the Essential Fish Habitat 
Coalition. This Coalition is comprised of diverse non-fishing resource 
and business interests including the National Association of Home 
Builders, the American Forest and Paper Association, the Bay Delta 
Urban Coalition, the Edison Electric Institute and the Association of 
California Water Agencies. We are all extremely concerned about the 
National Marine Fisheries Service's (NMFS) implementation of the 
Essential Fish Habitat (EFH) Provisions of the Magnuson-Stevens 
Fisheries Act.\1\
---------------------------------------------------------------------------
    \1\ For convenience sake, I will use the acronym ``MSA'' from now 
on.
---------------------------------------------------------------------------
    First and foremost, the coalition is very concerned with the scope 
of the Essential Fish Habitat provisions as proposed by NMFS. The 
coalition believes that NMFS has far exceeded Congressional intent in 
its implementation. Because we work in heavily regulated industries, we 
worry that the proposed Essential Fish Habitat regulations will slow 
down permits and foster law suits--which will only raise the cost of 
conducting business for our industries. Worse, the requirements under 
the proposed regulation are redundant and duplicative.
    As a representative of the home building industry, I find it 
curious to be speaking before a Senate Subcommittee on Oceans and 
Fisheries commenting on a statute intended to ensure sustainable 
populations of fish, so they can be commercially harvested. Yet, those 
familiar with the recently developed Essential Fish Habitat program 
will understand why I am here and why builders, developers, miners, 
hydropower electricity providers, farmers, and timber manager, 
nationwide are so concerned. We all know that the Essential Fish 
Habitat designation acts as a federal zoning overlay. The designation 
will ultimately result in land use restrictions and economic impacts on 
both coastal and upland land areas.
    As a result of this, we ask you to consider three requests while 
passing the reauthorization of MSA. First, we ask Congress to clarify 
in legislation its original intent for this program by narrowing or 
clarifying the MSA's definition of Essential Fish Habitat. The 
coalition believes Congress never intended for NMFS to interpret the 
program as broadly as it has. Second, we ask Congress to prohibit NMFS 
from imposing mandatory duties or timeframes on other federal agency 
actions. Third, we ask that Congress direct NMFS to immediately develop 
a ``general concurrence'' for those activities that are already 
regulated and cause minimal impacts to areas identified as EFH.
    We do not dispute the importance of efforts to identify and 
conserve the vital habitat areas of the United States' domestic 
fisheries. Our central opposition to the EFH regulatory program is that 
it superimposes the MSA decision process onto the land development 
process--a process that is already subject to state and federal 
comprehensive regulatory programs that address the full range of 
environmental concerns, including fish habitat.
1. NMFS is Acting Beyond the Scope of Congress' Intent in Developing 
        Consultation Program
    The home building industry, as well as the other members of our 
coalition, are very heavily regulated and sensitive to any additional 
pending restrictions on our activities. We believe Congress' intent 
under the MSA was to create a consultation program, not a new 
regulatory scheme. In fact, Congress spoke only of establishing 
guidelines and providing information on essential habitat.
    Unfortunately, we believe very strongly that, based on NMFS's 
overzealous interpretation of the MSA, we will indeed face new mandated 
regulatory requirements. Let me explain. Under the proposed program, 
federal action agencies are required to consult with NMFS and to 
provide a written assessment as to how an agency action will effect 
EFH. Once NMFS has responded by providing the agency their 
determination and recommendation, the agency is required to reply 
(again in writing) as to whether or not they will follow NMFS's 
recommendation. This requirement will divert key federal agency staff 
from normal permitting and operational duties. Further, it is highly 
unlikely that these written responses by the agencies will be within 
the time limits established by the program. We do not know what effect 
this three part process will have on permits, but suspect that it will 
cause significant delays as the same staff which provided the 
assessment must justify their failure to meet the deadlines of the 
program. Meantime, permits and agency tasks languish. Further, if time 
lines are not met and recommendations are not followed, we are 
concerned that private parties will pursue litigation and even more 
permits and projects will be delayed.
    We are also concerned that conflicts and disagreements between NMFS 
and federal agencies over consultation issues will undoubtedly arise. 
How will these be resolved? We do not know. But, we strongly believe 
that disagreement between NMFS and another agency will take time to 
settle, leading to additional permit delays and costs.
    We also suspect that very soon NMFS, working with other agencies, 
will require that industry pay for the EFH impact assessments. NMFS has 
argued in its final interim rule that it will not impose new or 
additional enforceable duties on State, local, tribal or private sector 
entities that would constitute a federal mandate. This has been 
misleading. Let me explain why. The rule requires federal agencies to 
complete detailed EFH assessments for many private sector activities 
requiring federal permits or other authorization. The rule authorizes 
these agencies to designate a non-federal representative to prepare the 
assessment. This creates a problem in that federal-permitting agencies, 
not funded themselves to complete EFH assessments, will require 
nonfederal private applicants to pay for them in order to obtain needed 
permits. As we have learned under the Endangered Species Act, part of 
the cost of getting a permit is usually gathering information and 
research for the agency.

2. The Definition of EFH is Overly Broad
    NMFS's final interim rule retains an extremely broad definition of 
``essential'' fish habitat. The Regional Fishery Management Councils 
are mapping all existing and potentially historical habitat. When all 
habitat is covered under the program, the term ``essential'' becomes 
meaningless. The EFH designations should carry some measure of unique 
value, if they are to have any added benefit for protecting and 
restoring salmon populations and their essential habitats.
    In contrast, NMFS has interpreted EFH in its regulations to cover 
not only the critically important essential habitat, but instead 
concluded the designation should cover all habitat necessary to a 
``healthy ecosystem.'' In other words, rather than isolating 
``essential'' habitat as a subset of all habitat, NMFS designated 
``essential'' the ecosystem within which the fish habitat is located. 
An overreaching interpretation indeed.
    This interpretation means that NMFS will regulate activities 
occurring on inland waters. Once inland, NMFS unsurprisingly announced 
the need for ``watershed'' planning--not only would rivers, estuaries, 
and wetlands be covered, but also all areas that could impact those 
waters. Finally, NMFS determined that it was not enough to cover waters 
where fish currently are found, but also that EFH should cover areas 
where fish historically were found.
    Rather than debate the definition in an academic manner, it is 
illustrative to review how the definition is being implemented by NMFS. 
The proposed EFH designations for salmon within the Pacific Fishery 
Council include the existing geographic range of all salmon species and 
much of their historical range.\2\ These maps illustrate the broad 
brush used by the Fish Councils and NMFS in identifying EFH. Virtually 
every watershed within Washington State is included within the EFH 
designation. And, it is important to remember that the regulatory reach 
of the EFH program, as devised by NMFS, includes a review of not only 
the actions within designated EFH, but those activities outside EFH 
that ``may adversely affect'' EFH. A vast landscape of NMFS influence 
and control.
---------------------------------------------------------------------------
    \2\ See attached maps [Contact the Master Builders Association].
---------------------------------------------------------------------------
    In addition to its definition of the word ``essential'' NMFS uses a 
very broad definition for the term ``adverse effect''. It is defined as 
``any impact that reduces quality and/or quantity of EFH.'' This 
includes any loss of prey or reduction in species fecundity. All 
activities anywhere are likely to have some ``adverse effect'' 
somewhere on EFH as that term is now defined. As best we can see, there 
is no limiting principle that would leave any activity outside of NMFS 
purview.
    We find especially troubling the question of lost ``prey.'' NMFS 
states that actions that reduce the availability of prey species or 
prey species habitat may be considered adverse effects on managed 
species and EFH. Since NMFS offers no corresponding requirement that 
the loss have some meaningful impact on the managed fishery, the loss 
of a few prey or a whole population may qualify as an adverse effect. 
Thus, actions, which have little or no impact on truly essential 
habitat, may nonetheless be regulated under these provisions.

3. Information Used to Identify EFH
    NMFS's interim final rule provides that data for identifying EFH 
should be obtained from the ``best available information.'' The 
regional Fish Councils are to use logbooks and local knowledge in this 
identification. The information gathering procedures of both NMFS and 
the Councils ignore non-fishing entities that are not given a 
comparable role in providing information and shaping habitat 
identification and recommendations. Nonetheless, we will be 
significantly impacted by these regulations. The Council system is 
complex, cumbersome, and unresponsive to non-fishing interests and 
designed to promote the interests of the fishing community, not strike 
a balance between fishing and non-fishing sectors.
    The possibility that historic habitat may be designated as EFH 
points out further problems with the EFH identification approach. 
Presence of a species, either historic or current, in an area does not 
mean that the species can survive or reproduce in that area. There 
should be some assurances that information will be developed to 
identify habitats that are truly essential--and not just potential or 
historic.

4. Consultation Provisions
    NMFS has stated to the regulated community that it will strongly 
encourage the use of existing consultation and environmental review 
processes to satisfy the EFH requirement. By contrast, the interim 
final rule sets forth extremely stringent criteria for the consultation 
that does not take advantage of existing processes.
    For example, as part of the stringent consultation rules, the 
regional Fish Councils have been given a role in determining whether 
general concurrences may be used when allowing public review of the 
concurrence. NMFS also hopes to develop agreements with the Councils to 
coordinate comments and recommendations on actions affecting EFH. Thus, 
through formal agreements with NMFS, the Councils will have a role in 
determining the end product of an EFH consultation. All of these 
changes make the consultation process even more difficult to deal with 
for non-fishing, regulated entities--and they vest improper power in 
the Councils.
    As noted above, the homebuilders and other members of our coalition 
have little input into the way the Councils act. Indeed, they are 
heavily weighted to consider fishing interests. But, we will be 
subjected to the regulatory power of the Councils through NMFS's 
regulatory scheme. We do not believe this result was ever intended. 
Indeed, it is notable that when the EFH concept was being developed 
during the 1996 MSA reauthorization process, the views of the non-
fishing sector were never solicited. Why? Because, quite obviously, 
Congress did not intend that inland interest groups be pulled into the 
program. But, NMFS has now expanded the EFH program so extensively that 
non-fishing interests are forced to become involved.

5. The EFH Assessment
    NMFS has written that the EFH assessment must include an analysis 
of alternatives ``particularly when an action is non-water dependent.'' 
Nothing in the terminology of the MSA, its legislative history, or case 
law suggests that the Act covers non-fishing, non-water dependent 
activities such as land development or construction activities, mining, 
timber harvesting, etc. This particularized burden on federal agencies 
to assess alternatives to non-water dependent actions is not only 
unauthorized, it is also without any basis in reason. Why is it more 
appropriate, in order to protect fish habitat, to consider alternatives 
to non-water dependent activities when certain fishing (i.e., water 
dependent) activities are acknowledged to contribute equally to EFH 
degradation?
    There are numerous other problems with the consultation process. 
For example, the rule states that the purpose of the procedures is to 
``promote the protection of EFH.'' This standard of providing 
``protection'' is found nowhere in the MSA. NMFS may request further 
review of any federal agency decision that is inconsistent with a NMFS 
EFH recommendation. There is no authority for this requirement. The 
acting agency need only respond in writing; NMFS cannot perpetuate the 
consultation process or mandate a result in this manner.

6. Duplicative and Redundant Provisions
    Without a doubt, there are activities that threaten fish habitat 
that are causing fish populations to decline and affect commercial 
fisheries. These activities should be regulated to ensure that their 
impacts are minimized and mitigated. We, however, do not believe that 
land-based activities are causing a significant enough adverse impact 
to warrant the burdensome consultation process set forth in the EFH 
interim final rule. This is not to say that many land-based activities 
do not cause deleterious environmental impacts. However, for the most 
part these impacts have been eradicated through the numerous federal, 
state, and local laws and regulations already in place. The 
environmental regulations established since 1970 have precluded 
significant direct, indirect, and cumulative impacts on all land, 
whether it is essential fish habitat or not. Most coastal states 
including Washington, California, Oregon have particularly stringent 
environmental protection laws at the state and local levels. And, all 
three states have comprehensive land planning and regulations 
protecting environmentally significant areas and lands.
    Over the past two years, NAHB, as well as other Coalition members, 
have repeatedly asked the NMFS and the Fish Councils to identify the 
adverse impacts to those areas considered Essential Fish Habitat that 
are not already addressed by other regulations. Sediment and runoff, 
for example, which can be problematic for many fish species, is largely 
eliminated by the federal storm water program administered by the 
Environmental Protection Agency and local storm water management 
requirements. Consequently, NMFS's role in this heavily regulated area 
adds little because runoff and pollutant discharge issues are well 
defined, well regulated, and appropriately mitigated to the extent 
possible by existing federal, state and local agencies.
    We are concerned that the EFH program, as described in the NMFS 
interim final regulations, already has grown into yet another 
regulatory impediment imposed by Congress on businesses as a condition 
to receiving a federal permit. A large variety of permits could be 
affected. The EFH regulations could delay or halt altogether building 
permits, timber permits, and other land-based activities in the Puget 
Sound region.
    NMFS often states that the EFH program is a voluntary information 
gathering tool, yet it has promulgated a regulation that requires 
action agencies to prepare EFH assessments and undertake other 
mandatory measures and meet mandatory deadlines. Congress did not vest 
NMFS with the power to impose these duties on other agencies and, if 
the program is to be cooperative and voluntary as NMFS asserts, these 
requirements must be deleted and replaced with cooperative mechanisms. 
For example, Congress should direct NMFS to recast the program so that 
NMFS will provide helpful information about truly essential habitat for 
fish species of concern, allowing other agencies to consider that 
information in their own reviews of projects without formal 
requirements for EFH assessments and consultations.
    Without this Congressional direction, there will undoubtedly be 
permitting delays. The cost of getting permits will increase--due to 
delays, due to the need to undertake consultation and prepare EFH 
assessments, due to the inevitable slippage in deadlines that cover the 
federal agencies, and due to the cost of complying with EFH 
restrictions. Permits are likely to be subject to new restrictions. In 
some cases, permits for activities are likely to be denied. And keep in 
mind, these are not restrictions for species in danger of extinction, 
they are restrictions to protect the habitat of all fished species, no 
matter how plentiful or widely dispersed.

7. Lack of Information
    This Committee and the public must be given sufficient information 
about these consultations to evaluate the implementation of the EFH 
program to date. The following information should be provided by NMFS 
so that the American public and Congress are enabled some level of 
meaningful review of EFH consultations to date:
          (a) The number of consultations completed, by NMFS Region;
          (b) The average time taken to complete a consultation, and 
        the range and distribution of time taken for each consultation 
        around that average;
          (c) The average cost of each consultation, in dollars and 
        person-hours or full time equivalents (``FTEs''), and the range 
        and distribution of the costs of each consultation around that 
        average;
          (d) The distribution and amount of that cost among NMFS, 
        action agencies, third party applicants for federal 
        authorizations, and others;
          (e) The number of consultations in each category described 
        under the interim final rule: national general concurrences; 
        regional general concurrences; abbreviated, expanded, extended, 
        and supplemental consultations; and separately the number of 
        programmatic versus project-specific consultations;
          (f) The number of documented ``no effect'' determinations by 
        action agencies, the number of these with which NMFS concurred/
        did not concur, and the number of these for which an EFH 
        consultation was nevertheless completed;
          (g) The number of consultations involving federal actions for 
        which ESA consultation was also completed, and the number of 
        these which involved ESA consultation with NMFS;
          (h) The number of consultations involving federal actions for 
        which the National Environmental Protection Act (NEPA) 
        documentation was also completed, and the category of NEPA 
        documentation completed (e.g., Environment Assessment or 
        Environment Impact Statement);
          (i) The number of consultations involving other environmental 
        analysis documentation besides an EFH assessment, and the 
        number of these for which the environmental documentation 
        prepared for other purposes also served as the EFH assessment, 
        without modification to meet EFH consultation requirements;
          (j) Other information about how EFH consultation was 
        consolidated or integrated with procedures such as NEPA, ESA, 
        Federal Power Act licensing procedures, and Coastal Zone 
        Management Act regulations for individual or collective 
        actions;
          (k) Categories of activities for which EFH consultations were 
        completed, including the basic categories of fishing and 
        nonfishing, more specific federal action categories such as 
        Clean Water Act Section 404 permits and Federal Energy 
        Regulatory Commission power facility licensing or relicensing, 
        and more specific types of activities, such as timber sales, 
        road projects, marina developments, oil and gas drilling, 
        hardrock mineral extraction, housing subdivisions, agricultural 
        water diversions, and so on;
          (l) How many EFH consultations have been initiated, but not 
        yet completed, and how long they have been pending; and
          (m) The categories and representative examples of 
        recommendations made by NMFS in consultations, action agency 
        disagreements with such recommendations, and how these 
        differences were resolved.
    We ask that this Committee request NMFS to compile this kind of 
information in a format that facilitates understanding of the EFH 
consultations which have occurred so far and that enables constructive 
further comment.

Conclusion
    The non-fishing sector does not oppose the EFH concept. Indeed, we 
address these concerns regularly. However, we believe the actions set 
forth in the EFH provisions are duplicative and redundant and we 
seriously question the cost/benefit of this program. Even NMFS has said 
that of the 2000 consultation to date, most were already covered by 
some other environmental review. NMFS has also said that they strongly 
encourage the use of existing consultation and environmental review 
processes to satisfy the EFH requirements, yet the rule sets forth 
extremely stringent criteria for the use of any such process.
    When asked why the EFH definition is so broad that it now includes 
almost the entire coastline of the United States, and substantial 
upland habitats, NMFS points to the lack of guidance it received from 
Congress. The 1996 Amendments, NMFS asserts, established a broad and 
vague definition of the term. So NMFS moved in, filling what they 
perceived as the void. It is important that Congress clearly define the 
EFH provisions when it reauthorizes the Magnuson-Stevens Act this year. 
Congress should also assist the American people by halting 
implementation of the EFH program until more guidance can be provided 
in the Act itself. Our coalition is, has been, and continues to be 
engaged with NMFS and Congress in a discussion on how this program 
should work and where we might help.
    Thank you for your time today and consideration of our concerns.

    Senator Snowe. Thank you, Mr. Anderson. I will start with 
you.
    Do you have any examples of how the EFH process has 
directly affected your constituency and the industries that you 
represent?
    Mr. Sam Anderson. I do not in this region, but I can 
provide you some through the National Association of Home 
Builders.
    Senator Snowe. Do you know of any specific examples 
anywhere in this country where this has had a negative impact?
    Mr. Sam Anderson. I have not personally been involved in 
them, but I have been told by the National Association that it 
has.
    Senator Snowe. We have been getting testimony from others 
who represent non-fishing interests. Did you ever think non-
fishing interests were intended to be covered by this 
designation?
    Mr. Sam Anderson. No, we did not. What I find interesting 
in it is that about a year and a half ago, this came to light. 
And we focused a lot of our attention in the building industry 
out here on the Endangered Species Act and the listing of the 
chinook, and all of a sudden, out of the blue, came the 
essential fish habitat provisions that nobody thought we had 
anything to do with essential fish habitat, fish management, or 
the Pacific Fisheries Council or any of this other stuff.
    Then, the next thing we know, in the building business, 
suddenly there is a potential that our permitting activities 
will be regulated through essential fish habitat and the 
designation of significant inland waterways as essential fish 
habitat. No, we were not prepared.
    Senator Snowe. So you see it as another bureaucratic 
impediment and overlay in the process?
    Mr. Sam Anderson. Yes, we do.
    Senator Snowe. It was intended to be a consultation 
process, but that has become another matter. You believe it may 
be too restrictive?
    Mr. Sam Anderson. That is correct.
    Senator Snowe. You believe the process causes delays and 
complicates decisionmaking on federally permitted projects.
    Dr. Fujita, can you tell me, are you satisfied with the 
current provisions of essential fish habitat? You believe they 
should be broad, is that correct?
    Dr. Fujita. That is right, Senator Snowe.
    Senator Snowe. You do not see any problems in the way that 
it is being interpreted at this point? I would like to have Dr. 
Sampson and Mr. Leipzig also comment on this issue. We have 
heard considerable testimony from various witnesses at other 
hearings about the broad interpretation of the essential fish 
habitat provisions what was truly originally intended by EFH is 
more similar to how the more narrow habitat areas of particular 
concern are currently being defined.
    Would you agree that there are some problems with the 
overly broad interpretation of the essential fish habitat 
provisions? We have even found that the entire Gulf of Maine 
and the entire EEZ have been designated as EFH. Do you think 
that such a broad designation was truly intended by the 
original definition?
    Dr. Fujita. I do not question the concerns of stakeholders 
who feel that the EFH provisions have been overly interpreted 
or too broadly interpreted. I am sure there are problems on the 
ground. I am not aware of any in my region, in the Bay Delta. 
EFH is not complicating the Bay Delta process to restore salmon 
habitat. But, again, I am not going to question those people 
who do have problems.
    What I would say is that the narrow interpretation of 
Federal and State laws that protect the environment, the 
Balkanization of those laws and jurisdictions, has been a major 
cause of habitat fragmentation and is one of the reasons we are 
in the state we are in today with respect to salmon and, I 
think in the future, with respect to marine habitat, if we do 
not get our act together. The fact that water and forests and 
riparian areas, flood plains, and fish were all under different 
jurisdictions is one reason that the ecosystem has collapsed.
    There has been a great need, and it has been brought to the 
attention of management agencies and the Federal Government for 
years by ecosystem scientists, for what we call an ecosystem 
approach, in which the jurisdictions are swept aside and 
natural systems, or rather human impacts on natural systems, 
are managed with respect to ecosystem boundaries, not Federal 
agency jurisdictions.
    EFH is a first step in that direction. Because of its broad 
definition, it enables NMFS to act as a coordinating agent and 
bring together these disparate, well-intentioned though they 
may be, but disparate efforts. Coordination is the key here. 
And because it is a consultative process, I do not see any 
inherent problem with that broad definition. I think it is very 
helpful.
    Now, as Will Stelle said before with respect to ESA 
consultations, that is a different matter, because you are 
talking about a big hammer and strong regulations that can 
cause a lot of economic dislocation. But EFH need not be that 
way and, in my view, it is not being implemented or interpreted 
that way.
    Senator Snowe. Dr. Sampson, you have a different point of 
view. Do you think it is possible to narrow the definition, 
making a distinction between essential and nonessential fish 
habitats, and defining that in law without impairing the 
conservation goals?
    Dr. Sampson. I work primarily with the groundfish species 
off the west coast here. And with most of those species, they 
are very wide ranging and their different life stages have very 
different requirements that essentially encompass the entire 
EEZ. So it is hard for me to see how you could define it except 
in very broad terms because of the requirements of these 
groundfish species.
    It is a different issue with salmon, where there clearly 
are terrestrial concerns that are well-defined in space and 
time. With many of the marine organisms, though, I do not think 
that works.
    Senator Snowe. Mr. Leipzig.
    Mr. Leipzig. I cannot add much. My involvement is also with 
groundfish. And so I echo Dr. Sampson's comments.
    This is also an area that we have not, in the Pacific 
Council, with the groundfish issue, really delved in deeply. We 
have gone through the process of identifying essential fish 
habitat, which is everything that is wet and salty. It covers a 
broad area. There are certainly very site-specific areas that 
should be very much of concern for certain species, where they 
tend to aggregate for spawning purposes or where the juveniles 
may live.
    But, as Dr. Sampson points out, many of these fish, through 
their life stages, will be covering a broad area. Many of them 
will be pelagic for many, many months, covering the entire 
ocean surface, until they settle out to the bottom. So it is 
hard to know.
    Senator Snowe. Dr. Sampson, you spoke extensively about the 
quality of stock assessments and scientific data. What is the 
one thing you think we should do to improve the quality of 
data? Is it money? Does it simply come down to providing enough 
resources to fund the scientific data?
    Dr. Sampson. Certainly we do not have very good data. And 
we do not have the long-term data series that you really need 
to do things the way we have currently structured the system. 
There are many types of data that are needed, and it is hard to 
say exactly what the best way of going about providing that 
data would be. I think we could do a lot more to explore how we 
could improve the quality of our assessments from some 
relatively inexpensive computer modelling exercises, where we 
improved this type of data versus some other type of data, to 
see what type of gains we make.
    We have not engaged in very much of that at all. Instead, 
we have taken a very hit-or-miss approach to providing this bit 
of information here, providing some other bit of information 
there, without looking comprehensively at what causes a stock 
assessment to be imprecise.
    But one message that I think is very important is that even 
with very good data, we are not going to necessarily get it 
right. And there are many examples of that in fisheries 
science. So I think throwing money and collecting more data is 
not going to fix what fundamentally is a problem of allocation 
and too many fishermen chasing a limited number of fish.
    Senator Snowe. Dr. Fujita, would you care to comment?
    Dr. Fujita. Sure, thank you, Madam Chair.
    Money is going to help, but it needs to be well spent. And 
certainly research out here on the west coast has been grossly 
mismatched to the research need and the scientific enterprise 
that is required. I think that there are ways to leverage that 
money. If we got more money to spend on research out here, we 
could leverage it in many ways. One is through cooperative 
research with fishermen, using fishing vessels as research 
platforms. I think that the NMFS science team out here is 
making great strides in opening that field up. And I think 
fishermen are enthusiastic about that.
    So it does two things. It puts a lot more eyes and ears out 
there on the water collecting data in a scientifically credible 
way. And it also increases the credibility of the science I 
think, because the fishermen themselves are engaged in 
cooperative factfinding.
    Another way to do it is to engage academic scientists and 
the graduate students and post-docs more effectively. Being a 
former graduate student, I know that is an extremely cost-
effective way to do research. It may violate some slave labor 
laws, but it is a good way to get science done cheaply.
    [Laughter.]
    And, third, I think that there has been a lot of emphasis 
on data acquisition here. I do not think that is the only 
answer, to do surveys all over the place with a big vessel that 
cannot even sample rock piles where the rockfish live because 
the net snags. That is not the most effective way to do 
research. It will help, but it is not the only way to do it. 
And submersibles are, I think, a smart way to go.
    Also there are some theoretical problems in the basic 
theory of marine ecology and how fish work that remain 
mysterious. I think things like the National Center for 
Ecological Analysis and Synthesis that the National Science 
Foundation is funding are really important. Those issues may 
seem far removed from our problems here, but one of the reasons 
why we got into this mess is that we did not understand the 
basic mechanisms that produce fish and how they interact with 
each other. We did not know enough about the life histories of 
these things. Those are basic scientific questions, and if we 
do not start to answer them, we are just going to perpetuate 
this problem.
    Senator Snowe. Thank you.
    Senator Gorton.
    Senator Gorton. Dr. Sampson, I have a variant on one of 
Senator Snowe's questions with respect to stock assessments. 
And you say, and I think I am quoting from your testimony, 
``the harvest quota system that has developed as a result of 
the 1996 Sustainable Fisheries Act is unrealistically 
complicated given the level of accuracy that we can reasonably 
expect from stock assessments, and that we need to develop 
fishery control systems that have simple data requirements and 
to deal with data errors.''
    Now, is that advice to us to amend the Act or advice to 
fisheries Councils to change the way in which they do business? 
With the three Senators here having to change the Act, do you 
have a specific change in the Act that you would recommend in 
order to reach that goal that you outlined?
    Dr. Sampson. I think my comment there was specifically 
directed at the guidelines produced by the National Marine 
Fisheries Service with regard to the 1996 amendment. And their 
interpretation of what is required for controlling harvest is 
what I was complaining about. I think it has very unrealistic 
expectations about what we can and cannot say about the size of 
fish stocks.
    Senator Gorton. Well, then, unless you think, I think 
rather unrealistically, that the National Marine Fisheries 
Service is going to listen to you, would you have a specific 
recommendation to us in the way we instruct the National Marine 
Fisheries Service in the statute in order to reach that goal?
    Dr. Sampson. I am afraid I do not have a good answer. I 
think the original SFA was probably appropriate in general, but 
it was interpreted very narrowly. And I think that is what has 
caused some problems.
    Senator Gorton. Well, personally, I think you are probably 
onto something. If you would think seriously about what we 
might go through in the next few months to help you reach that 
goal and communicate those thoughts with us, it may be of real 
help. Otherwise, this is rather purely academic.
    Mr. Sam Anderson, for you and for this new and rather 
sudden and unexpected set of challenges, let me sort out some 
of the concerns that you have. Rank in order, if you will, or 
give me a couple of brief comments on it. Do you think too much 
water has been defined as essential fish habitat or are you 
primarily concerned with the effect of that broad designation 
on activities on land? That is number one.
    Just the designation, should the geographical designations 
be much smaller than they are on the map that you showed us 
there? Or is your primary concern with what the consequences of 
the designation are? And is it your feeling that the National 
Marine Fisheries Service is demanding too much and, therefore, 
is going to have an adverse impact on the way in which you 
create housing or any other kind of human development?
    Mr. Sam Anderson. It is actually both. The first one, what 
concerns us is they have so broadened the term ``essential'' as 
to be almost all. Anything that is relevant or significant in 
the ecosystem as it relates to salmon, we are going to call it 
essential. So we have just wrapped our arms around everything. 
That is why you see all of these counties in just about every 
watershed west of the Cascades is now defined as essential 
habitat, or anything that may affect the essential habitat. So 
they brought all of that in. They cast a--pardon the pun--but a 
fairly wide net, and just hauled in everything they could as 
essential.
    Why that bothers us is that now, all of a sudden, we have 
this superimposed Federal overlay of a consultation process. 
And frankly, from our perspective, if it is anything like the 
Section 7 consultation processes that are going on now--now, 
granted, there is a difference in the ESA--but they cannot 
process anything. The National Marine Fisheries Service in this 
region has a very difficult time consulting with anyone.
    They do not have the people to do it, to get road projects 
out now in the Puget Sound, King County, for example, and 
Washington Department of Transportation have had to give them 
bodies to get through this. So just to work your way through 
the mechanisms of a consultation, a required and mandated 
consultation process around here, in the context of the 
Endangered Species Act is extremely difficult.
    If you expand this now, sort of, not quite voluntary, 
mandated consultation and you hang up our permits until somehow 
NMFS gets through it, talks to the agency, has a right to 
respond, comes back, makes more recommendations, our feeling is 
that we are going to be waiting a long time to get some of 
these permits back.
    Senator Gorton. It does sound to me like it is the second 
rather than the first. I take it the broad designation of 
habitat, along the recommendations of Dr. Fujita, that it would 
be an entire ecosystem thing, would be less burdensome if the 
mandates were fewer and it were a more truly voluntary 
consultation?
    Mr. Sam Anderson. I think that is true, Senator.
    Senator Gorton. And if great deference were given to the 
traditional land use authorities and their decisions?
    Mr. Sam Anderson. That is true, yes.
    Senator Gorton. Do you think there are going to be many 
consultations, the way they are setting it up now, required 
under the endangered fisheries habitat that are not required 
under the Endangered Species Act?
    Mr. Sam Anderson. Yes. Because they have covered all 
salmon, not just listed.
    Senator Gorton. So it is not pure duplication; they are 
going to be just a lot more?
    Mr. Sam Anderson. Yes, I believe that.
    Senator Gorton. Thank you.
    Thank you, Madam Chair.
    Senator Snowe. Thank you.
    Senator Stevens.
    Senator Stevens. I am concerned, Mr. Anderson, about the 
interaction of the coastal zone management concept, the 
National Environmental Protection Act and the Endangered 
Species Act and now the essential fish habitat. It does seem to 
me that there ought to be some jurisdictional difference there. 
NEPA requires a review for all significant Federal actions. And 
the coastal zone management is really designed to give the 
coastal communities tools to use in planning, as far as land 
development was concerned, in order to protect the coastal 
zone, which was in effect to protect the resources of the 
oceans.
    I do not know how to get a hold of this, but it does seem 
to me that we ought to find some way to determine who is in 
charge of the shop now. Ms. Dalton mentioned that there is 
going to be one-stop shopping. But when I want a screwdriver, I 
do not go to a supermarket. And really, when I want some fresh 
orange juice, I do not go to a hardware store.
    I really think we have got to define this down somewhere 
and decide who is in charge, and stop this redundant 
consultation concept that is going to be very expensive for 
these Federal agencies. And as I said in Anchorage, I think we 
are going to be spending money in consultations that we ought 
to be spending to protect resources. So I think you have got a 
point. But I do not know how we are going to get to it. And it 
is another reason why some of these people who say, tell us by 
April that you are going to pass this bill by October, had 
better get busy. Because if your association is opposed to this 
bill, it is not going to pass by October.
    Thank you.
    Senator Snowe. On that positive note, we thank you very 
much.
    Now the final segment of this hearing is known as the open 
microphone session. If anybody desires to make a comment with 
respect to the issues that were discussed here today, you can 
sign up with Senator Gorton's staff if you have not done so 
already.
    Senator Gorton's staff is going to read off the names. We 
will allow two minutes each for the 15 people who have signed 
up. We will begin.
    Mr. Schroeter. The first speaker is Jan Standaert. And 
then, next up is Jude Henzler.

   STATEMENT OF JAN STANDAERT, CREWMAN AND SKIPPER, DEEP SEA 
                       FISHERMEN'S UNION

    Mr. Standaert. Hello. Thank you for coming and inviting us 
to testify. My name is Jan Standaert. I am with the Deep Sea 
Fishermen's Union. I have been a crewman and a skipper over the 
last 25 years. I have not owned a vessel. The whole time has 
been spent on the deck.
    I would like to say thanks again for inviting us. And I 
agree with all of what Tim Henkel said. For years now, the 
crewmen has been considered ancillary to the operation. And 
with the passage of IFQ's, we have even, as Tim suggested, 
become more ancillary.
    One problem I have is that in the decisionmaking of the 
Council process, crewmen have not been considered as being part 
of the decisionmaking. I can recall a number of boat owners who 
have been on the Council, but not one crewmen has been 
considered to be a part of the Council.
    I think that in the near future it will be imperative that 
crewmen be used in the consideration, since in Alaska, for 
example, in the future, most of the quota I believe will be 
owned by crewmen, at least under the current rules. And current 
rules are where a corporation cannot own second-generation 
IFQ's and the owner of IFQ's has to be aboard a vessel. I 
believe that most of the IFQ's will be in the ownership of 
labor. And I think they need to be on the Council in order to 
make those important decisions that will affect them.
    That brings me to defend the crewmen in view of 
corporations wanting to come in and own IFQ's. During the early 
days of figuring out IFQ's in Alaska, crewmen got together and 
were very emphatic about the corporations cannot own IFQ's, the 
major reason being that we will be competing with big money. 
And that is very difficult for a lot of us crewmen.
    I see the red light is on, so thank you.
    Senator Snowe. Thank you very much.
    Mr. Schroeter. And then Jude Henzler, and then next up 
would be Paul MacGregor.
    Mr. MacGregor. I am going to pass.
    Mr. Schroeter. Okay. Then Laura Deach.

   STATEMENT OF JUDE HENZLER, EXECUTIVE DIRECTOR, BERING SEA 
                    FISHERMEN'S ASSOCIATION

    Mr. Henzler. Thank you, Madam Chairman. My name is Jude 
Henzler, and I am the Executive Director of the nonprofit 
corporation Bering Sea Fishermen's Association. Our main 
membership consists of small boat fishermen and women, 
principally Alaska Natives from the Arctic and Yukon and 
Koskoquin River regions of Alaska. Our office is located in 
Anchorage, Alaska.
    I should stop and explain that my oldest daughter is a 
firefighter for the City of San Jose, and I am obliged to wear 
this jacket. I just came from a visit with her.
    I wanted to talk to you today about the two things 
regarding data acquisition in congressionally sponsored fishery 
programs. The first thing is to inform you of one of the things 
that we are doing with some special congressional funding at 
BSFA. We think it is valuable and we want to make sure you are 
aware of it.
    Congress last reauthorized the Magnuson-Stevens Act in 
September 1996, and included in that reauthorization the 
adoption of the Western Alaska CDQ program, and at the same 
time mandated a review and evaluation of that unique Alaska 
program by the National Academy of Sciences. The Academy 
accomplished this task last year, and its members concluded in 
its report:
    ``More than any previous welfare or development initiative, 
more even than the Native corporations, the CDQ program seems 
to offer a viable way for local people to gain control over the 
means by which they are articulated to the larger economy and 
society.''
    I point to the fact that in the above quote, the Academy 
members say these fine things about the CDQ program, but at the 
same time use the flaccid verb ``seems'' to deliver the good 
news. What else could they do, though, for there are no hard 
data to support the evidence of their eyes and their 
experience, which instruct them that the CDQ program really is 
a good thing?
    I will cut to the chase here with the red light. Our 
funding is going to end in August. I just hope that you realize 
that a data base which we have established and started is the 
only way you are really going to be measuring whether the CDQ 
program is working. I do not know who would continue that work. 
I would hope it is us, but we do not have the funding. I hope 
that you will hear the good word and I will start an itch and 
you will figure out some way to scratch it.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Schroeter. Laura Deach, and then Mark Powell.

                   STATEMENT OF LAURA DEACH, 
                      WEST COAST LONGLINER

    Ms. Deach. Madam Chairman, my name is Laura Deach, and I 
longline off the Washington coast with my husband, primarily in 
the sablefish fisheries. I have sat on the Pacific Fishery 
Management Council individual quota, the three tier and the 
buyback committees. I am one of the 26 percent of the fixed-
gear sablefish fleet off this coast that is supposed to be able 
to catch their quota every year. And I despise the derbies that 
I have had to suffer through for nine years.
    I believe that the number one problem on this coast is 
overcapitalization and the management tools that have been 
used, including gear restrictions, time closures, license 
limitation or limited entry, buyback programs, and trip limits. 
They either lack the capacity to reduce overcapitalization or 
they have failed.
    I believe that individual quotas can get to the problem of 
overcapitalization by allowing one fisherman to purchase 
another fisherman out. As such, it is a personal buyback 
program.
    Mr. Stevens, I would dearly love to pay for my fishery if I 
had a fishery anymore. But I do not, basically. We are reduced 
to catching about one-sixth of what we caught 10 years ago. In 
1991, I and several other people requested from the Pacific 
Council an individual quota program that has never been allowed 
to be enacted.
    I wonder where the concern is for the windfall profit of 
limited entry programs. The initial windfall was generated when 
they gave licenses on this coast. Senator Snowe, I appreciate 
your concern for the economic disaster that has fallen on the 
west coast, but I think you people totally lack sometimes the 
emotional or mental disaster that is also created. I loved my 
fishery. I loved fishing. And I mourn it now like a dead lover.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Schroeter. Mark Powell, and then Mark Lundsten.

          STATEMENT OF MARK POWELL, MARINE BIOLOGIST, 
                 CENTER FOR MARINE CONSERVATION

    Mr. Powell. Thank you, Madam Chair, Senators, staff, and 
panel members. My name is Mark Powell. I am a marine biologist, 
and I represent the Center for Marine Conservation. We support 
the reauthorization goals of the Marine Fish Conservation 
Network. A strong and effective Magnuson-Stevens Act will 
rebuild depleted fish populations and rebuild depressed 
fisheries.
    It took a long time to reach the state we are in, with fish 
and fishers hurting. It will take some time to get to recovery. 
While dislocation of fishers is a serious problem that deserves 
a response, continued overfishing of depleted stocks is not 
that viable response.
    The key elements of a strong Act are reducing overfishing, 
reducing bycatch and reducing the habitat damage caused by 
fishing. Regarding damage to fish habitat caused by fishing, 
this is an important part of the Act that has not been well 
implemented. Almost nothing has been done to reduce habitat 
damage caused by fishing gear, such as destruction of bottom 
habitats by trawling and other gear. Scientific studies have 
shown the value of structure as cover for young fish.
    Habitat damage may be a partial cause of observed core 
survival of young fish, a problem usually blamed on natural 
conditions. This issue is best addressed through the creation 
of no-take marine reserves, which would allow habitat recovery 
in some areas. Reserves would be good for fish and would 
provide unimpacted areas for study.
    Regarding the lack of data, the ocean is variable and is 
hard to study. It is unlikely we will ever be able to acquire 
detailed knowledge of all the elements in current models. We 
need to focus on scientific principles that we do understand. 
We need to establish protected areas to provide safe havens, 
where fish are unimpacted by overfishing and habitat damage. 
Then fish can survive natural fluctuations that they have for 
millions of years and we will have a better opportunity to 
understand which exactly are the human impacts.
    Thank you.
    Senator Snowe. Thank you.
    Next.
    Mr. Schroeter. Mark Lundsten, and then Stephen Taufen.

   STATEMENT OF MARK LUNDSTEN, OWNER-OPERATOR OF AN ALASKAN 
                           LONGLINER

    Mr. Lundsten. My name is Mark Lundsten. I own and operate a 
70-foot longliner in Alaska and off the coast and I fish for a 
living on my boat. I am an original recipient of an original 
allocation of black cod and sablefish and halibut IFQ's.
    I would like to make a point about the fees and about 
consolidation. First, about the fees, I think that, like our 
fishery, other fisheries should support themselves, should be 
self-sustaining. IFQ's raise the value of our resource to such 
a level that the increase in funds to the U.S. Treasury just 
from income taxes from fishermen and so on more than offset the 
cost of the program by many times. Now we also have a 3 percent 
fee which will more than cover our fees. And it is also funding 
a program for loans to small operators and crew members which 
has been spoken of quite a bit.
    So I would suggest that to fill the lack of money for 
scientific surveys and so on, you charge everyone a 3 percent 
fee across the board, across the Nation, for all fisheries that 
can afford it, that are not distressed. When you do that, you 
will have an investment of the users into the science and it 
will promote interaction between the scientists and the fleet, 
which is probably the main impediment to good science these 
days, especially, as I hear it, on the west coast and in New 
England.
    The other point I would like to make is just about 
consolidation. You have heard a lot about overcapacity. We 
suffered from it horribly in Alaska. The way you solve 
overcapacity is you reduce capacity. When you reduce capacity, 
you, of necessity, consolidate. We have done that. Not doing 
that is the true path to marginalization and poverty among 
fishermen.
    If you have a child who is going fishing, you would rather 
have them on a boat that is not one of those marginalized, 
impoverished boats. You want them to go out, especially in the 
Gulf of Alaska or the Bering Sea, on a boat that is well-
maintained, well taken care of, with good safety procedures and 
all the equipment it needs to be safe at sea. That is what you 
get when you get a reasonably consolidated fishery.
    There is only so much product in the ocean you can take out 
and process and make money on. And if you try to spread that 
out too thin, it is not going to work. That fish can only 
support so many reasonable jobs.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Schroeter. Stephen Taufen, Edward Paulsen.

                 STATEMENT OF STEPHEN TAUFEN, 
                 GROUNDSWELL FISHERIES MOVEMENT

    Mr. Taufen. I gave the clerk the two-page item for you.
    Madam Chair and fellow taxpayer-paid Senators, my name is 
Stephen Taufen, of the Groundswell Fisheries Movement. Let us 
cut to the real chase. The most important issue listed in the 
Congressional Research Service report on the reauthorization of 
the Magnuson-Stevens Act is transfer pricing, the tax cheating 
by foreign-controlled corporations in the United States 
fisheries of the North Pacific.
    In 1993, in self-defense, I became a Federal whistleblower 
at the Internal Revenue Service on this issue. By 1997, the 
International Branch, in Seattle, had formed a seafood 
specialty group to delve further into this problem. During 1997 
through 1999, I have lobbied the North Pacific Council, its 
advisory and scientific panels on these issues. Many of you are 
familiar with my writing in the industry press.
    Senator Gorton, as a Washington State representative, 
please note there is also a Board of Accounting case still 
pending here, where CPA's could be looked at further for their 
role as certified public accomplices.
    You wonder how you are going to pay for fisheries 
management and research costs and disaster assistance. Well, I 
say enforce the tax laws against foreign-controlled 
corporations. The IRS cannot do it alone. In 1979, abusive 
transfer pricing was predicted in a Pacific Rim study on 
fisheries investment to become the largest problem. For over 
two decades, we have seen the abuse of creative accounting by 
foreign-controlled corporations in the North Pacific. In 1992, 
President Clinton ran for office on this issue of over-invoiced 
imports and under-invoiced exports. In 1993, the House Ways and 
Means Committee on Tax Oversight, known as the Pickle 
Commission, dealt with it.
    The General Accounting Office has produced several reports, 
95-101 and 99-39. Overcapitalization is relative to the dollars 
returned. We have not Americanized this fishery until we have 
effectively dealt with the second-tier legislation on the 
economic issues and looked at abusive transfer pricing and the 
problems of foreign ownership and what it has meant in this 
fishery.
    Madam Chair, please see that this issue is adequately 
covered and that effective action is taken.
    Thank you.
    [The prepared statement of Mr. Taufen follows:]

  Prepared Statement of Stephen Taufen, Groundswell Fisheries Movement
    The Congressional Research Service report #RL30215 on ``The 
Magnuson-Stevens Fishery Conservation and Management Act: 
Reauthorization Issues for the 106th Congress'' includes the issue of 
(ABUSIVE) TRANSFER PRICING.

[Excerpt from Draft Version, believed to be on page 34 in final draft.]

Transfer Pricing
    ``Commercial fishing interests are concerned about transfer 
pricing, especially in North Pacific fisheries. This is not currently 
addressed in the MSFCMA. `Transfer price' is the price charged by one 
company to a related company, when they allocate income and expenses 
among themselves. These `intrafirm transfers' are covered under IRS tax 
code section 482. Some U.S. fishing companies allegedly are not 
properly reflecting income attributable to their operations within the 
United States, while some foreign parent companies may be using pricing 
strategies to avoid higher U.S. taxes. In addressing `abusive' transfer 
pricing, Congress could consider amending the MSFCMA to require full 
disclosure of all financial documents and transfer pricing criteria to 
U.S. authorities.''

    Groundswell believes that Congress should enact specific 
legislation in the Magnuson-Stevens Fishery Act Reauthorization bill to 
enable increased ``Accountability and Transparency'' on this issue.

        <bullet> Fund a new review of the effects of FOREIGN OWNERSHIP 
        and its extended problems, including WHO NOW OWNS WHAT 
        COMPANIES AND VESSELS (including closely-held shoreside 
        vessels), TRANSFER PRICING ABUSES, ANTITRUST CONSIDERATIONS in 
        the US seafood industry, specifically in North Pacific 
        Fisheries.
        <bullet> Request/fund a GENERAL ACCOUNTING OFFICE (GAO) REVIEW 
        OF ABUSIVE TRANSFER PRICING in Fisheries of the North Pacific, 
        and of CONFLICTS OF INTEREST on National Fishery Councils.
        <bullet> Legislate document and other accessibility clauses 
        that allow the Council and others to find out what has been 
        going on with Foreign-Controlled Corporations and their true 
        level of profitability, i.e. increase ``accountability and 
        transparency''.

Background:
    Transfer Prices--controlled exchange prices between related 
affiliates whenever they allocate income and expenses among themselves, 
often in international transactions--are different than Arm's Length 
Prices. The latter are what the price would have been if the sales or 
services were between unrelated parties which literally stand ``at 
arm's length'' from each other. The latter are often known as 
``comparable, uncontrolled prices'' (CUP).
    In the North Pacific seafood industry, one of the major problems 
has been widespread abuse of IRS tax codes (e.g. Sec. 482 on Transfer 
Pricing, Sec. 263A on capitalized costs, and Sec. 451-454 on 
inventories, etc.), primarily by foreign-controlled corporations (FCC). 
In large part, this has been by shoreside, Japanese-corporately-owned 
fishing subsidiaries and their overseas parent firms. These 
transnational firms do not operate in a ``free trade'' environment. 
Rather, they are insulated from open market forces by their economic 
structures, akin to bureacratic enterprises such as state trading 
enterprises, which can avoid arm's length prices altogether, or can 
exercise monopolistic powers.
    Abusive transfer pricing, or ``over-invoiced imports and under-
invoiced exports'', (also known as ``product laundering'') accounts for 
an estimated direct economic loss of over $200 million each year in 
North Pacific fisheries. It dovetails with the problems of antitrust 
(restraint of trade and price-fixing). For pollock alone, the effect in 
one decade, when including economic multiplier effects, was to take 
over $2.15 billion away from US fishers and their communities and 
suppliers, and tax coffers.
    It is imperative that Congress considers its effects within 
legislation specifically addressing the industry-segment of fisheries. 
(President Reagan asked Michael Porter of Harvard to address issues of 
National Competitiveness and Porter concluded that it is within the 
industry segment that competition is won. Certain nations become the 
hosts for firms that dominate industries.)
    The Groundswell Fisheries Movement has lobbied to present these 
concerns as part of the Reauthorization issues. This follows up on 
efforts before the North Pacific Fisheries Management Council over the 
past three years concerning pollock allocations and other issues. The 
industry Advisory Panel voted in April of 1998 on this issue, advising 
the Council to consider its effects on markets and grounds prices etc.
    The Council has been torn by conflicts-of-interest which include 
foreign ``agents of influence'' and has failed to take an adequate look 
at this problem and the extended concerns in the antitrust arena.
    Additional information can be obtained by contacting me through the 
Internet by e-mailing <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8abacb9adbebdb698abbdb9b6bdacf6bbb7b5f6">[email&#160;protected]</a> In addition, I have a paper 
on ``WTO and Fisheries: An Issue of `Accountability and Transparency' 
'' posted at the www.wtowatch.org site, under the Documents tab, under 
issues such as Agriculture or Business and Industry. It is from a panel 
presentation at the University of Washington's School of Marine Affairs 
in October of 1998.

    Senator Snowe. Thank you.
    Mr. Schroeter. Edward Paulsen, and then Chris Doumit.

                 STATEMENT OF EDWARD PAULSEN, 
                       PAULSEN FISHERIES

    Mr. Paulsen. My name is Edward Paulsen, and I represent 
three Bering Sea crab fishing vessels and have fished on these 
vessels.
    The crab industry is now facing an economic disaster, and 
it is likely that a third to half of the vessels involved in 
the Bering Sea crab fisheries will not be able to stay in 
business over the next few years. And there is no relief in 
sight for the industry. There is simply too much capacity.
    I support both John Yanni's comments and Arnie Thompson's 
comments, whom you heard from yesterday in Anchorage regarding 
buybacks. I recently graduated from the School of Marine 
Affairs at the University of Washington, and finished a thesis 
on the feasibility of buybacks for the crab industry. I found 
that a $60 million buyback, which at that time could have been 
industry funded because the industry had not collapsed yet, but 
a $60 million buyback was possible and was beneficial for the 
industry. At this point, it seems like a minimum of $60 million 
is necessary, and it is unlikely that the industry itself can 
support such a buyback, at least in the near term, over the 
next few years.
    However, the greatest priority for the crab industry is an 
individual quota-based system, such as co-ops or ITQ's. 
Individual quotas are necessary in the crab industry for two 
reasons, for both safety and conservation reasons.
    I see the red light.
    Senator Snowe. Are you finished?
    Mr. Paulsen. I wanted to also say we have heard a lot about 
the safety reasons of ITQ's or co-ops. But there is a big 
conservation reason for co-ops in the crab industry, because it 
slows the race for fish down and it allows the fishing gear to 
actually do its job and minimize bycatch. That is the one 
industry where you really can minimize bycatch by slowing the 
fishery down.
    Senator Snowe. Thank you.
    Mr. Schroeter. Chris Doumit, and then Todd Hiner.

STATEMENT OF CHRIS DOUMIT, WASHINGTON COAST CRAB FISHERMAN AND 
 COMMISSIONER, COLUMBIA RIVER CRAB FISHERMEN'S ASSOCIATION, ON 
                BEHALF OF CHAIRMAN DALE BEASLEY

    Mr. Doumit. Madam Chair and Committee, my name is Chris 
Doumit. I am a Washington Coast crab fisherman and a 
Commissioner with the Columbia River Crab Fishermen's 
Association. I also gill net in Bristol Bay, Alaska, and we 
tender in Bristol Bay, Alaska, as well as the South Peninsula.
    I am here today basically as a courier for our 
chairman<plus-minus> of the Columbia River Crab Fishermen's 
Association, Dale Beaseley, and he has got a written 
commentary. I am not going to read his comments, although I 
agree with it. It is on sound science and data collection that 
was covered earlier.
    I just want to make sure it is part of the record.
    Senator Snowe. It will be included as part of the record.
    [The prepared statement of Mr. Beaseley follows:]

Prepared Statement of Dale Beaseley, Commissioner, Columbia River Crab 
                        Fishermen's Association

    My name is Dale Beasley. I am commissioner of the Columbia River 
Crab Fisherman's Association (CRCFA) thirty-five year commercial 
fisherman, and strong advocate for a healthy marine environment. Thank 
you for the opportunity to appear before you today and welcome to 
Seattle, Washington.
    My testimony today will address four issues of the Act: l)sound 
science, 2) Essential Fish Habitat, 3)cumulative effects on mans' 
intervention into the ocean, and 4) extended state management 
jurisdiction of the Dungeness crab fishery off Washington, Oregon, and 
California.

Sound Science
    The Act recognizes that collection of reliable data is essential to 
the effective conservation, management and scientific understanding of 
the fishery resources of the United States, however, this is the 
biggest challenge facing the Councils, NMFS, and the states. Developing 
measures to eliminate over-fishing is relatively easy. Determining 
whether a fish stock is overfished or if over-fishing is occurring is 
not so easy. Many years of data are required to adequately determine 
the status of a fish stock and to evaluate the effects of management 
measures. Although data collection efforts over the years have improved 
through state and federal cooperation and fisherman involvement we are 
far from where we should be. The Act specifies that conservation and 
management measures shall be based on ``the best scientific information 
available''. Although this may appear to he a high standard, in 
practice is difficult if not impossible to achieve. Standards of data 
collection need to be developed that adequately protect marine habitat 
and resources from anthropogenic adverse invasive impacts. The greatest 
threat to our ocean resources is our own ignorance.
    A good example of recent failure in data collection for protection 
of habitat is in the new deep water dredge disposal site at the Mouth 
of the Columbia River. The final environmental impact statement related 
to this site does not require any biological monitoring until 50% of 
the site is buried by several feet of sediment in a two year time 
frame. Do to the excessive size of the site and the projected 
quantities of dredge material anticipated for the site, biological 
monitoring will never be required. Precious, unique, and irreplaceable 
aquatic environment will be irreparably damaged and removed from 
commercial production without quantification of losses for mitigation. 
Ocean sediment disposal sterilizes the marine environment for 
commercial production, Without this important data collection, 
mitigation of ecosystem losses is impossible.
    Attitudes about our marine environment have to change, becoming 
more protective. For fishermen to successfully contribute to coastal 
economies, preservation of habitat is essential. I would like to quote 
a response the US Army Corps of Engineers made to a comment letter sent 
in on the Draft EIS found in the FEIS (Final Environmental Impact 
Statement), Volume II: Draft EIS Comments and Responses, Integrated 
Feasibility Report for Channel Improvements and Environmental Impact 
Statement, Columbia & Lower Willamette River Federal Navigation 
Channel, page 18 of the Paul King letter, ``The Corps has no legal 
obligation under NEPA to ensure the scientific integrity of its 
studies,'' further stating, ``The Corps is entitled to rely upon its 
own experts' studies and under no circumstances need it affirmatively 
defend those studies scientific integrity'', and if this were not 
enough the Corps went on to say ,``Even if the comments had produced 
some evidence that the Corps' experts lack proper qualifications or 
relied upon flawed scientific methods that evidence would not discredit 
or otherwise render the Corps' studies or its EIS legally inadequate.'' 
This attitude needs fixing, now. The Congress can do the fix by 
disallowing any questionable of shaky scientific informational use in 
making decisions related to ocean resources. Government agencies like 
EPA, US Army Corps of Engineers, and NOAA that make decisions related 
to our oceans must be held to the highest standards of scientific 
integrity possible. If investigations are not done and done properly, 
uninformed decisions will be made that cause resource losses to our 
fisheries. Sound science is a must requirement.

Essential Fish Habitat
    The Columbia River Crab Fisherman's Association is supportive of 
the concepts contained in the 1996 EFH provisions. Proposed habitat 
modifications that may significantly impact essential fish habitat must 
be scrutinized with the value of these habitats in mind. We further 
recommend Our nation's goal should become NO NET LOSS OF HABITAT.
    It has been our experience within the last years that existing 
procedures of review and consultation have generally been ineffective 
off the West Coast. It would seem that the EFH amendment would make the 
importance of preserving fish habitat one of the issues to be taken 
into account in the larger picture of balancing developmental needs 
with environmental needs. At the Mouth of the Columbia River (MCR) no 
official consideration or consultation occurred between NMFS and the US 
Army Corps of Engineers when designating a new deep water ocean dredge 
disposal site in the West Coast's premiere flatfish nursery area at MCR 
in an area designated EFH by the Pacific Fisheries Management Council. 
In our opinion the area should have been designated as an HAPC (Habitat 
Area of Particular Concern). This opinion is based on twelve years 
trawl experience in the area. CRCFA recommended a disposal site several 
miles to the west out of the flatfish nursery area. Dredging economics 
took precedence over natural resource degradation. CRCFA is appalled 
that EFH was not formally considered in the process by NMFS, especially 
in light of the Corps' statements related to scientific integrity of 
its' studies when applied to the deep water site. New ocean disposal 
sites should be mandatory NMFS consultation that result is mitigation 
for lost habitat and natural resources. The old adage of just letting 
the coastal communities pay the debt through lost habitat and resources 
has got to change, NO NET LOSS Of HABITAT OR RESOURCES must become the 
goal.
    Essential Fish Habitat needs more protection from ocean dumping 
than the Corps and EPA are willing to provide. Sediment testing 
standards found in the Dredged Material Evaluation Framework Lower 
Columbia River Management Area produced by Corps and EPA will allow 
sediments to come to the ocean from thirty miles upriver without any 
mandatory contamination testing, citing exclusionary criteria. CRCFA 
would like to see the more stringent guidelines of the NOAA National 
Status and Trends Program applied. Sampling and Analytical Methods of 
the National Status and Trends Program's National Benthic Surveillance 
and Mussel Watch Projects should apply to any new ocean disposal sites. 
In fact the Columbia area should be placed in the program for 
reoccurring national testing. NOAA sampling and analytical methods are 
six times more sensitive in indicating contamination in the sediments 
than EPA's. Considering that the Columbia River is the number one 
ranked river in the entire United States in quantities of carcinogen 
material intentionally released into the river under permit, it is 
extremely questionable why NMFS would not require consultation in prime 
EFH and allow untested sediments complete exclusionary status. Even if 
the sediments were found to be 100% clean and acceptable for ocean 
disposal, EFH will still be irreparably altered and prime habitat 
changed forever by this proposed dumping.
    Essential Fish Habitat should be extended to species not under 
federal management. A good example is Dungeness crab, the highest 
dollar commercial marine species in both Washington and Oregon. This 
species is under state management and must have available EFH 
considerations to fully manage the species throughout its range. 
Degradation of marine habitat without mitigation is totally 
unacceptable. Compensatory mitigation of marine habitat loss has to 
become the standard by which all new invasions into the ocean are 
executed.

Cumulative Effects
    The Act should look closer at cumulative effects of actions taken 
over a period of years. Again I will use the deep water site at the 
Mouth of the Columbia River as example. The recent Environmental Impact 
Statement concludes no unacceptable significant effects on other uses 
of the ocean would occur. CRCFA analysis of the value of habitat to the 
fishery is approximately 122,000 pounds of Dungeness crab per square 
mile per year of area fished. The deep water site's projected use is at 
least fifty years and includes over fourteen square miles. Potential 
loss to the fishery over this time period is estimated at 87,230,000 
pounds of crab alone if the entire site is devalued for the fifty year 
time frame. Even at half that rate, the cumulative impact is highly 
significant and cannot continue to be ignored. Coastal resource 
dependant fishing communities can ill afford to lose this kind of 
positive fishery production. This loss analysis does not include 
entrainment mortality, which could be more significant than disposal 
activity. Cumulative effects need more mandatory attention and must he 
considered as a real cost to the project in determining cost/benefit 
ratios of the overall project. All future WRDA bills must take 
cumulative environmental losses into the cost of doing business. When 
the fisherman pays, the nation pays.

State Jurisdiction
    The 1996 and 1998 amendments to the Act added language to address a 
state's authority to manage Dungeness crab resources outside the 
boundaries of the states to the limits of the EEZ. At this time there 
is no compelling federal need to manage the coastal crab fishery. The 
Pacific Fisheries Management Council is over-burdened with current FMP 
obligations and is not desirous of additional responsibility or 
expense. In fact the Council has on two prior occasions recommended 
continued state management of the Dungeness crab resource. Council 
authority for this extremely valuable fishery is not usurped, it can 
develop an FMP at any time need arises.
    The Washington, Oregon, California Coast is a very large diverse 
area. State management of the Dungeness crab resource has a long, 
successful, cooperative, effective management history which offers 
strong conservation measures and maximum sustainable yield. Dungeness 
crab is the only successful West Coast fishery that can harvest at 
maximum sustainable yield with certainty and guarantee the future of 
the resource Basic regulation is the 3-S [size, sex, season]. Other 
conservation measures include escape rings for undersized crab and 
biodegradable link to prevent ghost fishing of lost gear. Bi-catch 
mortality associated with other fisheries is not a problem. Limited 
entry is in place in all three states. Other effort reduction is in the 
early stages of development with an interim pot limit in Washington and 
talks of effort reduction in Oregon and California. Over-capitalization 
is starting to be addressed.
    Fishermen in all three states still overwhelming support continuing 
the Dungeness crab provision in the Magnuson-Stevens Act. State 
managers should be able to use all the states laws to manage the 
fisheries. The one area that could use stronger and more direct 
language for protection and preservation of Dungeness crab is habitat 
protection. Without habitat protection, the crab fishery is only 
partially managed. Extension of EFH provisions or extending state 
habitat protection without question to state managers of the crab 
resource will further provide additional conservation protection to a 
very valuable resource.
    Indian nation treaty obligations are being met because of the Act's 
management authority.
    Management of the resource throughout it's range can he 
accomplished while accommodating regional variation, It is far easier 
and economical for stakeholders to interact with state agencies and 
commissions than commute to Washington D.C. On a state by state basis 
what seems important locally will not get lost in a much larger federal 
bureaucracy. Micromanagement is much easier to accomplish at the state 
level. Interstate agreements are achievable and in place for variation 
in soft-shelled season openings. Federal management of the Dungeness 
crab resource will not improve economic returns to the fishery or the 
nation.
    Pacific States Marine Fisheries Commission has acted as a moderator 
and consolidator of coastal management in aiding formulation of limited 
entry in all three states. These entry requirements have recently been 
successful in protecting coastal fishing community structure.
    There are no conflicts between the states which require federal 
management of the fishery. Boundaries between the states are well 
defined and not in dispute.
    The crab fishermen in the coastal slates are supportive of 
reauthorization of state management of the Dungeness crab resource. 
Habitat protection for crab and other state managed species, needs 
attention.
    Thank you for the opportunity to comment in a regional setting The 
Columbia River Crab Fisherman's Association is grateful that you chose 
Seattle for one of your national hearing sites. We hope you come back.

    Senator Snowe. Thank you.
    Mr. Schroeter. Todd Hiner, and then Wade Bassi.

  STATEMENT OF TODD HINER, KODIAK, ALASKAN CRAB FISHERMAN AND 
                         OWNER-OPERATOR

    Mr. Hiner. Madam Chair, I am Todd Hiner. I have just flown 
in from Kodiak. We tried to make the Anchorage meeting, but 
with such short notice over there, we flew down to Seattle 
here.
    I was born and raised in Alaska. I am an owner-operator of 
a crab fishing vessel. I am very concerned about how fast the 
push for co-ops is in my fishery. I have been crab fishing for 
37 years. I have owned and operated a boat for the past 25 
years. My dad pioneered crab fishing in Alaska. We have over 45 
years of experience in this fishery.
    IFQ's were pushed through our community with high 
opposition to it. I see the same push going for co-ops that are 
not proven. I speak for a lot of fishermen who never have liked 
politics. I am very nervous about this process. There are so 
many hidden agendas. The independent fishermen's voices need to 
be heard. We are the ones who made this fishing industry. We 
have been in it for the long haul. Please let us be a part of 
this decision process. Let our voices be heard.
    Please do not take the free enterprise and competitive 
spirit out of fishing. It has worked for us for over 40 years. 
Leave it alone. I have made a good living and am raising five 
children who want to fish. Every fishery has its ups and downs. 
Please do not take drastic measures on ours.
    We are Alaskans that have let boats come in from all around 
the country to fish our waters. Now a lot of boats in and out 
of our State have built big track records. How can we give away 
a resource like IFQ's or co-ops to people and companies? How 
can you justifiably give someone a resource for the rest of 
their life? I do not want a retirement program. We want a 
license and a right to fish. It is easy and it works.
    Do not force the small boat operators, owners and crews out 
of a business with co-ops and IFQ's. That is pretty much it. 
Thank you.
    Senator Snowe. Thank you. Thank you for coming down.
    Mr. Schroeter. Wade Bassi, and then Bart Madison.

            STATEMENT OF WADE BASSI, OWNER-OPERATOR 
                     FISHING VESSEL POLARIS

    Mr. Bassi. My name is Wade Bassi. I am owner-operator of 
the fishing vessel Polaris. And we are currently involved in 
the sablefish/halibut fishery in Alaska.
    Over the past years that we have been involved, I have 
noticed a lot of changes. We have been much safer. There has 
not been the big rush for fish. And we have been able to 
harvest our fish not easier but a lot more--how do you say it--
we have gotten more fish than--we have not wasted the fishery 
like we used to waste it, where it was a big rush for fish.
    I would like to have this available for other fisheries 
also. So I would like to have the Councils be allowed to use 
this as an option. I think that they should have all their 
options available to make it the most efficient fishery and 
also the best for the fishermen that are involved in it.
    I would like to also see that the Councils, the individual 
Councils in the region, which are most familiar with the 
regions and the way that the fishery is operated, be allowed to 
make the decisions on how the different options could be put 
into the management system. It is imperative that the industry 
itself also be greatly involved in the decisionmaking, because 
we are the ones who are affected most by it.
    I feel that the way the Council system is run now, me as a 
fisherman in the industry myself, I cannot take the time to go 
to all these meetings and get my input. And when you attend 
these meetings, there is a lot of--they jump around from one 
thing to the other and you never know when your particular 
issue is going to come up. I would like to see fishermen and 
the industry itself more involved in these decisions.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Schroeter. Bart Madison, and then Arnie Lee.

  STATEMENT OF BART MADISON, TACOMA, WASHINGTON, RECREATIONAL 
                           FISHERMAN

    Mr. Madison. Senator Snowe, members of the Committee, my 
name is Bart Madison. I am a recreational fisherman from 
Tacoma, Washington. And I would like to speak to you today 
about conflict of interest rules that exist in the existing 
legislation, and perhaps a need for some help.
    First of all, I would like to congratulate Senator Gorton, 
yourself and Senator Stevens for the effort that you put into 
implementing these conflict of interest and reclusion rules 
which had never been in the Act before as far as I understand. 
In your opening remarks in Maine, Senator Snowe, you said: 
``Today we will be hearing testimony about breakdowns in the 
public process that have led to the adoption of less than 
adequate management measures.''
    One of the testifiers there, Peter Emerson, from the 
Environmental Defense Fund, observed that the fishing industry 
interests dominate the Councils, the public interest should be 
adequately represented, and decisions should be made in the 
public interest. He recommended amending the Act to ensure 
broader representation of public interests and to require the 
Governors to consult with conservationists on their 
appointments.
    In Texas, Wilma Anderson, of the Texas Shrimp Association, 
eloquently described to you how the faulty process in 
management had skewed the rules and the advantages away from 
Texas recreational and commercial fishermen.
    Peter Shelley, Vice President of the Conservation Law 
Foundation in Maine, asked the rhetorical question: ``Is the 
Congress satisfied with the conflict of interest rules that are 
in place?''
    Dr. Fujita just testified about certain decisionmaking 
processes which appear to be flawed.
    I have read the Act, and there is a phrase there which 
bothers me, that I would like for you to look at a little more 
closely. I think it is Section 302(j) paragraph 7, it says:
    ``A Council decision shall be considered to have a 
significant and predictable effect on a financial interest if 
there is a close causal link between the Council decision and 
an expected and substantially disproportionate benefit to the 
financial interests of the affected individual relative to the 
financial interests of other participants''--and here is the 
part that bothers me--``in the same gear type and sector of the 
fishery.''
    Now, I look at that in this manner. In the Network Council, 
for example, if we are all at some point or another in our 
careers involved in the salmon fishery, and the question comes 
to increasing harvest levels on chinook in southeast Alaska, 
why should not we all vote for that? Because we all participate 
in the same gear type and fishery. We might be inclined to do 
that in spite of sound scientific evidence that tells us that 
we should not do it because we are damaging the fishery.
    So I would like for you to take a look at that. And I will 
offer you a draft of this, and then followup with a message.
    Thank you.
    Senator Snowe. Okay, I appreciate that. We will include it 
in the record. Please give it to the Committee.
    Senator Snowe. Mr. Schroeter.
    Mr. Schroeter. Arnie Lee and then John Bruce.

STATEMENT OF ARNIE LEE, COMMERCIAL FISHERMAN AND OWNER-OPERATOR

    Mr. Lee. My name is Arnie Lee. I am a commercial halibut 
fisherman and black cod fisherman. I own my own vessel here.
    I started fishing in 1964 with my father, through the 
present. So I have seen an industry that was slightly 
overcapitalized in 1964 go to an extremely overcapitalized 
system, and then into an IFQ system. And one issue that 
sometimes gets overlooked is the families and the men that work 
on these boats and what happens with the systems that develop 
when they get highly overcapitalized. We went for two or three 
months at a time away from home, because that was just the way 
the seasons were set up and we had to do it.
    And it was tough on the families and the people, and 
especially with families being home and knowing that we are 
pushing things to the limit because there is only so much time 
and so much fish, and we have to get it when it is available. 
So there is stress on the families back home, worrying about 
their husbands, or their wives, if they are out there fishing. 
And it was tough on the kids.
    With the system we have now, we can slow things now if we 
need to. And we all have slowed things down. If we were still 
under open access fisheries, my crew--I have been very 
fortunate, they have been with me for 11 to 24 years, and my 
son is the most recent, in just the last couple of years, but 
the rest of them have been with me a long time, so they are 
family--and I would have to let go some of those people, 
because they would not be as productive. I could not operate in 
that competition system.
    And I remember, as a 17-year-old, when I first started 
fishing, after my second year, I was standing on board with the 
crew of the fishing vessel Tongas, and the crew there was the 
average age of 68. And I thought, as a 17-year-old, how can 
they do that?
    Well, I hope, as I grow older and my crew grows older, I 
can slow it down a little bit so they do not have to be 
displaced in their mid-forties. Because I have friends now who 
are in the crab fishery, and they say, ``I cannot do it any 
more,'' and they are in their forties. And they say, ``I have 
to quit.''
    We have to be concerned about people and families and how 
our management decisions affect them also.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Schroeter. John Bruce, and then Mike Barrow.

                    STATEMENT OF JOHN BRUCE

    Mr. Bruce. Madam Chairman and panel members, thank you for 
being here today.
    You have heard a lot today about IFQ's. And most of it has 
been positive. I fished for 30 years in the Gulf of Alaska and 
the Bering Sea in the small longline fleet out of Seattle. I 
have a son that is up there now. And I am interested in seeing 
this positive program, that has been developed continue on in 
other fisheries.
    We spent 10 years developing that program. We did not do it 
in Washington, D.C. We did it in the region. And we dotted most 
of the i's and crossed the t's. And we did not run to 
Washington, D.C. and ask for a fix, like has been done recently 
in the other groundfish fisheries.
    And the reason that this IFQ program is working so well is 
because it was developed in the region and it was thought out 
clearly. And I find it amazing myself that after a few years 
with this program, we have not had major changes to the 
program. We are doing some fixing, but it is very minor in 
comparison to the huge change in management philosophy with 
IFQ's.
    So I think it is important that we think about what we are 
doing with IFQ's. If the crab fleet would have gotten on the 
bandwagon and piggy-backed with the longline fleet, I doubt 
that we would have the problem today. A lot of those crabbers 
are my friends, and I have fished with them, worked for them 
and with them, and the position that they are in is appalling. 
And had they had the opportunity five years ago to do what we 
did, you would not face the problems that you are facing today 
with that opilio and that crab fleet out west.
    So the IFQ program is working. You have heard lots of 
positive things. And I would like that opportunity extended to 
other fisheries in the U.S.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Schroeter. Mike Barrow, and then Larry Hendricks.

                   STATEMENT OF MIKE BARROW, 
               BRISTOL BAY DRIFT NET ASSOCIATION

    Mr. Barrow. Senator Snowe, members, thank you for the 
opportunity to speak.
    I am here representing the Bristol Bay Drift Net 
Association on the issue of Russian interception of salmon 
stocks. I have worked in both the government sector and in the 
fishing industry over the years with projects and operations in 
Alaska, Canada, Russia, and China. My clients and I believe 
that large quantities of Alaskan and other North American 
salmon are being intercepted at sea by catching efforts 
operating within and near the area of the Russian EEZ 200-mile 
zone.
    The interception is believed to be causing great economic 
losses to the Yukon-Koskoquin and the Bristol Bay fisheries and 
the local and extended economies. The primary document of 
fishery efforts impacting these high sea runs are the Japanese 
factory gill net fleet, who pay large fees to the Russians. 
Additionally, the Russians are gearing up in this area both 
with licensed fisheries and renegade fishery fleet.
    Additionally, it is our understanding currently the 
Russians have no serious monitoring enforcement systems in 
place for this fishery or a comprehensive management plan in 
place. The negative economic impacts on Alaska communities and 
the Alaskan fish industry are very serious. First, millions of 
returning salmon that are unavailable to the fishers and the 
processing industry, as well as the declines in pricing from 
cheap Russian fish that is hitting the market.
    Due to the urgency of the situation and having talked to 
Representative Young on this, he is very concerned about this, 
and urged us to come forward to this Committee to see if we 
could find areas where we could begin to see some relief for 
this area. We understand that long-term solutions will require 
the Russians have in place monitoring and enforcement 
management systems and agreements between Russia and the North 
Americans for protecting the salmon runs.
    Currently there are steps we feel that can be taken in the 
fairly immediate future to start addressing this problem. One 
is to put in place a gill net and trawl survey along the 
Russian maritime border, following the fishing effort. This can 
document the origin of the salmon caught migrating through the 
Russian EEZ.
    Secondly, increase the capabilities and efforts of the U.S. 
Coast Guard to monitor the fishing activities and offloading at 
sea of the fleet in and near the Russian 200-mile EEZ, working 
with the Defense Department, Coast Guard, NASA, and using more 
sophisticated techniques, such as acoustics and satellite 
systems to monitor the activities. It is our understanding 
currently that the Russians do not have the capabilities to 
monitor their own fleet in this area. And if they cannot, we 
should.
    Increase funding and focus from NMFS and the Alaska 
Department of Fish and Game to prioritize this area. Currently, 
out of the $2 million in disaster funds that are being used in 
Bristol Bay and the $6 million for Yukon-Koskoquin, no monies 
are being used for identifying and documenting this problem. 
And that should be corrected.
    Have NMFS sample products being offloaded at the ports of 
destination to determine the fish of origin and the quantities, 
as well as put someone in NMFS to focus in on this, to 
coordinate this effort. This was done in the seventies and the 
eighties for the high sea pirate fish and it needs to be done 
for the Russian interception problem.
    And finally, establish a salmon genetic data base for fish, 
for the salmon from origins in North America and Russia. If we 
get the samples, we get the fish in the surveys, we need quick 
and cost-effective ways to genetically identify the origin of 
these fish. My interest is to explore with you ways to find 
additional solutions to this problem. You are well aware of the 
economic impacts that are being felt in western Alaska. And if 
nothing is done, it is going to get much worse.
    Thank you.
    Senator Snowe. Thank you.
    Ms. Bumpus. Next we have Larry Hendricks, and then John 
Crowley.

    STATEMENT OF LARRY O. HENDRICKS, ALASKAN CRAB FISHERMAN

    Mr. Hendricks. Good afternoon, Senator Stevens and Senator 
Snowe. My name is Larry Hendricks, and I currently fish in 
Alaska, and I have fished there for the last 38 years. I would 
like to submit this letter of recommendations for changes in 
the Magnuson-Stevens Act Fisheries Act. Our Alaska crab 
fisheries have been decimated with State and Federal restraints 
on how to conduct our business.
    My past history of fishing crab for 38 years include all 
species of king and snow crab. I have witnessed the decline of 
all major fisheries in the Kodiak, Southern Alaska Peninsula, 
Bering Sea, Pribiloff Islands, Saint Matthew, and the Aleutian 
Chain areas under the current open access system. With the open 
access race to harvest our resources, many of the existing laws 
are causing the fishermen to contribute to the decline of our 
own crab resources. Many safety and environmental issues could 
be addressed with a quota or share system for the crab fishing 
vessels.
    As for the processing sector, possibly a limited number of 
processing licenses could be issued. Currently we have 
competition between them, and I do not see many problems other 
than maybe a shift in the vessels to the most efficient plant. 
For the entire group of crab fishermen, we need help in 
creating a quota or share system to protect our fishermen and 
slow our fisheries down.
    Just as the land in the 1800's was divided up during the 
homesteading era, the days of our open ocean are over. And we 
are in need of similar help to rebuild and protect the 
resources in the new millennium. We have some serious problems 
here and we have to slow the fisheries down. And we cannot do 
it with the existing laws. All our laws do now is cause us to 
decimate our own resource. If we can have control over our own 
fisheries, fish them during sane current periods, when we can 
be safe, and then we can harvest them and let our gear work 
efficiently instead of competing and racing against each other, 
we would be a heck of a lot better off.
    Thank you.
    [Correspondence of Mr. Hendricks follows:]

            Letter of Recommendations of Larry O. Hendricks
F/V SEA STAR
Larry O. Hendricks
GOT YAS LLC.
1110 N.W. 50th
Seattle, Washington 98107

Senator Olympia Snowe
U.S. Senate Committee
Commerce, Science, and Transportation

Dear Senator Snowe,

    I would like to submit this letter of recommendations for changes 
in the Magnuson-Stevens Fishery Act. Our Alaskan crab fisheries have 
been decimated with state and federal restraints on how to conduct our 
fisheries.
    My past history fishing crab, thirty-eight years, includes all 
species of king and snow crab. I have witnessed the decline of all 
major crab fisheries in the Kodiak, Southern Alaska Peninsula, Bering 
Sea, Pribilof Islands, St. Matthew, and Aleutian Chain areas under the 
current open access system.
    With the open access race to harvest our resources, many of the 
existing laws are creating the fisherman to contribute to the decline 
of our crab resources. Many of the safety and environmental issues 
could be addressed with a quota or share system for the crab fishing 
vessels.
    As for the processing sector, possibly a limited number of 
processing licenses could be issued. Currently we have competition 
between them and I do not see many problems other then maybe a shift in 
vessels to the most efficient plant.
    For the entire group of crab fisherman, we need help in creating a 
quota or share system to protect our fisherman and slow down our 
fisheries. Just as the land in the 1800's was divided up during the 
homesteading era, the days of the open oceans are over, and we are in 
need of similar help to rebuild and protect our resources in the new 
millennium.

Thank you,

Larry Hendricks

    Senator Snowe. Thank you.
    Ms. Bumpus. John Crowley, then Jack Crowley.

 STATEMENT OF JOHN CROWLEY, LONGLINE FISHERMAN AND VESSEL OWNER

    Mr. John Crowley. Thank you, Madam Chair, for this great 
privilege of being able to come before this Committee and make 
these public comments to members of the most important and 
powerful lawmaking body in the world.
    My name is John Crowley. I own a 69-foot longliner out of 
Seattle, and I am the third generation longline fisherman. I 
started at 11 years old, in the year of 1959, with my father. I 
was the dishwasher. I learned to wash dishes real good.
    My grandfather came to Alaska in 1911, and entered the 
longline fishery in 1916. We have been a longline family and 
vessel owners since that year. This year we marked 84 years of 
family involvement in that fishery.
    The last several years before the dawn of the IFQ system 
were probably the worst that I recall due to overcapitalization 
and the race for fish. The quality was way down, safety was way 
down, people were dying, and vessels were being lost. And the 
public was eating mostly frozen halibut.
    In 1995, which signalled the big change when the IFQ came 
in, the dawn of the IFQ fisheries, stability finally reached 
our fisheries. As a family, we received an initial allocation 
of IFQ's. We bought some and we leased some. Safety went way 
up. Quality went way up. And consumers now get halibut eight 
months out of the year. It is especially pleasing to go to a 
restaurant like Chinook's in Seattle and sit and watch four or 
five or six or eight people order fresh halibut on the menu 
there eight months out of that year.
    Further, we go to visit our in-laws down in Gridley, 
California--most people have never heard of Gridley, 
California--they have one restaurant there, and they have fresh 
halibut on their menu. It is certainly pleasing to be able to 
know that we are a part of that.
    Overcapitalization has changed and gone down. And that is 
because of the IFQ program. We as an industry have funded our 
own buyback by just buying out other people in the fishery who 
want out. There are hundreds of fishery loans now, totaling 
over millions of dollars, and many fishermen, individually, 
including myself, have borrowed over a million dollars to 
improve our position in the IFQ fishery. We have not burdened 
the public with government loans. We have done it on our own.
    Through the IFQ's we have been able to accomplish this 
buyback and also reduce overcapitalization, on our own. Last 
year on our vessel, we sold 100 percent of our product in the 
State of Alaska, where I was born and raised and where my heart 
is. Generally, we sell well over 90 percent of our product 
there, bringing home only the last trip to Seattle.
    The halibut and the black cod fishery of the North Pacific 
are world-class models of the best managed fisheries in the 
world. At a time when many fisheries around the world are being 
depleted, these two healthy fisheries are certainly in a 
wonderful position, and due mostly because of the IFQ system.
    I urge you to reauthorize the Magnuson-Stevens Act and hold 
intact our program as it is. I also urge you to lift the 
prohibition of future IFQ's. They have certainly proven their 
wealth as one of the best management tools available to you 
folks.
    Thank you.
    Senator Snowe. Thank you.
    Next.
    Ms. Bumpus. Jack Crowley, then Darrell Knudson.

 STATEMENT OF JACK CROWLEY, LONGLINE FISHERMAN AND VESSEL OWNER

    Mr. Jack Crowley. Thank you, Madam Chairman, Senator 
Stevens. I certainly have been in the industry a long time. 
Like my son just said, our family has been in it--I thought 85 
years--he said 84. I will not argue with one year. But I have 
50-some years in the fishery, too.
    I am not going to bother you with all of the benefits of 
the program, because you have heard so much about it this 
morning and you are very familiar with that. But I am going to 
urge you to do not let that Magnuson-Stevens Act go. And please 
lift the moratorium. It would not benefit me, but it would 
benefit a lot of people that need it.
    I am going to take a minute to relate a little story. 
During the time we were putting the IFQ program together, 10 
years, relatives of my family that were born and raised in 
Juneau and grew up there and knew what fresh halibut tasted 
like because our family supplied them, had moved to San 
Francisco. And when I was telling them about this program we 
were working on--it took 10 years, you know--I sensed that they 
did not really approve of it. They thought this was a giving 
away of a resource.
    Well, in the second year of our program, I got a phone call 
from Sylvia. And she said, you know, I really appreciate all 
the fresh halibut, good fresh halibut, I am able to buy here in 
San Francisco. She said, your program is a success.
    Thank you.
    Ms. Bumpus. Darrell Knudson, and then Charlie Noggle.

        STATEMENT OF DARRELL KNUDSON, LONGLINE FISHERMAN

    Mr. Knudson. Hello. I have been a longline fisherman for 
over 20 years. I am a third generation, too. And my family has 
been fishing for a long time.
    And the IFQ program, I have been running boats for 10 
years, and the IFQ program has been working very well. It has 
made the industry, as you have heard, a lot safer. We do not 
have to go out in as bad weather, feeling like we have to 
compete and if we do not go out, we are going to miss out on 
some fish. We are able to compete a lot better with the fresh 
fish market. Before the Canadians would, just before opening, 
say, would go out and catch a bunch of fish, get them on the 
market, and we were not able to--you know, most of our fish 
were going for frozen.
    I had a lot of things to say before I got up here, but 
basically it works. That is it.
    Senator Snowe. Okay. You can submit it in writing if you 
want to.
    Mr. Knudson. Thank you.
    Ms. Bumpus. Charlie Noggle, and then the last witness is 
Mandy Merklein.

        STATEMENT OF CHARLIE NOGGLE, LONGLINE FISHERMAN

    Mr. Noggle. Hi. My name is Charlie Noggle. I have a 47-foot 
longliner, and I have fished black cod in Washington and Alaska 
for the past 21 years.
    An IFQ program for the west coast black cod would be a huge 
improvement for a small-boat fisherman like myself. It would 
allow me to be more efficient, increase the price of black cod 
that we receive down here, and reduce the cost of catching it.
    An IFQ program would enable me to move my gear to avoid 
halibut bycatch, which was something that always kind of 
bothered me off the west coast here, where it is a derby 
fishery, and all the grounds are covered. Fishermen are forced 
to set back pretty much where you start and it causes a fairly 
high halibut bycatch. It would allow me to operate considerably 
more safely if we got rid of the derby fishery.
    And the last thing that Arnie had mentioned about the 
family time--well, last summer, for example, I figured I was 
working every day from mid-June until the end of August, when 
the derby fishery out here was over with. And to turn this into 
an IFQ fishery and allow us to schedule it whenever we want, 
schedule the fishing off the west coast, it would allow me to 
spend some time with the family before they return to school in 
the fall.
    Thank you.
    Senator Snowe. Thank you.
    Ms. Bumpus. The last witness is Mandy Merklein.

          STATEMENT OF MANDY MERKLEIN, BOARD MEMBER, 
              PACIFIC MARINE CONSERVATION COUNCIL

    Ms. Merklein. I really appreciate you staying here through 
the bitter end to hear my last comments.
    My name is Mandy Merklein. I am a marine fishery scientist. 
I have been working up in Alaska and down here in Washington 
for over 15 years on all kinds of boats--little longliners, big 
factory trawlers--and it has given me an appreciation of the 
trials in both management and operating a fishing business, and 
I appreciate a lot of the comments you have heard today.
    I am here primarily in the capacity as a Board Member of 
the Pacific Marine Conservation Council, and I would like to 
give longer testimony here as part of the record. I will just 
make this short for you.
    Primarily, the Pacific Marine Conservation Council is a 17-
board member nonprofit, and we have environmentalists, 
fishermen and scientists on our board. We are pretty new. We 
are just about two years old. We have about roughly 260 members 
right now.
    We believe that the Magnuson-Stevens Act should stay intact 
and it should stay strong. We really appreciate it. We think it 
needs time to develop, and we believe that the essential fish 
habitat language in the Act should also remain strong and 
broad. I think the comments that you heard from Rod were good 
about that--that the ecosystem is a chain and all the links 
need to be protected. Although it can be interpreted and 
improved upon, we want the language to stay strong.
    We also are very concerned about funding, particularly the 
Council staff itself is understaffed. And we would like to see 
good funding for the Councils so that they can operate 
effectively. We also are of course concerned about the stock 
assessment surveys not having enough funding to fulfill their 
duties. And particularly we are very concerned about the lack 
of an observer program off the west coast. Alaska has had many 
observer programs for over 14 years in their groundfish 
fisheries. We need them in our marine mammal gill net programs, 
although that is not covered in your Act.
    And I think that I have been aghast to come down here off 
the west coast and see the lack of at-sea data. There is no 
data available on bycatch and discards at sea, which makes it 
very difficult to manage this fishery properly. So I am very 
concerned about total catch, as is PMCC.
    So I ask you to support a strong observer program. And 
there are ways you can do that in the Magnuson-Stevens Act. In 
particular, there are funding mechanisms that you can borrow 
from Alaska and apply down on the west coast. And I think they 
could be very well adopted down here despite some of the 
problems that Alaska sees.
    Thanks for your time.
    Senator Snowe. Thank you.
    Well, that concludes our hearing. Before we leave, I want 
to ask unanimous consent to keep the record open for 10 
legislative days for any additional statements, comments, or 
other information that the Subcommittee may want to include in 
the hearing record.
    I want to thank all of you for being here today, for 
presenting your thoughts and your concerns, for being an 
attentive audience, and for being very responsive to all of the 
issues as witnesses. The Subcommittee and I appreciate all the 
work that you did in order to make your presentations here 
today on what is a very significant issue to all of you, to our 
respective states, and to the Nation as a whole.
    I also want to thank Senator Gorton for extending an 
invitation to this Subcommittee to host this field hearing here 
in Seattle. I want to thank Senator Stevens for hosting us in 
Anchorage yesterday, it was a very valuable hearing. I also 
want to thank him for all of the knowledge that he brings to 
bear on this issue, as he has for a long time.
    So, again, thank you all very much. This concludes the 
hearing.
    [Whereupon, at 12:22 p.m., the hearing was adjourned.]


                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Penelope Dalton

    Question. NMFS has been criticized for its lack of compliance with 
National Standard 8 and the Regulatory Flexibility Act which requires 
NMFS to consider the economic impacts of regulations on small 
businesses. These regulations can be quite complex and they can have a 
tremendous effect on the day-to-day life of fishermen--the vast 
majority of which are indeed small, family-run businesses.
    Explain what the Oceans and Fisheries Subcommittee could do to 
ensure that National Standard 8 and the Regulatory Flexibility Act are 
properly considered?

THE WITNESS DID NOT PROVIDE A RESPONSE.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                               Rod Fujita

    Question 1. It appears that the current groundfish crisis in the 
Pacific has been caused in large part due to a lack of basic scientific 
information. Only six of the 83 groundfish stocks are assessed each 
year, and only 26 of the 83 have ever had some form of stock assessment 
analysis done at all.
    Do these ``unknown'' stocks make up a significant portion of the 
total groundfish catch? If so, which fish need to have basic scientific 
information about them?
    Obviously, funds are limited at NMFS, is this an area--the 
``unknown'' groundfish stocks--which needs more dedicated funding, or 
is there a more effective way to spend money in the groundfish fishery 
than by doing 57 additional stock assessments?
    Answer. The groundfish crisis was caused by almost equal parts of 
lack of information and lack of precautionary approach. The prudent 
management response to the fact that only a small portion of all the 
species have been assessed, and even those assessed were of uncertain 
status (except that for many, landings showed rapid and fairly steady 
declines for many years before the ``crisis'') should have been to stop 
fishing them so hard, set up some research reserves, and collect some 
better data to inform management. Instead, the Council and NMFS chose 
in most cases to continue the status quo, despite the arguments of many 
scientists, environmentalists, and even some managers that this was 
going to result in a fishery collapse down the road.
    It's hard to say what fraction of total groundfish landings are 
made up of ``unassessed'' stocks, due to the lack of data. Even if it's 
a relatively small fraction, however, it will be important to somehow 
limit fishing mortality on them because they could (and will) constrain 
fishing on more productive stocks that they are mixed with if they 
become depleted. For example, bocaccio contributed very little to 
commercial landings, but the fact that it has been depleted through 
sport catch, habitat damage, and bycatch in commercial fisheries has 
constrained a very large and valuable multispecies groundfish fishery 
due to mandated efforts to rebuild bocaccio.
    This is not to say that we must assess every single groundfish 
species. This would be prohibitively expensive. The alternative, it 
seems to me, is to set aside representative habitats that offer safe 
havens for all of these species to maintain their populations as no-
take marine reserves. Another, perhaps complementary approach, would be 
to conduct some basic life history research (short of a full 
assessment) on each species to determine (if possible) things like the 
intrinsic rate of increase, von Bertalanffy growth parameters, age at 
first reproduction, and fecundity at first reproduction in order to 
classify each species as to its relative vulnerability to overfishing. 
This is the approach advocated by the American Fisheries Society, the 
nation's premier association for fishery biologists. Management 
measures and data collection could then be targeted toward protecting 
the most vulnerable species, saving time, energy, and money.
    Question 2. The Congress has been critical of NMFS for not 
sufficiently considering the socio-economic impacts of its fishing 
regulations. The Subcommittee on Oceans and Fisheries has heard that 
NMFS does not take into account effects that their regulations have on 
actual fishermen and does not use the best or even sometimes, 
legitimate science as the basis of these decisions. There seems to be a 
gap between available scientific information and fisheries management 
decisions.
    Do you believe that considering the socio-economic impacts of 
potential regulations would reduce the ability of fisheries managers to 
make sound, science-based decisions?
    Do you believe that there is a lack of basic science in fisheries 
management decisions making?
    Answer. In an ideal world, socio-economic analyses would be truly 
comprehensive, taking account not only of impacts of regulations on the 
fishing industry, but also of impacts of inaction or overly aggressive 
fishing policies to biodiversity, ecosystems, future generations, and 
existence values held by most Americans. In this ideal world, 
consideration of socio-economic impacts would help managers make the 
right decisions.
    Unfortunately, socio-economic impact analyses focus almost 
exclusively on economic impacts on the fishing industry and fishing 
communities. Very little attention is given to non-economic values, or 
economic impacts on other sectors of the public. Thus, these kinds of 
analyses offer only a very skewed perspective on the real impacts of 
regulation. So, considering these kinds of analyses actually hampers 
decision-making. Socioeconomic impacts should be considered AFTER 
science-based recommendations are made and vetted, in a very 
transparent forum, so that the very subjective assumptions that 
underlie most socieoeconomic analyses can be critically evaluated and 
so that non-market values can be expressed. The decision-making forum 
should also make crystal clear WHY decisionmakers are deviating from a 
science-based recommendation, and they should be held accountable to 
such decisions. Such decisions should be guided by MFCMA definition of 
Optimum Yield, which clearly states that OY is to be based on MSY as 
REDUCED to account for a variety of factors.
    Question 3. In 1998, the Pacific Coast groundfish industry suffered 
from its lowest annual revenues in the last 18 years, about $68 
million. An observer program, similar to observer programs in fisheries 
off of Alaska, would go a long way towards improving the supply of 
basic scientific information on groundfish stocks. Obviously, observers 
have been useful in the past to document bycatch. In a mixed-stock 
fishery, which has some stocks that are overfished, some that are not, 
and some that have an unknown status, like groundfish with its 83 
stocks, identifying bycatch and other information is needed to better 
manage the fishery.
    How would you design an effective observer program?
    There are a limited number of qualified candidates who are eligible 
to be observers under a NMFS program. How could recruitment of 
observers be addressed?
    Answer. To save money and to account for the fact that not all west 
coast groundfish vessels can safely carry observers, I would design a 
program that would take a representative sample of the fleet. The 
sample must be large enough to result in statistically valid estimates 
of discard and bycatch rates. Another approach would be to conduct a 
scientific survey of discard, bycatch, and discard survival every 
couple of years, again using a representative sample. Tamper-proof 
video recorders may also provide a cost-effective way to document 
bycatch and discard rates, but require lots of time to analyze. 
Videotape could be sampled randomly by trained samplers/recorders to 
save time. Results could be verified and calibrated by fully sampling 
some tapes and comparing the results to subsample variation.
    If a scientific survey approach were applied, observers could 
consist of scientists and graduate students. I would think that ex-
fishermen would make excellent observers if trained in sampling and 
data entry.
    I hope these answers are helpful. Please don't hesitate to contact 
me if I can be of further assistance.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Phil Anderson

    Question. NMFS has been criticized for its lack of compliance with 
National Standard 8 and the Regulatory Flexibility Act which requires 
NMFS to consider the economic impacts of regulations on small 
businesses. These regulations can be quite complex and they can have a 
tremendous effect on the day-to-day life of fishermen--the vast 
majority of which are indeed small, family-run businesses.
    Do you believe that National Standard 8 has been properly 
considered, or do you feel that more emphasis should be placed on the 
socio-economic impacts of fisheries regulations?
    Answer. I believe that National Standard 8 has been properly 
considered within the Pacific Fishery Management Council forum. The 
Pacific Council reviews and considers the potential economic impacts to 
small businesses which may result from fishery regulations. The Pacific 
Council is currently in the process of documenting descriptions of west 
coast fishing communities to assist in assessing economic impacts.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Peter Leipzig

    Question 1. 1995 you testified that the Pacific groundfish stocks 
were healthy and not overfished. In 2000 we hear of the Pacific 
groundfish collapse and the need for disaster assistance.
    Please explain what has changed in five years. Is this 
environmental, overcapitalization, poor science, or an additional 
factor?
    What action do you feel is necessary to deal with the current state 
of the Pacific groundfish fisheries?
    Question 1a. Please explain, what has changed in five years?
    Answer. This is the BIG question and there is no one single, simple 
answer. Several events have occurred and this has provided much 
opportunity for ``finger pointing''. One point that I would like to 
stress is that the record is clear, the amount of fish harvested has 
been very close to or below the quotas for each species since the early 
1980's, when the Groundfish Plan was adopted. NMFS and the Council were 
not pressured to set quotas higher than the recommendations coming from 
the scientific community. The following are comments about some of the 
issues that have contributed to our current situation.

        <bullet> Survey information. The west coast groundfish resource 
        has very little ``fishery independent'' data. NMFS has 
        conducted a continental shelf trawl survey once every three 
        years since 1977. This survey is conducted to a depth of 250 
        fathoms, while the fishery operates out to depths of 600-700 
        fathoms. The southern extent of the survey is Central 
        California, while fishing continues to the Mexican border. 
        There are very few tows made during this survey and many 
        species of groundfish are highly aggregated. This results in 
        biomass estimates with a very high variance (plus or minus 
        100%).
          NMFS began conducting surveys on the continental slope in the 
        late 1970's. These surveys were not synoptic. Any one year only 
        a small portion of the coast was sampled. In 1994 (?) it was 
        determined that the trawl gear being used was not functioning 
        properly. A NMFS appointed independent review of these surveys 
        concluded that the data that had been collected should not be 
        used in stock assessments.
        <bullet> Fish ages. In the mid- to late 1980's, scientists 
        concluded that the old techniques used for aging fish were 
        inaccurate. It was believed that many species were older than 
        formerly believed. This new information took time to be 
        incorporated into stock assessments. However, if the fish were 
        older, that meant that they grew slower and were less 
        productive than we had believed. The rate of natural mortality 
        was less. For some species this has translated into harvest 
        levels being lower than they had been in the past.
        <bullet> Harvest policy. In the early 1990's the Pacific 
        Council adopted a default harvest policy of F35%. This is the 
        fishing mortality rate that would reduce a population to the 
        level that would produce 35% of the unfished spawning output. 
        By the late 1990's, scientists were recommending that this 
        policy be changed for rockfish species to F40%-F45%. These new 
        harvest policies meant in some cases that the quota needed to 
        be reduced in order to increase the biomass. Recent analysis of 
        stock assessment output suggests that the current level of 
        recruitment for some species is insufficient to maintain the 
        current population, and harvest policy targets should be 
        increased once again, in some cases to F65%.
        <bullet> Sustainable Fisheries Act. In 1996 Congress passed the 
        SFA. The implementing rules adopted by NMFS have employed a 
        ``risk adverse'' approach to establishing quotas. For species 
        where assessments have not been conducted, these rules require 
        the harvest level be set at levels that are in some cases 50% 
        of the recent catches. In multi-species fisheries, the species 
        with the lowest quota in relation to the way fish are caught 
        becomes the ``weak stock'' and controls the harvest of the 
        remaining species.
        <bullet> Discards. The Pacific groundfish fishery imposes a 
        limit on the amount of fish that can be landed for a given 
        period of time. These are referred to as ``trip limits''. The 
        purpose is to stretch the landings of fish over time, thus 
        maintaining a higher exvessel value and greater economic yield 
        from the fishery. On the down side, trip limits create 
        regulatory discards. When a fisherman catches more than the 
        limit the fish must be discarded at sea. Discards have been 
        estimated based on dated observer work. These discards are 
        subtracted from the quota. When quotas are reduced, the trip 
        limits is reduced, and this causes more discards. We are caught 
        in this cycle. [Note: an observer program will not eliminate 
        discards, it will only estimate them better].
        <bullet> Environment. There is very strong evidence that the 
        ocean began changing in the late 1970's to a condition that was 
        not conducive for the survival of young rockfish. Data 
        collected from Southern California power plants dramatically 
        shows the drop in young fish that are entrapped in the cooling 
        water intakes. The impact of this type of environmental change 
        has been well documented for other species of fish. For 
        rockfish that are long lived and slow to recruit into the 
        fishery the change was difficult to detect at first. But the 
        impact is real.
        <bullet> Over capacity. The groundfish fishery has had excess 
        capacity for many years and a management system that is slow to 
        react and slow to support change. The trawl fleet first 
        proposed limited entry in 1985. In 1987 the PFMC set a control 
        date to restrict new entrants. This date slipped to 1988, and 
        it took until 1994 before limited entry was implemented. The 
        west coast groundfish industry lobbied for the industry funded 
        buy-back provisions in Section 312 of the SFA, only to have 
        NMFS drag their collective feet in publishing implementing 
        regulations. Now it is too late for an industry program to 
        reduce sufficient capacity alone; there is the need for 
        government assistance.

    Question 1b. What action do you feel is necessary to deal with the 
current state of the Pacific groundfish fisheries?
    Answer. Certainly we need to know more about the groundfish stocks. 
We need to know more about their actual age and rate of growth. Better, 
more precise estimates of population size and population trends are 
needed. But ``more and better'' science is a cop-out and will not solve 
the current problem in the groundfish fishery. If we begin new surveys 
today the information from those surveys will not be useful for stock 
assessments for 10 years. If funding were to be made available for such 
work and the funding were to cease in several years, all of the money 
would have been wasted. The fishery needs long-term continuous data 
series to be useful for stock assessment work.
    This fishery is in a state of crisis. The amount of fish available 
to harvest is much less than once occurred. A serious fleet reduction 
program is the only solution. The current situation is not going to end 
for many years. We have rebuilding plans with time frames that range 
from 10 to 40 years. Without assistance to reduce the fleet, some 
operators will fall into bankruptcy and their boats and permits will 
recycle into the fishery without solving the problem of too much 
capacity.
    Question 2. It appears that the current groundfish crisis in the 
Pacific has been caused in large part due to a lack of basic scientific 
information. Only six of the 83 groundfish stocks are assessed each 
year, and only 26 of the 83 have ever had some form of stock assessment 
analysis done at all.
    Do these ``unknown'' stocks make-up a significant portion of the 
total groundfish catch? If so, which fish need to have basic scientific 
information available about them?
    Obviously, funds are limited at NMFS, is this an area--the 
``unknown'' groundfish stocks--which needs more dedicated funding, or 
is there a more effective way to spend money in the groundfish fishery 
than by doing 57 additional stock assessments?
    Answer. Some of the species in the groundfish plan for which there 
are no stock assessments are rarely encountered. While others may be 
common, they do not comprise a significant component of the total 
landings. The question here is where best to spend money. Basic 
scientific questions related to aging of fish apply to nearly all 
groundfish. Age validation needs to occur for almost every species. 
This involves chemically tagging fish and releasing them to be caught 
years later. This type of work could be combined with other fishery 
independent surveys. These surveys if properly designed can provide 
abundance data simultaneously for many species.
    A stock assessment requires data on catch, age, weight, sex, trend 
indices, growth, etc. Surveys provide some of this information. Port 
sampling programs, logbooks, etc. can also supply some of this 
information. However, personnel to prepare a stock assessment require a 
biologist with expertise in population dynamics. There are only a few 
such biologists on the west coast. More stock assessments are limited 
to the number of these people.
    Question 3. The Congress has been critical of NMFS for not 
sufficiently considering the socio-economic impacts of its fishing 
regulations. The Subcommittee on Oceans and Fisheries has heard that 
NMFS does not take into account effects that their regulations have on 
actual fishermen and does not use the best or even sometimes, 
legitimate science as the basis of these decisions. There seems to be a 
gap between available scientific information and fisheries management 
decisions.
    Do you believe that considering the socio-economic impacts of 
potential regulations would reduce the ability of fisheries managers to 
make sound, science-based decisions?
    Do you believe there is a lack of basic science in fisheries 
management decisions making?
    Question 3a. Would considering the socio-economic impacts reduce 
the ability of managers to make sound decisions?
    Answer. In the short-term, NO. In the long-term, YES. A fishery 
resource is only able to produce a certain amount of surplus stock. 
What we harvest is this surplus and this is where the value of the 
fishery comes from. If a regulation is needed to protect the long-term 
productivity of the stock then eventually that regulation will be 
necessary. But if that regulation which is necessary to protect the 
long-term productivity of the stock is causing socio-economic hardship 
on fishermen if imposed today, then that same hardship will likely 
occur in future if the regulation is not imposed.
    Many fishery managers would view this situation and conclude that 
the hardship is coming one way or another. It might as well be now. 
These managers tend to think of fisheries management with concern only 
for the fish and little concern for the fishery, when in reality they 
are managing people. The solution is to find someway as a manager to 
lessen the hardship. This can be accomplished by reducing the capacity 
of the fleet or increasing the value from the resource. Fewer people 
fishing for the resource or the same number deriving more money for 
what they catch.
    In the short term, if a management action is taken that provides a 
transition through the hardship, imposing the long-term regulation can 
be delayed.
    Question 3b. Do you believe there is a lack of basic science in 
fisheries management decision making?
    Answer. Fishery science is a science in its infancy. It relies 
heavily on other disciplines such as biology and mathematics. Fishery 
science has few opportunities to test a hypothesis that are necessary 
to develop principles and laws such as are found in physics or 
chemistry. Untested concepts are often taken as truths when in fact 
they may have begun as a ``rule of thumb''. And to make things worse, 
we have written some of them into legal terms that form the political 
body of fisheries management. There is very little science in fisheries 
management.
    Question 4. In 1998, the Pacific Coast groundfish industry suffered 
from its lowest annual revenues in the last 18 years, about $68 
million. An observer program, similar to observer programs in fisheries 
off of Alaska, would go a long way toward improving the supply of basic 
scientific information on groundfish stocks. Obviously, observers have 
been useful in the past to document bycatch. In a mixed-stock fishery, 
which has some stocks that are overfished, some that are not, and some 
that have an unknown status, like groundfish with its 83 stocks, 
identifying bycatch and other information is needed to better manage 
the fishery.
    How would you design an effective observer program?
    There are a limited number of qualified candidates who are eligible 
to be observers under a NMFS program. How could recruitment of 
observers be addressed?
    Question 4a. How would you design an effective observer program?
    Answer. In the introduction to these questions the term bycatch was 
used. I realize that there is a legal definition in the Act for 
bycatch, but in reality everyone seems to have his or her own also. To 
me a fisherman catches fish. Some of the catch he keeps. Some of the 
catch is thrown overboard. Of the catch that goes overboard, some was 
thrown back because it is not desirable (low value), and some is tossed 
because the law says it must be tossed.
    In the groundfish trawl fishery, the major component of fish that 
is not retained is tossed due to the regulations. In the longline 
fishery it is tossed because of low value and regulations. In the 
recreational fishery the fish are not desirable. Every sector of the 
fishery has bycatch. The reason for bycatch (discards) differs from 
sector to sector; just as the species that are landed varies, the 
species that are discarded vary.
    The purpose of an observer program must be identified before the 
program can be developed. Questions such as--Is the program for 
monitoring or is it for law enforcement? The program must identify what 
information needs to be collected, how it will be used, and who will 
collect and manage the database. The cost of collecting the identified 
needed data versus other ways of collecting the data should be 
analyzed. Once these types of questions have been addressed then a 
sampling protocol can be developed that provides coverage of all 
vessels that encounter groundfish, including recreational boats and 
commercial vessels that take groundfish incidentally while fishing in 
other fisheries. Sampling that provides statistically reliable 
estimates from every sector should be the goal of an observer program.
    Of course cost is a big issue. User funded programs that have been 
used elsewhere, do not appear to be realistic in the Pacific groundfish 
fishery. The trawl fishery has the highest gross revenue of all 
sectors, with a mean gross revenue around $160,000 per year. Other 
sectors are substantially lower. The size of boats is an additional 
problem. Again, the trawl sector has the larger average size boat; this 
is around 60 feet. These are older boats with often two bunks and no 
toilet facilities.
    Again, an observer program will not eliminate discards; it will 
only estimate them better.
    Question 4b. How could recruitment of observers be addressed?
    Answer. This is a very tough personnel question. The type of 
individual that is hired should reflect the purpose of the observer 
program. A different sort of person could be hired if the program 
thrust is law enforcement as opposed to biological data collection. 
Either way the people hired will likely be younger and looking to the 
program as a ``first step'' in a career. If the Federal and State 
governments are not expanding their fisheries programs there is little 
career path for observers. Therefore private observer companies will 
likely have high turn over and high associated costs as a result.
    On the west coast, when poor working conditions (small boats with 
little amenities) and little opportunity for advancement are coupled 
with the fact there are well over 2000 boats that either fish for or 
encounter groundfish while fishing for other species; the creation of 
an observer program is a major undertaking.
    Given the above, it is clear that creative ways will be required to 
place observers in the west coast groundfish fishery. Ideas such as 
college credit for students that participate in such a program and 
training commercial fishermen to collect data would need to be 
explored. Alternative ways to gather the same information can not be 
overlooked, such as full retention or charter fishing contracts.
    Question 5. Senator Kerry's questions: . . . what is a ``non-
quota'' approach? How would it work and in what fisheries?
    Answer. On the west coast there are several major well managed 
State fisheries that do not used quotas. If these fisheries were to be 
brought under the Federal system, they would die.
    Examples are Dungeness crab and Pacific pink shrimp. They both use 
seasons, gear restrictions, and (animal) size as the primary management 
tools. The crab fishery is also for males only. These fisheries have 
variable landings with wide swings in abundance that are 
environmentally driven.
    Other ideas for ``non-quota'' approaches could be based in the 
biological characteristics of the animals. Some fish, because of size 
or behavior, are not caught until they have attained a size or age by 
which they have multiple opportunities to spawn. Such fish could be 
fished extremely hard with no impact on the productivity of the stock. 
Pacific sanddabs and many of the ``small'' rockfish species are 
examples of this type of fish.
    Another approach would be to monitor the fishery for ``change''. As 
a university professor recently commented to me--``We should think of 
ourselves as being in an airplane. We should not be concerned about how 
high we are, but rather are we going up or down?'' Dramatic changes in 
the size of fish, sex ratio, or CPUE are all indicators that something 
has changed in the population. These changes may simply be part of the 
natural process of fishing down, indicators of strong year classes, or 
changing ocean conditions. On the other hand these types of changes may 
also indicate that a stock has been overharvested. To be able to sort 
out what is occurring requires that fisheries biologists once again 
become fisheries biologists rather than function as simply computer 
jockeys. Before NMFS, fishery biologists were part of the fishing 
community, down on the docks looking at fish and talking with 
fishermen. They learned a great deal from fishermen, and fishermen 
learn a great deal from them. Through mutual respect interpretation of 
information used to occur.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             David Sampson

    Question 1a. It appears that the current groundfish crisis in the 
Pacific has been caused in large part by a lack of basic scientific 
information. Only six of the 83 groundfish stocks are assessed each 
year, and only 26 of the 83 have ever had some form of stock assessment 
analysis done at all.
    Do these ``unknown'' stocks make up a significant portion of the 
total groundfish catch? If so, which fish need to have basic scientific 
information available about them?
    Answer. Tabulated below are annual commercial landings statistics 
(in metric tons) for the 15 different U.S. west coast groundfish stocks 
for which formal stock assessments were prepared and reviewed by the 
Pacific Fishery Management Council (PFMC) during 1997-99. The data 
shown were taken directly from the groundfish ``Stock Assessment and 
Fishery Evaluation'' documents published annually by the PFMC. For some 
species (e.g., petrale sole) the assessments did not cover the entire 
range for the species, whereas the landings statistics are for the 
entire U.S. west coast.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These 15 ``assessed'' stocks accounted for about 85% of the 
commercial harvest of groundfish along the U.S. west coast. The 
``unassessed'' stocks made up a bit less than the remaining 15% of the 
landings. Some would argue that these unassessed stocks have 
``ecological significance'' but they do not have much ``economic 
significance''.
    Question 1b. Obviously, funds are limited at NMFS. Is this an 
area--the ``unknown'' groundfish stocks--which needs more dedicated 
funding, or is there a more effective way to spend money in the 
groundfish fishery than by doing 57 additional stock assessments?
    Answer. It is very likely that many of the fishers who have been 
displaced by restrictive catch quotas from harvesting their traditional 
target species will instead increase their harvests of these minor 
unassessed stocks. More information on the status of these stocks would 
be beneficial for setting reasonable harvest quotas, which currently 
are based on historical landings for many of the unassessed stocks. 
Even more beneficial would be a reduction in the harvesting capacity of 
the fishing fleet. The fundamental problem in the west coast groundfish 
fishery is not lack of information about fish stock status; it is lack 
of any effective control over fishing capacity. We have allowed (and 
even encouraged) the fishing industry to increase, and now there are 
too many fishers chasing after a limited supply of fish.
    Question 2a. The Congress has been critical of NMFS for not 
sufficiently considering the socioeconomic impacts of its fishing 
regulations. The Subcommittee on Oceans and Fisheries has heard that 
NMFS does not take into account effects that their regulations have on 
actual fishermen and does not use the best or even sometimes legitimate 
science as the basis of these decisions. There seems to be a gap 
between available scientific information and fisheries management 
decisions.
    Do you believe that considering the socio-economic impacts of 
potential regulations would reduce the ability of fisheries managers to 
make sound, science-based decisions?
    Answer. No. It is important to distinguish between two kinds of 
fishery management decisions: decisions about how much of the fish 
resource to harvest, versus decisions about who should be allowed to 
make the harvests and how much they should be allowed to take. Most 
fishery regulations (catch quotas, season limits, gear restrictions) 
are not uniformly beneficial or harmful to all interest groups. 
Managers can use socio-economic information to help weigh the costs, 
benefits, and harvest-allocation implications of different management 
actions. Fishery managers should not try to use fisheries science to 
adjudicate between different possible uses of our fish resources. 
Fisheries scientists can provide advice to fishery managers about the 
likely consequences of particular harvest quotas or fishing seasons, 
but fisheries science CANNOT answer the question ``What should we be 
doing with our fish resources?'' The political process needs to define 
the objectives of fishery management policy. Once the policy is set and 
the objectives are clear, the fishery scientists can give scientific 
advice on appropriate methods for achieving the objectives.
    Question 2b. Do you believe there is a lack of basic science in 
fisheries management decision making?
    Answer. No. In my experience as a member for six years of the 
Pacific Fishery Management Council's Scientific and Statistical 
Committee the Council almost always heeded the recommendations of the 
stock assessment scientists regarding appropriate harvest levels. That 
is not to say, however, that fisheries science has been, or ever will 
be able to accurately estimate the sizes of the fish stocks or 
accurately predict whether or not the condition of the stocks will 
improve to a certain level in the future. Fisheries scientists have in 
general done a poor job at explaining or quantifying the uncertainty 
about the stock size estimates and catch projections that appear in 
most fish stock assessments. Also, it seems that many fishery managers 
would prefer the assessment scientists to provide a single best 
estimate for a catch quota rather than a range of values, perhaps 
because the managers do not know how to pick a ``best'' number from a 
range. Collectively we have not agreed on what is ``best'', whether to 
catch the fish or leave them in the water, whether to have a large 
fleet of small boats or a small fleet of big vessels.
    Question 3a. In 1998, the Pacific Coast groundfish industry 
suffered from its lowest annual revenues in the last 18 years, about 
$68 million. An observer program, similar to observer programs in 
fisheries off of Alaska, would go a big way toward improving the supply 
of basic scientific information on groundfish stocks. Obviously, 
observers have been useful in the past to document bycatch. In a mixed-
stock fishery, which has some stocks that are overfished, some that are 
not, and some that have an unknown status, like groundfish with its 83 
stocks, identifying bycatch and other information is needed to better 
manage the fishery.
    How would you design an effective observer program ?
    Answer. I disagree with the fundamental premise of the question, 
that an observer program is needed to improve ``the supply of basic 
scientific information on groundfish stocks.'' There are alternative 
ways to acquire much of the basic scientific information. 
Unfortunately, the debate has focused on having an observer program 
rather than on the data that is needed for stock assessment and 
fisheries management.
    In the groundfish fisheries in Alaska much of the harvest is caught 
and processed at sea, so that the only method for documenting the size 
of the catch and its biological characteristics (species composition 
and length, age, and sex compositions) is to have samplers aboard the 
fishing vessels. Off the U.S. west coast there is significant at-sea 
processing only in the at-sea component of the fishery for whiting 
(Pacific hake). There were U.S. observers aboard the foreign vessels 
that harvested whiting during the 1970s and early 1980s, and there have 
been observers aboard the U.S. factory trawlers that have been 
harvesting whiting off the U.S. west coast since 1990.
    Other than the catches of whiting that are processed at sea, the 
groundfish caught off the U.S. west coast are landed at a relatively 
small number of ports that are routinely monitored by agents from the 
states of California, Oregon, and Washington. An observer program would 
certainly supplement the data collected by the State fishery agencies, 
but it would be much more cost-effective to simply provide more fishery 
agents to collect the data where the fish are landed. Most of the 
variability associated with the biological characteristics of the 
harvested fish is due to trip-to-trip variation. That is, the fish 
caught during a trip tend to have similar characteristics, whereas 
there are large differences in the characteristics between fish caught 
on different fishing trips. (Presumably different fishing boats harvest 
from different fish schools and the fish in a school tend to have 
similar characteristics.) An observer during a four-day fishing trip 
will be able to record sample data from a single trip, whereas that 
same person could take sample data on shore from three or four trips 
each day when the vessels land their catches.
    A shore-side sampler, however, only has access to the landed catch 
and not to any fish that are discarded at sea. With regard to discards, 
it is important to distinguish between at-sea discards of marketable 
fish versus discards of unmarketable fish. The discards of marketable 
fish largely occur because of fishery regulations. For example, trawl 
vessels are legally prohibited from landing salmon and halibut and must 
discard those fish at sea. Also, the Pacific Council imposes trip 
limits that restrict how much fish any given vessel can land during a 
given time period. Any catches above the limits must be dumped at sea. 
These regulations are extremely costly, in terms of wasted fish, wasted 
fishing effort, and distorted harvest data. Adding an observer program 
to monitor these discards adds further to the costs but does nothing to 
eliminate the problem. Surely there must be ways to modify the 
regulations to fix the problem of at-sea discards of marketable fish, 
for example, by allowing the fishers to land their overages but not 
receive the full market price. The fish would not be wasted and they 
would be accounted for by the usual shoreside monitoring systems.
    With regard to discards of unmarketable fish, we need a modest at-
sea observer program to obtain information on the magnitude and 
biological characteristics of these discards. The program, however, 
would only need to monitor a very small fraction of the fishing trips 
to obtain reasonable data on the level and characteristics of the 
discards.
    Question 3b. There are a limited number of qualified candidates who 
are eligible to be observers under a NMFS program. How could 
recruitment of observers be addressed?
    Answer. If sufficient funds were made available, I'm certain that 
the existing observer companies would be able to find and train 
observers.
                                 ______
                                 
  Response to Written Questions Submitted by Senator John F. Kerry to 
                                Jim Lone

    I saw the letter you submitted to Dr. Bill Hogarth and Mr. Will 
Stelle regarding budget initiatives necessary to obtain adequate data 
in the fisheries under your jurisdiction. I understand that in your 
region in particular, there has been a serious problem with obtaining 
adequate data upon which to make sound management decisions.
    Question 1a. How does the Council and/or the Scientific and 
Statistical Committee prioritize research needs?
    Answer. The Council reviews its research and data needs every two 
years. This review includes consultation with the SSC, Groundfish 
Management Team, Groundfish Advisory Subpanel, other advisory groups 
and the public. The Council sets priorities for research and data needs 
based on the following ranked criteria.

          1. Projects that address long term fundamental problems of 
        west coast fisheries.
          2. Projects that improve the quality of information, models, 
        and analytical tools used for biological assessment and 
        management.
          3. Projects that increase the long run market competitiveness 
        and economic profitability of the industry.
          4. Projects that contribute to the understanding by decision 
        makers of social and economic implications in meeting 
        biological and conservation objectives.
          5. Projects that provide data and/or information to meet the 
        requirements of the Magnuson-Stevens Act, the Regulatory 
        Flexibility Act, and other applicable laws.

    The list of research and data needs is made available to NMFS and 
various research institutions (universities, etc.).
    Question 1b. Once these needs are prioritized, is there adequate 
funding available to do the necessary research? Is a lack of adequate 
funding the reason for the poor information we have on rockfish?
    Answer. There is a severe shortage of basic information about many 
west coast groundfish species, and this is particularly true of 
rockfish. There are over 50 species of rockfish listed in the 
groundfish fishery management plan, and we have comprehensive stock 
assessments on fewer than ten of them. Rockfish typically grow and 
mature more slowly than many other types of fish, and many species live 
50-75 years and even longer. Most rockfish species are not distributed 
evenly, but rather have patchy distributions that are often associated 
with rockpiles, pinnacles, reefs, and ridges along the ocean floor. 
These areas are difficult to survey because trawl nets (which are the 
primary sampling gear) tend to snag on rocks and other obstacles. In 
addition, the NMFS research surveys do not go shallow enough to sample 
many species. This leaves many areas neglected. Within the survey 
areas, the patchy distribution of rockfish requires that many more 
samples be taken in order to accurately assess how many fish are 
present. NMFS does not have the personnel, equipment and technology to 
survey these areas, nor the funds to develop the technology and acquire 
the equipment. Given the current level of survey activity, NMFS is 
doing a good job; but more survey activity is needed, which will 
require additional funds and personnel.
    While stock assessment is one of the Council's highest priorities, 
information on economic and social conditions is also essential for 
informed decision making. There has not been adequate funding for 
development of biological, economic and social data collection and 
research on a number of fronts. Improved estimates of the total 
rockfish catch will require additional funding for observer programs 
and other data collection activities. This is because commercial 
vessels typically land a mix of species in a single load, and often 
record the amounts under broad categories such as ``small red 
rockfish''. The west coast data system relies on port samplers to 
sample representative catches to determine the ratios of various 
species that are caught. Fishers and fish buyers generally record the 
landed amounts by species group rather than individual species receipts 
because (1) a substantial sorting and paperwork burden would be placed 
on fishers and processors to identify and weigh each species of 
rockfish in a landing, and (2) it is often extremely difficult and time 
consuming to differentiate among the 60+ species of rockfish on the 
coast, and not all fishers have the necessary expertise to identify 
every species. Trawl vessels take the large majority of the catch, 
therefore much of the port sampling effort has been focused on trawl 
vessels. The number and size of trawl landings have declined with 
declining stocks and more stringent regulations, and it has become more 
difficult to get adequate sampling of the trawl catch. Additionally, as 
the importance and concern over species taken by non-trawl vessels have 
increased, the inadequacies of the sampling efforts for these non-trawl 
species has become more apparent. More port samplers are needed to 
collect species composition and collect the biological data needed for 
stock assessments. This information is also needed for addressing 
allocation issues. While port sampling is important, it does not reveal 
the amount of catch that may have been discarded at sea. For that an 
at-sea observer program is needed. An observer program could offset to 
a certain degree the amount of port sampling needed.
    Question 1c. Could you explain the different sorts of data and 
research necessary to improve management (i.e. life history 
information, population dynamics, surveys, etc.)?
    Answer. In order to set appropriate target harvest levels, the 
Council needs accurate estimates of current biomass of the various fish 
populations, the age structure and distribution, how fast they grow, 
how old they are when they start breeding, how long they live, and 
other basic information. In addition, it is important to know the total 
amount of fish caught and killed, including the size and age of those 
fish, and size of incoming year classes. Some of this information comes 
from scientific resource assessment surveys, and some from the 
commercial and recreational fisheries.

Resource Assessment Surveys. The current west coast groundfish survey 
strategy is primarily based on a triennial schedule that includes a 
bottom trawl survey of the continental shelf resources and a combined 
acoustic and midwater trawl survey for Pacific whiting. The bottom 
trawl survey design is inadequate for estimating many of the nearshore 
flatfish, does not extend deeper than the shelf, and has too few 
stations to estimate shelf rockfish with the desired level of 
precision. Annual plankton and larvae surveys off California have been 
used for coastal pelagic stocks and can be used for some groundfish 
stocks such as nearshore flatfish. An annual trawl survey of the 
continental slope groundfish resources has not had sufficient number of 
days to adequately cover the entire coast line. With the expanding 
emphasis to improve the stock assessments for the groundfish, new 
opportunities and sampling technologies are needed to expand the survey 
frequency, areas and species.

Fishery Monitoring and Data Collection. One of the most important 
Council needs is accurate assessment of total removals to estimate 
fishing mortality and accurate tally of fishery landings in-season. The 
benefits of fishing regulations cannot be evaluated unless there is 
good information on the effects of the regulation on harvest. In-season 
monitoring of catch rates is necessary to ensure that harvests do not 
substantially deviate from target levels. Currently, the greatest 
concerns are accurate estimates of amounts of fish discarded in multi-
species fisheries and unreported or under reported landings.

Fishery and Productivity Parameters. Assessment models of the 
productivity of the various groundfish stocks depend on good estimates 
of fishery catch by age, current estimates of biomass and recruitment, 
and also reliable estimates of growth in length and weight, fecundity 
and sexual maturity, natural mortality, and differential location/
movement by size, age, and sex. The data for these come from sampling 
fish in commercial and recreational catches and from scientific 
surveys. Expansion of survey activities and increased fishery sampling 
would improve fishery and biological parameters and result in better 
stock assessments.

Stock Assessment Modeling. Development of reliable stock assessment 
models of the dynamics of the important fish stocks is critical to 
evaluating optimum yield and MSY control rules for species or species 
groups for managing annual fisheries. These model results are usually 
presented as updated stock assessment reports. Typically, models are 
more complex when little information is available, or when there is 
conflicting information.

Habitat. The Sustainable Fisheries Act established new priorities for 
the consideration of impacts on habitat. More information is needed to 
understand the impacts of different fishing gears on habitat and the 
importance of different habitats and/or refugia for maintaining the 
fishery.

    In summary, the following data collection and research activities 
need additional support.

        <bullet>  Fishery independent surveys--estimate total biomass, 
        estimate year class sizes, better understand the influence of 
        environmental factors. All major fish assemblages and habitats 
        need to be covered as well as various life stages.
        <bullet>  Port sampling--to determine the species composition 
        of landings and collect the biological data needed for stock 
        assessments.
        <bullet>  Observer program--to determine the composition of 
        catch and better account for total mortalities; and to increase 
        the understanding of stock aggregations by gathering tow by tow 
        or set-by-set information rather than aggregate trip 
        information. This information would improve stock assessments 
        and provide managers with a better understanding of how 
        regulations influence discards.
        <bullet>  Recreational fishery surveys--estimate effort, 
        species composition, catch rates, and intended target species 
        in order to conduct stock assessments; estimate local income 
        impacts and net economic values; predict effects of regulatory 
        changes. More precise information is needed for smaller 
        geographic areas, particularly with respect to management of 
        the rockfish fisheries, assessment of community impacts, and 
        assessment of the potential conservation benefits and impacts 
        of marine reserves.
        <bullet>  Habitat studies--determine gear impacts on habitat 
        and identify habitat areas of particular concern in order to 
        develop management recommendations that take better account of 
        habitat.
        <bullet>  Economic data collection and an economic and social 
        science program on the west coast--project effects of 
        regulations on fisher behavioral response and hence fishing 
        mortality, in addition to meeting the regulatory requirements 
        and facilitating more socially acceptable management decisions.
                                 ______
                                 
Response to Written Questions Submitted by Senator Olympia J. Snowe to 
                                Jim Lone

    Question. NMFS has been criticized for its lack of compliance with 
National Standard 8 and the Regulatory Flexibility Act, which requires 
NMFS to consider the economic impacts of regulations on small 
businesses. These regulations can be quite complex and they can have a 
tremendous effect on the day-to-day life of fishermen--the vast 
majority of which are indeed small, family-run businesses.
    Do you believe that National Standard 8 has been properly 
considered or do you feel that more emphasis should be placed on the 
socio-economic impacts of fisheries regulations?
    Answer. I believe NMFS and the Council have tried to comply with 
National Standard 8 and the Regulatory Flexibility Act, and they have 
done a credible job with the available information. However, there is 
definitely a need for improvement in the information available on 
socio-economic impacts of fisheries regulations on businesses and 
communities. The Council is in the process of completing a profile of 
west coast fishing businesses and communities that will help predict 
the economic impacts on businesses and communities. However, we are 
facing declining stocks and more stringent requirements to prevent 
overfishing and practice risk-averse management. Increased emphasis on 
socio-economic impacts should not come at the expense of resource 
conservation.
                                 ______
                                 
 Prepared Statement of W.F. ``Zeke'' Grader, Jr., Executive Director, 
          Pacific Coast Federation of Fishermen's Association

    Members of the Committee, thank you for this opportunity to provide 
written testimony on the reauthorization of the Magnuson-Stevens 
Fishery Conservation & Management Act, 16 U.S.C. 1801 et seq. 
(``Magnuson Act''). I have served as the Executive Director and counsel 
to the Pacific Coast Federation of Fishermen's Associations (PCFFA) 
since the organization's founding in 1976, shortly before the passage 
of HR 200, the Fishery Conservation & Management Act (FCMA). PCFFA 
represents working men and women in the west coast commercial fishing 
fleet--mainly owner/operators in the small to mid-size vessel fleet, 
the ``family fishermen.'' It is the largest commercial fishermen's 
organization on the U.S. west coast.
    PCFFA is intimately familiar with the Magnuson Act. As you know, 
some of the first efforts at extending U.S. fisheries jurisdiction 
started here on the west coast in the late 1940's and in 1969, some of 
PCFFA's member organizations worked with former California Congressman 
Don Clausen when he introduced the first 200 mile limit bill in the 
Congress. PCFFA member organizations also worked to convince another 
former California Congressman, Robert Leggett, of the need for extended 
fisheries jurisdiction. Leggett's support, as chair of the old House 
Merchant Marine & Fisheries Committee's Fisheries & Wildlife 
Subcommittee, was crucial to the House passage of Congressman Studds' 
bill, HR 200. The newly-formed PCFFA was one of numerous fishery groups 
throughout the nation urging President Ford to sign the bill when the 
FCMA arrived on his desk that spring. The FCMA was to be the 
``renaissance of America's fisheries.''
    In the years since, PCFFA has tried to work with the Pacific 
Fishery Management Council, and has been involved in developing 
legislative language in most of the reauthorizations of the FCMA (e.g., 
see PCFFA's 22 July 1985 testimony to the Commerce, Science & 
Transportation Committee). Some of our issues have included: (1) a 
requirement that fishery habitat language be included in the act; (2) a 
requirement that Council members know something about fisheries before 
being appointed; (3) a requirement that Council's consider fleet safety 
and fishing community impacts in their decision making; and (4) a 
requirement that fisheries be managed sustainably. Indeed, PCFFA was 
probably the first fishery organization in the nation to argue for the 
fishery Councils and the National Marine Fisheries Service (NMFS) to 
address fish habitat issues in fishery management plans. In the late 
1970's it was clear to us that unless something was done to protect the 
in-river spawning and nursery habitat of salmon, no amount of 
regulation of the fishing fleet was going to conserve these fish.
    I was one of the original members of the PFMC's Salmon Advisory 
Subpanel and served as a commercial troll representative on that body 
before stepping down in the mid-1980's and being succeeded by PCFFA's 
then-president, Nat Bingham. Two of PCFFA's officers--Dave Danbom and 
Nat Bingham--subsequently served on the Pacific Council, although it 
was a real struggle to get Commerce and NMFS to appoint anyone from the 
salmon fisheries or committed to sustainable fisheries. A number of 
PCFFA's other officers and board members have also served on various 
PFMC committees over the years. All of this is to say that our 
organization is as well-qualified as any, given its history and 
participation, to comment on regional Council operations and Magnuson 
Act reauthorization.
    We wish to thank Senator Wyden's office for their assistance in 
allowing us to provide written testimony to this reauthorization 
hearing, although we would have preferred to have testified in person. 
The Committee is to be complimented, however, for its witness list and 
having brought many of those responsible for the current situation in 
the Pacific Coast fisheries together to offer their oral statements and 
be questioned by members. We are not content to do nothing in this 
reauthorization round, to simply give the Sustainable Fisheries Act 
time for implementation. It is clear to us that some legislative 
changes are needed now to the Magnuson Act to assure protection of fish 
stocks and working fishing men and women. It is unfortunate that there 
is a need to keep amending the Magnuson Act; the original FCMA was a 
well-crafted statute. The problem is it was handed over to those who 
either did not care about, or were incapable of, assuring America's 
oldest industry was sustainable. We are resigned to the fact that we 
will have to keep amending the Magnuson Act until, as former 
Congressman Studds' has stated, ``they finally get it right.'' PCFFA is 
a member of the Marine Fish Conservation Network (MFCN) and is working 
with that coalition on proposed Magnuson Act amendments for this 
reauthorization round.
    PCFFA's testimony here will focus on five issues: (1) essential 
fish habitat; (2) fishing effort reduction; (3) regional Council 
membership; (4) the moratorium on individual transferrable quotas 
(ITQs); and (5) the marine protected areas (MPAs) in fisheries 
management. The positions taken here are PCFFA's own and do not 
necessarily include all of the issues that will be raised by MFCN. We 
believe, however, they are consistent with most of the positions that 
have been developed by the coalition.
Essential Fish Habitat
    From the PFMC's earliest days, PCFFA's warnings on habitat were 
largely ignored, ``blown-off,'' by that Council, NMFS and the state 
agencies until at least 1993. It was during the coho crisis of 1993 
(the PFMC ordered a closure of both commercial and ocean sport fishing 
of coho that year) when it finally dawned on some that even complete 
fishery closures would not save the salmon if dam operations continued 
``business as usual,'' if there were not adequate flows instream, and 
if something was not done to protect forested watersheds--particularly 
from the impacts of egregious logging practices.
    The salmon fisheries now left under the PFMC's jurisdiction are 
largely a result of the efforts of a coalition of commercial and sport 
fishermen, tribes and conservation groups working tirelessly to protect 
and restore salmon habitat. In fact, the salmon fishery that remains 
offshore the three Pacific states, exists despite the actions of the 
PFMC and NMFS, not because of them.
    Prior to the enactment of the Sustainable Fisheries Act (SFA), the 
Pacific Council appointed a ``Habitat Steering Group,'' largely at the 
insistence of the late Nat Bingham, and this committee has begun 
aggressively addressing salmon habitat issues. The PFMC has, with some 
reluctance, been willing to follow the advice of the experts on the 
salmon issue. The problem we have encountered has been NMFS failure, 
largely under the Endangered Species Act, to take effective action, 
particularly in the Pacific Northwest, to protect remaining salmon 
stocks. Initially the agency was reluctant to list, after it and the 
Pacific Council allowed salmon stocks to decline precipitously as a 
result of habitat destruction. Now the agency has taken more of a 
``list and run'' attitude, still focused mainly on what little fishing 
effort is even allowed rather than the clear and obvious losses 
occurring in the rivers and watersheds from habitat destruction.
    In the groundfish fishery, the Pacific Council has failed to date, 
more than three years after SFA passage, to put in place effective 
measures aimed at eliminating fishing gear impacts on groundfish 
habitat; i.e., prohibiting the use of ``roller'' trawl gear on hard and 
rocky bottoms. Perhaps the Pacific Council can be excused somewhat by 
its reluctance to put in place hard measures aimed at reducing the 
impact of fishing gear on essential fish habitat (EFH) given NMFS delay 
in implementation of EFH provisions enacted in 1996 SFA. Habitat 
damaging fishing practices (e.g., roller trawl gear) as well as coastal 
development and the resultant pollution continue to threaten the 
sustainability of our fish stocks and fishing industry. Yet, the 
continuing delay in finalizing EFH regulations and the approval of FMPs 
that do not address the EFH mandate raise serious questions about NMFS 
and the regional Councils' commitment to implementing the EFH 
requirements of the law. Indeed, it raises serious questions about 
their commitment to sustainable fisheries or to the future of this 
nation's fishing industry.
    It is clear to us that stronger language will be needed on EFH in 
the Magnuson Act to get NMFS and the regional Councils to do what they 
should be doing.
Reducing Fleet Capacity
    The west coast groundfish fishery is a disaster. This one, however, 
unlike past fishery disasters caused by El Ninos, hurricanes and other 
natural occurrences, was of our own making and clearly foreseeable. As 
early as the late 1970's while the Pacific Council was actively 
pursuing its ``weak stock' management policy for salmon (while blithely 
ignoring habitat impacts) severely restricting the ocean fisheries, it 
was pursuing a policy of knowingly allowing the overfishing of certain 
species of the groundfish complex to allow the industrial trawlers 
maximum harvests. It failed to act in a timely manner to enact a 
limited entry program for groundfish. Mostly, the groundfish limited 
entry program merely secured a place in the fishery for a trawl fleet 
that was far too large for the existing resource. That program, 
incidentally, was enacted not only at the expense of the resource but 
to the detriment of the smaller hook-and-line groundfish fishermen and 
small trawl operators. While the Pacific Council has allowed itself to 
get sidetracked on recreational fishing closures and restrictions on 
the small-boat (and small) live-fish fishery, remember, it is the large 
trawl fleet that is taking the lion's share of the groundfish resource 
and responsible for most of the bycatch (discards) in this fishery.
    To us, one of the first steps needed to be taken to begin reversing 
the groundfish disaster is to reduce the trawl fleet capacity on the 
west coast by fifty percent or more. Whether it is done under the 
Magnuson Act or some other action, the trawl fleet needs to be reduced 
by at least half of its fishing capacity and half of the active fleet 
of boats. There is, too, we believe, a clear federal responsibility 
here. First, this disaster occurred under federal management. Second, 
the trawl fleet was encouraged to expand and increase in capacity under 
the ``Americanization'' of the U.S. fisheries following FCMA passage. 
Third, much of the trawl fleet expansion was funded by federal dollars 
in the form of loan guarantees.
    A buy-back or retirement from the fishery program for the large 
trawlers cannot simply be a buy-out of the groundfish permit, it must 
be a complete retirement of the vessel from fishing (e.g., scrapping). 
Unless this excess capacity and excess fleet is taken out of the 
fisheries altogether, it will simply mean ex-groundfish vessels going 
into other fisheries and creating problems in those fisheries--a kind 
of ``serial depletion.'' We need, as one representative of the trawl 
fleet testified, ``to find a way where they can leave the fishery with 
dignity.'' This is no time for Congress to be cheap. The quicker the 
excess trawl capacity issue is dealt with in the groundfish fishery, 
the sooner that fishery will be on its road to recovery, providing jobs 
for small trawlers, longliners, hook-and-liners, and putting dollars 
back into the economy.
Regional Council Membership
    In 1985 and 1986, PCFFA was actively involved with the National 
Wildlife Federation working on Magnuson Act amendments. One of the 
amendments we sought was to tighten up the qualifications for 
membership on the regional Councils, aimed at eliminating the 
``dabbling dilettantes'' being nominated by the governors and appointed 
by Commerce that knew next to nothing about fisheries. That amendment 
did help the Council process by at least requiring some fishery 
expertise of Council members. The problem that exists today, is the 
language: (1) may have been drafted so tightly (although we do not 
believe it was) as to eliminate consideration and appointment of 
knowledgeable representatives of the conservation community; and (2) 
may not fully eliminate potential conflict of interest problems.
    In 1985, there was little interest on the part of the conservation 
community in fisheries or the Magnuson Act. All that has changed in the 
past 15 years and PCFFA finds itself working closely with conservation 
organizations on fishery issues much the same as it worked with many of 
the same organizations on wetland, forest practice, and offshore oil 
issues two decades ago. If the governors or Commerce are reluctant to 
nominate or appoint conservation representatives because of current 
Magnuson language, then the Act should be amended, making it explicit 
that knowledgeable conservation representatives are eligible for 
membership.
    PCFFA is dismayed that some regional Council members have used 
their position for their personal financial benefit. But before rushing 
to eliminate commercial fishermen from the regional Councils, and the 
expertise and knowledge they bring to the process, Congress needs to 
consider the potential conflicts of interest of all Council members and 
deal with that as a package. Clearly, representatives of organizations, 
who are staff, whether they be commercial fishing, sport fishing, 
processor, or conservation, will have a direct and financial conflict 
if they are forced to vote on an issue where commitments have been made 
to members or funding groups and the position of that individual could 
be in jeopardy as a result of his/her vote or votes on an issue. If the 
problem of having an organization's executive or staff member sit on a 
regional Council, and their potential conflict of interest is not 
addressed, the regional Councils are likely to end up being filled with 
association executives--at least from the fishing industry--with no 
practical fishing experience or expertise. They will sit on the 
Councils earning their association pay placating the most extreme 
elements within their groups. This is the worst kind of conflict, 
because such members will be hesitant to take any position that any of 
their members might not agree with out of fear of losing their jobs.
    An even more insidious conflict of interest problem exists with the 
state fishery directors sitting on the regional Councils. The conflict 
of interest that helped destroy the salmon fishery was not from 
fishermen sitting on the Pacific Council but from state fishery 
directors carrying out their Governors policies of protecting the big 
dam operators, irrigation operators and timber corporations at the 
expense of the fish and fishing men and women. Congress has to come to 
grips with this very real conflict of interest that often exists with 
the state fishery directors sitting on the regional Councils. At the 
very least, where a state Administration policy is in conflict with 
fishery conservation, the state fishery director should be required to 
recuse themselves and not vote.
    Finally, although this is not a Council membership conflict of 
interest issue, it is a clear conflict of interest. It is the 
continuing problem of having the supposedly ``independent'' regional 
Councils reliant on being represented by attorneys from the office of 
NOAA General Counsel. It is my experience that the regional Councils 
would be far better served and make better decisions were they advised 
and represented by their own legal counsel and not attorneys bought and 
paid for by NMFS. How can we expect the regional Councils to exercise 
any type of independent judgement if they are being advised by NOAA 
Counsel?
Individual Transferable Quotas (ITQs)
    There are always some looking for a ``magic bullet'' that will cure 
all that ails a problem, despite the complexity. No doubt there are 
some that have testified before the Committee that if only we allow the 
regional Councils to go to ITQ management or establish no-take marine 
protected areas (MPAs) all will be solved in the fishery. We're here to 
tell you there is no magic solution for our fisheries and some of the 
bullets that have been proposed can be downright deadly in the wrong 
hands or with a shotgun approach.
    First of all, ITQs can only work for fisheries that are under quota 
management, which many are not under. Therefore, they are not much good 
for fisheries such as many salmon fisheries that are managed by seasons 
and area closures, not quotas. Second, ITQs do not necessarily work as 
proponents claim, nor do they necessarily promote conservation. In some 
instances, ITQs have made fishermen into sharecroppers. Their lot has 
not been improved by ITQs, but worsened.
    ITQs are not and should not exist, as many have, for the benefit of 
processors, banks or lending institutions. Unless they clearly promote 
conservation and unless they can help fishing men and women and the 
fishing communities, they should continue to be banned. Unless they are 
uniformly endorsed by the fishing men and women who will be subject to 
them (not some magic bullet idea from a conservation group now seeing 
blue) they should not even be considered. You should note the Icelandic 
courts, to the relief of many of its fishermen, have thrown out that 
nation's ITQ program.
    Prior to any lifting of the ITQ moratorium, NMFS should be directed 
to prepare guidelines for the region Councils to follow in any ITQ 
scheme and then allow for a national debate to determine once and for 
all whether this is the course that should be followed for some 
fisheries and, if so, what should the ITQ programs look like?
Marine Protected Areas (MPAs)
    The other ``magic bullet'' now being thrown around to solve our 
fishery problems are marine protected areas or MPAs. Marine protected 
areas or reserves are hardly a new thing and have existed in coastal 
ocean areas of the world, including the U.S. for years. Within those 
where most human activities are precluded, they may be useful for 
baseline scientific research. In other instances, even where certain 
types of fishing and other activities are allowed, these areas can help 
to protect special habitats or certain resident species of fish or 
shellfish. What is important here, to note, however, is that they are 
not a useful management or conservation tool for all fisheries, nor do 
they necessarily have to preclude take, if their purpose is not solely 
for research.
    We would hope that in the discussion over MPAs, Congress allow the 
regional Councils to proceed with exploring this issue, neither 
limiting the debate, nor directing the Councils or NMFS to take actions 
without thorough scientific and fishing industry input and review. MPAs 
may serve a useful purpose in providing us baseline information, or 
protecting certain habitats or resident species, but they are not a 
substitute for other fishery management measures or tough EFH 
protections. And, if not carefully selected and implemented, MPAs could 
actually exacerbate some fishery problems by unnecessarily closing some 
fishing areas or forcing fishing into areas not capable of sustaining 
high effort levels.
    Again, PCFFA wishes to thank the Committee for the opportunity to 
provide these written comments. If members or staff have any questions, 
please contact our San Francisco office. Thank you.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
